<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-241]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 108-241, Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1050

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2004 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                      MARCH 14, 31; APRIL 9, 2003


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
            2004--Part 5  EMERGING THREATS AND CAPABILITIES



                                                 S. Hrg. 108-241, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1050

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2004 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                      MARCH 14, 31; APRIL 9, 2003


         Printed for the use of the Committee on Armed Services

                     U.S. GOVERNMENT PRINTING OFFICE
87-327 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                      PAT ROBERTS, Kansas Chairman

WAYNE ALLARD, Colorado               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              EDWARD M. KENNEDY, Massachusetts
JOHN ENSIGN, Nevada                  ROBERT C. BYRD, West Virginia
JAMES M. TALENT, Missouri            JOSEPH I. LIEBERMAN, Connecticut
SAXBY CHAMBLISS, Georgia             DANIEL K. AKAKA, Hawaii
LINDSEY O. GRAHAM, South Carolina    BILL NELSON, Florida
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
    The Posture of U.S. Joint Forces Command and the Role of Joint 
                Experimentation in Force Transformation
                             march 14, 2003

                                                                   Page
Giambastiani, Adm. Edmund P. Jr., USN, Commander, United States 
  Joint Forces Command...........................................     5
Cebrowski, Vice Adm. Arthur K., USN (Ret.), Director, Office of 
  Force Transformation, Office of the Secretary of Defense.......    17

 Science and Technology Program and the Role of Department of Defense 
                              Laboratories
                             march 31, 2003

Wynne, Hon. Michael W., Principal Deputy Under Secretary of 
  Defense for Acquisition, Technology, and Logistics.............    72
Kern, Gen. Paul J., USA, Commander, Army Materiel Command........    80
Lyles, Gen. Lester L., USAF, Commander, Air Force Materiel 
  Command........................................................    88
Dyer, Vice Adm. Joseph W., USN, Commander, Naval Air Systems 
  Command........................................................    99

                    U.S. Special Operations Command
                             april 9, 2003

Brown, Lt. Gen. Bryan D., USA, Deputy Commander, U.S. Special 
  Operations Command; Accompanied by Harry E. Schulte, 
  Acquisition Executive and Senior Procurement Executive, U.S. 
  Special Operations Command; and Command Master Chief Richard M. 
  Rogers, USN, U.S. Special Operations Command, Senior Enlisted 
  Advisor........................................................   171

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                         FRIDAY, MARCH 14, 2003

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

    THE POSTURE OF U.S. JOINT FORCES COMMAND AND THE ROLE OF JOINT 
                EXPERIMENTATION IN FORCE TRANSFORMATION

    The subcommittee met, pursuant to notice, at 9:33 a.m. in 
room SR-222, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Roberts, Dole, Reed, 
and Akaka.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Carolyn M. Hanna, professional staff 
member; Gregory T. Kiley, professional staff member; and Joseph 
T. Sixeas, professional staff member.
    Minority staff members present: Richard W. Fieldhouse, 
professional staff member; Maren R. Leed, professional staff 
member; and Arun A. Seraphin, professional staff member.
    Staff assistants present: Leah C. Brewer and Andrew W. 
Florell.
    Committee members' assistants present: James Beauchamp, 
assistant to Senator Roberts; Henry J. Steenstra, assistant to 
Senator Dole; Frederick M. Downey and Aaron Scholer, assistants 
to Senator Lieberman; Elizabeth King, assistant to Senator 
Reed; Davelyn Noelani Kalipi, assistant to Senator Akaka; and 
William K. Sutey, assistant to Senator Bill Nelson.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. The Subcommittee on Emerging Threats and 
Capabilities will come to order. We meet this morning to 
receive testimony from the Commander of the U.S. Joint Forces 
Command (JFCOM), Admiral Edmund P. Giambastiani, Jr., United 
States Navy and Vice Admiral (Ret.) Arthur K. Cebrowski--who if 
he is not the godfather of transformation, certainly is the 
god-prince, or maybe Machiavelli, or maybe all three wrapped up 
in one individual. Admiral Cebrowski is the Director of the 
Office of Force Transformation, in the Office of the Secretary 
of Defense. We will discuss the current and future role of 
joint experimentation on transforming our Armed Forces to meet 
the challenges of an increasingly complex, uncertain, and 
threatening future.
    Welcome, Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Senator Roberts. I want to welcome our two distinguished 
witnesses. We have before us two of America's most able and 
willing public servants. Admiral Giambastiani, we congratulate 
you on your confirmation to this important position in October. 
This is your first appearance before this subcommittee in your 
new capacity, but I am sure it will not be your last.
    Your leadership role as the joint forces trainer, provider, 
integrator, and innovator is critical to the timely and 
coordinated transformation of our Armed Forces, and I am sure 
we will seek your counsel often, so we welcome you.
    Admiral Cebrowski, you served our Nation well as a highly 
decorated sailor, and now you have selflessly taken on this 
very difficult and challenging chore of guiding the 
transformation of our Armed Forces, a concept around which many 
opinions abound. Some would say that they are unique and 
unprecedented ideas, and some would say brilliant and often 
controversial ideas that you have advocated while in the Navy, 
show you to be a man of vision and courage. We are fortunate to 
have you in this new role. I want to thank you for your past 
courtesy calls to me and suggestions to this subcommittee.
    You both are aware of the interest of this subcommittee, 
for strengthening our joint warfighting ability and our 
interest in the timely and meaningful transformation of our 
Armed Forces to meet the very different threats of the future. 
The testimony in this subcommittee in years past makes it clear 
that we have focused on many areas of joint military operations 
and capabilities.
    As Senator Reed knows, the passage of the Goldwater-Nichols 
Act in 1986 did initiate a process that has greatly changed the 
way our Armed Forces operate together. It puts into place 
processes to assess gaps in our joint capabilities and try to 
really identify the requirements to fix these gaps.
    Members of this subcommittee have been instrumental in 
getting a joint experimentation process initiated. I remember 
well my first trip to the Atlantic Command, that is what it was 
called in years past, and that was under the command of Admiral 
Gehman, and the difficulty staff and all of us had in obtaining 
any funding for any joint exercise.
    The events of September 11, however, changed a lot of 
things, including the urgency with which we need to review the 
capability of our Armed Forces to ensure that they are 
organized, trained, and equipped to be adaptable and capable of 
deterring and, if necessary, defeating known and emerging 
threats to our national security.
    We have the processes in place that should work, but we 
seem to relearn the same lessons in conflict after conflict. We 
also hear defense experts in and out of government really 
lament the lack of urgency for transformation, and our 
inability to rapidly acquire the new capabilities that we need. 
We hear a lot about that, but in talking to Admiral Cebrowski, 
and I share his opinion, it is not so much that we have the 
need for transformation. We are over that hill. It is actually 
what we are doing.
    I for one, and many of my colleagues, find some of the 
criticism troubling. We hear over and over that we have a 
unique opportunity to transform our forces to successfully 
confront our current and future challenges, but we also must 
listen with concern as the observers who are objective, former 
defense officials and others, assert that little has really 
changed in the requirements, the acquisition, and the budgeting 
mechanisms in the Department of Defense.
    Three years ago, this subcommittee initiated legislation 
that accelerated the joint experiment process and required the 
Department of Defense to conduct a major joint field experiment 
in 2002. That experiment, called the Millennium Challenge 2002, 
concluded in August.
    Admiral Giambastiani, we are anxious to hear what was 
accomplished, how this was translated into tangible 
improvements for our operating forces, and how you view the 
future role of joint experimentation, including how you are 
leveraging actual military operations to identify the trends, 
the gaps, and the new requirements for our joint warfighting 
capabilities.
    This subcommittee also expressed concern and required the 
Department to assess the need for some type of joint national 
training capability. I am pleased to learn that our U.S. Joint 
Forces Command is now formalizing this concept. We look forward 
to your testimony on this capability, and how you feel it will 
contribute to the transformation of our Armed Forces.
    Admiral Cebrowski, we are especially interested in your 
understanding of the role you perceive for your office and how 
you feel you have influenced the pace and direction of 
transformation. In our conversation earlier, I asked you, are 
you pushing a rope, or do you have a lot of help in pulling it. 
I think you indicated to me you have a lot of help in pulling 
it. Clearly, there should be a close association between your 
two organizations. We look forward to your characterization of 
this relationship.
    Finally, most veterans of the Pentagon would agree that the 
momentum for change revolves around resources. Both of you have 
rather modest budgets to achieve what seem to be rather 
daunting tasks. Some have even suggested that the U.S. Joint 
Forces Command should have some ability to rapidly acquire and 
field needed capabilities that are identified in the joint 
experimentation process. This subcommittee is anxious to hear 
both of your assessments about the adequacy of your resources 
and existing authorities to successfully accomplish your 
important missions for our men and women in uniform.
    Gentlemen, we thank you again for being here and what you 
do every day for our great Nation. We look forward to your 
testimony. I want you to feel free to summarize your testimony 
as you deem fit. It is not necessary to read each and every 
golden word, which will be made part of the record for sure.
    I welcome now the distinguished ranking member and my good 
friend Senator Reed, and we also thank Senator Dole for 
attending the subcommittee meeting, and thank you, Elizabeth, 
for taking time on a Friday morning to attend.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Let me 
first say what a privilege it is to serve with you as the 
Ranking Member. You and Senator Landrieu have done an 
extraordinary job over the past several years. You are the 
first and only chairman of this subcommittee, so when we think 
of emerging threats, we think of Pat Roberts. [Laughter.]
    In fact, even before you were on this subcommittee, I 
thought of emerging threats and Pat Roberts. [Laughter.]
    Senator Roberts. I had thought I had reached the place in 
my life where I was not an emerging threat, I was just a 
threat. [Laughter.]
    Senator Reed. That will be upon us shortly, Mr. Chairman, 
but it is a pleasure to be with you and serve with you. Let me 
commend you, with this subcommittee, you did so much to get it 
going, not only as the first chairperson, but as the one who 
saw the need. I appreciate that and want to thank you for it.
    Senator Roberts. Jack, let me just interrupt, and pardon me 
for interrupting--if you would yield, I guess that is the 
proper way to say it. A lot of credit has to go the chairman of 
the full committee, John Warner, who set up this subcommittee, 
4 years ago, and a lot of credit has to go to Senator Lieberman 
and Senator Coats, whose idea it was in the first place, and so 
all we had to do is pick up the plate.
    Senator Reed. Well, you deserve a little bit of credit, so 
you will get it today, they rightly deserve it also, and thank 
you for that point.
    Let me also welcome Admiral Giambastiani and Admiral 
Cebrowski. I had the privilege of getting to know Admiral 
Giambastiani in his submarine days. Admiral Cebrowski was the 
distinguished president of the Naval War College at Newport, 
Rhode Island, and in that capacity was a visionary, thoughtful, 
and articulate, not only a naval theoretician, but also someone 
who saw the bigger picture with the whole Defense Department. I 
am glad you are in your present position, Admiral Cebrowski.
    In fact, I recall last November you were at a conference 
and you were reported to have said that a lot of the discussion 
at the Pentagon and Congress today about defense is becoming 
irrelevant, that we should be talking more about sensors than 
about the kind of aircraft we are buying and how many. It is 
that provocative and innovative thinking I hope you will follow 
through on in your present position, and maybe even this 
morning you might amplify those remarks.
    I am very concerned today, as we go forward, to look at the 
evolution of the roles and responsibilities of transformation 
within the Department. I know we have several different 
organizations that are involved. There is a forthcoming 
transformation planning guidance which I hope will be a road 
map for a lot of what we do institutionally in transformation. 
We have the Office of Force Transformation, the Joint Forces 
Command, the Joint Chiefs of Staff, the regional combatant 
commanders, the military services, all of these have to be not 
just integrated, but really energized to provide real 
transformation.
    One of the issues that is throughout all of this discussion 
is just changing cultures, which might be the most difficult 
challenge that you gentlemen have. We are very much set in our 
ways both here in Congress and in the Pentagon, and to change 
the cultures might be the greatest challenge, and you might 
also discuss some of your thoughts about that this morning.
    One of the key issues that we are going to be looking at is 
to ensure that you have adequate resources to do your jobs, and 
that there are adequate resources within the overall budget so 
that you can reach out and make the transformation not just in 
a rhetorical sense, but in a practical sense with new systems, 
methods, and approaches to persistent problems.
    One of the things that I noted with some dismay was that 
the technology, the research and development (R&D) budget in 
this year's budget has been decreased. So much of what you are 
going to be doing is to identify those appropriate projects and 
hopefully accelerate their deployment with the field forces. 
R&D is a key part of what I think you are going to be doing and 
I would be much more enthusiastic if we could get some 
additional dollars into our R&D budgets across the Services.
    Let me also just say to Admiral Giambastiani, you have been 
in command now for, not the longest period of time, and your 
thoughts would be very much appreciated about the roles you see 
for JFCOM and also the resources you think you need at JFCOM. I 
am extremely pleased to be here, and also delighted that we 
have such competent and dedicated patriots who are doing this 
important job, and I thank you for that.
    Senator Akaka is here, and I thank you for joining us. 
Senator Clinton very much wanted to be here, but she is at Fort 
Drum, New York this morning. The 10th Mountain Division lost a 
helicopter with several soldiers, and I know General Hagenbeck, 
the commander, and I know she wanted to be up there with 
General Hagenbeck and the troops of the 10th Mountain. She is 
not here with us because of that reason.
    Thank you, Mr. Chairman.
    Senator Roberts. Gentlemen, please proceed, and I think 
Admiral Giambastiani will proceed first.

STATEMENT OF ADM. EDMUND P. GIAMBASTIANI, JR., USN, COMMANDER, 
               UNITED STATES JOINT FORCES COMMAND

    Admiral Giambastiani. Thank you, Mr. Chairman. Before I 
start, I would like to follow on Senator Reed's brief comments 
on the Fort Drum incident. I would like to recognize the brave 
men and women of our Armed Forces who put their lives on the 
line every day at home and abroad to defend our Nation and our 
way of life.
    Earlier this week, as Senator Reed mentioned, we lost 11 of 
our soldiers at Fort Drum, New York and 2 others were injured 
while training. This tragic accident serves as a reminder both 
of the challenge and the commitment that our service members 
willingly face every day to keep our Nation free. We are proud 
of their service, and pray for their families and loved ones.
    Mr. Chairman, distinguished members of this subcommittee, I 
am honored to testify for the first time before you as the 
Commander of U.S. Joint Forces Command. Joining me today, and 
seated directly behind me, is the Command Sergeant Major of the 
United States Joint Forces Command, Sergeant Major Mark Ripka, 
United States Army. I am proud to have him with me today.
    My message to the subcommittee today is that Joint Forces 
Command, following the leadership of President Bush, Secretary 
Rumsfeld, and General Myers is focused every day on executing 
the top three priorities of the Department of Defense: 
successfully pursuing the global war on terrorism, 
strengthening joint warfighting capabilities, and transforming 
the joint force. We do this, as the chairman mentioned, in our 
role as joint force provider, joint force trainer, joint force 
integrator, and joint concept development and experimenter.
    Joint Forces Command is leaning forward on all of these 
areas so that our homeland can be defended, allies assured, 
potential adversaries dissuaded and deterred, and those who 
would challenge our freedom and peace swiftly and decisively 
defeated.
    Exercising combatant command of 1.1 million soldiers, 
sailors, airmen, and marines based in the continental United 
States, Joint Forces Command is responsible for providing 
trained and ready forces to all of our regional combatant 
commanders, yet it is not enough merely to manage the 
deployment of our joint force, as large and complex a task as 
that proves to be. Those forces need training, and they need 
capabilities to do their jobs swiftly and effectively. That 
ties our contribution to the global war on terrorism directly 
to our drive to strengthen joint warfighting capabilities.
    In our role as joint trainer, we deploy an average of 100 
observer trainers from our command headquarters every day in 
support of other combatant commander training requirements. We 
have been able to flex significantly in the last 6 months to 
support critical mission rehearsals for commanders such as 
General Tommy Franks, Commander of the Central Command. In the 
same period, we have also helped stand up and train four joint 
task forces for employment in Afghanistan, Guantanamo Bay, 
Cuba, the Horn of Africa and, most recently, in Southwest Asia. 
This training constitutes one of the United States' most potent 
asymmetric advantages--highly trained forces with superb 
command and control organizations, equipment, and procedures.
    As a final note on strengthening joint warfighting, we have 
been rapidly exploiting our joint experimentation results for 
use in the field. One example I will give, and I certainly can 
talk more about it later, is Combined Joint Task Force 180 in 
Afghanistan, which used the training, equipment, and procedures 
provided to them in preparation for Millennium Challenge 2002, 
to conduct their highly successful campaign in Afghanistan. We 
continue to look for opportunities to convert these 
experimental results into quick wins.
    Having shed the operational burdens, as directed by the 
President in the Unified Command Plan, Joint Forces Command has 
been liberated to focus its effort on transforming the joint 
force. In effect, I have lost a geographic area of 
responsibility, but I have gained a more challenging and 
exciting area of responsibility: the future. To confront these 
transformation challenges posed by an uncertain future that 
this subcommittee looks at, populated by asymmetric threats, 
weapons of mass destruction, transnational actors, and regional 
powers, Joint Forces Command has embarked on a wide-ranging and 
robust campaign of joint experimentation, building on the 
insights of Millennium Challenge 2002.
    We are excited that we are able to provide much-needed 
common joint context in the concept and development efforts of 
all of our Services, in addition to our combatant commanders. 
This forms the basis for multinational cooperation and 
transformation with our close allies around the world and as we 
stand up NATO's Allied Command.
    Finally, in addition to experimentation and concept 
development, which produces critical intellectual capital, 
Joint Forces Command is taking a larger material role in 
filling a critical void in identifying joint interoperability 
requirements, especially in the area of joint battle management 
command and control. This is an area, Mr. Chairman, that I will 
be happy to talk about. You asked about areas, and so did 
Senator Reed, we need to concentrate on. This is a very big 
one.
    Building on our integration and interoperability functions, 
we will work with the Services to provide the command and 
control solutions, both near and long term, that our combatant 
commanders will require.
    Mr. Chairman and members of the subcommittee, since taking 
command last October I have worked hard to learn as much as I 
can about Joint Forces Command. I have visited every 
subordinate command of Joint Forces Command. I have traveled 
with Command Sergeant Major Ripka to visit troops deployed 
around the world, including Bosnia, Afghanistan, and throughout 
the Persian Gulf. I have been impressed by the troops' service, 
devotion, and resolve. I have been uplifted by their morale, 
confidence, and good cheer, and I can report to you that your 
support, as well as that of Congress and the American people, 
has borne fruit in the best-trained, best-equipped, and best-
led joint force that I have ever seen in my professional 
career. I consider it a privilege to serve with these young men 
and women at this critical time in our Nation's history.
    Thank you for your patience and attention. I will be 
pleased to answer your questions, sir.
    [The prepared statement of Admiral Giambastiani follows:]
      Prepared Statement by Adm. Edmund P. Giambastiani, Jr., USN
    Mr. Chairman, distinguished members of the subcommittee, I am 
honored to testify for the first time as Commander of U.S. Joint Forces 
Command on our role in the global war on terrorism and the ongoing 
process of transforming our Armed Forces.
    Let me open by assuring the subcommittee that U.S. Joint Forces 
Command is focused every day on winning the global war on terrorism 
(GWOT), including the successful defense of the homeland, and leading 
the transformation of the U.S. Armed Forces.
    Joint Forces Command is a dynamic command that learns from and 
works with our partners throughout the Department of Defense to lead 
continuous evolutionary and revolutionary improvements in U.S. 
warfighting capabilities to enable continued success, including rapid, 
decisive military action. As such, I see U.S. Joint Forces Command 
maximizing the Nation's future and present military capabilities by 
advancing joint concept development and experimentation, identifying 
joint requirements, ensuring interoperability, conducting joint 
training, and providing ready forces and capabilities--all in support 
of the Combatant Commands.
    This focus follows directly from the President's transformation 
agenda as outlined in his Unified Command Plan 2002, or ``UCP 02'' that 
took effect 1 October 2002, and the Secretary of Defense's top three 
priorities:

        1. Successfully pursue the global war on terrorism
        2. Strengthen Joint Warfare Capabilities
        3. Transform the Joint Force

    U.S. Joint Forces Command is the primary force provider to our 
country's other combatant commanders worldwide. With over 1.1 million 
soldiers, sailors, airmen, and marines--some 83 percent of the Nation's 
general-purpose forces--I allocate a significant part of each day 
managing the deployment of joint forces from our service components in 
support of the global war on terrorism. Forces assigned to Joint Forces 
Command comprise some 74 percent of the forces engaged in operations in 
Afghanistan, 52 percent of the forces building in the Persian Gulf 
Region, and 90 percent of the Nation's forces deployed worldwide in 
support of the war on terrorism, including here at home.
    Joint Forces Command's role in joint training has been instrumental 
in honing the joint command and control architecture now prosecuting 
the war on terror. In the last 8 months alone, Joint Forces Command has 
trained and deployed four Joint Task Forces, now commanding joint and 
multinational forces in Afghanistan, the Horn of Africa, and Guantanamo 
Bay, Cuba, and Southwest Asia. On any given day, moreover, some 100-
plus observer/trainers and senior mentors from this command are 
deployed to support the joint training programs of the combatant 
commanders in their areas of responsibility around the globe. 
Similarly, every Joint Special Operations Task Force has received 
training, and, in some cases, augmentation by the experts from Joint 
Forces Command's Special Operations Command.
    Our training capabilities have a global reach and our processes 
focus on the needs of the joint warfighter. The world class Joint 
Warfighting Center in Suffolk, Virginia, for instance, has already 
organized and executed two major exercise rehearsals for U.S. Central 
Command and a force flow and logistics rehearsal for U.S. European 
Command in preparation for potential operations against Iraq. In the 
case of Central Command's event, known as Internal Look and conducted 
in December 2002, we actually were able to quickly develop a follow-on 
exercise only 2 months later at the request of General Franks and his 
ground Component Commander, called Lucky Warrior, to specifically 
refine operational concerns discovered by Internal Look.
    Joint Forces Command's concept development and experimentation 
initiatives have had an immediate and positive impact on the global war 
on terrorism. Outcomes, systems, procedures, organization and 
experience during Millennium Challenge 02 (MC02), last summer's 
congressionally-mandated joint field experiment, are making a 
difference today. The Services and Regional Combatant Commands are 
applying the training, initiatives gained during MC02 and are 
exploiting their own, and selected joint concepts and capabilities 
validated by the experiment.
    The Army's XVIII Airborne Corps is using MC02 lessons, software and 
processes today as part of Combined Joint Task Force (CJTF) 180s 
operations in Afghanistan; the Air Force's use of software tools and 
procedures in Afghanistan and at Prince Sultan Air Base; and the Navy's 
use of MC02 concepts, software and processes to improve training for 
deploying naval forces.
    Command authority over my Service Component Commands has been vital 
to understanding and responding quickly to the training and readiness 
needs of the warfighter. This command has trained or assisted in 
training every JTF deployed overseas, establishing joint standards 
across the force. We have also worked closely with the component 
commanders to review, update and streamline the force flow procedures 
for units deploying from the continental U.S.
    U.S. Joint Forces Command has simultaneously launched a 
comprehensive concept development and experimentation campaign to 
deliver capable joint forces that can operate coherently in a 
Knowledge-centric environment, enabled by Network-centric systems and 
trained to conduct Effects-based operations. Our campaign plan 
specifically aims to achieve these goals through close partnerships 
with the Combatant Commands, Services and Defense agencies by 
conducting our collective experimentation activities using a ``common 
joint context'' that defines the challenges of the future warfight. 
Conducting our experiments within a common understanding of the future 
warfight allows the joint community to determine future joint 
requirements in a collective way--before the acquisition of service 
capabilities. This process produces a shared understanding of the 
future joint environment that produces coherently joint capabilities 
that we describe as ``born joint.''
    This spring Joint Forces Command will achieve a significant 
milestone in our campaign to expand the experimental ground by co-
sponsoring a U.S. Army/Joint Transformation Wargame called Unified 
Quest 2003. Our intention is to embed within the Transformation wargame 
a common set of scenarios and a joint context that defines the 
operational level of war to determine how well emergent Army 
capabilities might actually work within a future joint and 
multinational environment. Plans are also underway to establish the 
similar partnerships for other upcoming Service wargames later this 
year and in follow-on years.
    In this important area, Joint Forces Command has matured its 
processes and products to the point where the ``joint horse'' is 
getting in front of the ``service cart.''
    In the near term, we have already begun implementing new 
warfighting capabilities and operational methods gained from Millennium 
Challenge 2002. Foremost among these is the implementation into the 
Regional Combatant Commands (RCC) of the Standing Joint Forces 
Headquarters prototype, or ``SJFHQ.'' The SJFHQ is comprised of a small 
but powerfully enabled team of planners specifically trained to speed 
the operational employment of a larger joint task force headquarters 
with real-time, actionable and shared knowledge crucial to the conduct 
of rapid and decisive operations. This shared understanding produces 
what we call the Collaborative Information Environment, or ``CIE,'' 
that, in our judgment, may very well change the conduct of future 
warfare. This prototype was immediately adopted by Central Command and 
is being implemented today in Pacific Command, European Command, 
Southern Command, and Northern Command, with the target date of fiscal 
year 2005 for the SJFHQ to be fully operational.
    Undergirding the implementation of these new operational concepts 
is a powerful training environment known as a Joint National Training 
Capability, or ``JNTC.'' The JNTC is being designed in part to train 
Service units to operate as integrated joint forces anywhere around the 
world. Our aim is to turn the existing training and exercise 
environment into an integrating environment for new warfighting 
capabilities and methods. This will allow the rapid fielding of 
prototypes so that operators can test and improve them. We believe that 
the JNTC will not only transform the way our armed forces will train in 
the future but also speed the implementation of new capabilities and 
methods springing from our collective Service Joint Forces Command 
experimentation programs. In my view, the Joint National Training 
Capability will drive ``jointness'' down to the lowest tactical level.
    Here again, the command authority that I maintain over my Service 
Component Commands has proven critical to the alignment of our training 
and experimentation campaign with the operational requirements of the 
force. The command relationship to the Component Commands anchors our 
transformation efforts to the joint warfighter--our ultimate customer.
    Just as important, this command has formed collaborative 
partnerships in the experimentation campaign with other Federal 
Departments and Agencies. The Departments of State, Treasury, Justice, 
and Transportation, for example, have participated in our experiments 
to determine new information sharing processes and techniques included 
in the ``Joint Interagency Coordination Group'' concept. The combatant 
commanders have all taken this concept aboard and are establishing 
similar organizations within their headquarters with the focus of 
supporting the global war on terrorism. Though more experimentation and 
training is required to standardize and expand the concept to 
incorporate processes for theater engagement planning, deliberate and 
crisis action planning, and transition (to peace) planning, the 
``JIACG'' capability will prove instrumental in leveraging all aspects 
of our national power and influence in a more coherent, unified way.
    Likewise, we are expanding the experimental agenda with key 
multinational partners to focus on concepts that allows for timely 
coalition information sharing. Just last month, we conducted a 
worldwide, distributed, multinational Limited Objective Experiment 
(LOE) that included senior representatives from Australia, Canada, the 
United Kingdom and Germany. While the results are still being assessed, 
initial insights have identified the policy challenges that must be 
overcome to build a coalition equivalent of a Collaborative Information 
Environment.
    Joint Forces Command is also deeply engaged in the transition plans 
of Allied Command Atlantic (ACLANT) as it becomes a NATO functional 
command focused on transformation to be known as Allied Command 
Transformation (ACT). Our NATO partners are closely monitoring our 
transformation campaign. We will seek to learn together as the 
Alliance, as a whole, dedicates itself to military transformation.
    In partnership with the combatant commanders, Service Chiefs and 
senior Defense officials, this command is helping to promote the 
beginnings of a new culture of joint transformation. This culture 
rewards intelligent risk taking and supports competition of joint ideas 
in open venues. Our culture must reward those who question in order to 
make things better; who seek differing perspectives and innovative 
approaches and who are not paralyzed by the fear of failure. This 
culture understands that combatant commanders do not really care where 
a particular capability comes from so long as it is relevant to their 
warfighting needs, is interoperable across the force and which works. 
In all of my troop visits with our young warriors, I found that they 
``get it.'' Innovation and ``jointness'' are important and intuitive 
for them. The dynamic of this new culture goes virtually unnoticed and 
receives no fanfare and yet is chiefly responsible for providing the 
momentum towards joint transformation. In short, the real 
transformation is taking root within the minds of those participating 
in the change process. This is the culture of transformation that 
Congress help put in motion 17 years ago with the watershed Goldwater-
Nichols Defense Act.
    Lastly, like the military as a whole, Joint Forces Command has 
transformed itself to serve as the Nation's agent for transformation 
even as we have been deeply involved in supporting operations around 
the world. The divestiture of our geographic area of responsibility has 
enabled this command to focus on our new area of responsibility: the 
future. With your help, we are receiving the resources and authority to 
carry out our new mission and are now helping to deliver:

        <bullet> Trained and ready joint forces to the regional 
        combatant commanders
        <bullet> Coherently-joint capabilities and operational methods 
        to the joint warfighter of today
        <bullet> A common joint context to Service experimentation 
        programs that will lead to new ``born joint'' capabilities of 
        tomorrow
        <bullet> The first steps in alignment of Joint Battle 
        Management Command and Control programs across the Department 
        of Defense
        <bullet> Integration of Interagency and Multinational 
        capabilities into the change process, and
        <bullet> The beginnings of a new culture of joint 
        transformation.

    What follows is a detailed overview of our successes and additional 
requirements to complete our mission.

                      THE GLOBAL WAR ON TERRORISM

    The attacks of 11 September 2001 put this command on a wartime 
footing. Since that day, all elements of this command, including 
active, Reserve, National Guard, Civil Service, and contract employees 
are involved in this two-front war--at home and abroad. There can be no 
more important mission than fighting terrorism overseas and 
simultaneously securing the homeland. This Command has directly 
supported our Nation's offensive operations overseas while our homeland 
security through four major endeavors:

        1. Joint Force Provider
        2. Joint Force Trainer
        3. Joint Force Integrator
        4. Joint Force Experimenter
Joint Provider and Trainer
    In the last year, Joint Forces Command has supported the war on 
terror with an aggressive training program that both improved our joint 
readiness of the force while setting the conditions for joint 
transformation. Specifically, this command trained and deployed Joint 
Task Forces such as: JTF 160 to Guantanamo Bay, Cuba; JTF 180 to 
Afghanistan and JTF HOA to the Horn of Africa. Additionally we have 
recently stood up Task Force IV for U.S. Central Command (CENTCOM) and 
trained the Southern European Task Force for U.S. European Command 
(EUCOM). Our observer/trainers have helped train the Commander, III 
Marine Expeditionary (CDR III MEF) for U.S. Pacific Command (PACOM) and 
Commander, Joint Task Force-Civil Support (CDR JTF-CS) for U.S. 
Southern Command (SOUTHCOM). In total, some 3,018 individuals from the 
Combatant Commands were trained to joint operational standards in the 
last year and over 786 manyears were dedicated to the training events 
supported by Joint Forces Command.
    Overseas, troops from all Joint Forces Command components are 
actively involved in support of operations in Afghanistan, preparing 
for possible conflict in the Persian Gulf region, and supporting 
operations worldwide. Forces from JFCOM comprise some 53 percent of the 
forces supporting U.S. Central Command in Southwest and Central Asia. 
This force commitment has doubled our normal overseas force rotation 
and does not include the substantial obligation of Active and Reserve 
Forces to homeland security, force protection and infrastructure 
protection.
    Additionally, other key elements of Joint Forces Command, such as 
the Cruise Missile Support Activity, Joint Personnel Recovery Agency, 
the Joint Communication Support Element (JCSE), and the Joint Warfare 
Analysis Center are providing critical support to the global war on 
terrorism in general and Operation Enduring Freedom in particular.
Joint Integrator
    To accelerate the Joint Interoperability and Integration of 
Service-provided warfighting capabilities, our Joint Interoperability 
and Integration (JI&I) office continues to deliver materiel and non-
materiel solutions to interoperability challenges by working closely 
with all combatant commanders, Services, and Agencies to identify and 
resolve joint warfighting deficiencies.
    Joint Forces Command 's JI&I efforts support current military 
operations by fielding:

        <bullet> Interoperable capabilities between U.S. Army and U.S. 
        Marine Corps ground commander command and control elements
        <bullet> Collaborative planning capabilities for the combatant 
        commanders
        <bullet> Improvements to Joint Task Force information assurance 
        and information management
        <bullet> Adaptive mission planning and rehearsal capabilities 
        for the combatant commanders

    Additional efforts that directly support the commanders of 
Northern, Central, Pacific and Special Operations Commands in the near 
future include fielding capabilities for:

        <bullet> Capabilities for JTF situational awareness, a Common 
        Operational Picture (COP), and enhanced integration of the 
        Joint Deployment
        <bullet> Capabilities for integrated joint targeting, and 
        intelligence analysis
        <bullet> Capabilities for integration of Distributed Common 
        Ground System multi-intelligence sources
        <bullet> Capabilities for integrated Joint Intelligence, 
        Surveillance, and Reconnaissance (ISR)
Joint Experimenter
    As noted earlier, MC02 concepts are making a difference in the 
global war on terrorism as demonstrated by CJTF180 operations in 
Afghanistan.
    CJTF180's implementation of MC02 concepts and capabilities in 
Operation Enduring Freedom illustrates the power of joint 
experimentation and joint training in general and MC02 in particular. 
XVIII Airborne Corps' exploitation of MC02 concepts and training were 
important factors in their success in Afghanistan. USJFCOM-developed 
concepts that are being applied in the war on terror listed below 
provide a sense not only of their operational utility but also the 
impact Joint Experimentation is having on today's force:

        <bullet> Effects-Based Operations (EBO). CJTF180 use of EBO 
        processes affords operational benefit.
        <bullet> Operational Net Assessment (ONA). To support its 
        effects-based operations, CJTF180 used an ONA-like process to 
        view the enemy as an interconnected system of systems.
        <bullet> Collaborative Information Environment. CJTF180 
        utilizes a CIE based on MC02 processes, within the CJTF 
        headquarters and their functional components.
        <bullet> Standing Joint Force Headquarters (SJFHQ). CJTF180 is 
        exploiting SJFHQ tools and procedures and is implementing 
        cellular reorganization initiatives to improve coordination and 
        effectiveness.

    Joint experimentation is a proving ground for important 
technological capabilities to support combatant command 
interoperability needs. Joint initiatives demonstrated in MC02 
generated the following Transformation Change Package (TCP) 
recommendations:

        <bullet> Adoption of software to support the Joint Fires 
        Initiative (JFI)
        <bullet> Implementation of the Joint En route Mission Planning 
        and Rehearsal System-Near Term (JEMPRS-NT)
        <bullet> Fielding the Network Security Management Correlation 
        and Display System (NSM C&D)
        <bullet> Supporting the identification, certification and 
        fielding of automated tools to facilitate information transfer 
        among information systems operating at various levels of 
        security, e.g. the Joint Automated Single Guard Solution 
        (JASGS) and Inter-Domain Transfer System (ITS)
        <bullet> Fielding the technologies identified in the Automated 
        Network Information Flow (ANIF) project
        <bullet> Continuing development of Unmanned Aerial Vehicle 
        (UAV) Interoperability

    Joint concept development and experimentation findings are also 
being integrated with Advanced Concept Technology Demonstrations (ACTD) 
programs to provide a path to accelerate near-term joint warfighter 
solutions. For instance, promising solutions to pressing warfighter 
needs sponsored in fiscal year 2002 by the Under Secretary of Defense 
(Acquisition, Technology, and Logistics) included:

        <bullet> Content Based Information Security (CBIS) ACTD--
        sharing information across multiple security domains using 
        cryptographic separation and dynamic access control.
        <bullet> Area Cruise Missile Defense (ACMD) ACTD--improved 
        detection, identification, and engagement capability against 
        low altitude targets that may go undetected by the existing 
        Joint Surveillance System.

    Lastly, fundamental to the success of the DOD transformation effort 
is collaboration and the partnership with the activities of the wider 
transformation communities from joint, interagency and multinational 
organizations. MC02 provided a highly successful platform to establish 
close partnerships with these communities as well as with industry and 
academe.

                 STRENGTHEN JOINT WARFARE CAPABILITIES

Joint Provider and Trainer
    The establishment of a Joint National Training Capability (JNTC) is 
perhaps one of the most important transformation programs that the 
Department of Defense and Joint Forces Command are developing. The goal 
of establishing a JNTC is to improve the ability of U.S. forces to 
fight effectively as a joint and combined team. Such improvement 
requires new capabilities to augment our existing joint training 
capabilities. While Service training centers have excelled at training 
Service tactical competencies, joint training requires a more holistic 
endeavor at the operational level of war. In its simplest terms, the 
JNTC envisions a global system to bring the benefits of live, virtual, 
and constructive opportunities to the user. To this end, we must create 
a network that is easily accessible, readily available and capable of 
supporting the wide spectrum of joint tasks. This network must provide 
an integrated, common architecture for ranges, training centers, 
experimentation venues, test and evaluation events, simulation centers, 
as well as venues for participants located around the globe.
    History has taught us that joint warfighting is the way of the 
future. The development of a JNTC will support the broader strategic 
goal of Department of Defense Training Transformation with the ultimate 
goal ``to train like we will fight.''
    Establishing an initial operating capability in 2004 will support 
four or five JNTC events per year. Near-term milestones will include 
the conduct of ``bridging'' events, which are stepping stones towards 
full execution of training events. The JNTC will expand over time to 
reach full operational capability in fiscal year 2009, when the JNTC 
goal will be to support up to 40 events per year. During this time, the 
JNTC will continue to move from interoperability training at the 
tactical to the operational level, allowing network-centric and mission 
rehearsal capabilities that increase the combat power of sensors, 
weapon and decision making systems. As directed in the Defense Planning 
Guidance 04-09, Joint Forces Command will establish a joint management 
office (JMO) to oversee the programs necessary to implement the JNTC.
    In the global war on terrorism, our forces are training and 
fighting alongside allies and coalition partners in different parts of 
the world. In support of this effort, we continue to train and exercise 
with multinational partners through existing alliances and programs 
such as NATO, NATO/Partnership for Peace (PfP), the American-British-
Canadian-Australian Armies Standardization Program (ABCA) and bilateral 
support agreements.
    We participated in or supported nine NATO, NATO/PfP, and ``In the 
Spirit of'' PfP exercises since March 2002 and are currently planning 
15 more such exercises to be executed in the 2003-2004 timeframe. These 
exercises included the full spectrum of operations from crisis response 
operations and humanitarian relief to Allied/Coalition combat.
    As part of the Chairman of the Joint Chiefs of Staff Exercise 
Program, USJFCOM is sponsoring a Combined Joint Task Force training 
event in June 2004, which will have a significant multinational 
contingent. ABCA has focused on this event as its U.S. hosted major 
biennial exercise. Additional multinational naval units have requested 
to participate as well. This U.S. joint/coalition exercise will also be 
a major event in the ongoing establishment of the Joint National 
Training Capability.
    We are working closely with NATO's Allied Command Atlantic (ACLANT) 
in its rapid transition from a strategic operational command to a 
strategic functional command focused on Transformation, known 
tentatively as Allied Command Transformation (ACT). JFCOM is providing 
specific expertise in the NATO effort to revise its exercise program 
and establish a European based Joint Warfighting Center using Joint 
Forces Command's Joint Warfighting Center as a model. The center's 
personnel could train NATO elements such as the NATO Reaction Forces, 
component headquarters, and PfP nations in joint operations.
    Joint Forces Command also has the responsibility to develop the 
Regional Security Cooperation Network (RSCN) initiative. The objective 
of the program is to assure security cooperation among allies, friends 
and potential partners. It will also enhance the ability of United 
States and coalition forces to become more interoperable and more 
efficient in the conduct of multinational operations. The Swedish-U.S. 
Viking series exercise, the Eastern European Defence Ministerial 
series, and the South Eastern Europe Simulation Network--02 are 
examples of ongoing Regional Security Cooperation Network initiatives.
    Critically important to the creation of a joint culture are the 
joint education endeavors of our armed forces. Currently, I am working 
with the Chairman of the Joint Chiefs of Staff and the President of the 
National Defense University (NDU) to establish closer links between NDU 
and Joint Forces Command. We continue to support NDU with our Joint 
Operations Module (JOM) as part of the overall CAPSTONE program for 
approximately 160 newly selected one star flag and general officers. We 
provide guest lecturers and adjunct professors to support portions of 
the curriculum at NDU's Joint Forces Staff College. We are also seeking 
opportunities for further cooperation and collaboration. A prime 
example of the ongoing collaboration is NDU's Military Education 
Research Library Network linked to JFCOM's Regional Security 
Cooperation Network. We also will be providing the opportunity for both 
Joint Forces Staff College student and faculty observation of JFCOM 
exercises and experiments.
Joint Integrator
    This command continues to receive new authority to ensure 
interoperability today and in the future throughout the Joint Force. 
Recent DOD Management Initiative Decision 912 signed on 7 January 2003 
direct expanded responsibilities for the U.S. Joint Forces Command in 
establishing Joint Battle Management Command and Control (JBMC\2\) 
requirements, identifying system-of-systems capability requirements and 
ensuring the integration and interoperability of JBMC\2\ capabilities. 
In this expanded role, JFCOM will lead JBMC\2\ mission and capability 
area requirements.
    Additionally, we will assume immediate oversight responsibility for 
the Deployable Joint Command and Control program and the Single 
Integrated Air Picture, with expanded responsibilities in fiscal year 
2004 for Family of Interoperable Operational Pictures. This 
responsibility will allow Joint Forces Command to synchronize programs 
and initiatives within Joint Battle Management Command and Control.
    Our Joint National Training Capability will also facilitate the 
evolution of JFCOM's role as joint integrator by providing venues for 
integration in training.
Joint Experimentation
    Joint Forces Command's influence on strengthening our joint warfare 
capabilities through experimentation is best understood by viewing how 
the services themselves are picking up on the ``joint context'' and 
incorporating new capabilities to their organizations.
    From MC02 and other smaller experimentation events over the last 
year, the Army gained insight into their internal transformation 
initiatives with the Interim Force and is exploiting a number of 
initiatives and insights in current operations. In the case of XVIII 
Airborne Corps' experience as the first ``experimental JTF,'' their 
experience in establishing a collaborative information environment 
using the suite of MC02 tools enabled that staff's rapid transition and 
deployment to the Afghan combat zone with less than 30 days notice. The 
Army has incorporated several organizational constructs and 
experimental methodologies into Army doctrine and training programs. 
This includes new fire control measures and effects-based 
methodologies, use of collaborative tools, and co-location of the Army 
Air and Missile Defense Command with the Joint Force Air Component 
Commander, operating as the Deputy Area Air Defense Commander. The 
incorporation of the common joint context in upcoming Army 
transformation wargames, like Unified Quest 2003, will help to ensure 
that future capabilities are ``born joint.''
    The Air Force's Joint Expeditionary Force Experiment initiatives 
examined in MC02 are likewise being implemented into their 
organizations. Currently, Air Force personnel are using MC02 software 
tools that improve the tracking and tasking of intelligence aircraft, 
reduce air operations planning time, enable swifter tracking and 
targeting of mobile targets, reduce fratricide, and provide real time 
tracking of downed aircrews. Planners are using some of these 
capabilities at Central Command's Air Operations Center in Afghanistan 
and plans are underway for use in other theater Air Operations Centers.
    The Marine Corps' Millennium Dragon experiment examined a number of 
expeditionary warfare and urban operations challenges. Marine 
initiatives under implementation include urban operations tactics, 
techniques and procedures, the Dragon Eye backpack UAV, cellular staff 
structure standard operating procedures for the Joint Force Land 
Component Commander, and Special Operations Mission Planning 
Environment-Maritime.
    Execution of the Navy's Fleet Battle Experiment-Juliet inside of 
MC02 also resulted in the fielding of initiatives and had a positive 
impact on personnel and training. Core members from two carrier battle 
group staffs, with recent Operation Enduring Freedom experience, were 
teamed with Second and Third Fleet staff members to form the Joint 
Force Maritime Component Command staff. Each is using the lessons 
learned from MC02 to improve training for deploying carrier battle 
groups and amphibious ready groups.
    Other top concepts coming out of MC02 that an operational Joint 
Task Force is applying in the war on terror include the Joint 
Interagency Coordination Group (JIACG) and the Standing Joint Force 
Headquarters (SJFHQ).
    Standing Joint Force Headquarters is a key capability examined in 
MC02. CJTF180's exploitation of SJFHQ supporting tools and procedures 
established the effectiveness of a more cellular organizational 
structure such as provided by the SJFHQ concept. CJTF180's organization 
is a hybrid of a traditional military staff and cellular structure. 
They are exploring reorganization of their headquarters to a cellular 
staff to improve coordination and effectiveness. Continued work in 
developing a SJFHQ, joint interagency and multinational coordination, 
and information sharing and compatibility through joint concept 
development and experimentation will assist in Operation Enduring 
Freedom as well as prepare for future operations that face the Nation.

                     TRANSFORMING OUR ARMED FORCES

    The most significant event in joint transformation for the 
Department last year was the conduct of MC02 in July and August 2002. 
Over 13,000 soldiers, sailors, airmen, and marines participated in the 
event from 8 live training locations across the American Southwest and 
Pacific Ocean as well as from 17 simulated locations. As mentioned 
above, the insights and lessons gained from MC02 have led to several 
new capabilities and operational methods that are being implemented 
today.
    Joint Forces Command does not have all the ``answers'' to Defense 
transformation. In the transformation journey, each answer achieved 
raises new questions to answer. This command relies on the collective 
wisdom and shared understanding of a common purpose from the joint, 
interagency and multinational communities to effect true change over 
the entire force and for future coalitions. Our joint experimentation 
campaign plan collaboratively links the transformation plans of our 
customers, the Combatant Commands; our partners, the services and 
Defense agencies; and the interagency and multinational communities.
    Additionally, Joint Forces Command has established a collaborative 
relationship with the DOD Office of Force Transformation. Joint Forces 
Command has included Vice Admiral Art Cebrowski's team in our ongoing 
efforts to implement the SJFHQ in the Combatant Commands. His office 
provides the necessary bridge between strategy and policy and the 
future operational concepts and capabilities of our Armed Forces as 
well as assisting with streamlining the acquisition process to 
capitalize on rapidly developing 21st century capabilities.
    In serving as the Executive Agent for joint concept development and 
experimentation, a key aspect of our role in the change process is to 
integrate at the operational level the concept development and 
experimentation activities of the Services, combatant commands, and 
other agencies. Developing innovative joint operational and 
organizational concepts that integrate supporting concepts of the 
Services, combatant commands and others is the essential first step in 
this process.
    Millennium Challenge 2002 focused on determining the extent that 
the Joint Force could conduct a rapid decisive operation in this decade 
without a major re-capitalization of the force. Integrating concepts, 
such as SJFHQ, were refined to provide a level of detail that supported 
a robust concept of operations.
    It is important to understand that joint concept development and 
experimentation (JCDE) is an iterative process that takes time to fully 
develop and implement a new concept. MC02 was a key step in this 
journey, but only one step. The JCDE Campaign Plan continues with 
activities in 2003 and 2004 that will define the capabilities and 
concept of operations for the future joint force. Through the 
competition of joint and service concepts, the best ideas will move to 
rapid implementation by embedding them in the exercise programs of the 
Combatant Commands and the Joint National Training Capability, 
delivering the SJFHQ and supporting concepts to the combatant 
commanders in fiscal year 2005.
    Key to our understanding of joint transformation was defining the 
characteristics of future joint operations. During our joint concept 
development work, four key characteristics for future joint operations 
were identified:

        <bullet> Effects-based
        <bullet> Knowledge-centric
        <bullet> Coherently joint
        <bullet> Fully networked.

    These characteristics provide a simple descriptive framework for 
examining concepts and exploring capabilities.
    The effects-based characteristic describes the application of the 
military instrument of national power across a continuum that ranges 
from cooperation through conflict. Effects-based thinking is a 
philosophical shift from traditional attrition and maneuver warfare. It 
involves the comprehensive, integrated assessment of the adversary and 
the application of relevant instruments of national power to achieve a 
defined political-military end-state in support of national goals. It 
views an adversary from a systems perspective and identifies key links 
and nodes to direct engagements.
    In conflict, military actions will focus on the precise application 
of military capabilities to produce the desired effects needed to 
shatter the enemy's operational coherence, preempt his options, break 
his will, and destroy his capability to fight, while preserving long-
term U.S. interests. The effects-based approach links to other 
supporting characteristics of future joint operations, but it is 
important to emphasize that developing a thorough capability to 
understand and execute effects-based operations is key to ensuring U.S. 
strategic advantage as the global war on terrorism unfolds over the 
coming years.
    The Knowledge-centric characteristic is a simple yet powerful 
characteristic that complements EBO. The more that is known about the 
adversary, the operational environment and ourselves, the more 
precisely capabilities can be focused to produce the desired effects 
with less risk of unintended consequences, and more efficient 
expenditure of national resources.
    Not surprisingly, knowledge becomes a hedge against risk, allowing 
rapid deployment of more precisely tailored capabilities with decisive 
effects. Knowledge-centric operations postulate a move beyond 
information superiority to decision superiority through a 
comprehensive, system-of-systems understanding of the enemy and the 
environment, as well as a shared integrated awareness of friends, 
allies and neutrals. Decision superiority is the ability of the 
commander, based upon information superiority and situational 
understanding to make effective decisions more rapidly than the 
adversary, thereby allowing a dramatic increase in the pace, coherence 
and effectiveness of operations. Advanced decision-support tools, 
knowledge-fusion, and horizontal and vertical integration of 
situational awareness will improve dissemination to decisionmakers in 
an understandable and actionable format.
    Coherent jointness is the third characteristic of future joint 
operations, which facilitates coordinated, synergistic employment of 
the full range of joint capabilities to achieve the desired affects. 
The interoperability of joint and Service capabilities further enables, 
and amplifies this common joint ethos. To achieve this synergy of 
doctrinal, organizational, and human factors, future capabilities must 
be ``born joint.'' Interoperability by design in the first instance 
will permit true integration. It will solve, by moving beyond, the 
current challenge of de-conflicting service systems that do not talk to 
each other. Born joint capabilities will require a greater depth of 
understanding of joint capabilities, an agreed Joint Operating Concept 
and a shared joint warfighting culture. It enables the execution of 
seamlessly joint actions at levels appropriate to the mission.
    Finally, fully networked forces enable the creation and sharing of 
that knowledge needed to plan, decide, and act both collaboratively and 
quickly. It will allow the joint force to accomplish many tasks 
simultaneously from distributed locations in the battlespace. Networked 
forces (based upon systemic, organizational, and personal link) are 
necessary to compress and change today's sequential, echeloned way of 
planning and conducting operations. Networked forces use shared 
situational awareness among all elements of the joint force, to include 
interagency and multinational partners. This increases the speed and 
precision in planning and application of power. They allow streamlined 
joint dynamic processes for the integration of information operations, 
fires, and maneuver elements as well as for sustainment and joint 
intelligence, surveillance, and reconnaissance management. Fully 
networked forces are necessary to employ a coherently joint force to 
achieve rapid decisive operations.
    We clearly understand that trained and ready forces are the 
foundation of Joint Transformation. Transformation is more than just 
experimentation, the interoperability of current and future systems or 
some new technology.
    As the Joint Force Provider, our Service components' forces, 
intellectual input and operational experience shape, enable, and assess 
transformation activities, particularly concepts and experimentation. 
Having direct access and command authority over component forces has 
been key and remains essential to establishing the proper foundation 
and framework necessary for conducting relevant joint force training 
and coordinating constructive joint experimentation and technological 
prototyping, which has proportionally increased and enhanced our total 
force capability and will continue to be the cornerstone to an 
unassailable, transformational joint force.
    We are convinced that improved interoperability is crucial, to 
ensure near-term fusion of mission capabilities across the joint 
services, allied, and inter-agency partners. We have emphasized the 
need that operational lessons learned and experimentation must drive 
the development of new joint doctrine, concept development, and 
integrated architectures, which ensure and enforce the operational 
requirements, are properly defined and influence Service and Agency 
capabilities in the future.
    In support of military operations, I am determining with my fellow 
combatant commanders priorities of materiel and non-materiel 
capabilities solutions, which provide near-term joint warfighting 
capabilities. In response to the Secretary of Defense and Chairman, 
Joint Chiefs of Staff concerns over legacy command and control 
interoperability and integration, my staff has worked closely with 
Services and Defense agencies to develop and implement numerous 
transformation change proposals towards improvements in Joint Task 
Force command and control, situation awareness, and integration of 
intelligence assets. Additionally, we have delivered four interim 
capabilities that directly support the global war on terrorism and 
ongoing military operations for Central Command, and six other 
initiatives that support U.S. Pacific Command and Northern Command for 
Homeland Security.
    Joint Forces Command is addressing critical interoperability 
problems for the warfighter. To ensure new systems are born joint, the 
command reviews all requirements documents under development to ensure 
sufficiency of interoperability key performance parameters, information 
exchange requirements, and operational architecture views. The Joint 
Requirement Oversight Council (JROC) has approved four Joint Forces 
Command Capstone Requirements Documents--Global Information Grid, 
Information Dissemination Management, Combat Identification, and 
Theater Air Missile Defense.
    Joint Force Integration clearly reaps insights from training and 
experimentation and feeds them back into the force. At the same time, 
our engagement in joint requirements helps us identify needs and focus 
our efforts. This is how we are working to transform the joint force.

                               CONCLUSION

    We must transform even as we conduct worldwide operations across 
the range of military operations. We have to get through today to get 
to tomorrow. Prudent risk management is necessary. The counsel of 
prudence is to strike the right balance between operations, readiness, 
transformation and quality of life. This is both a management issue and 
a resource issue. Risk can be managed to a point, but resources must 
also be committed to secure our dominance for today and the future. 
Transformation, modernization, and selected recapitalization cannot 
occur without the resources identified in the President's budget.
    While I have outlined a number of challenges and priorities for 
ensuring we sustain our worldwide military edge, I must note the 
criticality of congressional support. Within the constraints of 
competing national priorities, even in this time of conflict, the 
support of the members of this committee is both critical and 
reassuring. The challenge of transforming the joint force ``in stride'' 
is daunting but doable.
    Transformation is underway. Our efforts will accelerate these 
trends. I look forward to working with you to provide our troops the 
joint capabilities they need today and the transformational 
capabilities our Joint Force will require in the future. I am 
enthusiastic about our plan for the future and extend to each of you an 
invitation to visit Joint Forces Command and our Service components to 
see transformation in action.

    Senator Roberts. Admiral Cebrowski.

    STATEMENT OF VICE ADM. ARTHUR K. CEBROWSKI, USN (RET.), 
    DIRECTOR, OFFICE OF FORCE TRANSFORMATION, OFFICE OF THE 
                      SECRETARY OF DEFENSE

    Admiral Cebrowski. Thank you very much, Mr. Chairman, it is 
a pleasure to be here, Senator Reed, members of the 
subcommittee.
    We are in our first full year of operation in the Office of 
Force Transformation and I am pleased to report that I am happy 
with the results, but I am dissatisfied. I am happy because so 
much progress has been made, but dissatisfied because so much 
remains to be done in this important area.
    Last Thursday evening, the Secretary of Defense approved 
the transformation planning guidance. It will be worked into an 
unclassified format for general distribution so that not only 
yourselves but, indeed, the American people can see what the 
main thrust is.
    The transformation planning guidance is a precise strategy 
for transforming the Department. It clearly identifies the 
roles and responsibilities within the Department, and it does 
provide the Secretary with some additional levers, bureaucratic 
levers within the Department.
    As for the role of my office with regard to the 
transformation planning guidance, I am tasked with evaluating 
the transformation road maps from the Service departments. The 
first road maps were produced last year. We have done an 
analysis of those and prepared a briefing for that, and I would 
be very happy to make those graphics available to the committee 
if you would like.
    I am also tasked to provide an annual strategic 
transformation appraisal to the Secretary. This is meant to be 
an independent appraisal quite apart from the prerogatives and 
equities of other people in the Department and, of course, I am 
tasked with continuing to advise the Secretary and his staff.
    One of the questions which I am frequently asked is, what 
was the view of our office of the large exercise conducted last 
year, Millennium Challenge 2002, and we did have people with 
Admiral Giambastiani's people during the experiment. We had 
five areas of concern at that time. I will not talk about all 
the positives. Admiral Giambastiani can talk about those, I am 
sure, at length, because there were many positives. Instead, I 
will just touch on the negatives briefly.
    We thought that the after-action process, the evaluation 
process needed to be more quantitative.
    We felt that the linkage between the high level experiment 
focused at the headquarters in Norfolk seemed to be somewhat 
separated from the lower-level experiments conducted by the 
various components out and about the country.
    We thought that there needed to be more interaction with 
all of the component commanders.
    We thought there needed to be better alignment between 
training and experimentation, and we thought that we needed 
acquisition agility that reflected the agility of the operating 
forces themselves. That was one of the things that was pointed 
out.
    These findings were shared with Admiral Giambastiani's 
staff. Immediately, action was taken on every single one of 
those issues, and so we feel very confident that we are moving 
forward now.
    Principal among the actions taken is an increase in the 
number of smaller, what we call limited objective 
experimentation, done collaboratively with the various 
combatant commanders. This is very important, because it 
converts the experimentation effort from a large step function 
to a continuing process with a greater degree of involvement, 
and that is very beneficial to us.
    With regard to speed and acquisition, the transformation 
planning guidance provides for something called the 
transformation initiatives program, which is meant to provide 
on very short notice funding for combatant commanders to take 
advantage of emerging opportunities, either in actual 
operations and contingencies, or opportunities created by 
exercises, or the availability of new technology, to conduct an 
experiment, and this is new and we hope that it will be funded 
appropriately for us.
    The office over the last several months has focused on five 
areas, we will continue that focus on into the future, and our 
business plan reflects this focus. The first is to make 
transformation an integral part of the DOD corporate strategy 
and national defense strategy supporting all four of the 
strategic pillars.
    Next, to change the force from the bottom up through 
experimentation and the development of experimental articles, 
or what one might call operational prototypes, to create new 
knowledge.
    Third is to implement networkcentric warfare as theory of 
war for the information age, and the organizing principles for 
joint concepts and capabilities.
    Fourth is get the decision rules and metrics right, and 
cause them to be applied enterprisewide.
    Fifth, and I think most exciting, is to discover and 
create, or cause to be created, new military capabilities to 
broaden the capabilities base and mitigate risk.
    Moving specifically to the area in which we are focusing, 
and this is a rather fast-moving area, so what we might have 
said we would focus on last year has been broadened somewhat as 
we learn more, first, the strategic context. There are falling 
barriers to competition with which we are concerned, 
principally in the three major commons of the world for which 
or over which America has been a marvelous steward, space, 
cyberspace, and the sea, and there is potential for 
considerable competition in all three of these areas, and we 
need to find new ways to compete in these areas.
    Next, we have the emergence of a phenomenon which we call 
the systems perturbation. By virtue of the movement to the 
information age, the density of interconnectivity is such that 
it creates a medium for propagation and, indeed, amplification 
of large system shocks, which then produce waves which cross 
all social, cultural, and economic sector boundaries. September 
11 was exactly such a case.
    We have been concerned for sometime with the appearance of 
the non-State, non-nodal, asymmetric actors who seem to have 
more perversity than ever, but now we are finding that we have 
to place those threats in the context of this new medium for 
propagation of disruption. In other words, they are more 
empowered now than we had thought they were, and this is 
causing us to step back, make a reassessment of exactly where 
we are and where we need to go. We are in the process of doing 
that now.
    On the technical side of the house, energy weapons are 
looming large, not just laser weapons, but also particle beam 
weapons, radio frequency weapons, and we have to deal with both 
the offensive and defensive side of those, and discern what 
their emergence will mean for the character of war in the long 
term. That is becoming an area of focus and study for us as 
well.
    We are concerned about the falling cost of weapons and how 
that may change the strategic laydown, and obviously we are 
concerned about weapons of mass destruction and the like.
    What is emerging from this kind of work is the need for 
broadened approach to policy and strategy, one which takes into 
account the systems perturbations and which takes into account, 
indeed, a redrawn map pointing out the difference between those 
societies which are very well-connected, or what we call 
globalized, and those which are not, and how that indicates the 
kinds of force we will need.
    We have identified four major geographic flows, or 
geostrategic flows, which will impact the National security 
environment, populations, energy, money, and security actions 
themselves, and how those four flows interact with each other, 
producing a new strategic context for us.
    What seems to be indicated is that we need a force which is 
less retaliatory and punitive and more preventive. A force 
which in addition to being highly networked is more Special 
Operations-like, not that we need more Special Operations 
Forces, but we need to have more of those key features of the 
Special Operations Force, more broadly populating the rest of 
the force.
    Senator Roberts. Somewhat like the United States Marine 
Corps. [Laughter.]
    Admiral Cebrowski. I was going to say that it is no 
accident that the Marine Corps has a robust communications with 
the Special Operations Command for precisely that purpose, 
forces which are capable of applying new information techniques 
in an urban environment.
    We need surveillance-centered forces, particularly counter-
weapons of mass destruction. We need to extend joint concepts 
down to the tactical level of war. We are going to need to 
figure out how we are going to structure ourselves better for 
the back end of conflict, where we have to deal with 
constabulary actions, nation-building, civil affairs and 
general stability actions, and then we have to, of course, deal 
with what this new reality means for the total force, the 
relationship between the active component, the Reserve, and the 
Guard, which will be up for flex, or it needs to be reviewed.
    There are three major movements that we can see are going 
to happen, the strategic laydown and the operational laydown, 
and what you might call a temporal laydown having to do with 
speed, and we are reviewing those, and there is considerable 
activity in the Department in all three of those areas already, 
and I will be pleased to discuss them with you.
    Of course there are other things that we have not begun to 
talk about so far at this hearing is the implications for 
alliances, where our reliance on alliances seems to be 
increasing at the very time when alliances seem to be less 
reliable and less durable.
    I would be delighted to take your questions and issues.
    [The prepared statement of Admiral Cebrowski follows:]

    Prepared Statement by Vice Adm. Arthur K. Cebrowski, USN (Ret.)

    Chairman Roberts, Senator Reed, members of the subcommittee, I'm 
honored to have the opportunity to be back before you, and I am 
grateful for the opportunity to continue the dialogue begun last year.
    In surveying the course of transformation over the past year, we 
see considerable progress throughout the Department. But, of course 
many of these are first steps. Our future efforts to transform must not 
just sustain the current effort, but must outpace the rate of change 
evident in the increasingly interconnected world around us.
    When we last spoke, September 11, 2001, had focused considerable 
attention on the concept of transformation. Indeed, 1 year ago it was 
easy to view our future as a narrow consequence of those events. 
However, as we have come to more fully appreciate, transformation is 
not simply a response to global terrorism. While the events of 
September 11 triggered a ``system perturbation''--a systemic shock to 
the stability of the international system--it is clear that profound 
change was already occurring in that system. Transforming defense, its 
role in national security, its management and the force itself, is a 
national, corporate, and risk management strategy that responds to that 
change.
    While ``change''--uncertainty--is an ever-present part of the 
strategic landscape, energy for current change seems to have emerged 
from three broadly defined events of the early 1990s. The first was 
demise of the bi-polar template that shaped U.S. security strategy; the 
second was the aftermath of a great military victory in the Persian 
Gulf, which had validated much of our previous military investment 
strategies; and the third was the ascendance of information age 
warfare. In isolation, each provided a host of relevant issues to 
consider as we framed the strategic context within which we would build 
a future military. However, taken together they suggested a deeper 
assessment of the strategic environment. The trends are there--
escalating ethnic and religious strife, the reshaping of nation-states, 
shifting and emerging economic centers, the proliferation of 
information technologies in relatively undeveloped societies and 
nations, and the emergence of global, transnational terrorism. 
September 11 was a violent manifestation of these trends--trends that 
continue to reshape our Government, our economy, and even our society.
    Understanding how transformation addresses uncertainty is 
incredibly important as we move forward. This is a very different way 
of thinking for us. For a very long time our focus was at the top--
great power war in a global security environment where our security 
concerns were largely viewed through the prism of state-vs-state 
conflict. Even as the threat of great power war diminished, we remained 
focused largely on state-vs-state conflict--with the threat recast as 
the ``rogue.'' Meanwhile, sources of power, conflict and violence 
continued to change and spread more broadly within the system. Today, 
we find that power is moving to the larger system level--an 
international system evolving as a consequence of globalization--while 
violence is migrating downward to the level of individuals or 
collections of individuals. New threats are emerging from societies and 
people who remain disconnected from the larger evolving global system. 
These threats have the potential to create severe perturbations to this 
system, and the resulting shockwaves cross all economic sectors and 
social boundaries as they propagate around the world. On September 11, 
we witnessed this phenomenon. We were not attacked by a nation or by an 
army; we were attacked by a group of individuals--non-deterables--keen 
to die for their cause. As the consequences of this systemic change 
become more apparent, we're discovering that our force capabilities are 
out of balance with emerging realities.
    There is another way of understanding this. In the second half of 
the 20th century (prior to 1990), we balanced our global interests and 
homeland security on the fulcrum of mutually assured destruction and 
containment. It worked well versus the Soviet Union, but what it 
yielded was surrogate wars. We lived a useful fiction that depicted all 
surrogate wars as lesser-included cases of the larger strategic 
problem--which they were not. However, that strategic system ``worked'' 
given the types of forces we had, and given the era in which we lived--
namely, industrialization. That construct dissolved with the fall of 
the Berlin Wall, and we are just now readjusting our security 
perspectives in light of this altered system; a strategy that emerges 
is transformation.
    The need to transform the military as well as the organizations and 
processes that control, support and sustain it is compelling. This need 
is a by-product of the effects of globalization on the international 
security order, as well as the transition from the industrial age to 
the information age. While we might point to a beginning of 
transformation, we shouldn't foresee the end--the President's mandate 
was ``to challenge the status quo and envision a new architecture of 
American defense for decades to come.'' Both he and Secretary Rumsfeld 
have rightly seen that transformation is a continuing process that not 
only anticipates the future, but also seeks to create that future. It 
does so, in part, by co-evolving technology, organizations, processes. 
However, it begins and ends with culture. Transformation is first and 
foremost about changing culture. Culture is about behavior--about 
people--their attitudes, their values and their beliefs. What we 
believe, what we value, and our attitudes about the future are 
ultimately reflected in our actions--in our strategies and processes, 
and the decisions that emerge from them. The Department's strategy for 
transformation understands this; its actions reflect that 
understanding. Consider these Departmental actions in light of the new 
security environment discussed above:

        <bullet> Crafted a new defense strategy (with Transformation as 
        a centerpiece)
        <bullet> Rewrote the Unified Command Plan
        <bullet> Completed a new Nuclear Posture Review
        <bullet> Replaced the two-Major Theater of War force-sizing 
        construct
        <bullet> Moved from a threat-based to a capabilities based 
        approach to defense planning focused not on the ``who'' but 
        rather the ``how'' our national security might be threatened
        <bullet> Reorganized the Department to better focus space 
        activities
        <bullet> Initiated work with the Allies to develop a new NATO 
        command structure as well as a NATO Response Force
        <bullet> Expanded the mission of Special Operations Command
        <bullet> Made some tough program decisions

    Of course, this last item, the cancellation of programs--or how 
many three- and four-star officers were fired--represents the yardstick 
by which many would have the Department measure its progress. That 
would be a wholly unconstructive approach, and one counter to Secretary 
Rumsfeld's stated intent--``we are working to promote a culture in the 
Defense Department that rewards unconventional thinking--a climate 
where people have the freedom and flexibility to take risks and try new 
things.'' Consider these other ``new things'':

        <bullet> Created an Under Secretary position for Intelligence
        <bullet> Created an Assistant Secretary for Homeland Defense
        <bullet> Development of Joint Operations Concepts
        <bullet> Reorganization of the JROC
        <bullet> New service-based contributions to Joint Warfare

                <bullet> Army Objective Force
                <bullet> Air Force CONOPs
                <bullet> Navy Expeditionary Strike Groups, TACAIR 
                Integration

        <bullet> Created a Joint National Training Capability in order 
        to better train as we intend to fight
        <bullet> Process revisions

                <bullet> New DOD Acquisition Directive and Instruction
                <bullet> Legislative relief proposals

        <bullet> Invested in capabilities to support the warfighter

                <bullet> Joint C\4\ISR
                <bullet> Precision Strike
                <bullet> Adaptive logistics
                <bullet> Mobility enhancements

    In the aggregate, these activities represent the beginning of ``the 
continuing process'' of transformation as we ``create/anticipate the 
future.'' They represent the ``co-evolution of concepts, processes, 
organizations, and technology.'' They are consistent with the vision 
outlined in the President's remarks, and are representative of progress 
toward the goals outlined in the 2001 Quadrennial Defense Review.
    As a consequence of this progress, we also see ``new competitive 
areas,'' and a ``revaluing of attributes'' consistent with information 
age phenomena and the demands of the emerging security environment. One 
measure of this revaluing is what is called ``information fraction.'' 
In other words, what is the measure of a system's ability to access and 
contribute to a larger information network? Can it contribute to the 
``speed of command'' and ``shared situational awareness'' so necessary 
for success in current and future battlefields? The concept of 
``information fraction'' provides an important insight into a 
``revaluing of attributes'' that characterizes transformation. When we 
talk with Sergeants at Ft. Lewis about their Strykers, they're not only 
happy about the ride and relative quiet it provides, they're excited 
about the situational awareness that can be brought into that vehicle 
through its information systems; the Stryker has a high information 
fraction. The Army's Land Warrior and Future Combat System (FCS) also 
have very high information fractions. Similarly, when Marine pilots 
talk about the Joint Strike Fighter, they not only talk about its low 
radar cross section and precision weapons--they talk about the 
aircraft's sensors and its ability to access and distribute information 
as part of a larger naval expeditionary sensor network. The Joint 
Strike Fighter has a very high information fraction.
    Transformation is yielding new sources of power. Because the global 
pace of change is accelerating, new sources of power fuel our ability 
to maintain advantage in a competitive landscape where yesterday's 
winner is tomorrow's target. Our ability to capitalize on new sources 
of power will determine, in part, our success in the future. One such 
source is information sharing through robust network structures. We 
have a mountain of evidence--from simulation, from experimentation, and 
from real world experience--that substantiate the power of network 
behavior. Many think of network the noun--in other words, a ``thing.'' 
They forget that ``network'' is also a verb--a human behavior. So when 
we shift from being platform centric to network centric, we shift from 
focusing on ``things,'' to focusing on behavior or action. That is 
where we find the power. Each of the Department's efforts reflects an 
understanding of this phenomenon. Some examples include the Navy's 
ForceNet and its creation of the Network Warfare Command, the Army's 
Battle Command System for the Legacy and Interim Forces, the Warfighter 
Information Network for the Objective Force, and the Early Entry 
Command post concept. The Air Force is pursuing Network Centric 
Collaborative Targeting and ``predictive battlespace awareness'' under 
the Space C\2\ISR Task Force CONOPs, and the Marine Corps intends to 
exploit an Expeditionary Sensor Grid through CAC\2\S. These efforts 
reflect the ongoing shift from platform-centric to network-centric 
thinking that is a key to transformation.
    When Secretary Rumsfeld signed the Quadrennial Defense Review in 
September 2001, he created the vision for transformation. The six 
operational goals and the four pillars of transformation get the most 
attention. However, one of the most powerful concepts in that document, 
and one that has received the least scrutiny, is ``deter forward.'' 
``Deter forward'' is profoundly important because it forces us to 
change the way we think about force capabilities and disposition. 
Consider for a moment the implications of deterring and defeating an 
enemy with minimal reinforcements. In peacetime, we assure allies, we 
dissuade competition, and we deter hostile acts. If forced to compel 
resolution with military force, we bring forces to bear in the 
traditional fashion; the relationship between the capabilities we bring 
to bear and the forces and the timeline demanded by the circumstances 
is a measure of the risk we are willing to accept. This is normal 
industrial age thinking. In the Information Age, warfare is 
increasingly path dependent--small changes in the initial conditions 
result in enormous changes in outcome. Thus, speed becomes a more 
valuable characteristic of the entire force because we want to be able 
to define or alter the initial conditions on terms favorable to our 
interests. The goal is to develop high rates of change that an 
adversary cannot outpace, while sharply narrowing that adversary's 
strategic options. Only certain kinds of forces are going to be able to 
do that--forces oriented around speed. This is not so much speed of 
response, as it is speed within the response--speed of deployment, 
speed of organization, speed of employment, and speed of sustainment. 
In other words, we may choose our punches with great care (strategy), 
only to unleash them with blinding speed (operations, tactics). 
Networking is the key enabler of the battlespace transparency necessary 
for that speed.
    The entry fee for the ``deter forward'' force is a network 
structure, network centric organizations and an understanding of the 
emerging theory of war for the information age--Network Centric Warfare 
(NCW). NCW is not about technology per se--it is about behavior. It is 
not about the network; rather, it is about how wars are fought, how 
power is developed. During the industrial age, power came from mass. 
Increasingly, power tends to come from information, access and speed. 
Network Centric Warfare will enable the merging of our warfighting 
capabilities into a seamless, joint warfighting force. It capitalizes 
on the trust we place in our junior and noncommissioned officers. As 
information moves down echelon, so does combat power, meaning smaller 
joint force packages wield greater combat power. We've seen this most 
recently in Afghanistan--very, very small units being very powerful. 
NCW enables and leverages new military capabilities while allowing the 
United States to use traditional capabilities more discretely and in 
new venues. This is allowing the U.S. military to downshift effectively 
over time from system-level wars (the Cold War and its World War III 
scenarios) to state-on-state wars (Iraq and Korea major theater wars/
scenarios) to the emerging wars fought largely against groups of 
individuals (Taliban take-down, rolling up the al Qaeda network). 
Network-centric operations capitalize on greater collaboration and 
coordination in real-time, the results of which are greater speed of 
command, greater self-synchronization, and greater precision of desired 
effects. During the past year, we've seen each of the Departments begin 
implementation of NCW, primarily at the operational level of war. 
However, what we're seeing is essentially ``NCW for the JTF 
commander.'' The next step is NCW for the warfighter--reflecting 
increased jointness at the tactical level of war.
    Pulling together the conceptual threads of transformation and the 
emerging international security environment, one is led to the 
conclusion that even when homeland security is the principle objective, 
the preferred U.S. military method is forward deterrence and the 
projection of power. As a matter of effectiveness, cost, and moral 
preference, operations will have to shift from being reactive i.e., 
retaliatory and punitive, to being largely preventative. The 
implications of ``deter forward'' necessitate a major force posture 
review--rebalancing from the current condition where 80 percent-plus of 
the force is U.S. based and everyone is competing for the same finite 
strategic lift. Accordingly, the emerging American Way of War features:

        <bullet> Highly networked, special operations-like forces whose 
        extensive local knowledge and easier insertion will give them 
        greater power and utility than large formations deploying from 
        remote locations
        <bullet> Forces capable of applying information-age techniques 
        and technologies to urban warfare, else we will not deny the 
        enemy his sanctuary
        <bullet> Surveillance-oriented forces to counter weapons of 
        mass destruction, else unambiguous warning will come too late
        <bullet> Concepts of ``jointness'' that extend down through the 
        tactical level of war
        <bullet> Interagency capabilities for nation building and 
        constabulary operations, lest our forces get stuck in one place 
        when needed in another
        <bullet> Adjustments in force structure and posture in 
        consideration of the growing homeland security roles of the 
        Coast Guard, the National Guard, the Air National Guard, and 
        the Reserves

    Adding these new responsibilities to the U.S. military is not only 
a natural development but also a positive one. For it is the United 
States' continued success in deterring global war and obsolescing 
state-on-state war that will allow us to begin tackling the far 
thornier issues of transnational threats and sub-national conflicts--
the battlegrounds on which the global war on terrorism will be won.

    Senator Roberts. We thank you both, gentlemen. Senator Reed 
and I are here for the duration. Senator Dole has a time 
situation. Senator Akaka, what is your time situation?
    Senator Akaka. I am fine for half an hour.
    Senator Roberts. You are fine for a half an hour. Senator 
Dole, would you like to start off on any questions you might 
have?
    Senator Dole. All right. One question I would like to ask, 
the Marines at Camp LeJeune provided a significant portion of 
the staff for a land component headquarters in Millennium 
Challenge 2002. Their participation obviously was valuable, 
successful, but it is my understanding that it also came at 
some sacrifice in terms of increased personnel tempo and funds 
that had to be expended. So I am interested in what level of 
participation in experimentation we can expect of the operating 
forces, considering that they have other obligations, 
obviously, with regard to deployments, training exercises, and 
is there a need for a dedicated experimentation force?
    Admiral Giambastiani. Senator Dole, let me answer the last 
part of your question first, about a dedicated experimentation 
force.
    This is my third time being associated with a command that 
does both, if you will, force-providing, organize-train and 
equip-type functions and participating in them with services. I 
did one of these back in 1991 and 1993, in the Navy. I also 
performed a similar function late in the 1990s similar to this, 
and now today at Joint Forces Command.
    I am not an advocate of dedicated experimentation forces, 
and there is a very good reason for that. If you do not have 
your day-to-day business grounded in operations, in providing 
forces for regional combatant commanders who go out and use 
these forces, it does not make you relevant. You need to have 
that connection so that your forces remain relevant, otherwise 
they become very specialized, more insular, and they do not 
deal with the greater military community.
    I could go into a long discussion on this, but I am very 
positive on having operational forces doing experimentation 
exercises and demonstrations.
    To go to the first part, clearly, the Marines performed 
very well during the course of Millennium Challenge 2002. As a 
matter of fact, we took some of those folks in. They are 
currently on Joint Task Force (JTF) Horn of Africa. The Second 
Marine Division, as it turns out, has supplied the commander of 
that unit. We helped to stand-up and train JTF--Horn of Africa 
back in October and November, deployed them in late November on 
board the U.S.S. Mount Whitney.
    Major General John Satler, Second Marine Division 
Commander, is the JTF Commander. We have a Navy one-star rear 
admiral named Don Bullard, who is the Deputy, but about two-
thirds of that joint task force staff are, in fact, Marines. 
The rest of them, obviously, are Army, Navy, and Air Force, 
some coalition members and a few civilians.
    What I would tell you is, is that where we see, if you 
will, some stress on the force is at the major, lieutenant 
commander, commander, lieutenant colonel, captain, and colonel 
level who are populating all of these joint task forces and 
combatant command staffs as what we call individual augmentees. 
The Services provide all of these. They are high quality, top 
quality officers. They have done a lot of this work, and we are 
looking for those skill sets to populate these major commands, 
so that is the place where I do see that we have a problem 
across the entire Armed Forces, is at the joint task force and 
combatant command staff augmentation level to form these joint 
forces.
    Senator Dole. Thank you very much, and let me just say that 
I am extremely grateful to both of you for your outstanding 
service to our country at this critical time. Mr. Chairman, my 
husband recently was being interviewed and the interviewer 
referred to him as a part of the greatest generation, and his 
response was something that I certainly back up and that is 
that the greatest generation is these young men and women today 
who are being deployed in the defense of our country and our 
freedom, so thank you very much for your testimony. I look 
forward to working closely with you in the months and years 
ahead.
    Thank you, Mr. Chairman.
    Senator Roberts. Thank you, Senator Dole. Senator Akaka, I 
know you are pressed for time. Why don't you proceed with any 
questions you have.
    Senator Akaka. Thank you very much, Mr. Chairman. I commend 
you for having this hearing and this discussion. I take this 
opportunity to express my appreciation to Admiral Giambastiani 
and Vice Admiral Cebrowski for joining us today. What you are 
doing is very exciting, because what you two officers are 
representing is a whole new twist in what we are trying to do.
    After looking at your statement, Admiral Cebrowski, somehow 
I came to the conclusion that maybe there might be a need for 
an academy of peace instead of training our young people only 
for battles. It seems as though we need to focus on culture, 
people, quality of life, and we certainly would want global 
peace one day, and why not have an academy that trains young 
people to bring that about.
    But Admiral Giambastiani, I have a question for you. DOD 
senior leadership frequently talks about the challenges of 
balancing current readiness and transforming to better meet the 
future threats. You probably understand this problem better 
than almost anyone, as you have to both provide ready forces to 
other commands and spearhead DOD's transformation and 
experimentation efforts.
    My question is about the particularly difficult situation 
we find ourselves in now. What impact has our extremely high 
tempo of operations (OPTEMPO), higher, I think, than any of us 
can remember for quite some time, what impact is this high 
OPTEMPO having on our efforts to advance transformation?
    Admiral Giambastiani. Senator, two things. One, clearly we 
have probably the most ready force I have ever seen, as I said 
in my statement, to date. I am very impressed with the 
readiness of forces, but with the number of forces we have 
deployed right now, can we maintain that high level of 
readiness in the long term, with all of these forces forward? I 
do not think any military leader would tell you yes, we can 
maintain it, if everybody is forward, but what I would say to 
you is this. There is a very important balance that you have 
pointed out between readiness and the ability to do 
transformation.
    Back when I was the transition director for Admiral Vern 
Clark, when he came in to relieve as the Chief of Naval 
Operations, our first two priorities, and I think in explaining 
this to you, you will see where I am going with it, we thought 
that our people clearly were our number 1 priority, and our 
second priority was current readiness. The reason for that is, 
we had lots of spare parts problems, and Congress has been 
incredibly supportive here over the last couple of years to 
increase our operations and maintenance account levels 
throughout all the services, but in the Navy I happened to be 
focusing on it at that time.
    We took a lot of money out of platform programs, 
shipbuilding, aircraft, and a number of other things to pour 
that money into readiness accounts, because the most important 
thing was to keep our forces ready. I think those decisions 
have proved today to be very wise, and again the other Services 
have done similar things.
    For example, we moved $1 billion, as I recall, into 
precision weapons 2\1/2\ years ago. Now, we did not have any 
idea that we would be going through Afghanistan, Operation 
Enduring Freedom, and the rest of it, but one of the reasons 
why all this additional money that Congress has put into 
helping our readiness with regard to precision weapons is that 
we had ramped up the factory level so that they can, in fact, 
handle more production today, so these additional funds have 
been very useful.
    So it is important to maintain readiness in these 
operations and maintenance accounts and the personnel accounts 
to pay our young men and women properly. At the same time, 
though, this is the best time to transform. Everybody is 
thinking about how they are warfighting today. Everyone is 
thinking about how to do things better, how to make them work 
more jointly, make them work in coalitions, and there is great 
impetus out there and interest in doing this well.
    As a matter of fact, we have created a fairly sizeable 
lessons-learned team from Joint Forces Command that is forward-
deployed now, sitting in Transportation Command (TRANSCOM) in 
Scott Air Force Base in Illinois, at my headquarters, for 
example, looking at the Joint Staff on how we are doing 
business, to capture these lessons, and to help us transform 
right now. We are working on improving the efficiency and 
effectiveness of the joint deployment process, so Congress' 
support, and the drive from the administration with the 
President, the Secretary, and the Chairman has been absolutely 
dead on the mark with regard to transforming.
    So you all have put additional resources into the readiness 
piece, and you have put additional resources into the 
transformational side, and we applaud that, and I would be 
happy to talk in more details.
    Senator Akaka. Thank you, and that is what I meant when I 
said what you are doing is exciting. It is bringing about a 
whole new effort in what we are trying to accomplish in the 
world.
    Admiral, Tom Christie, DOD's Director of Operational Test 
and Evaluation (OT&E), gave a speech in April last year about 
test and evaluation's role in experimentation. One of his basic 
points was that experimentation and testing are essentially the 
same thing. He also raised some concerns about changes from a 
requirements-driven to a capabilities-driven acquisition 
project. Specifically, he pointed out that a capabilities-based 
process is not likely to result in measurable requirements 
until late in the acquisition process, and that this may 
inhibit attempts to measure the operational effectiveness or 
suitability of specific systems.
    In your mind, do you make a distinction between testing and 
experimentation? Do you share Dr. Christie's concerns about a 
capabilities-based acquisition process?
    Admiral Giambastiani. Simply stated, I do not share his 
concern that he has expressed with regard to the connection 
between operational test and evaluation and experimentation, 
and also the piece about the capabilities force, and let me 
explain why very briefly.
    When we bring forward a system, a platform, or anything 
else to be approved through our DOD system, we have a series of 
documents that describe the mission need, first of all, and 
then we put out one of two documents that we call an 
operational requirements document, or an overarching capstone 
requirements document under which are these other requirements.
    Now, it is kind of an arcane language, but let me explain 
to you why the requirements piece still exists there. I think 
that Dr. Christie is changing his definition of requirements in 
describing a larger system of how we look for capabilities 
within the overall military, whereas we use these requirements 
documents to describe the specific systems and the performance 
parameters.
    For example, we have something called a key performance 
parameter. We have very specific things called information 
exchange requirements. We also have another arcane term called 
an operational architectural view. All of these are very 
specific, so that when we produce something, we can measure 
against these key performance parameters and, in fact, the 
program managers can build the system to that. Now, I have not 
seen that changed with the advent of a capabilities-based 
force, because we are talking about capabilities at a much 
higher level.
    With regard to experimentation and test, I find that 
generally test programs are, in fact, more set pieces and less 
freewheeling and free flow than experimentation is. The other 
piece is, when we do a test program, clearly the program 
manager that builds a system, a tank, a ship, an aircraft, a 
communications system works very hard to have that system be 
evaluated successfully so that it can be deployed. When we 
experiment, we expect to have failure. We expect things to go 
wrong.
    That does not mean that in OT&E everything goes correctly, 
because it does not, but it is not as freewheeling as an 
experimentation event--OT&E is a less risk-averse environment 
than doing experimentation. We are supposed to take risks and 
push the envelope when we do experimentation.
    Art, do you want to add anything to that?
    Admiral Cebrowski. Yes. I think in general, when you test, 
you test against expectations, and you can do some experiments 
like that, but the more exciting experiments, the ones that we 
focus on more, are those which are seeking discovery, and that 
is a dramatic shift in emphasis.
    Senator Akaka. Mr. Chairman, what is happening is so 
exciting it will change what we will be doing in this 
subcommittee in the future. My time has expired. I have other 
questions that I will submit for the record.
    Senator Roberts. I thank the Senator, and hopefully the 
subcommittee, with the Senator's help and advice and counsel 
will be part of that change. We would like to be a leader of 
that change posse. That is what we will call it.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, gentlemen, for your testimony. This is a daunting 
challenge, to try to change the operations of the Pentagon and 
the Department of Defense. It seems to me that everyone is 
looking for the approach, how do you do that, and I do not have 
an exhaustive list, but typically you reorganize, or you 
reallocate budgets, or you do a combination of both, so let me 
take the organizational question first.
    The new transformation planning guidance is about to become 
public. Admiral Giambastiani and then Admiral Cebrowski, can 
you give us a preview of what this new organization will look 
like under the guidance? Is it just collaborative between these 
agencies? Is there an agency that is responsible for initiating 
projects? Is there a hierarchy of approval? Anything along 
those lines will help us understand what this new organization, 
or at least new arrangement will look like.
    Admiral Giambastiani. Let me describe it first from my 
perspective. I thought that Admiral Cebrowski very nicely laid 
out a couple of the underpinnings of this transformation 
planning guidance. Frankly, both he and I had wished we had 
signed this out months ago.
    As a matter of fact, when both of us were attending what we 
call within the Pentagon a senior level review group with the 
Secretary, the Deputy, the Chairman, the Vice Chairman, the 
Service Secretaries, the Service Chiefs, and the rest--we were 
both invited, of course, because of its importance to our 
organizations and commands. At the end of the meeting, the 
Secretary had asked me a question, and I said the only thing I 
wish is that we had gotten this document out sooner, and we 
have been working to the tenets of it, but let me describe it 
from my perspective.
    First of all, my staff at Joint Forces Command has worked 
very heavily with those who are crafting this document. I know 
that clearly Admiral Cebrowski's staff and he personally have 
done the same thing.
    Second, I cannot overemphasize a couple of things. This 
document codifies in many ways the role of the Office of Force 
Transformation and Admiral Cebrowski will speak to that. It 
also brings additional responsibilities to Joint Forces Command 
in the area of transformation. This all flows from the most 
recent unified command plan changes, a series of them.
    What I would say to you is Joint Forces Command, through 
this document and a number of others, will play much more 
heavily in joint battle management command and control, as I 
said in my opening statement. We will share milestone decision 
authority, for example, with regard to a system that the Navy 
is procuring, but it will be called the deployable joint 
command and control system. We will share that with the 
Assistant Secretary of Defense for Command, Control, 
Communications, and Intelligence (C\3\I). This is 
unprecedented, for a combatant command to do this.
    In addition, along with the transformation planning 
guidance, there is a significant emphasis on our ability to 
field things quickly. Admiral Cebrowski mentioned this TIP 
fund, this transformational initiatives program, and the fact 
that we want money in there.
    Now, there is good news and bad news in this. Frankly, 
there are some within Congress who do not like to have 
initiative funds like this, and there are others who understand 
the importance of being able to quickly put capability into the 
force. We have tried this in a number of ways. I have gone 
through this within the Navy and the R&D community. I am a very 
strong supporter of this, very strong supporter of it. It is 
important, and there will be money in there.
    In addition, there is another fund, for example, that is 
talked about in the transformation planning guidance, but it is 
supported strongly. We have this within Joint Forces Command. 
It is a transition fund for joint integration and 
interoperability and, in fact, I request the Senate's support 
on this budget submittal, because you will see the transition 
funds will jump from about $13 million this year up to about 
$43 million in 2004 and on, because we want to be able to get 
solutions out into the field.
    Now, many of the things the Joint Forces Command is 
directed to look at are somewhat more near term. I will tell 
you they are in some cases today's problems, some of them are 
over the next 5 or 6 years, and of course, Admiral Cebrowski is 
looking further out to trends and the rest, but the importance 
of this I cannot overestimate, in that your support is 
important for these types of funds to allow us to quickly 
respond in an area that is important.
    Art, why don't you----
    Senator Reed. Before you go on, Admiral, let me just put 
another set of issues on the table, and you might want to wait 
until Admiral Cebrowski comments, or make a comment now.
    You have opened up the issue of budget authority, or at 
least funding issues, and there is an issue we talked about 
previously, whether JFCOM should, in fact, have its own line 
with respect to some of these budget issues, an R&D budget of 
your own, other types of funds. Do you want to comment now 
about that, or do you want to wait?
    Admiral Giambastiani. Yes, sir, I would be happy to comment 
right now. I would also like to say that, one last part on the 
transformation planning guidance, Joint Forces Command is 
required to submit a transformation road map annually now as a 
result of this, and we will be putting that together, along 
with an annual joint experimentation campaign plan, so those 
are very important to support this overall view so that it gets 
reviewed.
    Senator Reed. That will be a product of collaboration with 
the uniformed services?
    Admiral Giambastiani. It is a product of collaboration with 
the Services, combatant commanders, and defense agencies who 
play in this, so it is a pretty broad collaboration.
    With regard to funding, Joint Forces Command today, if you 
looked at all of their combatant commanders, both regional and 
functional, the most significant amount of funding for a 
combatant command goes to Special Operations Command (SOCOM). 
Because of SOCOM's major force program 11 budget, and some of 
us describe them as the fifth service, they receive the most 
funding and personally I think it was a very smart move to do 
this.
    Now, when I went to Joint Forces Command, I received 
questions along these lines and I was asked, do I need budget 
authority at Joint Forces Command? I went down and studied 
Special Forces Operations Command with Charlie Holland, looked 
through how he did business. One of the things I learned from 
that was that General Holland has an acquisition force of about 
750 people who are essentially working for Special Operations 
Command, and I looked at my mission and charter with regard to 
transformation and asked myself how much time we could expend, 
if you will, bringing acquisition within Joint Forces Command.
    I concluded after a period of time that I did not think I 
should sap my energy towards transformation so that I could 
have this, if you will, acquisition agency, and thought that a 
hybrid between how Special Operations Command does it and how 
we currently work today would be the best way to go about 
business. So we have asked for and gotten significant resource 
changes to come to Joint Forces Command, but we want to work 
through agencies that typically do acquisition out there, Army, 
Navy, Marines, DISA, Defense Information Services Agency, et 
cetera, et cetera, so that we could work through them, fund 
them, and also play a kind of cochair role in milestone 
decision authority, so that is the approach we have taken.
    Just to give you an idea, my staff tells me the budget from 
2003 to 2004-2005 time frame goes up by 76 percent, is what the 
administration has submitted in the 2004 budget to date, so we 
are looking forward to your strong support of the budget 
initiatives that Defense has brought forward in the President's 
budget, and with those and many of these other authorities 
talked about in the transformation planning guidance and 
others, I think you will see that our role will change and it 
will be stronger without trying to become a separate major 
force program like SOCOM.
    Senator Reed. Thank you, Admiral Giambastiani.
    Admiral Cebrowski, your comments.
    Admiral Cebrowski. The transformational planning guidance 
creates no new organizations. Rather, it sharpens the roles of 
existing organizations. It is really quite American. It is 
focused on the concept of checks and balances and seeks to 
ensure that, while a particular office is designated for 
responsibility, that at least one other office must comment on 
it before it goes to the Secretary to ensure that he gets at 
least two opinions.
    The general offices that fill these roles are the immediate 
Office of the Secretary, Under Secretary of Defense for Policy, 
Office of Force Transformation, the Chairman, Joint Forces 
Command, and my office, and that is generally the way it works.
    You expressed also concern about R&D.
    Senator Reed. Let me correct that. That should have been 
more directed to science and technology programs and I think 
you were going to make that correction, so thank you for that. 
That is an important part of your role, the science and 
technology business. That is the R&D, 15 years from now, when 
the basic research and science comes up with new developments. 
You are in the R&D business, and the concern I have, and I 
think you would agree with me, is that right now we might be 
able to afford it, but if we continually deny science and 
technology funding, it is going to in the longer run, in your 
world, have an impact.
    Admiral Cebrowski. One of the things that was really 
debated in the transformation planning guidance was the 
creation of the transformation initiatives program and the 
joint rapid acceleration or rapid acquisition program, because 
those are R&D items, but they occur late in the program, and we 
had considerable discussions with Director, Defense Research 
and Engineering (DDR&E), Dr. Ron Sega, about ensuring that we 
have an appropriate balance between S&T and R&D, and so I know 
he is quite sensitized to the issue.
    Senator Reed. Let me ask you, Admiral, you indicated, and I 
think your description is a very helpful one, about what is the 
underlying premise, at least two agencies get to discuss it 
before it gets to the Secretary. Who decides which two of those 
entities on a given issue get to play?
    Admiral Cebrowski. That is in the document. Those issues 
were resolved before the document went forward to the 
Secretary, and so for example, program appraisal and evaluation 
will support my strategic assessment as it goes forward. The 
Chairman will produce guidance concerning the experimentation 
program broadly, which Admiral Giambastiani and I will comment 
on that.
    Senator Reed. I think, and I suspect you will be sensitive, 
many times who gets to look at the program determines whether 
the program survives or fails. If you are sensitive to that 
going forward it will be very helpful.
    Admiral Giambastiani. I think one of the things I would 
add, Senator Reed, and it is important, is the fact that we can 
bring up criticism, if you will, critique comments, 
recommendations, or voices of dissent during this process, 
which is important.
    Senator Reed. Absolutely. Sometimes the dissent is more 
important than the concurrence.
    Mr. Chairman, I am happy to go for a second round if you 
would like to take questions, start questioning now, or 
whatever.
    Senator Roberts. I have quite a show planned. Why don't you 
go ahead. [Laughter.]
    Senator Reed. All right. Let us turn our attention now to 
the Joint Requirements Oversight Coucil (JROC) process. Where 
does that fit in terms of this new approach towards joint 
requirements, joint doctrine?
    I know, Admiral Giambastiani, in a slightly different 
context you responded to Senator Akaka about the requirements, 
et cetera, et cetera. My understanding is a lot of that is 
going to be changed as we move to the capability-based 
approach, but just, let's do the question, how do you see JROC 
working within now, the context of this new transformational 
guidance?
    Admiral Giambastiani. Simply stated, I will tell you in my 
view the JROC process needs reform, number 1. Number 2, I would 
tell you that General Pace is, in fact, working with the 
Service vice chiefs and has spent quite a bit of time talking 
with the Chairman and the Secretary about reforming the JROC 
process as it currently exists to reflect, as you have already 
said, the capabilities-based approach.
    The JROC cannot play in every requirements issue because 
there is not enough time for all of the committees and the Vice 
Chairman and the vice chiefs to do that. I think they fully 
understand that, which is why they are bringing forward and 
have been frankly iterating here over a number of months a 
different approach to how the JROC actually operates. In fact, 
what studies, what architectures they looked at across the 
Defense Department, so in very broad terms, do I think it needs 
some reform, answer, yes, and General Pace I think agrees with 
that and is, in fact, working with the vice chiefs to bring 
about a reform.
    Senator Reed. Admiral Cebrowski, your comments.
    Admiral Cebrowski. The thrust right now is that the 
requirements process and the acquisition process are both in 
flux. The guiding documents for both requirements and 
acquisitions, the 5,000 series acquisitions have been suspended 
and are being rewritten. Of course, I am not your best witness 
on those two documents, but the objective is to harmonize those 
and streamline them, and one of the critical features is to try 
to force management attention to earlier in the process, when 
it is easier to make changes and less expensive, rather than 
having to fix things after they have been broken for years, so 
that is the general thrust of that.
    Senator Reed. Let me change the subject just briefly to 
Millennium Challenge. There was some criticism, Admiral 
Giambastiani, about it being overly scripted. The criticism 
raises a more general issue, I think we all would agree 
theoretically that you learn more from your mistakes than 
sometimes you learn from your successes, but in the real world 
we are loath to make mistakes, or at least public mistakes. Can 
you comment about the nature of Millennium Challenge, and also 
to what extent are you going to design experiments that have a 
significant probability of failure to learn from that?
    Admiral Giambastiani. First of all, on being able to accept 
failure, we have a specific mechanism that we have introduced 
into our experimentation plan that actually evaluates whether 
we are taking sufficient risk in a certain type of experiment. 
In this case red is good. If you use the stop light, red, 
yellow, and green, generally green is good and red is bad, but 
in the case of experimentation we flip this around and, in 
fact, we look at each of our experimental objectives to see if 
it is red or if it is orange, if you will, or if it is yellow, 
as opposed to being on the lower-risk side. This is important 
for us to internally look at it and then ask some external 
organizations to look at it, so what I would tell you is, it is 
important for us to move in that direction.
    Now, with regard to Millennium Challenge, Admiral Cebrowski 
early on talked about one of the criticisms is that we had this 
huge experiment, exercise and demonstration that it took 2 
years to run, and Congress supported this very strongly, and 
frankly it was a defining event for Joint Forces Command, and I 
think DOD with regard to joint experimentation. Despite any 
criticism one way or another, it was, in fact, a defining 
event, and an important one.
    What we learned out of that is that if you give the 
military anything to plan for for 2 years, it is going to work. 
[Laughter.]
    I mean, if you give us money, you give us time, you give us 
resources, we will go make it work. In experimentation you are 
looking for the failure, as you have already pointed out, so we 
have changed and shifted our program to what we call limited 
objective experiments, where we run them more frequently. We 
try not to on the scale of preparation go too deeply into them 
because once again we will get into this mind set of if I work 
long enough on it we are going to make it work, no matter what 
the procedure, doctrine, training technology is. We do not want 
to do that.
    Plus, in these more freewheeling experiments in many cases 
you learn insights that you had no clue that you were going to 
get in the first place. That is why you experiment. They are 
very important insights.
    So that is how I would answer your question, sir.
    Senator Reed. Thank you.
    Senator Roberts. Could I ask an add-on?
    Senator Reed. Absolutely.
    Senator Roberts. I remember talking at length with General 
Paul Van Riper, who was the head of the opposing force, and he 
indicated in rather meaningful dialogue that every time that 
the opposing force won, or was one or two steps ahead of the 
operation, that you stopped the exercise. That might be a 
little harsh. I am just trying to sum that up. I think his name 
was Sun Tzu, as I recall, in the exercise.
    Would you comment on that, because one of the questions I 
have is, how do you keep the opposing force up to speed with 
the rapidly changing environment that we are facing, and it 
does not do much good to have an exercise and have the opposing 
force really figure out what the answer is and ``win,'' if that 
is the proper term, only to stop the exercise, although I do 
not know if we are into a credit game where you get a star by 
your name in regards to what happens here. Would you care to 
comment on that?
    Admiral Giambastiani. Yes, sir. First of all I would like 
to go back in history for just a moment and talk about opposing 
forces. When we were in the early days of developing carrier 
aviation in the Navy, in general in our fleet battle 
experiments the opposing forces generally won all the time and 
we developed a very robust naval aviation capability in this 
country as a result of this very extensive fleet battle 
experimentation program that occurred during the interwar 
years. Almost invariably the opposing forces won, and that is 
one lesson I learned out of that.
    My own view on this is that the reason why you run a war 
game and experiment and exercise is to train and test, to 
experiment, and you learn a lot, and part of the failure in 
this learning process is the fact that an opposing force would 
win.
    Now, let me talk about the mechanics of an exercise for 
just a second. I did not plan or execute Millennium Challenge. 
I am a little bit more of an unbiased observer than I would be 
if I had been directly in the middle of it. What I would say to 
you is this. When we run one of these experiments and 
exercises, you have certain constraints on when airlift is 
available, you have certain constraints on when you can use 
real forces and when they are available.
    Even though the forces provided by the Services are under 
Joint Forces Command combatant command, they are also 
simultaneously on service training time lines. These are made 
available for certain periods of time to help leverage the 
experiment--but keep to service timelines so they can do the 
rest of their organize, train, and equip functions. We do not 
have the luxury of suddenly changing the clock, or allowing 
free play to continue in a certain point in the exercise, so 
some of this is an exercise constraint. It's just part of the 
challenge, it is in existence. Does that mean it is right? No, 
but it is a fact of life.
    It is easier to do it when you are doing a command post 
type of experiment or exercise, where you are moving virtual 
forces around. It is much easier to let the free play continue 
and the rest of it, but if you have 13,000 Active Forces out 
there operating, airlift is available at a certain time, 
battalions are available, the range time is available. You have 
to allow for those.
    I know Paul Van Riper very well. I have dealt with him over 
the years, and he is a good man, and he would not have brought 
these criticisms up if he did not feel strongly in his gut that 
they were important criticisms. I take some of them as very 
important criticisms. Some of them, in looking at the 
situation, I do not, so I am kind of one of these guys who is 
about 50-50 on what he said, and I have been to a couple of 
forums with him and discussed this with him.
    My own view is that some of his criticisms are valid, some 
are not. We learned a lot in this experiment, in this exercise, 
in this demonstration. I keep using all those terms because I 
hate to call it an experiment if you took 2 years to get it 
moving.
    So, sir, that may not be the perfect answer, but that is 
where I come from.
    Senator Roberts. So bottom line, you took the criticism 
seriously and on a 50-50 deal, we did come up with some lessons 
learned.
    Admiral Giambastiani. Absolutely.
    Senator Roberts. Jack, go ahead.
    Senator Reed. Mr. Chairman, why don't I just forego. I 
might have another question, but why don't you go ahead. Thank 
you. Thank you, gentlemen.
    Senator Roberts. Gentlemen, I am going to do something a 
little unique. I am not too sure you have ever been in a 
hearing where you have had the chairman repeat your statement 
back to you, but I am going to do that. I think it is important 
to emphasize this for the record.
    Admiral Giambastiani, you said, ``We must transform even as 
we conduct worldwide operations. Everybody knows that the 
attention on the world scene today is on the war against 
terrorism, Iraq, and North Korea, but we must transform while 
we are doing this,'' and you said, ``we have to get through 
today to get to tomorrow.'' I think that is a pretty good 
quote. If there is any press here today, or if C-SPAN wants to 
take notice, I think that would be a good one to take notice 
of.
    Then you said, ``transformation and modernization and 
selected recapitalization cannot occur without the resources 
identified in the President's budget.'' That is up to Senator 
Reed, myself, and our friendly appropriators to follow suit, 
and you note the criticality of congressional support. You have 
our support.
    You also mentioned the challenge of transforming the joint 
force in stride. It was daunting before, to get people's 
attention. Now, there is nothing like an exercise called Iraq 
to really get people's attention, but it is a daunting task to 
continue the mission that you are responsible for.
    I would like to move now to the statement of Admiral 
Cebrowski and just highlight some things that he said and which 
I think are terribly important. On page 10 of his testimony, 
and he did not read it, he summarized it like I asked him to 
do, but I think this is very important.
    ``The preferred U.S. military method is forward deterrence 
and the projection of power. As a matter of effectiveness, 
cost, and moral preference, operations will have to shift from 
being reactive, retaliatory, and punitive to largely being 
preventative.'' We have heard a lot about preemption, but we 
have not heard too much about being preventative. There is a 
difference.
    The implications of deter forward necessitate a major force 
posture review. Rebalancing from the current condition where 80 
percent plus of the force is U.S.-based, and everyone is 
competing for the same finite strategic lift--which, by the 
way, if we do not get the 767 leasing program done, we may not 
have any strategic lift. I thought I would toss that in, Jack.
    Accordingly, the emerging American way of war features 
highly network special operation-like forces, information age 
technologies and techniques to urban warfare, deny the enemy 
his sanctuary, surveillance-oriented forces to counter weapons 
of mass destruction. That is surveillance-oriented forces to 
counter the weapons of mass destruction, which is a different 
kind of concept, a concept of jointness that extends down 
through the tactical level of war. I just came back from Qatar, 
Kuwait, Pakistan, Afghanistan, Jordan, Turkey, and London, on 
what was called the Chairman Warner Death March I think, or 
forced march, at least, by the time we were through. I was 
tremendously impressed by the fact that everything is joint. 
From the uniforms, to the tactics, to the communications, 
everything is joint, not that we are there in terms of being 
seamless. I was looking at the intelligence side, but I think 
it is a good suggestion.
    Then you said, ``interagency capabilities for Nation-
building and constabulary operations.'' We all know that if in 
Afghanistan we are doing X, we are going to have to do 100 X in 
regards to Iraq.
    The adjustments in force structure and posture in 
consideration of the growing homeland security roles of the 
Coast Guard, National Guard, Air National Guard, and the 
Reserves. Senator Akaka brought this up. We have people in the 
Reserves who have been in Bosnia, Kosovo, and now Iraq, and in 
some cases in the Balkans two or three times. How on earth they 
can continue to do that is beyond me, and it is about half our 
force over there.
    Every time I meet with people, like Jack does, and we ask 
to meet with our own people, and I am talking about enlisted, 
non-commissioned officers (NCO), all the way up the command 
structure, and we pay more attention to the troops in the 
field, or at least we both do, and I ask how many are active 
duty, and I am always surprised at the number of hands, and 
then the number of hands who are Reserve and Guard. I do not 
know how we can continue this. The operations tempo is very 
severe, especially in the Reserves. You are going to have to 
give tax breaks to businesses or something of that nature.
    Now, I wanted to thank you for those statements. I wanted 
to thank you for the leadership in this. We both have a working 
draft of the document that hopefully will be popping out here 
real quick. When did you say this might happen in terms of 
timing, Admiral?
    Admiral Cebrowski. I expect within 2 weeks. It was approved 
on Thursday night.
    Senator Roberts. Well, here it was Thursday night, and here 
we have Friday, and we have a working draft. We can help you 
write it right here, if you would like. There is the 
Secretary's comment that is not really done yet. Maybe we could 
work on that.
    But on page 15, and I hope I am not violating any 
confidentiality here, you get to pillar 2 in regards to 
transformation strategy, and it rests on transformed 
intelligence capabilities. I am going to put on my intelligence 
cap as Chairman of the Intelligence Committee. You have some 
bullets here saying, allow us to warn of emerging crises and 
continuously monitor and thwart our adversaries' intentions, 
second, to identify critical targets for, measure and monitor 
the progress of, and provide the indicators of effectiveness of 
U.S. base campaigns.
    I asked Secretary Rumsfeld in his confirmation hearing what 
kept him up at night. He said, we need better intelligence. Let 
me ask you, in exploiting the intelligence advantages, in your 
view, what transformation is required of our defense 
intelligence capabilities to support the transformation 
program, and is investment in intelligence experimentation 
keeping pace with the overall experimentation campaign plan? 
Are we putting enough money into intelligence experimentation?
    Admiral Cebrowski. Yes, considerable work does need to be 
done with regard to intelligence, and the problem is 
characterized by two things. First, the intelligence officer is 
at the center of the intelligence universe instead of the 
customer, and second, the provision of intelligence is a 
stovepiped operation.
    The indication that there is a future for this which 
corrects both of those things is to be found at Fort Belvoir, 
in Army Intelligence and Security Command (INSCOM), under the 
command of Major General Keith Alexander.
    Senator Roberts. Is that the LIWA Center?
    Admiral Giambastiani. It used to be, sir. Now it is the 
Army's Intelligence Command.
    Senator Roberts. So we have a different acronym. What is 
the new acronym?
    Admiral Giambastiani. Army Intelligence Command.
    Senator Roberts. I sort of liked LIWA. That sort of had a 
ring to it.
    Admiral Cebrowski. In any case, sir, you might want to 
visit that.
    Senator Roberts. I have been there twice.
    Admiral Cebrowski. Okay, good.
    Senator Roberts. And got funding for it, by the way.
    Admiral Cebrowski. Great. The key feature of that is the 
establishment of what we call a data mediation layer which 
allows an analyst to look across all of the various intel 
stovepipes to perform his function. The next feature is to move 
the customer to the center, that is, the customer's question to 
the center of the process.
    A possible third step is to take a look at the implications 
for the existence of those stovepipes to begin with, and we are 
looking at that together with them and the Commander of U.S. 
Forces Korea, and that takes me to the second part. We are 
hoping to conduct an experiment with him much later, a little 
later this year, I think late this summer.
    Senator Roberts. Yes. He just testified before the 
committee yesterday, as a matter of fact.
    Well, knowledge management is the key. When our 
congressional delegation (CODEL) was in Pakistan I was 
tremendously impressed with the coordination of the military 
and our intelligence agencies and the Pakistanis, resulting in 
some pretty good news on the war on terrorism. I think we are 
being much more robust, much more aggressive, and we are really 
collaborating much better.
    The Intelligence Committee will be holding a hearing next 
week inviting the Director of the FBI to come up and to 
strongly assert his position that he would prefer not to have a 
Director of National Intelligence to take the place of the FBI.
    You mentioned stovepipes. Have you seen real progress, or 
some progress, or give it a grade in regards to much better 
collaboration and information-sharing, as opposed to the 
cultures that existed before September 11.
    Admiral Cebrowski. I do not feel qualified to answer the 
question, sir.
    Admiral Giambastiani. If I could, Mr. Chairman, I would 
like to just tail on Admiral Cebrowski's answer here. In 
specifically moving the customer toward the center of this 
operation, in our experimental work in prototyping at Joint 
Forces Command with regard to our standing Joint Force 
Headquarters, we have moved the customer to the center of this 
operation to perform four functions, knowledge management, 
operations, plans, and information superiority for just the 
reasons that you have pointed out. We are working very hard on 
this to break down what we consider to be the old J or G code 
structures to organize ourselves in this way.
    In fact, Lieutenant General McNeil, the Commander of Joint 
Task Force 180----
    Senator Roberts. We have met with him.
    Admiral Giambastiani. Yes, sir, and you saw some of his 
products out there. He has organized and is organizing himself 
in this way. These are part of the products out of Millennium 
Challenge 2002, and this is what we are currently prototyping 
right now to embed within all of the regional combatant 
commanders over the next 2 years.
    Senator Roberts. Admiral, you are going to take on the 
additional responsibilities as the Supreme Allied Commander for 
NATO Transformation? Now, I am not in a position to give you a 
Roberts Plan, or the Reed-Roberts Plan, or the Roberts-Reed 
Plan for NATO/Jones, or Jones-Roberts-Reed Plan, but at any 
rate, it is obvious to me that NATO could come up with a NATO 
response force, as opposed to European Security and Defense 
Identity (ESDI), that the Europeans keep talking about but will 
never fund and do not have the capability to operate, but a 
NATO response force is already bought and paid for.
    It could be more flexible. We could move east. You could 
BRAC (base realignment and closure) certain bases in NATO. We 
are going to have to look south to Africa, be more flexible, a 
lighter footprint. Tell me what you think about transformation 
of NATO, just off the top of your head here. I do not want to 
get too far down the road, because these are just my personal 
views, and I would just like to have your feeling about it.
    Admiral Giambastiani. Yes, sir. Just to let you know how 
important this subject is, General Jones, myself, and the 
interim Supreme Allied Commander Atlantic met in Norfolk 
yesterday for two-thirds of the day on this very subject.
    Senator Roberts. We could call it the Jones Plan, except I 
do not think he is quite ready to call it the Jones Plan, but 
there is a ministerial in NATO in June, and there would be an 
opportunity--with all the talk about the coalition of the 
unwilling, this would surely be an opportunity to get a 
positive message out that made a lot of sense.
    Admiral Giambastiani. Yes, sir, and I think we are striving 
collectively for a positive message here, and frankly, in 
January we, along with Supreme Allied Commander Atlantic, my 
old NATO staff before I was relieved, hosted a seminar for 2\1/
2\ days called Open Road. Day 1 centered on U.S. 
transformation. We had the largest group of NATO officers to 
come to Norfolk in anyone's memory, and I am talking about 
senior people, coming to listen on how the United States does 
transformation. Day 2 included NATO speakers and discussion 
seminar topics.
    That was a very important event, and a tremendous amount of 
interest as a result of last November's ministerials that the 
President attended, and the other NATO members said we want to 
create allied command transformation, so my staff, frankly, is 
doing more with NATO today than in the history of Joint Forces 
Command, U.S. Atlantic Command (USACOM), whatever it was in the 
past over this last 10 years, with regard to working on 
transformation. We are currently working on documents inside 
the military committee to help them on how we structure 
ourselves.
    The important points are as follows: 1) we want to make the 
organization leaner, if possible; 2) we want to create, as you 
have already mentioned, a second Supreme Commander for 
Transformation; and 3) to stand up this allied command 
transformation, and make that staff joint. Currently, it is a 
naval staff, and here I am a Navy officer talking to you, and, 
in fact, we are moving joint officers from the allied nations 
into it as we speak. The current Chief of Staff, who is a vice 
admiral in the Canadian Navy, is leaving. He will be replaced 
by an Army lieutenant general. We have a number of other 
officers who have reported in already.
    We are trying to do, in a space of about 8 months, what 
took 4\1/2\ years the last time to make any command structure 
changes, and so in itself we are trying to transform the 
organization.
    The NATO response force in my view and in General Jones' 
view, and he and I have talked extensively on this, we think, 
as you do, can be the centerpiece for how we transform the way 
we do business with NATO, how we get to use it, how we get to 
operate it.
    I would like to see NATO stand up a joint warfighting 
center similar to what we have in Suffolk, Virginia in the U.S. 
Joint Warfighting Center so that we can train a combined Joint 
Task Force staff. I think you will see that become a reality, 
and I think the nations will support this significantly.
    So in summary, I would tell you it is an important thing 
for us to transform this coalition, make it more useful, 
usable, and more easily used.
    Senator Roberts. Admiral, if we do not, NATO becomes 
irrelevant.
    Admiral Giambastiani. Yes, sir.
    Senator Roberts. We are on the cusp of that, and I cannot 
emphasize enough the importance of your keeping us posted on 
your advice and counsel on this. I will not go any further with 
it. I think it is in the developing stage. Obviously, each 
nation cannot develop the capability we have, that is 
impossible, but we can pool it. That is the key word. They call 
it pooling, and I think the faster we can get this done post 
the conflict in regards to Iraq, the more things may settle 
down in regards to the alliances that we must keep, and the 
most important thing of all is the transatlantic partnership 
that we have had in the past.
    Let me ask you how the Services are responding to all of 
your efforts, and this could be to both of our witnesses. How 
would you characterize the level of cooperation of the military 
Services and the joint training, joint concepts development, 
and joint experimentation process, more particularly the Army?
    Senator Reed. Then the Marine Corps after that. [Laughter.]
    Senator Roberts. We have to be joint. We just have baling 
wire. [Laughter.]
    Admiral Cebrowski. The principal finding of our review of 
the service department road maps was that the Secretary is 
being well-served by energetic and committed leadership that is 
committed to transformation. That is really not the issue. They 
are moving forward quite well.
    Senator Roberts. So you are optimistic about that?
    Admiral Cebrowski. Sir, I am optimistic. I am somewhat less 
optimistic, however, about the ability of the institution to 
correct some of the fundamentals, such as improvement in 
capability cycle time, which is an increasing concern. There is 
a lot of talk about it and a lot of energy is being poured into 
it. It remains to be seen whether or not it will deliver.
    It is not just that we want to have forces and new things 
in the field sooner. When you have a capability cycle time of 
16 years or 20 years, your learning curve is flat, and in an 
age when power accrues to those who can create new knowledge 
and innovation, we put ourselves at a considerable 
disadvantage.
    Senator Roberts. How do you fix that? Other than putting 
you in charge, how do you fix that? [Laughter.]
    Admiral Cebrowski. Well, Senator Reed talked earlier about 
culture change. We have a culture which is based on stability, 
the notion that you know what the threat is and the environment 
is generally stable, and you can plan things out for a long 
time. We also focus on risk management through the lens of 
technology, that is, suppressing technical risk.
    We also are very efficiency-oriented, which means we spend 
the taxpayers' money, we are good stewards of the taxpayers' 
money but in the most expensive way possible, because we feel 
compelled to study it to death. There are probably things out 
there that would be less expensive to do than it would be to 
study, and the important thing is to get on with it.
    I think about the run-up to World War II, when we did not 
know what kind of cruisers to buy, and so we started a chain of 
three classes of cruisers. We did not know what kind of 
destroyer to buy, so we started to build four of them. That 
turned out, those two decisions were margins of victory in the 
Solomons, and that is the approach we need to take now, and 
that is a completely different culture. It says, we do not have 
to have the first ship of the class, for example, be perfect. 
It says the important thing is to get the ship in the water 
where the forces can experiment with it, learn about it.
    Senator Roberts. Do you want to give the catamaran example?
    Admiral Cebrowski. Oh, I think that is a great example.
    Senator Roberts. You were talking about it 2 years ago in 
my office, and you have how many in the theater?
    Admiral Cebrowski. We have two, I think, in the theater 
right now, and we have another that is going to be delivered, I 
believe within a matter of weeks to the Atlantic Command.
    Senator Roberts. The value of that particular craft is?
    Admiral Cebrowski. The cost?
    Senator Roberts. No, the value of it in terms of the 
mission in regards to the littoral threat.
    Admiral Cebrowski. Oh, the value is difficult to measure 
because the metrics we have are all based on older 
capabilities. It introduces a new, broadened capability that we 
did not have before in terms of speed, numbers of port 
facilities which can be accessed, not just speed of the craft, 
but also speed with which you offload. These things were built 
on ferry technology.
    I used to command an amphibious ship and it would take all 
day to load it and just as long to unload it. Now we are 
talking about craft where we can offload the equipment of a 
battalion, the whole battalion landing team plus its command 
element in probably 20 minutes or less. This is a degree of 
flexibility that we simply have not had before, and we buy it 
at about one-tenth the cost of the conventional ships.
    My point is not that we should give up the conventional 
ships, but that we need to introduce the mix, because it is in 
the mix that we have the broadened capabilities.
    Senator Roberts. Are you cracking that nut that you are 
talking about in terms of the culture, all these points that 
you have just made? I mean, do you feel confident that you are 
making progress in that regard?
    Admiral Cebrowski. Yes, I do feel as though we are making 
progress, but you talked about rope-pushing, and that is rope-
pushing, there is no doubt about it.
    Senator Roberts. We have already touched on the Millennium 
Challenge. I will not go into that, and Jack, don't worry, I 
really do not have too many cards left.
    Senator Reed. I have just two questions, then.
    Senator Roberts. We will let you do that in just a moment.
    Admiral Giambastiani. Mr. Chairman, while you are looking 
at your next card, I wonder if I might add on cooperation.
    Senator Roberts. I have memorized them all, of course.
    Admiral Giambastiani. Yes, sir.
    Senator Roberts. But go ahead. [Laughter.]
    Admiral Giambastiani. I would just like to add, on working 
with the Services I think the key thing to look at from the 
Service perspective is a 17 September 2002 one-page document 
that Secretary Rumsfeld signed that was a result of 2\1/2\ 
months of senior-level review group. This is the Service 
Chiefs, the Chairman, the Secretaries of the Services, the 
Under Secretaries, where they came out and gave the top 10 
priority list.
    It is an unclassified document. I know your people have it, 
because it talks about legislative priorities on page 1, and on 
the back of it is what is called the draft top 10 priorities 
for the Defense Department for the next 6 to 12 months.
    In the top three priorities I mentioned in my testimony, 
global war on terror, in fact, transforming joint warfighting 
capabilities and transforming the joint force, the Service 
Chiefs and the Service Secretaries were forward-leading there 
in pushing that.
    I am optimistic, like Admiral Cebrowski is, that the 
Services want to play in this. However, I will put a caveat on 
it, as he did, but a different one, and that is, I find on a 
routine basis, though, because the Services, like any other 
large bureaucracy, are a large bureaucracy, it is tough to get 
down sometimes in the middle of this. For example, I will have 
staff people who will come back and say, the Navy is not in 
agreement with this, the Army does not want to experiment here, 
and what we find is, I say to them, okay, well, who is speaking 
for the Navy, who is speaking for the Army.
    So number 1 is, I will tell you that there is a tremendous 
drive at the senior levels to push this. Number 2, one or two 
quick examples. The Service Chiefs and the Service Secretaries 
all ask for joint concepts of operations on which to base the 
building, organize, train, and equip of their programs. That is 
really quite remarkable, the fact that they would ask for a 
joint context to be able to do their work.
    Each of the Service Chiefs is very committed. Just 
yesterday I had General Hagee in my office, having a very good 
discussion with him. Frankly, he used to make me do pushups, 
because he was my squad leader at the Naval Academy many years 
ago, but he and I are old friends and we work well together. 
Every one of the Service Chiefs has been forward-leaning.
    In the case of the Army, I will tell you they are sending 
me just the best officers they can give me, general and below, 
on my staff. We are, in fact, going to, for the first time 
ever, have Joint Forces Command and the United States Army 
combine in a joint war game. It used to be the Army's 
transformation war game, and we are both equal partners in 
this. We have called it Unified Quest, and it is going to start 
on 28 April, and it is going to go for about 4 days, right into 
early May.
    Senator Roberts. Where?
    Admiral Giambastiani. It is going to happen, I believe at 
Carlisle Barracks, and we are going to participate and, in 
fact, not only participate, we are working together with them 
to do this, and we are going to take this same common joint 
context and bring it to the other Services.
    The Navy will probably be next. We are working with the Air 
Force and the Marine Corps. The only reason why we did not do 
them first is because of the timing of their currently 
scheduled games and how we could integrate with them. I think 
these are all good messages, and that is what I would leave you 
with.
    Senator Roberts. I want to bring up one other thing, and 
then I am going to yield to Senator Reed and we will close the 
hearing.
    We have talked a lot about transformation, but I want to 
see how this fits into the concept of homeland security and the 
role of the Department of Defense in homeland security. What 
transformational capabilities and concepts are required to meet 
the Defense Department's responsibilities in the area of 
homeland security and homeland defense?
    Now, I am going to mention something here that perhaps I 
should not, but in homeland security we just got a new 
coalition support team, by the way, in Topeka, Kansas, which 
gives our National Guard units--I cannot remember the number we 
are up to now, but I think DOD lagged a little behind in 
homeland defense and said, no, we really do not want that 
authority, and then the National Guard took a look at it and 
said, well, but wait a minute, we are to augment the active 
duty folks, but now I think they are welcoming it with open 
arms.
    But if you get into homeland security and the threats that 
could happen, one of the things that fell into my lap when they 
could not find anybody else to do it is that I played the 
President under an exercise called Crimson Sky with the 
Department of Agriculture.
    Now, Crimson Sky was the misnomer label of what would 
happen if Iraq had launched a hoof and mouth disease infection 
in the United States in seven States. That does not sound like 
much on the surface of it, but you have an infestation period 
of 6 days, and on the 7th day you have to make some decisions, 
and we did not do very well. We ended up with 50 million head 
of livestock that had to be terminated. How do you do that, 
just on the surface of it?
    How on earth do you do that, and what do you do with the 
carcasses? Obviously, you call the National Guard, and then the 
National Guard could not handle it all, so you call in active 
duty personnel. Then we found out we did not have enough 
ammunition. Then we found out, you do not burn the carcasses 
because, as we learned in Great Britain that is not what you 
do, so you had to bury them. There was a ditch 25 miles long 
and a half a football field wide in Kansas alone, just to 
handle the herds there.
    Then we had to put a stop order on all shipments, because 
you were having States and National Guards being activated by 
the Governors to stop other States in transportation of 
livestock. All exports stopped, the markets went nuts, and the 
people in the cities finally figured out that their food did 
come from farms and not supermarkets. [Laughter.]
    They rioted in the streets, and it was a mess, and not only 
for 1 year, but for several years. Then add in the problem of 
food security, that if you put a little anthrax in the milk, 
you really have a problem on your hands.
    I know at that particular time when different events happen 
that DOD will be there. They are going to have to be there, 
because they are the only outfit that can do it. I prefer the 
National Guard, because people know them, trust them. They are 
the home forces, and they are working toward it.
    In terms of transformation, I am not sure I see much 
progress in that arena. Each State is doing different kinds of 
things, each Governor is doing different kinds of things. It is 
sort of a hodge-podge kind of arrangement. We are better, but I 
do not even think we are close in regards to the progress that 
we have made in the intelligence community with the 13 agencies 
that comprise that outfit.
    Any comments?
    Admiral Giambastiani. I would be happy to make a couple of 
quick ones. You know previously that Joint Forces Command was 
working in this area, homeland security and homeland defense, 
and now we are the force provider, if you will, for Northern 
Command.
    One very important and key indicator that I think General 
Eberhardt has brought about in Northern Command is, his chief 
of staff is a National Guard officer, so of the top three 
within the command, the number 3 guy is a National Guard 
officer. That, in my view, is very significant. In fact, the 
fine gentleman he just had has been promoted to lieutenant 
general and is now becoming the head, as you well know, of the 
National Guard Bureau.
    Number 2, one of the best ways for us to explore in some of 
these areas is to run exercises and experiments and, in fact, 
we have a series called Unified Defense that started under 
Joint Forces Command and has now been exported to Northern 
Command, and we support them in the running of this exercise. 
In fact, we wound up having to do a simulated one due to a run-
up here recently because of the high levels.
    What I will just tell you is that these Unified Defense--
and we do two of these a year for Ed Eberhardt--are very 
important exercises, and our imagination has to run to allow us 
to explore the types of things you are talking about in these 
exercises.
    Senator Roberts. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. First, 
Admiral Giambastiani, you made reference to a two-page memo. 
Could you make sure we get a copy of that?
    Admiral Giambastiani. Yes, sir. I will leave it with you 
when I leave.
    Senator Reed. Thank you very much.
    Let me follow up on the issue of rapid acquisition funding. 
Admiral Giambastiani, you talked about funding within this 
year's JFCOM budget. Admiral Cebrowski, you mentioned both the 
TIP and the JRAP programs. There are already, as I understand 
it, other programs to achieve similar objectives like advanced 
concept technology demonstrations (ACTD), the technology 
transition initiative, and the Services' rapid acquisition 
programs.
    Can you clarify for me how these different funds interact, 
and who oversees and coordinates these funds?
    Admiral Cebrowski. I am meant to oversee the TIP, and the 
Under Secretary of Defense for Acquisition is meant to oversee 
the JRAP.
    Senator Reed. What about these other funds, the ACTDs, the 
technology transition? Is there a coordination or 
collaboration?
    Admiral Cebrowski. Those are all under the Under Secretary 
of Defense for Acquisition. There is, of course, a profound 
difference between the JRAP and TIP and the ACTD. The ACTD 
process is well-defined, and even though it is rapid compared 
to some of the other----
    Senator Reed. The normal acquisition.
    Admiral Cebrowski. Yes. It is still quite ponderous, and we 
need things that can work on the near side of that, and these 
other programs are meant to help with that.
    Furthermore, they are also meant to focus specifically on 
joint constituency, as opposed to service.
    Senator Reed. Thank you, sir.
    Admiral Giambastiani, I understand that JFCOM is one of the 
potential operational users of the Doppler total information 
awareness suite of data collection and analysis technology. How 
do you propose making use of this total information awareness 
(TIA) program at JFCOM, or do you?
    Admiral Giambastiani. What we are interested in is the 
technology with regard to how it relates to external sources, 
if you will, foreign intelligence and the ability to collate, 
fuse, network, and use this in that organization I talked to 
you before about where we look at knowledge management and also 
the information piece, how that is fused for a standing joint 
force headquarters, so we are talking about foreign 
intelligence external to the United States, but we are very 
interested in those technologies, because they have some very 
powerful capabilities that we would like to leverage off of.
    Senator Reed. Could you give me a hypothetical example?
    Admiral Giambastiani. Well, let me give you an example. If, 
for example, we have a variety of communications intelligence 
sources, electronic intelligence sources, in other words, all 
of these different INTS, and how we fuse and put that together 
is a very key component in allowing our people to have 
situational awareness so that the customer is the guy who is 
getting that.
    That is why, when Admiral Cebrowski said before, if you, 
Senator Reed, have not been down to the Army's Intelligence 
Command, for example, and visited General Alexander, I commend 
you to do that. He has done a lot of this very well, and he is 
interested in it, too.
    Admiral Cebrowski. I think a good example is the one that 
Senator Roberts pointed out, the hoof and mouth disease 
scenario, and what his explanation or his recounting of that, 
which was very dramatic, pointed out was the difficulty when 
you have zero depth of battle space, and what we need is 
intelligence efforts which will create for us depth of battle 
space, moving unambiguous warning to the left so that it 
happens earlier, so that we can work earlier. We want to start 
acting when the problem is on the other side of the globe, and 
then start working it in.
    Senator Reed. The kinds of intelligence capabilities that 
you two gentlemen have been talking about are going to help us 
considerably with that.
    Admiral Giambastiani. This movement of unambiguous warning 
to the left, today you can see as we try to grope with the 
variety of little hints and scraps of information that we get 
with regard to what is happening and how it applies to homeland 
defense, systems like these are very important to try to bring 
this information and fuse it in a way that is useful so that 
you can tie threads together, if you will, connect the dots and 
give you information, because those smoking guns that everybody 
is looking for out there are so tough today because people know 
how good our systems are and will do everything to try to 
combat them.
    Senator Reed. You have indicated in your response that you 
are only going to use external sources, so that is a very 
clear, broad line in your mind about what information you are 
going for.
    Admiral Giambastiani. Absolutely.
    Senator Reed. I know Senator Wyden had an amendment that 
put some constraints on the TIA development. Does that impact 
your use of this at all?
    Admiral Giambastiani. Sir, I will take that for the record. 
I just have not looked at what he has written and how it would 
apply.
    [The information referred to follows:]

    We are aware of the Wyden amendment (Public Law 108-7) and its 
requirement that the Secretary of Defense, acting jointly with the 
Attorney General and the Director of Central Intelligence, submit a 
report to Congress regarding proposed research and development 
activities of the Total Information Awareness (TIA) program. We 
understand that the Department of Defense intends that that report be 
submitted as required. If so, then there should be no impact on U.S. 
Joint Forces Command's current participation with the Defense Advanced 
Research Projects Agency (DARPA) in research and development efforts on 
the TIA program. U.S. Joint Forces Command's interest in the TIA R&D 
program is to explore the possibility of using TIA technologies to 
establish a collaborative environment for collection and fusion of 
foreign intelligence to enhance situational awareness for the 
warfighter. Any TIA activities conducted by U.S. Joint Forces Command 
will comply with all applicable laws and regulations, including the 
Wyden amendment and long-established intelligence oversight guidance.

    Senator Roberts. Would you yield?
    Senator Reed. I would yield to the Senator.
    Senator Roberts. I talked with Senator Wyden at length 
about it and he has done his homework. I think we can, I do not 
want to say work around, but work through his concerns, which 
we all share in terms of civil liberties. I would point out 
that yesterday in the Intelligence Committee we were going over 
the budget of the National Security Agency (NSA) and the 
National Reconnaissance Office (NRO), and I am not going to get 
into that, with the exception that we have had to plus-up and 
have plussed up a great many analysts, but our collection 
assets just knock your socks off, and the amount of information 
that comes in is just incredible.
    We have to get some kind of an analytical product that 
makes sense, and you get into knowledge management again. I 
know all these are sort of gobbledy-gook words, but the young 
man who quit the Defense Intelligence Agency (DIA) the day 
after the U.S.S. Cole incident thought he saw storm clouds 
here, lightning going to strike here, and it was 
transformational. They paid attention, but they did not think 
that was enough to issue a threat warning.
    I am not sure it would have saved the U.S.S. Cole, but now 
we have a situation, more especially in the Navy where we 
insist, no more U.S.S. Coles, and it is that kind of thing, 
that if you had had enough advance information, and I think we 
finally tumbled to the fact that terrorism was really 
transnational.
    Only 6 percent of the information that comes in can be 
handled now by the analysts, and so you have to have different 
platforms like, what is it, TIA? I think I would have named it 
something else, but maybe we can come up with a new acronym 
that will not be quite so threatening, I guess, but total 
information awareness, but I think it is an excellent question.
    We have to do this, or we will not be able to do the job in 
the intelligence community that we have to do.
    I have one final question. The Joint Personnel Recovery 
Agency is an element that means a lot to every service person 
and a lot to everybody on this subcommittee and to me 
personally, and I am using the case of Michael Scott Speicher, 
the Navy pilot who was left behind, and there are other cases.
    I hope we will ultimately go to a system where all of our 
service men and women get the same advanced training regarding 
how to act if captured, and uniform gear that they have on 
their persons so that that would aid and abet them should that 
happen. I can tell you that on this CODEL that we went on, in 
every command that we talked to, when I said no more Speichers, 
everybody agreed, because it goes to the heart of what we stand 
for and the difference in the cultures where we now have a 
conflict, or an impending conflict.
    You do not have to respond. That is just an observation on 
my part, if we can insist that everybody that could be put in 
harm's way get that same kid of training and same kind of gear, 
that would prevent another Speicher.
    With that, I conclude the hearing. I thank you, gentlemen. 
Persevere. We are with you.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

                           TRANSITION FUNDING

    1. Senator Reed. Admiral Giambastiani, in coordination with other 
parts of the Department of Defense, please provide a comprehensive list 
and description of current and planned programs whose objective is to 
more rapidly transition transformational capabilities to the 
warfighting force. Please include in each description the year the 
program began, the office or individual responsible for allocating the 
funding, a funding profile for fiscal years 2002-2009 (including new 
starts in the out years), and specific information about the phase or 
phases of the development and acquisition process the program is 
intended to affect. Please also provide an overarching description of 
how these programs will be coordinated to ensure maximum benefit from 
the proposed resources. Service-specific initiatives should be 
included.
    Admiral Giambastiani. I can do no better than cite Secretary 
Rumsfeld's analysis of the transformational aspects of the President's 
budget for fiscal year 2004. In particular, he cites the programs that 
support the Department's six transformation goals:
    For programs to help defend the U.S. homeland and bases of 
operation overseas--such as missile defense--we are requesting $7.9 
billion in the 2004 budget, and $55 billion over the Future Years 
Defense Program (FYDP).
    For programs to project and sustain forces in distant theaters--
such as new unmanned underwater vehicle program and the Future Combat 
Systems--we are requesting $8 billion in 2004, and $96 billion over the 
FYDP.
    For programs to deny enemies sanctuary--such as unmanned combat 
aerial vehicles, and the conversion of SSBN to SSGN submarines--we are 
requesting $5.2 billion in 2004 and $49 billion over the FYDP.
    For programs to enhance U.S. space capabilities--such as Space 
Control Systems--we are requesting $300 million in 2004 and $5 billion 
over the FYDP.
    For programs to harness our advantages in information technology--
such as laser satellite communications, Joint Tactical Radio, and the 
Deployable Joint Command and Control System--we are requesting $2.7 
billion in 2004 and $2 billion over the FYDP.
    For programs to protect U.S. information networks and attack those 
of our adversaries--such as the Air and Space Operations Center--we are 
requesting $200 million in 2004 and $6 billion over the FYDP.
    Over the next 6 years, we have proposed a 30 percent increase in 
procurement funding and a 65 percent increase in funding for research, 
development, testing, and evaluation (RDT&E) above the 2002 baseline 
budget--a total investment of around $150 billion annually.
    In addition to these increases, RDT&E spending will rise from 36 
percent to 42 percent of the overall investment budget. This shift 
reflects a decision to accelerate the development of needed next 
generation systems and accept some near-term risk.
    Among the more important transformational investments we propose is 
our request for funds to establish a new Joint National Training 
Capability. In the 21st century, we will fight wars jointly. Yet, our 
forces still too often train and prepare for war as individual 
Services. That needs to change. To ensure that U.S. forces train like 
they fight and fight like they train, we have budgeted $1.8 billion 
over the next 6 years to fund range improvements and permit more of 
both live and virtual joint training--an annual investment of $300 
million.
    The total investment in transforming military capabilities in the 
2004 request is $24.3 billion, and about $240 billion over the FYDP. 

                             JROC PROCESSES

    2. Senator Reed. Admiral Giambastiani, last year General Pace 
testified that the Joint Requirements Oversight Council (JROC) was 
still in the position of ``grading somebody else's homework'' when it 
came to requirements development, and that the JROC was still not being 
as proactive as it should be in ensuring capabilities are ``born 
joint.'' Can you give an update on your evaluation of the status of the 
JROC in this regard--as you put it in your testimony, are we getting 
better at putting the ``joint horse'' before the ``service cart'' in 
the JROC as well?
    Admiral Giambastiani. I believe General Myers gave a good update on 
how the JROC is evolving to help all of us produce ``born joint'' 
requirements. In his posture statement, he noted that ``--the JROC will 
implement methodologies to assess both legacy and proposed systems in 
the aggregate. As a result, the JROC will define and validate desired 
joint capabilities and derive mission area requirements. The JROC shall 
consider the full range of doctrine, organizations, training, materiel, 
leadership and education, personnel, and facilities solutions to 
advance joint warfighting. In this manner, the JROC will further 
reorient our force planning to a capabilities-based framework. The 
Joint Operations Concept will allow the JROC to adopt a synchronized, 
collaborative and integrated systems engineering approach to sizing and 
shaping our forces.'' In this case, the ``joint horse'' driving the 
``service cart'' is the Joint Operations Concept, derived from our 
Joint Vision and the Defense Strategy. That will ensure all the 
Services have the proper ``joint context'' with which to develop their 
concepts and programs. The JROC is working to adapt its processes to 
contribute meaningfully to our collaborative efforts to produce the 
best possible capabilities for the joint warfighter. Much work lies 
ahead.

    3. Senator Reed. Admiral Giambastiani, are you satisfied with your 
role in JROC deliberations?
    Admiral Giambastiani. To date I am satisfied with my role in JROC 
deliberations. In our role as the Joint Integrator, Joint Forces 
Command has had good results working with the JROC to ensure that 
requirements for new defense systems include key interoperability 
performance parameters. We are also working closely with General Pace 
and the Service Chiefs on a variety of Transformation Change Packages 
that capture the results of our experimentation and integration work. 
The proof of the process, however, will be product--the adoption of 
joint warfighting programs with adequate resources. Much work remains 
to be done, though we have made a good start.

    4. Senator Reed. Admiral Giambastiani, you also mentioned in your 
testimony that the JROC's requirements process sets out clear criteria 
which serve as benchmarks for testing. How will the proposed shift to a 
capabilities-based assessment process (and the movement away from clear 
requirements definition) affect DOD's ability to evaluate its weapon 
systems with tests and experiments?
    Admiral Giambastiani. I believe the shift from a requirements based 
to capabilities based assessment process is not going to affect 
Department of Defense's ability to evaluate its weapons systems with 
test and experiments. The difference in the approaches is in the ``up 
front'' conceptual work to drive capability development--not in the 
detailed elaboration of key performance parameters that form the 
foundation of our test and evaluation efforts. The Quadrennial Defense 
Review, Defense Planning Guidance, and other strategic documents will 
provide guidance for transformation strategy, implementation, and joint 
experimentation. The Chairman, using the results of experimentation, 
will approve joint operating concepts, supported by born-joint and 
Service-led concepts that define how the transformed joint force will 
operate. These concepts, assessed against integrated architectures, 
will be used to develop or define capabilities based requirements.
    With a capabilities based approach, especially within the joint 
arena, we can now be more assured that systems are born joint and can 
perform their missions within a joint context. U.S. Joint Forces 
Command's current involvement in the development of Capstone 
Requirements Documents and Key Performance Parameters and future role 
in developing integrated architectures helps to ensure the jointness of 
Service systems before we ever get to the assessment phase. The rigor 
and integrity of that phase will remain intact and indeed essential.

                  EXAMPLES OF EXPERIMENTATION FAILURES

    5. Senator Reed. Admiral Giambastiani, witnesses before this 
committee have repeatedly stressed the importance of being able to fail 
during experimentation as a critical enabler of the creative process. 
With that in mind, can you cite some of our most revealing or 
significant failures over the past year or so, including examples from 
Millennium Challenge 02, and what you learned from them?
    Admiral Giambastiani. Our experimentation efforts are designed to 
take risks and accept failure in our concept development process. 
Learning from our previous experiments, we have made risk an important 
factor that is encouraged in future experiments. It is the only way we 
can drive new warfighting concepts to achieve new and improved 
operational approaches and capabilities.
    For example, during our May 2001 Unified Vision 01 (UV01) precursor 
experiment to Millennium Challenge 2002 (MC02), we tested effects-based 
warfighting concepts without the benefit of a robust Operational Net 
Assessment (ONA) of the enemy or a functional collaborative information 
environment (CIE). We found that without a robust ONA, a dynamic and 
comprehensive system-of-systems analysis of the enemy, and a functional 
CIE, little was different in our approach to warfare. Learning from 
these shortcomings, we matured the ONA concept and designed tools and 
capabilities to rapidly integrate intelligence and create actionable 
knowledge. These improvements better enabled our MC02 experimental 
audience to approach warfare differently by leveraging information 
technologies and a more comprehensive and robust understanding of the 
enemy. However, even after 2 years of experimentation, only CIE was 
recommended for immediate implementation. The effects-based operations 
and ONA concepts and associated capabilities remain in development. 

    6. Senator Reed. Admiral Cebrowski, what do you consider to be the 
most significant failures in your work and what have you learned from 
them?
    Admiral Cebrowski. One aspect of force transformation that we have 
yet to achieve is to embed a culture of experimentation throughout the 
defense establishment. Experimentation is essential for defense 
transformation. Only through experimentation will we learn and  gain 
enough experience to understand what approaches comprise the best paths 
for U.S. Armed Forces to extend and broaden their competitive 
advantage, and to rapidly adapt to the uncertainties inherent in 
information age warfare.
    Experimentation should be widespread--planned and executed in a 
decentralized manner, guided by principles of competition and 
cooperation in the information age. Every organization should adopt a 
culture of examining and reexamining its practices and experimenting 
with new approaches to extend its capabilities at every opportunity. 
Operators, technologists, and systems integrators should work in teams, 
rapidly prototyping technology and coevolving organizational and 
procedural change to achieve desired capabilities. Spiral 
transformation that significantly improves operational capabilities is 
possible in months, rather than decades, by transforming current 
acquisition approaches and the development of joint mission 
capabilities.

                   STANDING JOINT FORCE HEADQUARTERS

    7. Senator Reed. Admiral Giambastiani, I am encouraged by the 
potential for Standing Joint Force Headquarters (SJFHQ) to greatly 
improve the process of standing up and operating joint command and 
control elements much more efficiently. I am still unclear, however, on 
how these organizations relate to more traditional staffs. Can you 
clarify how an SJFHQ would interact with the permanent staffs of the 
regional combatant commands, with the component commanders in a joint 
task force, and with the Joint Staff?
    Admiral Giambastiani. We are in the process of maturing and 
validating the SJFHQ concept through cooperative efforts with several 
combatant commanders. These collaborative efforts will clarify how a 
fielded SHFHQ will interact with other elements of a regional combatant 
command, the Joint Staff and others. In concept, informed by the 
Millennium Challenge 2002 Experiment and preliminary work with 
combatant commands, the SJFHQ will be an integral part of the combatant 
commander's staff and have routine interaction with the rest of the 
staff, component commands, and the Joint Staff. One key difference is 
the envisioned method of interaction, which will exploit innovative 
information technologies and collaboration tools. Finally, the SJFHQ is 
designed to be the full time nucleus of a Joint Task Force (JTF) 
headquarters.

    8, 9. Senator Reed. Admiral Cebrowski, in response to questions at 
our hearing last year, General Pace suggested that we should move away 
from dividing the battle area into air, land, and sea sections and 
instead conceive of it as joint battle space. I agree   with his idea 
but wonder if our organizational structures support such a concept. 
That is, we continue to have air, land, and maritime force component 
commanders. I wonder if it might be fruitful, however, to think about 
alternative ways to organize, perhaps around missions or capabilities. 
In your view, is the current joint task force organizational framework 
still relevant? Does the current joint task force organizational 
framework support the kind of integrated view of the battle space we 
are trying to encourage? If not, what alternatives have you looked at 
or are you considering.
    Admiral Cebrowski. A key feature of the JTF framework is that the 
commander can change it to suit mission requirements. There are many 
models for the division of activities and responsibilities across a 
notional battle space. The primary inhibitors in each of these models 
are ``interoperability based.'' I am less concerned about how we divide 
the battle space than I am about the interoperability that we can 
demonstrate across that battle space--both at the operational and 
tactical levels of warfare. To the degree that we address 
interoperability only at the operational level of war, we inhibit 
interoperability at the tactical level of war. Also, we must address 
interoperability by eliminating the divisions between the traditional 
functional stovepipes--intelligence, operations, and logistics. These 
stovepipes exist as a consequence of traditional industrial age warfare 
organizational models. It is apparent that the increasing complexity of 
the information age battlefield is rendering these organizational 
models not just inadequate, but obsolete. In short, our technologies 
are outpacing the ability of our organizations to act on the 
information those technologies provide. The task now is to put in the 
hands of commanders viable alternatives--from experimentation, from war 
games, from field exercises, and most importantly, from our most recent 
real-world examples. In OFT, we are currently developing a 
collaborative demonstration/experimentation program for ``Sense and 
Respond'' logistics that addresses new network-centric organizational 
models for the information age battlefield.

                           JFCOM TOUR LENGTH

    10. Senator Reed. Admiral Cebrowski, do you know if the Office of 
the Secretary of Defense is considering extending the tour length of 
key transformational positions such as Commander, Joint Forces  
Command?
    Admiral Cebrowski. The recently submitted ``Defense Transformation 
for the 21st Century'' contains the Department's position on extended 
tour lengths for some officers/positions.

    11. Senator Reed. Admiral Giambastiani, in your mind what would be 
the main pros and cons of such an extended tour?
    Admiral Giambastiani. In general, I favor longer tours, however, 
transformation depends as much on the power of the idea as the 
stability of a single person. Powerful ideas take on a life of their 
own as they gain credibility, maturity, and supporting constituencies.
    Joint Forces Command's role in transformation is effectively 
supported by a work force with the right blend of continuity with fresh 
perspectives and operational experience. Joint Forces Command's mix of 
stable, professional civilian and rotational military personnel is 
about right. Continuity ensures long-term focus and efficiency, 
providing the ability to see things through to closure and avoiding 
frequent changes of direction. Conversely, fresh ideas and personal 
energy are important to the business of transformation. Periodic 
leadership changes and infusions of recent operational experience 
revitalizes an organization, prevents stagnation, and brings new 
perspectives to the mission--vitally important in an organization 
charged with being open-minded and inquisitive. Additionally, 
transitions expose more officers to transformation and allow them to 
carry their new knowledge and enthusiasm back into the force.

                          IMPLEMENTING CHANGES

    12. Senator Reed. Admiral Giambastiani, you have talked in the past 
about allowing enough time for experimentation to mature and bear 
fruit. On the other hand, you have described some of the transformation 
packages that you have prepared for the JROC. As I understand it, some 
of those packages were presented within months of the conclusion of 
Millennium Challenge, the first major experiment to test them. When you 
develop your transformation packages for the JROC, do they represent 
all of the anticipated changes across each of the Doctrine, 
Organization, Training, Materiel, Leadership, Personnel, and Facilities 
(DOTMLPF) areas, or are they sometimes incomplete (e.g., only include 
personnel and materiel implications)? If they are not complete, are 
JROC  members being asked to support initiatives prematurely?
    Admiral Giambastiani. U.S. Joint Forces Command is working across a 
wide spectrum of concepts and issues to identify immediate combatant 
commander needs as well as looking to joint experimentation for new 
operational methods and capabilities to support the joint warfighter. 
Some joint experimental initiatives like Standing Joint Force 
Headquarters and its supporting concepts will take time to mature, yet 
have some developed aspects of DOTMLPF that are of immediate value to 
joint warfighting, these should be fielded as soon as possible. Not 
every capability will require that each part of the DOTMLPF spectrum be 
addressed concurrently; this does not mean that capability 
recommendation is incomplete or premature, but that portions of each 
capability mature at different intervals. Each capability is unique and 
some rapidly accelerated near-term capabilities will need follow-on 
refinement.

                       JFCOM EXPERIMENTATION PLAN

    13. Senator Reed. Admiral Giambastiani, in your confirmation 
hearing last summer, you stated that your priority would be to 
``conduct a complete review'' of U.S. Joint Forces Command's 
experimentation plan. What is the status of that review? What changes 
have you made or do you intend to make, and why?
    Admiral Giambastiani. In the wake of Millennium Challenge 02 
(MC02), we have evolved our Joint Concept Development and 
Experimentation Campaign Plan to build on MC02 results and to support 
updated guidance from the Secretary of Defense and the Chairman, Joint 
Chiefs of Staff. To help refine our plan, we have held a NATO Concept 
Development and Experimentation conference, two-star level conferences 
with the combatant commanders and Services, in addition to briefing 
commanders, Service Chiefs and the Chairman of the Joint Chiefs of 
Staff.
    Our near-term objectives for experimentation now include four 
elements: 1) field the Standing Joint Force Headquarters (SJFHQ) to 
provide the structure and the enabling concepts for developing 
transformational joint command and control, 2) pursue rapid prototyping 
of capabilities to improve joint warfighting now, 3) provide actionable 
recommendations from experimentation results to senior leaders 
concerning options for future force investment, and 4) include our 
Combatant Commands, Services, defense agencies and multinational 
partners and leverage their experimentation activities. A coordination 
draft Joint Concept Development and Experimentation Campaign Plan will 
be reviewed and endorsed by the JROC, and final draft forwarded to the 
Secretary of Defense via the Chairman, Joint Chiefs of Staff by 01 
August 2003.
    As a result of this review and technical analysis, we are embarking 
on a two-path plan of action. The first, which we call the Concept 
Path, will focus on developing concepts for the far-term and develop 
recommendations for future investment. The immediate objective of our 
efforts along the Concept Path is to refine a Joint Operations Concept 
for the Armed Forces of the United States. The second, or prototype 
path, focuses on the near-term fielding of prototype capabilities to 
our warfighters, giving them potentially transformational capabilities 
and giving us operational data to help us refine those prototypes.
    Through our review, we determined that no one experiment would 
answer all the questions--that it requires a body of knowledge linked 
by a series of experiments. We have therefore begun a series of 
experiments and other events to refine the over arching concept for 
joint operations through a series of events known as Pinnacle Impact 
2003. 

                   VULNERABILITIES OF NETWORKED FORCE

    14. Senator Reed. Admiral Cebrowski, what new vulnerabilities would 
a truly networked force need to deal with? For example, would 
dependence on commercial communications infrastructure, satellite 
communications, and a sensorized battlefield reduce our ability to deal 
with asymmetric threats (such as cyber attack) or operate in areas of 
the world with very limited infrastructure?
    Admiral Cebrowski. The creation of any new capability also creates 
new vulnerabilities. Everything of value will potentially be targeted 
and its vulnerabilities exploited both before and during hostilities. 
Because information processes and technologies are such a great source 
of combat power, measures will be taken to provide for defense of that 
power.
    The capabilities of our sensors and networks, and the information 
sharing they enable make us less vulnerable than we would be without 
them. A ``truly networked'' force is less vulnerable by virtue of the 
very nature of the network--``robustness'' being a key feature. We most 
often see problems when we simply overlay new information technologies 
on outdated organizational constructs and information architectures and 
consider ourselves ``networked.'' When our networks are also 
expeditionary, consistent with the character of the entire force, they 
are by definition capable of operations without pre-existing 
infrastructure.


                          DISTRIBUTED LEARNING

    15. Senator Reed. Admiral Cebrowski, you indicated to the committee 
last year that DOD intends to pursue an architecture to allow for 
distributed training and education. However, some work the General 
Accounting Office (GAO) has conducted for the Readiness and Management 
Support Subcommittee indicates that the Services' initial efforts to 
take advantage of distributed learning techniques have only been 
minimally successful. GAO cited cultural, technological, policy, and 
funding challenges to DOD's ability to fully exploit the benefits of 
distributed learning. What is the current status of the Department's 
efforts to develop a distributed learning architecture?
    Admiral Cebrowski. The approach outlined in the Strategic Plan for 
Transforming DOD Training (March 1, 2002) emphasizes the mission 
requirements of the combatant commanders focused in terms of the 
training needed to support the CINCs' requirements, missions, and 
capabilities, while preserving the ability of Services to train on 
their core competencies. The focus of training transformation is to 
better enable joint operations in the future. Joint has a broader 
context than the traditional military definition of the term. Joint 
training includes training, education, and job-performance.
    Strategic goals for training transformation include: comprehensive 
and systematic joint training focused on the operational requirements 
of the CINCs and linked to readiness assessment robust, networked, 
live, virtual, and constructive training and mission rehearsal 
environment that enables DOD to build unparalleled military 
capabilities; and acquisition and other supporting processes that 
identify interfaces and integrates between training systems and 
acquisition, logistics, personnel, military education, and command and 
control processes.
    The Advanced Distributed Learning initiative is a Defense 
Department-wide strategy to modernize education and training by 
developing standardized e-learning techniques. The goal is to provide 
access to the highest quality education and training, tailored to 
individual needs, delivered cost-effectively, anywhere and anytime. At 
the heart of the program is the sharable content objective reference 
model (SCORM), which provides a series of comprehensive guidelines for 
developing e-learning systems so Web-based learning content will be 
interoperable, accessible, and reusable. SCORM represents one of the 
initiative's key accomplishments. ADL work takes place at three co-
laboratories and includes partnerships with the Office of Naval 
Research, the Labor Department, and the National Guard Bureau, as well 
as work with NATO allies.

    16. Senator Reed. Admiral Cebrowski, what steps is your office 
taking to help DOD overcome some of the challenges that GAO has 
identified?
    Admiral Cebrowski. We have participated extensively in the 
development of the Department's Training Transformation initiatives. 
This plan addresses many of these challenges. Specifically, we have 
examined the Army's Broadband Intelligence Training System (BITS) and 
believe this methodology may have potential for a much broader 
application for the Department's distance learning initiative. We have 
collaborated with Dr. Chu's staff on this particular issue and they are 
examining its potential. We are continuing a modest research effort on 
broadly related education issues.

                     INTEGRATION OF LEGACY SYSTEMS

    17. Senator Reed. Admiral Giambastiani, in the near-term perhaps 
one of the biggest challenges to enhancing joint warfighting 
capabilities is integrating legacy weapon systems through improved 
command and control. However, one of the ``bill payers'' for an 
increased emphasis on longer-range transformational programs in this 
year's budget request was service modernization programs. In your view, 
have any of the reductions in improvements or upgrades to our legacy 
forces put near-term joint interoperability at greater risk?
    Admiral Giambastiani. I cannot speak with detailed knowledge of all 
of the decisions the Services made when putting together their 
programs. However, I do know from my experience as the Navy's 
programmer, that each Service carefully measures and balances risk 
across its entire program. In doing so, they have followed the risk 
balancing approach outlined by Secretary Rumsfeld to produce a more 
coherent total program. Insofar as resources have flowed to Joint 
Forces Command, which has primary responsibility for joint 
interoperability, I feel confident that both near-term and long-term 
joint interoperability will be enhanced, not jeopardized, by the 
President's budget. In fact, the President's budget for fiscal year 
2004 triples the dollars coming to U.S. Joint Forces Command for 
interoperability.

                       MILLENNIUM CHALLENGE 2002

    18. Senator Reed. Admiral Giambastiani, please provide a chronology 
of events during Millennium Challenge that specifies what was planned 
during the activity, and what ultimately occurred. Please also provide 
a list of programs that resulted from Millennium Challenge that are 
included in the fiscal year 2004 budget request.
    Admiral Giambastiani. As covered in detail in the 2002 Joint 
Experimentation Annual Report to Congress, Joint Forces Command and its 
Combatant Command, Service, and Agency partners conducted Millennium 
Challenge 2002 (MC02) from 24 July to 14 August. This joint experiment 
was the culmination of over 2 years of concept development, 
experimentation, and the integration of operational lessons learned 
from the global war on terrorism. At its core, MC02 is about thinking 
differently with respect to the complex challenges and opportunities of 
the 21st century. The joint experiment focused on the value of Effects-
Based Operations (EBO), as employed by a JTF headquarters, built around 
the U.S. Army's III Corps staff (with critical Service augmentation), 
enabled by a permanently manned Standing Joint Force Headquarters, 
informed by an Operational Net Assessment, and executed through 
functional components using a robust Collaborative Information 
Environment.
    MC02 was the largest joint field experiment ever conducted. Over 
13,500 soldiers, sailors, airmen, marines, and members of the 
interagency community participated in the joint integrated experiment 
that employed simulated and live forces nationwide. MC02 was the result 
of a deliberate and comprehensive process that comprised numerous 
concept development workshops, wargames, and limited objective 
experiments involving combatant command, service, defense agency, and 
interagency partners. The integration of live and simulated forces, the 
incorporation of an adaptive and aggressive ``red team'', the use of a 
new federation of 42 simulations, and the use of Service-training 
ranges created both a rich experiment and challenging control issues. 
Reflecting Combatant Command, Service, defense agency, and interagency 
requirements, MC02 facilitated the exploration of 11 concepts, 27 joint 
initiatives as well as 46 Service sponsored initiatives, and assessed 
22 warfighting challenges.
    MC02 execution included several spiral events that developed and 
integrated the necessary technical architecture, trained the 
experimental audience in the required concepts, tactics, techniques, 
procedures, and tools, and enhanced planning for the execution of 
military operations against a complex scenario that the U.S. could 
realistically confront in the future. MC02 also incorporated Service 
experimentation with tactical level, live events. This proved 
challenging especially when essential platforms were only available for 
very restricted periods due to operational support requirements for 
``Enduring Freedom''. Another change occurred when the Army's XVIII 
Airborne Corps headquarters was deployed to Afghanistan. However, one 
of the experimental organizations, the Standing Joint Force 
Headquarters (SJFHQ), enabled III Corps to take mission handoff in 
stride and do in days what in our experience tells us normally takes 
weeks, providing valuable insight into the utility of the SJFHQ.
    Programs initiatives and concepts resulting from Millennium 
Challenge 2002 supported by the fiscal year 2004 budget include:

        Collaborative Information Environment
        Standing Joint Force Headquarters
        Joint Interagency Coordination Group
        Effects Based Operations
        Operational Net Assessment
        Force Projection
        Information Operations
        Joint National Training Center
        Joint Fires Initiative

                      JFCOM'S ROLE IN C2 PROGRAMS

    19. Senator Reed. Admiral Giambastiani, a December 2002 article in 
Inside the Army reported that the Joint Staff had recommended to the 
Chairman that JFCOM should become the head of a new federation to 
oversee joint battle management command and control. A key feature of 
the proposal would be that JFCOM would control a separate budget line. 
What is the status of a Joint Battle Management Command and Control 
(JBMC2) federation, headed by JFCOM?
    Admiral Giambastiani. JBMC2 is essentially a new management 
structure to ensure the joint interoperability of key Service programs, 
not a new program element itself. To use a sporting metaphor, I don't 
want Joint Forces Command to become an expansion team in the 
acquisition league--I want Joint Forces Command to help write the rules 
of the game. In January 2003, Management Initiative Decision (MID) 912 
assigned U.S. Joint Forces Command to lead the development of joint 
doctrine, concepts, requirements, and integrated architectures for 
JBMC2 interoperability and connectivity. These efforts will be 
coordinated through a JBMC2 board of directors composed of combatant 
commander and Service representatives.
    In addition, MID 912 directed U.S. Joint Forces Command to take 
oversight and directive authority for Single Integrated Air Picture 
(SIAP) and Deployable Joint Command and Control (DJC2) in fiscal year 
2003 and Family of Interoperable Operational Pictures (FIOP) in fiscal 
year 2004. Joint Forces Command is currently negotiating Memorandums of 
Understanding with the Army for SIAP, the Navy for DJC2 and the Air 
Force for FIOP for execution of the oversight and directive authority.
    Finally, MID 912 directed U.S. Joint Forces Command to recommend a 
plan to the Deputy Secretary of Defense by July 2003 to take oversight 
and directive authority for additional programs. U.S. Joint Forces 
Command is currently conducting thorough studies to identify service 
programs to manage under the JBMC2 construct.

    20. Senator Reed. Admiral Giambastiani, has a new program element 
line been created for JBMC2 in fiscal year 2003? If so, what was the 
amount and source of the funding?
    Admiral Giambastiani. No. JBMC2 is essentially a management 
structure to ensure the joint interoperability of key Service programs, 
not a new program element itself.

    21. Senator Reed. Admiral Giambastiani, what is the JBMC2 funding 
profile in the fiscal year 2004 budget request and across the FYDP?
    Admiral Giambastiani. Currently one does not exist. JBMC2 is 
essentially a management structure to ensure the joint interoperability 
of key Service programs, not a new program element itself.

    22. Senator Reed. Admiral Giambastiani, in your view, are these 
resources sufficient to support JBMC2 requirements?
    Admiral Giambastiani. There were no fiscal year 2003 resources 
identified in MID 912 to support the JBMC2 management structure. 
However, MID 912 did ask U.S. Joint Forces Command to report back to 
the Deputy Secretary of Defense on the resources required to administer 
and execute JBMC2 oversight as defined within that document. These 
resource requirements have been forwarded to the Office of the 
Secretary of Defense.

                   JOINT NATIONAL TRAINING CAPABILITY

    23. Senator Reed. Admiral Giambastiani, JFCOM's March 2002 report 
on the Joint National Training Capability (JNTC) includes a table that 
describes funding requirements for fiscal years 2004-2009. Please 
provide a description of the current funding programmed for the JNTC, 
as compared to the estimates in your report, and explain any 
differences.
    Admiral Giambastiani. U.S. Joint Forces Command received $10 
million in fiscal year 2002. The fiscal year 2003 program of $35.6 
million adequately funds the actions necessary to establish an initial 
operating capability in October 2004.

                        NETWORK CENTRIC WARFARE

    24. Senator Reed. Admiral Cebrowski, how would you assess the 
Department's progress to achieve visions of a truly network-centric 
force?
    Admiral Cebrowski. We are making significant strides but much 
remains to be accomplished. As Operation Iraqi Freedom has highlighted, 
some parts of the force are more networked than others. For example, 
the 4th Infantry Division is the most digitized and networked of all 
the Army Divisions, yet it was late to the fight. The 3rd Infantry 
Division is not as digitized and networked as the 4th ID, never the 
less its commanders were able to operate with higher shared situational 
awareness than ground commanders have experienced in the history of 
warfare. Similar benefits accrued to the commanders of the 101st Air 
Mobile Division, and as well as British Army commanders. Where there is 
room for further progress is in our ability to share information at the 
tactical level of war across the battle space, and in blue force 
tracking and identification.
    The benefits of real-time information sharing between air and 
ground units have been demonstrated during exercises. Phase I of the 
Army's Division Capstone Exercise highlighted the benefits of real-time 
information sharing between F-16s, A/OA-10s, and the 4th Infantry 
Divisions Brigade Combat Teams. The F-16s and A/OA-10s had 
unprecedented situational awareness of the position of the 4th Infantry 
Division's ground units, which exceeded that of any combat aircraft 
participating in Operation Iraqi Freedom. This awareness enabled the F-
16s and A/OA-10s to engage the OPFOR at night and render them combat 
ineffective.
    We are pursuing an initiative with John Stenbit's team, to develop 
metrics that will help us measure progress in the implementation of 
network-centric capabilities in our forces. We call this a conceptual 
framework for network-centric operations, and it has already helped 
develop some key insights into the power of network-centric warfare.

    25. Senator Reed. Admiral Cebrowski, what are the biggest 
organizational roadblocks to achieving that vision?
    Admiral Cebrowski. I believe that one key measurement of progress 
will be in the area of incentives for organizational behavior. For 
example, right now, the incentives for interoperability are 
insufficient to get us to the vision of a truly network-centric force. 
Going back to the answer to the previous question, who owns the air-
ground seam? How should the bill for interoperability required to close 
the air-to-ground seam be divided so that we can get to the future 
faster rather than we are today? I believe the organizations and 
processes that we have inherited from the Industrial Age need to be 
reexamined in light of the challenges that we face during this 
Information Age transformation. Constructs such as Joint Force Packages 
and Agile Mission Groups (A UK Construct) will force these issues and 
bring them to the forefront.
    Similarly, we need to focus on rewarding organizations in terms of 
output measures not input measures. This is particularly important for 
disruptive innovations. If constructs such as the Air Force's Network 
Centric Collaborative Targeting can enable networked distributed 
sensors to outperform a legacy, platform-centric approach, and do so 
with significantly reduced resources, then we need to ensure that 
organizations are provided with the right kind of incentives to pursue 
these kinds of solutions.

                      NETWORK CENTRIC TECHNOLOGIES

    26. Senator Reed. Admiral Cebrowski, what new technologies should 
be developed that are critical to achieving the vision of a networked 
force?
    Admiral Cebrowski. An important area for focus for new technologies 
is interoperability. An example of a technology that is currently under 
development that will help facilitate interoperability and accelerate 
network-centric warfare is the Joint Tactical Radio Program. When all 
the JTRS clusters are eventually developed and installed in platforms 
across the force, we will observe a dramatic improvement in the ability 
of the force to share information at the tactical level.

    27. Senator Reed. Admiral Cebrowski, how are you working with the 
Services and the defense agencies to ensure that proper investments are 
made in research and development to meet those needs?
    Admiral Cebrowski. The products of our research and deliberations 
are made available to appropriate decision makers through numerous 
channels and media. But the principle means is to invite potential 
users into the concept development or experimentation from the 
beginning.

                           JOINT ACQUISITION

    28. Senator Reed. Admiral Giambastiani, currently the military 
departments have the primary responsibility for acquisition of 
equipment. There are, however, a few exceptions. For example, the 
Chemical and Biological Defense Program is a joint program which has a 
joint acquisition program. If we are to improve our joint capabilities 
and increase our focus on acquisition of equipment that is intended to 
serve joint forces, should we be moving toward more joint acquisition 
programs? If so, how would you propose doing so?
    Admiral Giambastiani. Acquisition is a complex process requiring 
talented people and a disciplined management infrastructure. The 
Services have a mature capability here. I believe we can, and should, 
leverage that Service capability to acquire joint systems. From my 
perspective at Joint Forces Command, the key is to get the joint 
requirements right up front and then provide oversight and guidance for 
the acquisition community as it produces ``born joint'' systems. To use 
a sporting metaphor, I don't want Joint Forces Command to become an 
expansion team in the acquisition league--I want Joint Forces Command 
to help write the rules of the game.
    Presently, we are moving in the right direction to ensure that all 
equipment we procure is ``born joint.'' U.S. Joint Forces Command's 
role in the development and monitoring of Capstone Requirements 
Documents and Key Performance Parameters helps to ensure that the 
requirements we provide to the Service acquisition communities will 
result in capabilities that can be effectively employed within a joint 
context. Beyond that, the Joint Battle Management Command and Control 
MID 912 captures a new management structure that allows Joint Forces 
Command to help direct funding decisions, prioritize acquisition 
actions and participate in milestone decisions for major acquisition 
programs. In both of these endeavors, we will be writing the rules of 
the ``born joint'' acquisition game.

                 JOINT ASPECT OF WARGAMES AND EXERCISES

    29. Senator Reed. Admiral Giambastiani, Joint Forces Command will 
soon cosponsor an Army wargame, and you are planning to work with the 
other Services on their wargames in the future. If we want to maximize 
our joint warfighting capabilities, should we have a joint component, 
if not Joint Forces Command participation, in all major wargames and 
exercises? What are you doing to ensure that we are getting the most 
``joint value'' out of Service wargames and exercises?
    Admiral Giambastiani. U.S. Joint Forces Command has begun working 
with all the Services to develop a common ``Joint Context'' for all 
their major war games. Our purpose is to improve joint warfighting 
capabilities from the birth of each Service's concepts and thereby 
ensure their compatibility and complementary nature. We started this 
development with the Army's 2003 Title 10 war game, Unified Quest 03.
    Our Director of Experimentation has initiated a recurring dialog 
with his Two Star Service counterparts in order to improve coordination 
among the Service and Joint Forces Command concept development and 
experimentation efforts. We will both co-sponsor a major Service game 
each year, beginning with the upcoming Unified Quest, as well as 
conduct a more moderate level of participation in other games to ensure 
continued engagement. Through this approach, we aim to constantly 
improve the ``born joint'' development of Service concepts and improve 
joint warfighting capability.

                          COMMON JOINT CONTEXT

    30. Senator Reed. Admiral Giambastiani, your prepared statement 
included a discussion of the joint experimentation campaign plan that 
would achieve its goals by ``conducting our collective experimentation 
activities using a `common joint context' that defines the challenges 
of the future warfight.'' Please explain the common understanding of 
the future challenges of warfare, and whether and how it will be 
modified as circumstances change over time.
    Admiral Giambastiani. Based on the past 18 months of 
experimentation, what we have learned through years of joint 
operations, and via coordination with the combatant commanders, the 
Armed Services, and the Joint Staff, Joint Forces Command has developed 
a draft list of 18 common ``Joint Military Challenges.'' This list of 
challenges is the focus of the study and analysis effort behind 
application of the ``Joint Context'' in Service and our own wargames. 
By addressing these enduring challenges early in the Concept 
Development process, we intend to dramatically improve joint 
warfighting capabilities and efficiency. Addressing these challenges 
will enable our forces to achieve decision superiority, create coherent 
effects, and conduct and support distributed operations. This year's 
experiments will address these nine challenges:

        Achieving info superiority (anticipatory understanding)
        Coalition and interagency information sharing
        Joint ISR
        Joint maneuver and strike
        Interagency operations
        Multinational operations
        Urban operations
        Force projection: Deployment, Employment and Sustainability
        Counter anti-access and area-denial (includes Forcible Entry 
        Operations)

                    CRUISE MISSILE SUPPORT ACTIVITY

    31. Senator Reed. Admiral Giambastiani, please describe the Cruise 
Missile Support Activity mentioned in your prepared statement. What are 
its functions and how is it organized? Is it fully staffed and 
operational?
    Admiral Giambastiani. The Cruise Missile Support Activities' (CMSA) 
mission is to support combatant commander operations by planning 
conventional and nuclear Tomahawk Land Attack Missile (TLAM) missions, 
distributing mission and support data to command and control nodes, 
planning activities and TLAM firing platforms, integrating TLAM 
expertise into the supported commander's force assignment and effects 
assessment deliberations, training TLAM planners and evaluating TLAM 
mission planning activities. There are two U.S. CMSAs (one each in 
Hawaii and Norfolk), and one United Kingdom CMSA located in Northwood. 
In Operation Iraqi Freedom, as in Operation Enduring Freedom operations 
in Afghanistan, U.S. Joint Forces Command's CMSA is leading the other 
two CMSAs, all afloat TLAM Planning detachments, and the TLAM planning 
cell at U.S. Naval Forces Central Command in a collaborative effort in 
support of U.S. Central Command. U.S. Joint Forces Command CMSA manning 
consists of 32 government service civilians, 33 military personnel and 
11 contractors (essentially the same as U.S. Pacific Command's CMSA). 
This manning level is not sufficient to execute all mission essential 
tasks. Additionally, the CMSAs are not fully staffed to meet sustained 
round the clock support requirements during crisis or combat operations 
and are forced to rely on significant ad-hoc manning augmentation.

 AREA CRUISE MISSILE DEFENSE ADVANCED CONCEPT TECHNOLOGY DEMONSTRATION

    32. Senator Reed. Admiral Giambastiani, your prepared statement 
mentioned the Area Cruise Missile Defense (ACMD) Advanced Concept 
Technology Demonstration (ACTD). What role is Joint Forces Command 
playing with respect to this ACTD, particularly in joint concept 
development and joint experimentation?
    Admiral Giambastiani. U.S. Joint Forces Command has been the 
Operational Sponsor for this ACTD since its inception in fiscal year 
2001. The ACMD ACTD has participated in several joint exercises 
including NORAD's Exercise Amalgam Virgo 2001 and Amalgam Virgo 2002-
2033, as well as the All Service Combat Identification Evaluation Team 
2000, and Joint Combat Identification Evaluation Team evaluation 2002 
exercises. These exercises evaluated ACMD concepts of operation and 
developed ongoing tactics, techniques and procedures for effective 
employment. Currently, this ACTD is supporting real-world operations in 
Operation Noble Eagle.
    Joint Forces Command is responsible for, and will conduct the 
formal ACMD Military Utility Assessment at, the Amalgam Virgo exercise 
in August 2003 to determine the operational utility of this potential 
capability.
    Lastly, the ACMD ACTD has had no direct involvement in joint 
concept development and experimentation. After the tragedy of September 
11, 2001, the system went operational in its force protection 
capability in CONUS. The ACTD will have a Transformation Change Package 
prepared and submitted to the JROC before it closes out next year.

       THEATER AIR MISSILE DEFENSE CAPSTONE REQUIREMENTS DOCUMENT

    33. Senator Reed. Admiral Giambastiani, your prepared statement 
mentioned that the JROC has approved four JFCOM Capstone Requirements 
Documents, including one for ``Theater Air Missile Defense'' (TAMD). 
Please describe JFCOM's role in preparing this Capstone Requirements 
Document (CRD), and the participation, if any, from: the Missile 
Defense Agency; the Joint Staff; and the Joint Theater Air and Missile 
Defense Organization. Please provide a copy of this TAMD CRD to the 
committee.
    Admiral Giambastiani. On 1 March 2001, the JROC approved the 
Theater Air and Missile Defense Capstone Requirements Document (TAMD 
CRD). The CRD, which is focused on the 2010 timeframe, provides over 
arching requirements that apply to the collective TAMD Family of 
Systems (TAMD FoS). CRD approval came about as a result of an 18-month 
effort by the combatant commanders, the Joint Staff, the Services, and 
TAMD related agencies such as the Missile Defense Agency (MDA). The 
U.S. Joint Forces Command in coordination with the Joint Theater Air 
and Missile Defense Organization (JTAMDO) led development of the CRD.
    The TAMD CRD is a key document in U.S. Joint Forces Command's 
transformation effort. Since the CRD approval in March 2001, U.S. Joint 
Forces Command has conducted approximately 200 TAMD-related 
requirements documents reviews in order to evaluate compliance with 
applicable CRD Key Performance Parameters (KPPs), requirements, and 
information exchange requirements (IERs) to ensure TAMD systems are 
designed to be interoperable at the joint and multinational level. 
Additionally, the CRD authors have briefed/coordinated with over 40 
Service Program Offices to make sure the materiel developers fully 
understand the KPPs and requirements contained in the CRD. Document 
reviews and the close coordination with the Services have resulted in a 
much improved process that will contribute significantly to 
successfully achieving full spectrum dominance as described in Joint 
Vision 2020.
    The TAMD CRD is currently undergoing a periodic update and is in 
formal Flag-level staffing with the combatant commanders, the Joint 
Staff, the Services, and other missile defense related organizations.
    Per your request, a copy of the current TAMD CRD will be forwarded 
to the committee under a separate document.
    [Due to the classification of this document, it will be retained in 
the committee's executive files and will not be available for public 
review.]

                      TOTAL INFORMATION AWARENESS

    34. Senator Reed. Admiral Giambastiani, in testimony before the 
House Armed Services Committee on March 13, the Assistant Secretary of 
Defense for Homeland Security Paul McHale indicated that the Department 
of Defense does not intend to operate the technologies developed by the 
Total Information Awareness (TIA) program. This seems to contradict 
your testimony on JFCOM's current and future plans for TIA. In light of 
Secretary McHale's statements, please clarify JFCOM's plans for testing 
and operating the technologies developed by the TIA program.
    Admiral Giambastiani. U.S. Joint Forces Command's seeks to exploit 
appropriate Total Information Awareness software tools and 
methodologies to enhance U.S. Joint Forces Command initiatives aimed at 
creating advanced warfighting capabilities. The command is interested 
in the capabilities offered by the Total Information Awareness 
technologies and collaborative environment to gather and fuse foreign 
intelligence information in such a way to improve situational awareness 
for the warfighter. Any implemented capabilities will be employed in 
accordance with existing intelligence oversight policies.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka

                          WEAPON SYSTEM COSTS

    35. Senator Akaka. Admiral Giambastiani, I also serve as the 
ranking member on the Subcommittee on Readiness and Management Support, 
which means I must address the rising costs of maintaining our weapon 
systems. We are also seeing costs increase as we attempt to boost 
training capabilities by more closely tying individual weapon systems 
together and increasing instrumentation. At the same time, the General 
Accounting Office has done some work that indicates that DOD's 
acquisition process does not give sufficient attention to total life 
cycle costs particularly the future operation and support (O&S) costs, 
early on in weapon development. I suspect the same is also true for 
future training costs--that program managers are more interested in 
maximizing certain performance parameters that they are in investing 
scarce program dollars into future training enablers. Do you agree that 
these two problems exist, that both long-term O&S and training costs 
are not taken enough into consideration in weapon system development 
and if so, do you see a role for yourself in trying to increase 
attention toward these issues, especially in the training arena?
    Admiral Giambastiani. The Department of Defense has made steady 
improvements in capturing life cycle system operating and support 
costs. This is particularly true with new systems in final development 
or early production such as the Joint Strike Fighter, the Virginia 
Class attack submarines, the C-17 transport, et cetera. The Joint 
National Training Capability will help us focus on training and support 
costs.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

        JOINT EXPERIMENTATION AND JOINT TASK FORCE HEADQUARTERS

    36. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, the Bush administration articulated concrete transformation 
goals in the 2001 Quadrennial Defense Review (QDR), the specifics of 
which you are both very familiar. In addition, the President's 2004 
budget and FYDP calls for the acquisition of billions of dollars worth 
of programs dubbed ``transformational'' by the Department of Defense, 
including F/A-22 fighters, unmanned aerial vehicles, the Army's 
Objective Force, and other programs. However, the Department, or more 
specifically Joint Forces Command, has yet to produce an overarching 
joint warfighting concept into which all of the QDR's goals and the 
procurement and research efforts in the FYDP are supposed to fit. The 
lack of a joint warfighting concept would seem to make real joint 
experimentation difficult. Please discuss this apparent disconnect 
between the QDR, the new FYDP, and the lack of an overall joint 
warfighting concept.
    Admiral Giambastiani. I agree that an overarching joint warfighting 
concept is important to transformation and experimentation. Based on 
the Secretary's guidance we have been working cooperatively with the 
Chairman Joint Chiefs of Staff, the Services and the defense agencies 
to produce a concept. The QDR and other strategic guidance such as the 
National Security Strategy, and the National Military Strategy form the 
underpinning and shape the strategic environment for this concept. 
Connecting this concept and the derived subordinate concepts to future 
years defense planning is what we will achieve through subsequent 
concept development, experimentation, prototyping and creation of 
actionable investment recommendations. 
    Admiral Cebrowski. The QDR, the National Security Strategy, and the 
National Military Strategy form the hierarchy of strategic documents 
that currently under gird development of the Joint Operations Concept. 
As you've rightly observed, the Joint Operations Concept is a key 
document. Thus, it is important that it reflects the altered strategic 
context and emerging requirements of warfare in the information age. 
With guidance provided by the Secretary, the CJCS, through the Joint 
Staff, and in concert with the Services, JFCOM is working at providing 
such a document.

    37. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, I am aware that there is an ongoing effort to produce such a 
concept of operation. Please update me on the status of this effort and 
when we may see some concrete results.
    Admiral Giambastiani. Since I relieved as Commander, U.S. Joint 
Forces Command, we have been working collaboratively within the 
Department of Defense to help draft, coordinate and rewrite this 
concept. The draft document, currently titled ``Joint Operations 
Concept'', has been reviewed by senior members of the Department of 
Defense. U.S. Joint Forces Command, in partnership with other elements 
of Department of Defense, will examine this concept through two 
experiments in April and May 2003. These experiments will use alternate 
perspectives, and multiple scenarios to provide a rigorous review of 
the current draft version of the concept. After analysis, U.S. Joint 
Forces Command will propose improvements to the draft concept.
    The approval authority for the concept is the Secretary of Defense 
and Chairman of the Joint Chiefs. 
    Admiral Cebrowski. The original target date for approval of such a 
document was 1 May 2003. However, in light of Joint experimentation 
scheduled for April and May of 2003, as well  the emerging lessons of 
Operation Iraqi Freedom, that due date has been suspended indefinitely.

    38. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, please explain how the emerging concepts are prepared to 
deal with a serious threat to U.S. forces, specifically mobile 
ballistic and cruise missile launchers.
    Admiral Giambastiani. Based on detailed input from all the 
combatant commanders and a review of strategic guidance to U.S. Joint 
Forces Command, we have identified force protection and countering 
adversary anti-access and area denial capabilities as the broader 
operational challenges posed by mobile ballistic and cruise missiles. 
Current experimentation is being conducted using scenarios that stress 
operating in and overcoming such threats. These scenarios are shared 
with our Service experimentation partners, so that we can understand 
these issues from multiple perspectives. Additionally, force and base 
protection will continue to be a focus in next year's experimentation 
events. This experimentation will allow formulation of actionable 
investment recommendations to address the operational challenges these 
capabilities pose.
    Admiral Cebrowski. Experimentation is ongoing and planned using 
scenarios that stress operations in the face of such threats. JFCOM 
expects that this experimentation will provide actionable investment 
recommendations that address the operational challenges posed by these 
capabilities. The items mentioned are but two of an array of potential 
threats with which the force must deal. Our responses must be similarly 
broad.

    39. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, Joint Forces Command is making significant progress toward 
creating a true joint training capability and improving joint command 
and control. Millennium Challenge was a step in the right direction. 
What is the next step in joint experimentation?
    Admiral Giambastiani. Our near-term objectives for experimentation 
now include four elements: 1) field the Standing Joint Force 
Headquarters (SJFHQ) to provide the structure and the enabling concepts 
for developing transformational joint command and control, 2) pursue 
rapid prototyping of capabilities to improve joint warfighting now, 3) 
provide actionable recommendations from experimentation results to 
senior leaders concerning options for future force investment, and 4) 
include our Combatant Commands, Services, defense agencies and 
multinational partners in leveraging their experimentation activities. 
A coordination draft Joint Concept Development and Experimentation 
Campaign Plan will be reviewed and endorsed by the JROC, and final 
draft forwarded to the Secretary of Defense via the Chairman, Joint 
Chiefs of Staff by 01 August 2003.
    As a result of this review and technical analysis, we are embarking 
on a two-path plan of action. The first, which we call the Concept 
Path, will focus on developing concepts for the far term and develop 
recommendations for future investment. The immediate objective of our 
efforts along the Concept Path is to refine a Joint Operations Concept 
for the armed forces of the United States. The second, or prototype 
path, focuses on the near-term fielding of prototype capabilities to 
our warfighters, giving them potentially transformational capabilities 
and giving us operational data to help us refine those prototypes.
    Through our review, we determined that no one experiment would 
answer all the questions--that it requires a body of knowledge linked 
by a series of experiments. We have therefore begun a series of 
experiments and other events to refine the overarching concept for 
joint operations through a series of events known as Pinnacle Impact 
2003.
    Admiral Cebrowski. JFCOM's near-term objectives for experimentation 
include four elements: 1) fielding the Standing Joint Task Force 
Headquarters, 2) rapid prototyping of capabilities to improve joint 
warfighting immediately, 3) transition the results of experimentation 
to actionable recommendations for investment, and 4) leverage far 
ranging experimentation activities throughout the DOD as well as 
multinational partners. They are also coordinating for review a draft 
Joint Concept Development and Experimentation Campaign Plan for 
signature by the Secretary of Defense no later than 1 August 2003. They 
have also begun a series of experiments and other events called 
Pinnacle Impact 2003, which are intended to refine an overarching Joint 
Operations Concept. 

    40. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, what are the emerging requirements for a Joint Task Force 
headquarters?
    Admiral Giambastiani. Joint Task Force (JTF) headquarters are 
increasingly in demand. These headquarters must be joint, responsive, 
coherent, and as well trained just as we train our combat forces. We 
have seen more Joint Task Force Headquarters established since 11 
September 2001 than we saw over the past decade. Given the variety of 
missions, we have formed Joint Task Force Headquarters with one-, two-, 
and three-star commanders, and in most cases, these commanders and 
their headquarters were first trained by Joint Forces Command as a 
Joint Task Force Headquarters just before deployment. In fact, Joint 
Forces Command has trained all Joint Task Force and Joint Special 
Operations Task Force Headquarters pursuing the war on terrorism.
    The utility of joint training is clear. In the case of Afghanistan, 
the Army's XVIII Airborne Corps formation of combined Joint Task Force 
180 was aided by several years of JFCOM JTF training in Unified 
Endeavor exercises, participation in Millennium Challenge 02 (MC02), 
and exploitation of MC02 concepts and capabilities. During my visit to 
Afghanistan, XVIII Airborne Corps cited MC02 concepts and joint 
training as important to their success in Afghanistan.
    In the near term, we must institutionalize this model for all JTF 
capable one-, two-, and three-star Service headquarters. This training 
coupled with the fiscal year 2005 fielding of the Standing Joint Force 
Headquarters within the regional combatant commands will further 
improve JTF formation and responsiveness. As demonstrated in last 
summer's Millennium Challenge 02 experiment, the Standing Joint Force 
Headquarters enables the rapid establishment of an operationally and 
regionally focused JTF headquarters. In that experiment, III Corps was 
able to take mission handoff from XVIII Airborne Corps and do in days 
what in our experience tells us normally takes weeks.
    Admiral Cebrowski. The most compelling requirements for the Joint 
Task Force Headquarters are those that emerge from experimentation and 
operational prototyping. To the degree that these requirements rapidly 
transition from concept or lesson to capability we will be successful 
at making transformation an inherent part of Joint Task Forces wherever 
they're formed.

                    SPACE IN NETWORK-CENTRIC WARFARE

    41. Senator Bill Nelson. Admiral Cebrowski, as the developer of 
many of the theories of network-centric operations for our military, 
what is the role of space in a networked military force? 
    Admiral Cebrowski. We envision the potential for our future forces 
to increasingly operate in denied areas. We must develop operationally 
responsive space capabilities that provide persistent surveillance over 
these areas. Space also has the potential to resolve some of our 
current communications bandwidth limitations.

    42. Senator Bill Nelson. How would you assess the current DOD level 
of investment and progress in space systems, training, and concepts of 
operation? 
    Admiral Cebrowski. Space is a critical capability that must be 
protected now and in the future. While all areas of space would benefit 
from increased funding lines, the areas of greatest concern in the 
space program are capability cycle time, work force aging, a narrowing 
capabilities base and a misplaced aversion to risk.

            MODELING AND SIMULATION IN MILLENNIUM CHALLENGE

    43. Senator Bill Nelson. Admiral Giambastiani, what role did 
modeling and simulation play in Millennium Challenge?
    Admiral Giambastiani. Modeling and Simulation (M&S) was the only 
way we could provide a problem set robust enough to challenge an 
experimental audience that included all the Services, several Combatant 
Commands and agencies like the Departments of State, Justice, and 
Transportation. Costs to establish a similar live capability were 
prohibitive. Additionally, M&S allowed us to reset conditions in a 
comprehensive way that cannot be done with live troops. Over 13,000 
soldiers, sailors, airmen, and marines operating from eight different 
``live'' locations throughout the Southwest United States and Pacific 
Ocean were linked virtually to 17 other simulated locations to create a 
coherent, integrated battlespace at the operational level of war. 
Ultimately, M&S allowed us to experiment with platforms, munitions, and 
C\4\I devices unavailable due to operations, funding and range 
constraints, still under development, or merely conceptual and apply 
those capabilities using new warfighting approaches in a cost effective 
and analytically valid environment.

                  SPACE ASSETS IN MILLENNIUM CHALLENGE

    44. Senator Bill Nelson. Admiral Giambastiani, how were space 
assets (which are so critical to current operations) involved in the 
exercises and wargames of Millennium Challenge?
    Admiral Giambastiani. U.S. Joint Forces Command used current space 
assets in the actual planning and conduct of the spirals leading up to 
and during Millennium Challenge 02. Space force enhancements such as 
satellite communications, space-based ISR, missile warning, and 
navigation, were  integrated into the event. Space and information 
operations organization and C2 was exercised by Strategic Command 
(formerly Space Command). The Space and IO element (SIOE) commanded and 
managed all space and Information Operations (IO) capabilities in the 
area of operations. Much more experimentation is needed in space and 
IO.
    The second part of the answer appears to support Admiral 
Cebrowski's observation during his testimony that the high level 
experiment focused on the SJFHQ in Norfolk was . . .``somewhat 
separated from the lower-level experiments conducted by the various 
components.'' With six notable exceptions, space issues and 
experimentation occurred within only the scope of component and Service 
events. These exceptions were the Joint Forces Command-sponsored Joint 
En-Route Mission Planning and Rehearsal System (JEMPRS) and five small 
separate initiatives sponsored by the National Reconnaissance Office 
(NRO) which focused on data fusion and product manipulation for the 
Standing Joint Forces Headquarters (SJFHQ). In order to coordinate 
space issues and experiments conducted by the Services, U.S. Space 
Command, and other agencies, we have created the U.S. Joint Forces 
Command Space Applications Experimentation Cell as a space conduit and 
clearinghouse for future experimentation events.

               JOINT SPACE OPERATIONS AND EXPERIMENTATION

    45. Senator Bill Nelson. Admiral Giambastiani, in my opinion, our 
space assets are critical enablers of any joint operation. They provide 
us the ability to access and distribute information to all parts of the 
globe and even down to the individual warfighter in the field. How is 
Joint Forces Command working to understand the role of critical space 
systems such as GPS satellites, space launch vehicles, and even manned 
space missions in future joint operations?
    Admiral Giambastiani. In November 2002, U.S. Joint Forces Command, 
in partnership with U.S. Space Command (now STRATCOM) established a 
Space Applications Experimentation Cell with the mission of 
identifying, developing, refining, and experimenting with concepts for 
exploiting the medium of space in support of global joint operations. 
Until establishment of this cell, concept development and 
experimentation in the space arena had been largely left to the 
individual Services and agencies responsible for the particular 
functions of space. While we have always included current and projected 
capabilities in our models and simulations, we had not examined space 
as a ``variable'' in the context of future joint warfighting. The small 
initial cell is currently focused on conducting a baseline assessment 
of the National Security Space Community, identifying potential space 
experimentation issues, and beginning to create a strategy for space 
experimentation. The scope of that strategy will include examination 
and experimentation with the space community's current and future 
architectures and systems.

                        JOINT SIMULATION SYSTEM

    46. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, the Joint Simulation System (JSIMS) was a high profile, 
critical program designed to use advanced computer modeling and 
simulation to provide computer-simulated environments that would be 
used to train warfighters and commanders, develop doctrine and tactics, 
formulate plans and operational requirements, and even assist in the 
evaluation of technologies during the acquisition process. This program 
was considered DOD's ``flagship'' modeling and simulation program for 
warfighters. It was joint, with participation of all the branches of 
the Armed Services, as well as a number of defense agencies, including 
the National Reconnaissance Office (NRO) and the Defense Intelligence 
Agency (DIA). It has developed a number of fantastic technologies B 
including synthetic environments in which soldiers, sailors, marines, 
and airmen could all jointly train in real time. I understand that 
Joint Forces Command has taken delivery of some of the first software 
delivered by the program and is using it to support joint training 
activities (fiscal year 2004 investment: $13.6 million). The JSIMS 
program had been scheduled to require an investment of over a $1 
billion over the course of the decade to accomplish its ambitious 
mission of developing these new joint simulation capabilities and 
deliver multiple versions of simulation software for use by the 
Services and joint activities. However, the funding for this program 
has been severely curtailed--in fact, the core program has been zeroed 
out in the fiscal year 2004 budget request. What is the role that 
modeling and simulation should play in transforming the military?
    Admiral Giambastiani. Modeling and simulation will continue to play 
an important role in transforming the U.S. military. Joint Forces 
Command seeks a modeling and simulation capability that provides a 
single improved replacement for a wide variety of antiquated joint, 
Service and Agency legacy simulation systems. The federation of 
simulations central to the execution of last summer's Millennium 
Challenge experiment demonstrated the utility of such a system, but 
also the challenge of creating such a capability from those legacy 
simulation systems. The JSIMS was intended to provide next generation 
joint and Service training simulation tools; reduce relative 
development and life-cycle cost; and substantially improve performance. 
However, due to program difficulties the Department of Defense has 
discontinued JSIMS development beyond Block I pending an analysis of 
alternatives. In the interim, Joint Forces Command received version 1 
of JSIMS in December 2002 and began testing, is taking steps to 
establish a Software Support Facility (SSF) to maintain JSIMS Block I 
software, and will  support the analysis of alternatives. The JSIMS 
version 1 testing and validation process will take the remainder of the 
calendar year and if successful Joint Forces Command intends to use 
JSIMS in Unified Endeavor 04-2 (Aug-Sep 04) to support joint training. 
If testing is unsuccessful, Joint Forces Command will recommend program 
termination and will pursue alternatives to meet Joint training 
requirements into the future.
    Admiral Cebrowski. Modeling and simulation aids risk reduction in 
operational and organizational concept development, as well as systems 
development and management decisions concerning cost. However, until 
modeling and simulation can divorce itself from dependency on 
variations of Lanchestrian equations, it is clear that it cannot 
support decision makers in the Information Age any better than was done 
in the Industrial Age.

    47. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, do you feel that we are investing enough in developing these 
capabilities to meet our needs?
    Admiral Giambastiani. There is significant investment in modeling 
and simulation. Funding has been adequate to meet the original 
requirements of JSIMS, but programmatic and developmental difficulties 
have denied U.S. Joint Forces Command the benefits of that system. 
Joint Forces Command seeks a modeling and simulation capability that 
provides an improved replacement for a wide variety of antiquated 
Joint, Service and Agency legacy simulation systems. With Joint 
National Training Capability (JNTC) requirements established and as 
funding comes on line, there is a potential that funds will be 
available to support emerging modeling and simulation capability 
requirements.
    Admiral Cebrowski. The circumstance we find ourselves in today 
(described above), calls out modeling and simulation as an important 
area for research and development investment. The potential benefits 
are significant and far reaching. Some areas worthy of interest are 
physics-based modeling, warfare modeling, training simulations, and 
value/performance decisions. 

    48. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, what is your position on the cancellation of this program?
    Admiral Giambastiani. The Program Decision Memorandum (PDM) did not 
cancel the JSIMS program. Program continuation is dependent upon the 
outcome of Joint Forces Command's testing and the Defense Department's 
Analysis of Alternatives. If testing is successful, Joint Forces 
Command intends to use JSIMS in Unified Endeavor 04-2 (August-September 
2004) to support training for a combatant commander, JTF Commander, 
Component Commanders, and their staffs. If testing is unsuccessful, 
Joint Forces Command will recommend program termination as an input to 
the Defense Department's Analysis of Alternatives. U.S. Joint Forces 
Command requires JSIMS or JSIMS like capabilities to successfully 
perform its mission in the future.
    Admiral Cebrowski. Personally, I am delighted that suspension of 
this program has occurred since it provides a real opportunity to skip 
a generation in our approach to modeling and simulation. Continuation 
of the program is contingent upon the outcome of JFCOM testing and a 
DOD analysis of alternatives.

    49. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, are you satisfied that DOD directed the cancellation with a 
clear understanding of the risks and costs associated with closing the 
existing program, delaying establishment of a replacement program, and 
the potential loss of time and skilled modeling and simulation 
development personnel?
    Admiral Giambastiani. The PDM did not cancel the program, as 
implied in the question. Program continuation or cancellation is 
dependent upon the outcomes of the U.S. Joint Forces Command Joint 
Warfighting Center-conducted Systems Verification and Validation Test 
(SVVT) and the OSD-conducted analysis of alternatives (AoA). Although a 
JSIMS-like capability is an essential component of JNTC, current plans 
provide for using JSIMS in the JNTC only if the system is judged usable 
and available.
    The Joint Forces Command participated in the review of JSIMS that 
led to the PDM decision. U.S. Joint Forces Command made its schedule 
and cost concerns known during the review as well as its concerns about 
the validity of the joint training requirement that JSIMS was designed 
to fulfill. I understand the reasons for the PDM action, support the 
decision, and strongly support the SVVT event and AoA that will 
determine the best means of meeting joint training requirements in a 
timely manner, whether or not those means include JSIMS.
    Admiral Cebrowski. It is not my role to evaluate program decisions 
in these terms. However, the PDM did not cancel the program--
development was suspended beyond Block I, pending JFCOM testing and an 
OSD Analysis of Alternatives.

    50. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, are you satisfied that cancellation of the JSIMS program is 
necessary to accelerate establishment of a Joint National Training 
Capability or does it complicate achieving such an objective?
    Admiral Giambastiani. The PDM did not cancel the JSIMS program. 
Program continuation is dependent upon the outcome of Joint Forces 
Command testing and the Defense Department's Analysis of Alternatives. 
The Analysis of Alternatives will account for testing outcomes and 
impacts the establishment of a Joint National Training Capability.
    Admiral Cebrowski. The PDM did not cancel the program. Program 
continuation is contingent upon JFCOM testing and an OSD Analysis of 
Alternatives. The Analysis of Alternatives will account for testing 
outcomes and impacts on establishment of a Joint National Training 
Capability. 

    51. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, what are your views on the importance of quality modeling 
and simulation to joint experimentation, joint training, joint 
doctrine, joint requirements development, and joint acquisition?
    Admiral Giambastiani. Quality modeling and simulation make 
important contributions to joint experimentation, joint training, joint 
doctrine, joint requirements development, and joint acquisition, and 
will become increasingly important as simulation capabilities improve. 
Modeling and simulation plays an important role in training and 
transforming the U.S. military. Joint Forces Command seeks a modeling 
and simulation capability that provides an improved replacement for a 
wide variety of antiquated Joint, Service and Agency legacy simulation 
systems. The federation of simulations central in the execution of last 
summer's Millennium Challenge experiment demonstrated the utility of 
such a system, but also the challenge of creating such a capability 
from those legacy simulation systems. Modeling and simulation 
capability provides large savings in support costs for joint training 
and experimentation right now as compared to field exercises and 
experiments. With necessary improvements in simulation flexibility, 
interoperability, and fidelity, these savings can be applied to joint 
doctrine development, joint acquisition analysis, and joint 
requirements development. To maintain the quality simulation 
environment required, simulations will have to undergo constant 
improvement and expansion of capabilities over time, including 
accounting for new approaches to warfare by moving beyond the attrition 
based models currently in use.
    Admiral Cebrowski. Modeling and simulation provides large savings 
in support costs for joint training and experimentation as compared to 
live field exercises and experiments. To achieve the quality simulation 
environment required, modeling and simulation will have to undergo a 
major change that eliminates its current reliance on variations of the 
Lanchestrian equations developed during the Industrial Age.

    52. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, in your view, what DOD agency should be responsible for the 
definition of requirements, research, development, testing, evaluation, 
and procurement of a joint simulation system?
    Admiral Giambastiani. Unified Command Plan (UCP) 2002 guidance 
designates Joint Forces Command as the Joint Force Trainer and Joint 
Force Integrator, and as such, Joint Forces Command has an important 
role in the development of joint training and experimentation 
simulation requirements. Fully unified development, funding, and 
procurement of an extremely complex and ambitious simulation system is 
a necessity, as has been borne out by past Joint Simulation System 
development history. As with Joint Battle Management Command and 
Control, Joint Forces Command can take the lead with other joint users 
in the evaluation process.
    Admiral Cebrowski. I don't believe there should be a single 
executive agent for joint simulation.

                       DECISION RULES AND METRICS

    53. Senator Bill Nelson. Admiral Cebrowski, you mentioned the 
importance of decision rules and metrics during the hearing. I 
understood you to mean those rules and metrics associated with force 
structuring, wargaming and experimentation. What exactly did you mean 
by ``decision rules and metrics?'' What makes them so important?
    Admiral Cebrowski. ``Decision rules and metrics'' are part of the 
incentives and rewards system that compel individual and institutional 
behavior. They underwrite our culture by reinforcing or changing our 
attitudes and beliefs. Over time they help define the characteristics 
and capabilities of our future forces.

    54. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, is there a problem with our current system of ``decision 
rules and metrics,'' how they are derived or used?
    Admiral Giambastiani. The National Security environment is changing 
radically and so must our methods for enhancing and measuring military 
performance in that environment. Decision rules and metrics that are 
applicable to our transformation needs are evolving with our growing 
understanding of: first, the role of military power in the future 
security environment; second, radical changes in warfighting 
facilitated by dramatic technological advances; and, third, the 
required changes in doctrine, organization, training, leadership, and 
culture necessary to take full advantage of those technological 
advances in executing our military's role. Historically, decision rules 
and metrics have been derived by the Services to maximize Service 
warfighting performance in their respective areas of core competence. 
Recently, U.S. Joint Forces Command has begun partnering with the 
Services to assist them in ensuring their concepts capabilities and the 
decision rules from which they emanate, and the metrics by which they 
are assessed, are ``born joint.''
    Admiral Cebrowski. The issue is value structure. To the extent our 
value structure flows from conventional threats and concepts of 
Industrial Age warfare while ignoring the effects of globalization and 
the transition to the Information Age, our decision rules metrics are 
detrimental. 

    55. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, the implication is that there will be new ``decision rules 
and metrics.'' How will they be decided?
    Admiral Giambastiani. U.S. Joint Forces Command's transformation 
responsibilities extend across a temporal continuum from developing and 
providing to the regional combatant commanders enhanced capabilities 
for today's joint forces to developing the capabilities of the future 
coherent force, which will be completely networked with total knowledge 
of all elements of the battlespace. The latter is unachievable with 
current   technology, thus remains a vision toward which we are 
working. The former responsibility is being executed today. While some 
decision rules can be consistent across the continuum irrespective of 
the ``art of the possible,'' many rules and most metrics governing 
these responsibilities cannot. Those that govern our near term 
responsibilities can be the most specific, and derive from policy 
documents such as the National Security Strategy, the National Military 
Strategy, and the Defense Planning Guidance. Rules and metrics that 
govern the mid-term are less specific and derive from the 
Transformation Planning Guidance and the Joint Operations Concept. 
Least specific are those rules and metrics that govern the far-term, 
and are more akin to the scientific process of discovery, which we are 
employing in the concept development pathway of our joint concept 
development and experimentation process, addressed below. Key to 
ensuring that transformation initiatives permeate all aspects of this 
continuum is inculcating a culture of transformation throughout the 
armed forces. This is partially a function of the Joint Professional 
Military Education process, which we are addressing via a new 
partnership with National Defense University.
    Admiral Cebrowski. New rules and metrics emerge in response to an 
understanding of a new strategic context and the domains of competition 
in the information age. They should be decided based on output measures 
and risk assessment.

    56. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, what is the process (over what timeline and cost) and who 
will control this process and its ultimate decisions?
    Admiral Giambastiani. The Office of Force Transformation is the 
agency within the Office of the Secretary of Defense responsible for 
establishing policies for DOD-wide transformation efforts. United 
States Joint Forces Command is responsible for executing transformation 
policy and leading transformation efforts in the Armed Forces. 
Therefore, Admiral Cebrowski and I are partners in this effort. We are 
working together to derive approaches, rules and metrics across the 
temporal continuum of transformation efforts. Within the area of joint 
concept development and experimentation, we have been working on a 
campaign plan for two experimental pathways, one looking as far ahead 
as 20 years into the future, and the other looking at near-term 
prototyping of transformational capabilities. This campaign plan is 
concept- and capability-driven with rules and metrics derived in 
accordance with the specifics of the concept or capability under 
examination. The concept pathway is focused on refining our Joint 
Concepts of Operations for the mid- and far-terms, and thereby 
rationalizing all the individual Services' visions for future 
warfighting. The principal focus of our prototyping pathway is on the 
enabling concepts for fielding a Standing Joint Force Headquarters 
(SJFHQ) capability in each of the regional combatant commanders' 
headquarters. These enabling concepts include Operational Net 
Assessment and the Collaborative Information Environment, both of which 
we are prototyping with U.S. Forces Korea. In Korea, rules and metrics 
will be developed specific to evaluating those concepts/capabilities 
within that environment. The ultimate assessment will derive from that 
of our customer, Commander, U.S. Forces Korea.
    Admiral Cebrowski. This process should not be controlled--it is 
emergent behavior. As the new strategic context is articulated, new 
rules will flow from our understanding of the trends that emerge. 

    57. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, what role will the Services play in this determination 
process?
    Admiral Giambastiani. The Services are U.S. Joint Forces Command's 
partners in joint concept development and experimentation. We work both 
through our component commands--Air Combat Command, the Army's Forces 
Command, Atlantic Fleet, and Marine Forces Atlantic--and directly with 
Service experimentation agencies for input into our planning and 
processes. As part of the planning for every Joint Forces Command--
sponsored event, component and Service representatives contribute their 
agencies' perspective and positions, including inputs to definitions of 
rules and establishment of metrics. In the training realm, our 
components identify the specific joint mission essential tasks to be 
performed, which in turn define the metrics for our training exercises. 
As we evolve our Joint National Training Capability to address joint 
tactical actions, Joint Forces Command collaboration with our 
components and their Services will expand even more, especially in the 
derivation of joint tactical decision rules and metrics.
    Admiral Cebrowski. The Services respond since they are providers. 
It's up to them to appropriately sense market dynamics and needs, and 
respond accordingly.

    58. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, within what research or acquisition program(s) will this 
research and development take place?
    Admiral Giambastiani. Our current transformation efforts are funded 
under three program elements: joint concept development and 
experimentation is under PE 0603727N; our Joint C\4\ISR Battle Center 
and Joint Integration and Interoperability transformation efforts are 
under PE 0305188N; and our joint combat identification efforts are 
under 0603857N. Future efforts under our Joint National Training 
Capability will be under proposed (not yet validated) PE 0804758N.
    Admiral Cebrowski. This is done in many places--the Office of Force 
Transformation, the War Colleges, as well as governmental and 
commercial think tanks, to name a few.

    59. Senator Bill Nelson. Admiral Giambastiani and Admiral 
Cebrowski, how will new ``decision rules and metrics'' be used for 
training, experimentation, operational rehearsals, requirements 
determination and validation, or acquisition?
    Admiral Giambastiani. New decision rules and metrics will reflect 
an evolving joint culture across the continuum of our assigned 
responsibilities. The general policy established by the Office of Force 
Transformation will be translated into the specific rules and metrics 
needed to measure performance under the conditions and standards 
established for each Joint Forces Command event, whether it's a 
training event for joint tactical actions within our Joint National 
Training Capability, an experimentation event within our prototyping 
pathway, or validation of interoperability within our Joint Integration 
and Interoperability cell. For example, a policy-level decision rule 
that values increased collaborative planning across all components and 
echelons of command impacts the metrics used in all the areas 
highlighted in your question: training, experimentation, rehearsals, 
requirements determination, and acquisition. It is also reflected in 
all our Command's efforts from refining the Collaborative Information 
Environment for our Standing Joint Force Headquarters, through training 
we provide for all deploying Joint Task Forces; and establishment of 
multi-level security capability for collaborative planning with 
coalition partners to specific software packages fielded through our 
Joint C\4\ISR Battle Center as interim solutions for today's 
operational problems.
    Admiral Cebrowski. With the dramatic change in warfare being 
unleashed by the transition to the information age, future military 
capabilities must be judged using new criteria. Pentagon leaders 
require a different decision logic to understand which attributes of 
future systems are rising in importance, which are falling, and what 
overall mix of capabilities to pursue. Yet, the deeper, more profound 
debate about changing military ``rule sets'' is about new sources of 
power and how they are brought to bear.
    In moving to the information age, the Nation is entering an era 
where advantages are conferred on the small, the fast and the many. 
These capabilities in turn will be paid for by the ponderous and the 
massive. Size shrinks because of the ``demassification'' of warfare 
that come about by substituting information for tonnage. The Air Force 
says that a target once requiring 1,000 bombs to destroy now requires 
only one. That magnitude of change is owed almost entirely to 
information technology and processes. A second key metric is increased 
speed, resulting not just from the decreased mass to be moved, but also 
from organizations streamlined to benefit from their superior 
information position. The result is a highly responsive, dispersed 
force with lower costs per unit of combat power. That is, increased 
combat power is vested in yet smaller units. One result of this is the 
need for new joint organizations and processes in small units, which 
were once considered the exclusive domain of the military services.
    The military force must be rebalanced for future operations. The 
information component of the force must increase. Our sensor and 
networking capabilities must increase at the expense of more industrial 
age measures of combat power. Even before Operation Enduring Freedom, 
we were finding that we fight first for an information advantage and 
maneuver for a superior sensor position. So, an early question that 
must be posed regarding any weapon system is whether it is on the 
``net.'' If not, then it is not contributing, not benefiting and not 
part of the information age. Program managers across all of the 
Services must understand that if they fail to achieve joint force 
interoperability, they are nominating their programs for cancellation.
    In this age of strategic uncertainty, risk is managed by increasing 
the breadth of capabilities, no matter the imperfections, even at the 
expense of highly effective capabilities bought in quantity. The real 
issue is not how much is enough, but do we have the breath of 
capabilities necessary to address strategic gaps. New concepts and 
capabilities must be favored over quantitative increases in the old. Of 
course, even these new capabilities must be prioritized, according to 
the new strategic and technical context, and the broadening threat 
base.
    We must ask if a system is performing at increasing or decreasing 
rates of return on investment. That is, is the increased capability 
worth the cost? As a result of otherwise laudable Cold War efforts, we 
now have programs to produce the ``ultimate'' fighter aircraft, the 
``ultimate'' artillery piece, the ``ultimate'' surface combatant and 
the ``ultimate'' of everything. Such systems must be candidates for 
review because they invariably perform at decreasing returns, not 
because these systems are not more efficient than their predecessors, 
but because the altered strategic environment has devalued their very 
existence. Potential enemies have also had time to prepare asymmetric 
counters, and the cost and complexity of the increased capability 
frequently outpaces its marginal value. The general rule is that ``the 
new'' should perform better, at lower cost, than ``the old.''
    Over time the validity or power of a particular type of capability 
changes. For example, the reasons normally given for artillery organic 
to the maneuver forces are low cost, high volume of fire and very short 
response time for the tactical commanders' needs. These are powerful 
arguments, but those advantages can now be equaled or exceeded with new 
technologies and new military organizations. We have also learned that 
reliance on airpower alone carries high risks. What is required is a 
mix of capabilities. Programs must be conceived with that mix in mind. 
Arguments for a system or capability without consideration of the 
emerging joint character of warfare are not uncommon and indicate 
additional areas for elimination.

    [Whereupon, at 11:25 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                         MONDAY, MARCH 31, 2003

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

 SCIENCE AND TECHNOLOGY PROGRAM AND THE ROLE OF DEPARTMENT OF DEFENSE 
                              LABORATORIES

    The subcommittee met, pursuant to notice, at 2:04 p.m, in 
room SR-222, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Roberts, Dole, Cornyn, 
Kennedy, and Reed.
    Majority staff members present: Carolyn M. Hanna, 
professional staff member; Paula J. Philbin, professional staff 
member; and Joseph T. Sixeas, professional staff member.
    Minority staff members present: Richard W. Fieldhouse, 
professional staff member; and Arun A. Seraphin, professional 
staff member.
    Staff assistants present: Leah C. Brewer, Andrew W. 
Florell, and Sara R. Mareno.
    Committee members' assistants present: James Beauchamp, 
assistant to Senator Roberts; Christine Hill, assistant to 
Senator Dole; Russell J. Thomasson, assistant to Senator 
Cornyn; Mieke Y. Eoyang, assistant to Senator Kennedy; 
Elizabeth King and Neil D. Campbell, assistants to Senator 
Reed; William K. Sutey, assistant to Senator Bill Nelson; and 
Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. The Subcommittee on Emerging Threats and 
Capabilities will come to order. A special good afternoon. 
Thank you all for joining us today. This afternoon the 
Subcommittee on Emerging Threats and Capabilities meets to 
receive testimony from representatives of the Department of 
Defense (DOD) on the Defense science and technology (S&T) 
program and the role of Defense laboratories.
    Before we begin, I would like to take a moment and extend 
my sincere appreciation to the witnesses for their attendance 
today. This hearing was rescheduled. We were in the midst of 
what we call the vote-a-thon on the budget. I know you have 
rearranged your schedules in order to accommodate the 
subcommittee, so I truly appreciate your patience and 
flexibility, and look forward to your testimony.
    These are challenging times for our country. As we watch 
events in Iraq unfold and the incredible technology being 
deployed, it is apparent just how important and timely this 
hearing is. The S&T program is a small slice of the Defense 
budget, but it is critical to the success of our Armed Forces. 
The investments the Department made decades ago are now paying 
off tenfold as of today.
    The Defense S&T program relies not only upon the wise 
foresight of our leaders, but their faith that has been the 
case throughout our history, and that is that the investments 
made in intangible and almost unimaginable ideas often 
transform into awesome technological advantages. As shepherds 
of today's S&T budget, we thank our witnesses for their 
foresight, their continued faith, and the innovation of this 
country.
    Although this hearing was postponed until today, we were 
fortunate the other morning to get a first-hand view of the 
technologies that the DOD is providing our Armed Forces. These 
technologies, many of which are currently being deployed around 
the world, not only enable our troops to be more lethal, more 
informed, and more aware, but are being employed to combat 
terrorism and also defend the homeland.
    These technologies are the real game-changers, if I can use 
that word, that our country depends upon. They are critical to 
our assured success in both winning the war and also keeping 
the peace.
    This morning's hearing will address several issues 
concerning the Defense S&T program. The hearing will provide 
oversight for the fiscal year 2004 budget request for Defense 
S&T, in particular the role of S&T in transformation, and how 
it supports efforts to protect the homeland and combat 
terrorism. The witnesses will testify about the challenges they 
face transitioning technology out of the lab through the 
acquisition process, and to the warfighter. Finally, the 
hearing will address issues surrounding the defense labs, in 
particular the challenges and initiatives impacting the defense 
laboratories' workforce.
    I look forward to hearing from each of the witnesses. 
Please note that your full written testimony will be included 
in the record. To allow plenty of time for questions and 
answers, you may summarize your remarks. Again, thank you for 
being with us this morning.
    I would like to recognize the distinguished ranking member, 
Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Let me 
also join you in thanking the witnesses for responding among 
their busy schedules to this delayed and deferred hearing. I 
appreciate that very much.
    The subject of the hearing, DOD's S&T programs and the 
defense laboratories, may be the furthest thing from our minds 
as we watch current military operations all over the world, but 
we need to remember that the superior military technology that 
we depend upon to fulfill critical missions and protect our 
service members grows from these very investments and from the 
organizations that we will discuss today.
    Every day, we are seeing how advanced technologies like 
Global Positioning System (GPS)-guided munitions, unmanned 
aerial vehicles, and night vision devices can be used with 
great success. All of those systems grew out of defense 
research programs and are being used as we speak in military 
operations all around the world, but technological innovations 
and the military capabilities that they enable only occur if we 
faithfully invest relatively small but stable resources in S&T. 
They only occur if we have the best technical minds in our labs 
and tech centers working on ways to overcome the threats of 
today and tomorrow, threats like chemical and biological 
weapons, ballistic missiles, and cyber attacks.
    I look forward to hearing our witnesses describe their 
views on how well we are funding the innovations that will 
produce tomorrow's military capabilities, and how well we are 
supporting and growing our innovation centers, the defense 
labs, and technical centers. In particular, I am anxious to 
learn their plans for ensuring that we have the finest quality 
workforce in our defense laboratories.
    Secretary Rumsfeld, the Quadrennial Defense Review, the 
Defense Science Board, and Congress have all endorsed the idea 
of investing 3 percent of the defense budget in S&T programs. I 
note with concern that this year's request does not achieve 
that goal and is projected to fall to 2.4 percent of the budget 
by 2009, and that is moving in the wrong direction.
    In fact, the S&T request has been cut $1 billion from last 
year's appropriated level. This includes reductions to many of 
the programs that support the activities of the defense labs, 
as well as fundamental research programs conducted by 
universities and small high-tech businesses. I look forward to 
learning how these budget decisions have been made.
    I hope that in this hearing we can also discuss how we can 
work together to create a funding process and entrepreneurial 
environment that reward innovation and risk-taking among 
program managers. This will help us transition the best 
technology into the hands of our warfighters as quickly as is 
possible.
    Our earlier hearing on joint experimentation made it clear 
that this transition step is key to transformation. I once 
again welcome all of our distinguished witnesses to the 
hearing, look forward to the discussion, and again, thank the 
chairman.
    Senator Roberts. Senator Dole, do you have any opening 
comments?
    Senator Dole. No, I do not.
    Senator Roberts. Senator Kennedy.
    Senator Kennedy. No, thank you.
    Senator Roberts. Then we will move to our witnesses: Hon. 
Michael W. Wynne, who is the Principal Deputy Under Secretary 
of Defense for Acquisition, Technology, and Logistics; followed 
by General Paul Kern, who is the Commander of the Army Materiel 
Command; and General Lester Lyles, of the U.S. Air Force, who 
is the Commander of the Air Force Materiel Command; Vice 
Admiral Joseph W. Dyer of the United States Navy. He is the 
Commander of the Naval Air Systems Command.
    Secretary Wynne, would you proceed?

  STATEMENT OF HON. MICHAEL W. WYNNE, PRINCIPAL DEPUTY UNDER 
SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Secretary Wynne. Mr. Chairman, Senator Reed, Senator 
Kennedy, Senator Dole, and the members of the subcommittee, it 
is my pleasure to be here, and thank you for the opportunity to 
appear before you today.
    It is really a pleasure to have the opportunity to testify 
about the S&T program of the Department of Defense, and express 
our continued belief that S&T is the engine that will drive the 
transformation of the Department. I would like to start with a 
thank you to this subcommittee and Congress for your continued 
support to the Department of Defense S&T program.
    Continued support for S&T, complemented with our 
acquisition policy changes, such as the Federal Acquisition 
Regulation (FAR) part 12, offer stability and forward-planning 
opportunity that provides vision and purpose to the 
laboratories and the development activities within the 
Department, the many colleges, universities, and small 
technology houses that many times are the source of our 
innovations. This is in addition to our current actions 
regarding the 5,000 series to clear away some of the 
bureaucratic cobwebs while getting at the fundamentals of good 
process management.
    The Department has and will be forwarding several 
legislative proposals to Congress that seek to retain and 
expand flexibility to deploy technology to acquisition programs 
of record. For example, the Department has forwarded to 
Congress two proposals on the use of other transaction 
authority to extend the current authorities of the other 
transactions past 2004, and to expand authorities of other 
transactions to allow them to be used for existing systems as 
well as new systems.
    Reflecting back on President Bush's goal to move beyond 
marginal improvements to replace existing programs with new 
technologies and strategies, he made technology a cornerstone 
of the plan to transform and modernize defense. We have taken 
on a similar goal within the acquisition technology and 
logistics community as one of the highlighted goals. That goal 
is to initiate high-level technologies to create warfighting 
capabilities, systems, and other strategies for the future.
    How are we doing? Let me use this opportunity to review 
recent accomplishments and have a look at the future direction 
for S&T to provide part of the answer. The Department of 
Defense request for S&T in fiscal year 2004 is $10.2 billion, 
or 2.69 percent of the overall Department of Defense request.
    This administration has increased the budget request for 
S&T by nearly 25 percent in just 2 years. However, simply 
adding money to S&T accounts will not by itself ensure 
transformation, so in comparison to our plan we find that about 
80 percent of all the S&T dollars are, in fact, aligned to 
enhance capability in one of Secretary Rumsfeld's six critical 
operational capabilities as outlined in the Quadrennial Defense 
Review. The Services are also investing in other high-profile 
transformational projects which I am sure you hear of 
separately.
    In addition, we have increased our investment in Defense 
Advanced Research Projects Agency (DARPA), the defense agency 
charged with conducting high-risk, high-payoff technologies, by 
almost $1/2 billion a year. DARPA continues to support the 
technologies that have historically been at the center of DOD's 
capabilities, materials, microsystems, and informational 
technology.
    DARPA is the most agile of our components with respect to 
changing program direction and entering into agreements with 
each of the Services to develop cutting-edge technology and 
demonstrations. DARPA is connected and critical to the 
transformation road maps of each of the Services. DARPA has 
focused on not only developing lab-type technologies, but on 
transitioning them to either advanced concept technology 
demonstrations (ACTD) or service S&T programs which are more 
customer-, i.e., warfighter-focused.
    Also, we have increased the investment in demonstrations, 
primarily through the ACTDs by almost 50 percent over the past 
2 years, from $150 million in fiscal year 2002 to over $213 
million in fiscal year 2004, and invested in transformational 
technology initiatives as well. One is the National Aerospace 
Initiative and the Hypersonic Road Map, developed cooperatively 
by DOD and National Aeronautics and Space Administration 
(NASA), which provides long-term potential for affordable 
access to space and a clear military advantage that is gained 
from speed.
    A second transformational technology thrust is energy and 
power technologies. One of the present limiting factors to 
military operations is a logistics tail that provides energy to 
forces and systems. I want to highlight as well the support 
this subcommittee has provided for hybrid electric vehicles, 
which the National Automotive Center is using in conjunction 
with the automotive and truck manufacturers to jump start a 
potential path to manage energy consumption domestically, and 
in our Army to truly reduce our logistics footprint in a 
meaningful way. I strongly urge you to continue to support this 
high-leverage area.
    A third is surveillance and knowledge systems. This 
initiative is fairly simple. It will develop the technology to 
turn information into wisdom.
    With regard to technology transition, I was pleased that 
the Fiscal Year 2003 Authorization Act supported the Quick-
Reaction Special Projects (QSRP). The objectives for a QSRP is 
the speed of rapid technology development. Three programs 
structured under QSRP are complementary with the focus of 
developing technology at different maturity levels. We seek 
continued congressional support for this program, and seek your 
help in ensuring there is sufficient flexibility in the program 
to allow the Department of Defense to most effectively be able 
to move fast to meet the needs of the warfighter.
    The decline in scientists and engineers becomes more acute 
when considering the production by academia of scientists and 
engineers who are American citizens. Simply, one can argue the 
U.S. national security advantage over the past half-century was 
fueled by the production of science and engineering talent. 
America has had the intellectual capital advantage.
    At the broader strategic level, the Department is becoming 
concerned with the overall production of scientists and 
engineers available to work on national security issues. Over 
the past decade, the total number of Ph.D-level scientists and 
engineers produced by U.S. universities has, in fact, declined. 
Recently, I participated in an inaugural workshop using 
laboratory scientists and science modules created by 
Northwestern University to bring to our Nation's high schools 
and colleges more interesting content which will attract young 
science and engineering talent.
    For several years now, the Department of Defense has been 
actively testing many management flexibilities, to wit, pay 
banding, pay for performance, and simplified classifications. 
The Office of the Secretary of Defense incorporated these best 
practices into a legislative proposal for creation of the 
National Security Personnel System for Department of Defense 
civilians. It adopts many of the features from successful 
acquisition demonstration projects and has carefully preserved 
the best practices from each of the lab demonstrations dating 
back to the China Lake demonstration, all key to attracting and 
sustaining an agile civilian force, which is vital to the total 
force readiness, not to mention attracting imaginative 
laboratory scientists.
    Again, I want to thank the subcommittee on behalf of all of 
us who serve for your interest in and support of the state of 
S&T in defense. I am prepared to answer your questions. Thank 
you.
    [The prepared statement of Secretary Wynne follows:]

                Prepared Statement by Hon. Michael Wynne

                              INTRODUCTION

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to appear before you today. It is a pleasure to have the 
opportunity to testify about the S&T program of the Department of 
Defense, and express our belief that S&T is the engine that will drive 
the transformation of the Department. I'd like to start with a thank 
you to this subcommittee, the full committee, and Congress for your 
continued support to the Department of Defense S&T program. Your 
continued push for a flexible approach to providing operators access to 
technology has been met with a corresponding change to the acquisition 
policies and regulations to begin to bring about rapid technology 
insertion throughout the DOD. Continued support for S&T complemented 
acquisition policy changes such as FAR part 12 and our current actions 
to revise the 5000 series documents to clear away some of the 
bureaucratic cobwebs, while getting at the fundamentals of good process 
management. I'd further ask that your support be continued, as it 
offers aspects of stability and forward planning that provides vision 
and purpose to the laboratories, and development activities within the 
Department and the many colleges, universities, and small technology 
houses that many times are the source of our innovations. The 
Department has forwarded several legislative proposals to Congress that 
seek to retain and expand flexibility to deploy technology to 
acquisition programs. The Department has forwarded to Congress two 
proposals on the use of ``Other Transaction Authority'' to extend the 
current authorities of the other transactions past 2004 and to expand 
authorities of other transactions to allow them to be used for existing 
systems as well as the new systems. The continued use of other 
transactions provides an effective mechanism for industry and 
government to work together, and enhances technology transition 
capability.
    Reflecting back on President Bush's goal to ``move beyond marginal 
improvements--to replace existing programs with new technologies and 
strategies, he made technology a cornerstone in the plan to transform 
and modernize defense. We have taken on a similar goal within the 
acquisition, technology, and logistics community, as one of our 
highlighted goals. That goal is to initiate high leverage technologies 
to create the warfighting capabilities, systems and strategies of the 
future.''
    Well, how are we doing? Let me use this opportunity to review 
recent accomplishments and have a look to the future direction for S&T 
to provide part of the answer to this question.
    I'll start with a look at the S&T program, and then cover the 
technology transition areas. I'll address workforce concerns, and 
discuss how we are accelerating technology to the warfighters. I'm 
often asked if the war on terror has revised our focus, and I respond 
that it has expanded our focus, as it added missions, but did not 
relieve us of any other missions. Technology will allow us to confront 
this expansion of mission in the most expeditious and effective manner.

                             S&T INVESTMENT

    The DOD request for S&T in fiscal year 2004 is $10.232 billion, or 
2.69 percent of the overall Department of Defense request. The fiscal 
year 2004 President's budget request is a very good budget request for 
S&T. First, the budget request achieved greater than 0 percent real 
growth for S&T, even compared to the combined fiscal year 2003 
President's Budget Request and Disaster Emergency Relief Fund. Perhaps 
more significant is the overall growth in S&T investment that has 
occurred under the current administration. This administration 
inherited a legacy budget request of $7.8 billion in fiscal year 2002. 
This administration has increased the budget request for S&T by nearly 
25 percent in just 2 years. However, simply adding money to the S&T 
accounts will not, by itself, ensure transformation.

                         S&T AND TRANSFORMATION

    In addition to increasing the overall budget request for S&T, we 
have focused the budget request on several important technologies that 
should enhance transformation and deliver superior military 
capabilities for years in the future. About 80 percent of all S&T 
dollars are aligned to enhance capability in one of Secretary 
Rumsfeld's six critical operational capabilities as outlined in the 
Quadrennial Defense Review. The six critical operational capabilities 
define the cornerstone of Secretary Rumsfeld's transformation, and are: 
protect bases of operations; deny enemy sanctuary; project and sustain 
U.S. forces; enhance space operations; assure information operations; 
and leverage information technologies. Additionally, under the able 
guidance of the Honorable Ronald Sega, Director of Defense Research and 
Engineering (DDR&E), three broad, new cross cutting initiatives could 
accelerate the development of critical transformational technologies in 
areas that the DOD needs to address. The three areas are: the National 
Aerospace Initiative; Energy and Power Technologies, and Surveillance 
and Knowledge Systems.
    The Services are also investing in other high profile 
transformational projects. Among the major highlights are the Army 
Future Combat System, which is an example of combat and support 
vehicles and unmanned air and ground systems which will work together 
as an integrated system-of-system, and Objective Force Warrior, which 
will decrease the equipment weight of the deployed infantry soldier 
from around 100 pounds to 40 pounds. The Air Force is developing 
enhanced precision weapons and directed energy weapons that will 
provide a battlefield option to deal with a threat with graduated 
effects. The Navy is moving rapidly to an electric force, with 
propulsion and electric weapons. Taken all together, the fiscal year 
2004 President's budget request for S&T represents a budget that 
continues to develop the technologies the U.S. military will need to 
remain viable well into the 21st century.
    In addition, we have increased our investment in Defense Advanced 
Research Projects Agency (DARPA), the defense agency charged with 
conducting high-risk, high-payoff technologies, by almost a half 
billion dollars a year. This additional DARPA investment is largely 
allocated to space technology, but in total, DARPA emphasizes research 
in eight strategic thrust areas. These eight areas are: 
counterterrorism; assured use of space; networked manned and unmanned 
systems; robust, self-forming networks; detect, identify, track, and 
destroy elusive surface targets, characterization of underground 
structures; bio-revolution; and cognitive computing. DARPA also 
continues to support the technologies that have historically been at 
the center of DOD's capabilities: materials, microsystems, and 
information technology. I would like to highlight a couple of DARPA 
projects to give a feel of how DARPA's investment is supporting 
transformation of the department. The Organic Air Vehicle (OAV) 
unmanned aerial vehicle (UAV) is a small, man-portable UAV that can fly 
and hover in a battlefield. The UAV looks very much like a sombrero--
and uses a large horizontal fan for moving and hovering. The UAV has 
been tested in 9, 15, and 21 inch version--and each can carry different 
payloads--from on-board camera to chemical or bio agent detector. This 
``system'' is being developed as a component of the Army's Future 
Combat System--which is the acquisition program to transform the Army. 
Another DARPA technology that is worth mentioning is the orbital 
express space demonstration--which is a demonstration of on-orbit 
refueling capability for space systems. The orbital express could usher 
in a new era in space, whereby the U.S. uses primarily refuelable, 
small satellites to provide a more robust, enduring capability. While I 
only mention two DARPA programs, there are many, many more truly 
transformational technologies under development at DARPA. Additionally, 
DARPA is connected to the Services through several specific 
transformational projects--as will be described in the portion that 
covers technology transition.
    In addition, we have increased the investment in demonstrations, 
primarily through Advanced Concept Technology Demonstrations (ACTD) by 
almost 50 percent over the past 2 years, from $150 million in fiscal 
year 2002 to over $213 million in fiscal year 2004. The ACTD program 
was instrumental in developing and demonstrating the utility of UAVs 
such as the Global Hawk and Predator. The ACTD program harvests the 
technology developed in the Defense laboratories and industry, and 
integrates these technologies into demonstrations that provide a 
glimpse into the future. While there are over 70 ACTD projects 
currently underway, I would like to highlight a few. The Homeland 
Security ACTD provides a detachable command center to focus responders 
in the case of a terrorist or natural disaster. In effect, it brings 
the power of the traditional military command post to bear for homeland 
security. We all know it is expensive to launch and operate some 
reconnaissance satellites. The High-Altitude Airship ACTD will 
integrate technologies to determine if the military can also use 
survivable very high altitude dirigibles to conduct many reconnaissance 
missions. The Active Denial Technology ACTD is demonstrating the 
ability of high power microwave systems to potentially control crowds--
in effect, giving the military commander a non-lethal option to protect 
an area. I only highlight these three--but suffice it to say we could 
hold a hearing on the ACTD program alone. We have increased also our 
investment in experimentation, primarily joint experimentation, and are 
executing the investment through Joint Forces Command. This new 
investment lets the Department conduct large scale ``experiments'' or 
war games to effectively ``try technology before it is bought.''
    I would like to take a moment to discuss the joint transformational 
technologies initiatives. The first is the National Aerospace 
Initiative (NAI). The complete initiative consists of hypersonic flight 
technology, affordable space launch, and enhanced on-orbit space 
technologies. In the fiscal year 2004 budget request, the Department 
focused the increased investment into hypersonic technology, investing 
over $150 million additional investment in hypersonics. We seek 
congressional support for the fiscal year 2004 budget request for 
hypersonic technology. We seek this because hypersonic technology could 
be truly transformative, in that, when developed, hypersonics provides 
the opportunity to conduct tactical strikes from a strategic distance. 
The NAI is the right initiative for America as we celebrate the first 
century of manned flight. Technology has progressed to the point where 
we believe that demonstrations to Mach 12 by 2012 are within reach. 
This would more than double any currently demonstrated system. The 
development of hypersonic technology could diminish vulnerability of 
existing systems, while potentially providing a true capability to 
strike so quickly that we could effectively deny enemy sanctuary 
anywhere in the world. Additionally, the hypersonic roadmap, developed 
cooperatively by DOD and NASA provides long term potential for 
affordable access to space. In short, the NAI is one of those 
technology opportunities that has the potential to capture American 
interest in technology, much like the race to the moon in the 1960s.
    A second transformational technology thrust is Energy and Power 
Technologies. One of the present limiting factors to military 
operations is the logistics tail to provide energy to forces and 
systems. The energy and power technologies thrust involves a 
coordinated investment by all three Services and DARPA to generate, 
store, and use power in systems ranging from microsystems to future 
generation electric ships. This initiative is investing in technology 
that could develop batteries with over five times the energy density, 
fuel cells that are reliable and safe to use in the battlefield; 
capacitors that will decrease size needed to store electricity on ships 
by a factor of 5-10. In short, this thrust could also truly transform 
the military.
    The final cross cutting initiative is surveillance and knowledge 
systems. This initiative is fairly simple--it will develop the 
technologies to turn information into wisdom. Consequently, this 
initiative will seek to develop low cost sensors with various 
capabilities (such as optical, IR, acoustic, magnetic, and so forth), 
connect these information sources to tactical networks, route the data 
from tactical to strategic level, and finally, the initiative will 
develop technologies that can assist the decision-maker. The initiative 
could begin to make the vision of network centric warfare a reality.

                         TECHNOLOGY TRANSITION

    In October 2002, Deputy Secretary of Defense Wolfowitz rescinded 
several defense acquisition directives and regulations--in effect 
throwing approximately 250 pages of bureaucracy out the window. He 
directed the Department to revise the 5000 series documents to create 
``an acquisition policy environment that fosters efficiency, 
flexibility, creativity, and innovation.'' In rescinding the 
regulations, Secretary Wolfowitz proposes to replace the 250 pages of 
directives with only 40 pages of interim policy and guidance. These 40 
pages contain the fundamental elements of acquisition, as it were. Most 
significantly here, these 40 pages contain numerous references to the 
need to accelerate technology transition or insertion. The Secretary 
reaffirmed a streamlined acquisition process built around spiral and 
evolutionary acquisition. The key element of spiral acquisition is a 
process that allows the Department of Defense to field ever increasing 
capabilities brought about by enhanced technology without having to 
initiate a new acquisition program. This is a capabilities-based 
approach, and is consistent with Secretary Rumsfeld's mandate to 
transform the DOD capabilities. The reason I begin the discussion of 
what the Department has specifically done to enhance technology 
transition is to stress that at the largest scale, the processes are 
being revamped and instituted that could allow much more effective 
technology transition. This is a cultural change, and will take time 
and leadership. This administration is committed to effecting such a 
cultural change.
    Following the streamlining of the overall DOD acquisition process, 
the Office of the Secretary of Defense has taken several additional 
steps in the past year to enhance technology transition. At the 
organizational level, the Department has brought both technology 
transition programs and policy oversight under the Director, Defense 
Research and Engineering, who has consolidated the functions under Ms. 
Sue Payton, the Deputy Under Secretary of Defense for Advanced Systems 
and Concepts. This office executes both the Advanced Concept Technology 
Demonstration, a program that uses demonstrations to allow the 
Department to ``try before buying'' technology and the Foreign 
Comparative Test program which overcomes the ``not invented here'' 
syndrome that occurs. Demonstrations are a cornerstone to spiral or 
evolutionary acquisition, and ACTDs are the flagship demonstration 
program. As stated previously, ACTD's assemble mature technologies from 
the science and technology base and accelerate the flow of technology 
to the operator.
    Another key step to enhancing technology transition is having a 
means to provide incentives to any program that has to accept the new 
technology. Changes to programs of record carry risk. Yet the budget 
process can be slower than the technology process. By use of 
incentives, the Department can reward risk. In Secretary Rumsfeld's 
budget hearing this year, he demonstrated that time lag between when 
funding is allocated to a capability in the budget process and when the 
first dollar is spent is 18-24 months. This in a world where ``Moore's 
Law'' states computer capability doubles every 18 months. To break this 
cycle, the Department is testing three pilot projects contained in the 
``Quick Reaction Special Project'' program. I was pleased that the 
fiscal year 2003 Authorization Act supported the Quick Reaction Special 
Projects (QRSP). The objective for QRSP is the speed of rapid 
technology development. Three programs structured under QRSP are 
complementary with the focus of developing technology at different 
maturity levels. These three programs are the Defense Acquisition 
Challenge Program, the Technology Transition Program, and the Quick 
Reaction Fund. All three require vetting by the acquisition, 
technology, and warfighting community, but can fund a specific 
technology within the execution year. The Quick Reaction Fund, 
initiated in fiscal year 2003, is already developing technology that 
could be used in current operations and is modeled after the success of 
the fiscal year 2002 Quick Reaction Munitions Fund. We believe the 
potential payoff from the Quick Reaction Special Program is very 
large--and have consequently added $50 million more in the fiscal year 
2004 budget request compared to fiscal year 2003. We seek continued 
congressional support in the program, and seek your help in ensuring 
there is sufficient flexibility in the program to allow the DOD to most 
effectively be able to move fast to meet the needs of the Department. 
We request the program not be further divided or earmarked, so we can 
have the freedom to manage to effect change for the Department and 
America.
    Why do we seek flexibility? In the fiscal year 2002 appropriations 
bill for the Defense Emergency Relief Fund, Congress identified $15 
million for the Quick Reaction Munitions Fund. Two successful projects 
resulted from the funding. The first was the Thermobaric Hellfire 
Enhanced Capability that increased blast lethality in multi-room 
structures of the hellfire missile. Within 1 year, the project went 
from chemistry to the field at a cost of $12 million. The Low-Cost 
Guided Imaging Rocket (LOGIR) was the second project that is enhancing 
the accuracy of the unguided 2.75,, ``hydra'' rocket used in close air-
to-ground operations. The type of outcome we achieved from the Quick 
Reactions Munitions Fund should occur through use of the Quick Reaction 
Special Projects--and should effect technology transition.
    Another key facet to enhancing technology transition has also come 
to fruition in the past year. Effective technology transition occurs 
when the three or four communities involved in developing and 
transitioning technology must be in close contact throughout the 
process. The communities are the technology, acquisition, operational, 
and the logistics community. Effectively, the program manager, 
technologist, the end user, and logistician must come together to 
provide the best possible supportable technology at the right maturity. 
In effect, the acquisition and operations risk is reduced and 
technology enhanced.

                     DARPA'S ROLE WITH THE SERVICES

    One concern I have heard since coming to the Department is most 
interesting--that concern is that DARPA is disconnected from the rest 
of the Department of Defense and supporting acquisition programs. 
Nothing could be further from the truth. In fact, this administration 
has put more money into DARPA because we are trying to change the 
technologies being developed within the Department, and DARPA is the 
most agile of our components with respect to changing program 
direction. But, DARPA has used this agility and entered into agreements 
with each of the Services to develop cutting edge technology and 
demonstrations. For instance, DARPA and the Army are linked, through 
formal agreement, to enable the development of the Army of the future 
with networked tactical equipment and vehicles, the Future Combat 
System. Additionally, DARPA and the Navy are joined, through 
memorandum, to develop the Hy-Fly missile--a supersonic demonstrator 
that is on the glide path to be an early NAI hypersonic demonstrator. 
Finally, there is the Unmanned Combat Aerial Vehicle (UCAV)--a system 
demonstration in conjunction with the Air Force. Each of these three 
systems--NAI, UCAV, and Hy-fly are at the nexus of critical 
capabilities needed by the Services--and a large programmatic change, 
so DARPA's agility was instrumental in meeting the need. Instead of the 
limited criticism that DARPA is not connected to the Services, I would 
turn it around and say DARPA is connected, and critical, to the 
transformation road maps of the Services. DARPA is in fact more 
critical and connected than ever.

     NATIONAL DEFENSE RESEARCH LABORATORIES AND CIVILIAN WORKFORCE

    The decline in scientists and engineers becomes more acute when 
considering the production by academia of scientists and engineers who 
are American citizens. Simply, one can argue the U.S. national security 
advantage over the past half century was fueled by the production of 
scientists and engineers--America has had the intellectual capital 
advantage. There are signs that America's advantage is eroding. It 
really does not matter how many of the scientists and engineers 
ultimately go to work for the Department of Defense--what matters is 
how large is the pool of quality scientists and engineers to select 
from. One could argue that the national defense engine of the end of 
the 20th century was in part fueled by the increase in scientists and 
engineers produced in the U.S. after the launch of Sputnik and the Cold 
War. There was an excitement about science that resulted in an ample 
supply of scientists and engineers that would work on national security 
issues. The United States was able to produce stealth, the global 
positioning system, night vision devices, and precision weapons by this 
pool of scientists and engineers. The Department of Defense pioneered 
the development of the internet through the ``ARPANET''. The large 
capacity of scientists produced the capabilities leading to the 
superior military capabilities today. We believe it is time to rekindle 
the excitement of science and engineering as a national asset.
    The Department of Defense has initiated several small programs in 
the fiscal year 2003 and fiscal year 2004 budget that we hope will 
begin the rekindling of imagination. Operational Joint Precision 
Educational Strike is a focused pilot initiative sponsored by Dr. John 
Hopps, the Deputy Under Secretary for Laboratories and Basic Science, 
to increase the interest in high school students in science and 
engineering; to reduce the number of college freshmen who leave the 
sciences in their freshman or sophomore year; and to increase the 
graduate fellowships in science and engineering. The Department has 
adopted the Northwestern University's Materials World Module pilot to 
develop interesting, challenging modules to capture middle and high 
school student's imagination. We are expanding upon the module by 
extending the opportunity of middle and high school teachers to train 
and intern at DOD laboratories. The kickoff for this effort will occur 
at the end of this month at Picatinny Arsenal, New Jersey.
    These initiatives supplement the ongoing Department of Defense 
Basic Research program. The fiscal year 2004 President's Budget Request 
for Basic Research is $1.3 billion, of which over 50 percent goes 
directly to universities. We estimate that every $1 million of 
university research supports between 10-15 graduate students, who work 
in areas of interest to the Department. Clearly, the DOD is putting 
pieces into place to attempt to generate more scientists and engineers.
    At the broader strategic level, the Department is becoming 
concerned with the overall production of scientists and engineers 
available to work on national security issues. This challenge facing 
America is greater than an issue just for the Department of Defense. In 
December 2002, the National Science Foundation issued a report called 
``Science and Engineering Doctorate Awards 2001.'' This report provides 
the overall production of scientists and engineers in U.S. 
universities. Over the past decade, the total number of Ph.D.-level 
scientist and engineers produced by U.S. universities has declined.

                          COMBATING TERRORISM

    Within a week of the terrible attacks of September 11, the 
Department had established the ``DOD Combating Terrorism Technology 
Task Force''. This task force is still ongoing, and meets as needed to 
address specific technology opportunities and or needs. The task force 
is comprised of executive level technology members from all DOD 
components, flag-level officers from the Joint Staff and selected 
Combatant Commanders, the Central Intelligence Agency, the Department 
of Energy, and now the Department of Homeland Security.
    Phase I lasted roughly from September 2001 through winter 2002. 
This phase resulted in such capabilities as the GBU-118 ``Thermobaric 
Bomb,'' a backscatter gamma ray system to inspect cargo without going 
into the container; a small chemical detector, called the nuclear 
quadripole resonance system, that can detect small quantities of 
explosives remotely. We also used the task force to commission a rapid 
study to determine radiation levels needed to kill anthrax spores--
knowledge that helped the Government have an option for dealing with 
the anthrax scare of late 2001.
    What is significant about phase I of the task force is not the 
specific technologies--but the fact that when the Department needed new 
capabilities, the continued investment in technology development over 
the past decades had put technologies ``in the cupboard'' when needed. 
I think this is a very important point for technology and 
transformation. Good technology development is largely achieved through 
long-term, stable investment in technologies. Not every technology 
needs to be transitioned immediately. The technologies can be developed 
and stored in a near ready state until needed. But without the 
continued stable long-term investment, the ``cupboard could be bare.'' 
The fiscal year 2004 President's budget does focus on transformation 
technologies. But it also maintains long-term technology based 
investment in such capability areas as materials and nanotechnology, 
electronics, sensors, and so forth. The balance has been, and remains, 
important.
    The task force met only periodically throughout the spring and 
early summer of 2002--but began to accelerate again when the national 
focus expanded to weapons of mass destruction. During phase II of the 
DOD Combating Terrorism Task Force, the focus has been on technologies 
to detect and neutralize chemical and biological agents. The task force 
has worked primarily with both the Central Command and Special 
Operations Command. Specific details are still classified, but may be 
provided in an appropriate forum.

                               CONCLUSION

    In closing, the S&T program and the objective of Secretary Rumsfeld 
to provide transformational capabilities to the DOD are absolutely 
intertwined. I am pleased to be able to detail just a few successes of 
the DOD S&T program. But, throughout the technology program of the 
Department, and the priorities of the DDR&E, a theme emerges I believe 
the successes being built by the DOD in technology, technology 
transition and transformation are very significant, and I appreciate 
the opportunity to come before you today to tell you about them. Thank 
you.

    Senator Roberts. We thank you.
    General Kern.

 STATEMENT OF GEN. PAUL J. KERN, USA, COMMANDER, ARMY MATERIEL 
                            COMMAND

    General Kern. Mr. Chairman, Senator Reed, members of the 
subcommittee, thank you for permitting me to testify today 
before your subcommittee on the investments you have made and 
will continue to make in our S&T. They are truly paying off for 
us today.
    If you will permit me, Senator Reed, I have a picture which 
I will leave with you from Specialist Ashline which was taken 
at our demonstration here, where we have demonstrated the 
protective gear which he was wearing, which you and this 
subcommittee have helped develop, in fact, saved his life in 
Afghanistan. It is emblematic of the work that science can do 
in supporting our soldiers.
    Army transformation has many parts to it today, and the S&T 
is working in collaboration with academia, industry, and with 
the other service laboratories and with DARPA. Our priority is 
getting technology to our soldiers faster. We have a series of 
university-affiliated research centers, which began with a 
University of Texas in Austin center, and we have then 
continued with the University of Southern California in 
establishing a center focused on bringing the best of training 
technology through what capability universities and 
entertainment can bring. That is paying dividends today, as we 
learn how to train in more realistic environments.
    We will open early in May a third center, a university-
affiliated research center with the Massachusetts Institute of 
Technology (MIT) in the nanosciences, a new area which we are 
beginning to explore. I met at lunch today with Dr. Covington, 
who is running that facility for us, and have some very 
exciting ideas of what nanosciences can bring to the Army to 
reduce the weight and burden on our individual soldiers. We 
have one other, which we will award this year, in the 
bioengineering area to complete a center of excellence in the 
new areas as well as the more fundamental areas of training and 
ballistics.
    I would like to focus on three areas: transformation 
infrastructure, people, and organizations. In transformation, 
we are focusing on new threats. We are looking at the agility, 
sustainability, reliability, lethality, survivability, and 
maintainability necessary for the future. A critical piece of 
this is the development of the future combat system. We will go 
to a review with the Office of the Secretary of Defense in May 
for the next steps in that. Today, 98 percent of our S&T is 
focused on the Objective Force, including the Future Combat 
Systems (FCS). The priority of that work is going to our 
laboratories.
    We are seeing successes in some of our new initiatives, 
soldier systems of protection, chemical and biological 
detection and defense, reducing our footprint for logistics, 
sensor technologies, unmanned ground vehicles and unmanned 
aerial vehicles. An example of the ground vehicle is a PacBot, 
a project which was started with DARPA and which we have taken 
into the caves of Afghanistan, where robotics systems are now 
going down into the caves, as opposed to soldiers having to go 
in harm's way.
    In medical technologies, we are looking at current 
operations as well as our objective force to improve our 
ability to respond in that first magical hour to save soldiers' 
lives.
    We have begun a revitalization of the Army laboratories in 
1999, and we are increasing our support to the program 
executive officers and program managers. That was an area that 
you wanted to explore further on how rapidly we could 
transition to our program offices through the acquisition 
process. We have world-class laboratories in sensors; robotics; 
command, control, communications, computers, intelligence, 
surveillance and reconnaissance (C\4\ISR) that combination of 
C\4\ISR which is providing us vital battlefield information.
    We are concerned about the people. The Engineering and 
Science Career Development Program has a great deal of focus 
for us on revitalizing our workforce. We have increased our 
hiring by 1,100 people between 1999 and 2002, and we have an 
increase in Ph.D and masters' degree holders. Recruitment and 
retention continues, however, to be a major focus on what we 
must do to keep our S&T alive.
    We are also looking at outreach programs at the 
historically black colleges and universities (HBCU) and with 
our high-performance computing centers. We have started a 
program for seventh- and eighth-graders called E-Cyber Mission 
to reach out to young children to bring them into the area of 
S&T, and this year we have developed a Research, Development, 
and Engineering Command to integrate all of our S&T, not by 
commodity or specific areas, but across all of the sciences, 
much as our universities are today. Major General John 
Doesburg, who is joining me here, is the transition director 
for that and bringing those areas into fruition.
    I would be remiss if I did not mention some critical people 
that we have. Army scientist, Richard Fong, who has been with 
us for many years at Picatinny Arsenal is absolutely the 
world's greatest scientist in warhead technology. He knows how 
to make our systems smaller and lighter for all of our 
Services.
    Dr. Melissa Holland, an engineer psychologist who has 
developed the Falcon language translator, has taken the work 
that was done previously in DARPA and again put it into 
commercial off-the-shelf components and we are using it today 
in Bosnia and Afghanistan.
    Chuck Vessels, an engineer at our Army Missile and Research 
Development Center, which has helped to develop the warhead in 
use by both the force and the Army on our Hellfire missiles, 
and done that very quickly and very effectively.
    It has been a very ambitious journey this past year. It 
will be even more ambitious in the future, as we bring on the 
S&T needed for the future combat systems and leading to the 
Objective Force.
    I look forward to your questions, sir.
    [The prepared statement of General Kern follows:]

              Prepared Statement by Gen. Paul J. Kern, USA

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you to discuss the Army's laboratories and 
S&T efforts. I want to thank the members of this subcommittee for your 
valuable role in making our Army the preeminent land combat force in 
the world. Your support of our Transformation goals has been vital to 
our progress. We welcome your continued advice and support.
    Army Transformation is multi-faceted. Comprising many of those 
facets are the numerous S&T efforts being pursued across our Army, in 
collaboration with academia and industry. Those efforts do not stop at 
our shores. We are working closely with our allies on projects for 
mutual benefit. From sensors to simulators, from bullets to batteries, 
from ammo to armor, Army Transformation is being accelerated through 
integrated efforts, creating invaluable synergy to ensure we provide 
our Nation a dominant land force capability as well as support our 
homeland defense.
    Out of the lab and into the hands of our soldiers is the number one 
priority of our S&T work. Faster is better. We are reaching out and 
connecting with experts in fields that a few years ago might not have 
been associated with the United States Army. For example, we approached 
Hollywood, the game and entertainment industry a few years ago, to 
create a center where simulation would really be ``outside the box.'' 
Another great example is the Institute for Soldier Nanotechnology at 
the Massachusetts Institute of Technology, where we are researching a 
wide range of possibilities, from climate control clothing to 
biomedical monitoring.
    It would take several books to cover all we are doing in S&T and 
expect to do in the future. Therefore, it becomes practical to focus on 
three areas for discussion at this time--Efforts, Infrastructure, and 
People. First, we will define some of the critical efforts that are key 
to Army Transformation--to the Objective Force, and within that, the 
Future Combat System (FCS). Second, we will lay out the extraordinary 
capabilities that reside in our S&T infrastructure, which includes our 
in-house laboratories and our research, development, and engineering 
centers. The third area that significantly impacts all areas is the 
people arena, as well as how we organize our people.

                 EFFORTS SUPPORTING ARMY TRANSFORMATION

    The Army is fundamentally changing the way we fight and is creating 
a force that is more responsive to the strategic requirements facing 
our Nation. We are building a joint precision maneuver capability that 
can enter a theater at the time and place of our choosing, maneuver at 
will to gain positional advantage, deliver precise joint fires and, if 
necessary, to close with and destroy the enemy.
    The Objective Force is an army designed from the bottom up around a 
single, networked, integrated command, control, communications, 
computers, intelligence, surveillance, and reconnaissance (C\4\ISR) 
architecture that will enable us to link with joint, interagency, and 
multi-national forces. It will be a rapidly deployable, mounted 
formation, seamlessly integrated into the joint force and capable of 
delivering decisive victory across the broad spectrum of military 
operations.
    The Objective Force will leverage and deliver with precision the 
combat power of joint and strategic assets. It is a capabilities-based 
force that rapidly responds to the requirements of the strategic 
environment, no matter what the mission, the threats, or the risks. The 
Objective Force will be responsive, deployable, agile, versatile, 
lethal, survivable, and sustainable.
    A critical piece of the Objective Force is the FCS which is on 
track to be fielded by the end of this decade. There will be a 
Milestone B decision in May 2003. FCS is being developed in partnership 
with the Defense Advance Research Projects Agency (DARPA). In addition, 
the Army has selected and employed an industry team to serve in the 
role of Lead System Integrator (LSI), which will ensure that all the 
best and most innovative sources of technology are leveraged and 
exploited. The FCS is a synergistic mix of manned and unmanned systems 
being developed and fielded as a complete family to achieve the 
warfighting capabilities the Nation requires to defeat adaptive, 
asymmetric, conventional, and unconventional adversaries.
    The Army is placing similar emphasis on the soldier of the 
Objective Force. The Objective Force Warrior program is the Army's 
flagship S&T soldier system effort led by the Army Material Command 
(AMC) to provide revolutionary improvements in warfighting capabilities 
for the soldier and small team. The program takes advantage of ongoing 
Army S&T integrated with the technological expertise of the private 
sector to provide our soldiers with overwhelming advantages, both with 
respect to soldier safety and survivability as well as lethality 
capability.
    S&T is the enabler of the Objective Force. The S&T community inside 
the Army consists of laboratories belonging to AMC, the Medical 
Research and Material Command, the Corps of Engineers, and the Space 
and Missile Defense Command. The total Army S&T funding for fiscal year 
2004 is over $1.8 billion, of which 98 percent is focused on the 
Objective Force, including FCS. The work of Army laboratories is highly 
leveraged with activities in industry, academia, other government 
agencies, and foreign countries. The scope of efforts spans the 
spectrum from vehicle platforms and munitions to drinking water and 
food.
    Priorities in the Army labs in support of the Objective Force 
include protection of the soldier; reduction of the logistics 
footprint; improvements in network centric command, control and 
communications; development of unmanned capabilities; and increasing 
the lethality and survivability of the overall force. In addition to 
support to the Objective Force, the Army S&T community has contributed 
significantly to Homeland Defense initiatives.
    Soldier protection is always a major concern. Efforts in improved 
body armor, lightweight vehicle armor, active protection systems, and 
signature management ensure that soldiers are hard to find and even 
harder to defeat. A significant transition success story is the 
Interceptor Body Armor and Small Arms Protective Insert developed by 
the Natick Soldier Center (NSC) for the U.S. Marine Corps and leveraged 
by the Army. Through advancement of new, lightweight ceramic composite 
materials, the NSC was successful in achieving a 13-percent weight 
reduction in the ballistic vest and over a 40-percent weight reduction 
in the ballistic insert, without performance degradation and while 
addressing a new blunt trauma requirement. NSC also successfully 
executed a Manufacturing Technology Program that evaluated the 
different ballistic plate materials and manufacturing processes. The 
end result is a technology that is not only mass producible, but 
reduces the cost by 25 percent. Another recent transfer from S&T was a 
crack arrestor technology that improves the multiple hit capability of 
the ceramic composites used in SAPI. Undoubtedly the most meaningful 
result is the soldiers' lives saved by this technology advancement. As 
the Honorable Pete Aldridge, USDAT&L, noted, ``Every bullet deflected 
by advanced body armor, represents a visit not paid to a spouse or 
parent by a military chaplain.''
    The Edgewood Chemical Biological Center (ECBC) is well known for 
its contributions to CB agent detection equipment, such as the Joint 
Biological Point Detection System, which is currently in its third 
generation in 10 years. Each new version has been smaller, lighter, 
more durable and more capable--in a word, better. ECBC is now hard at 
work on the fourth generation of this biotechnology application. 
Recently, ECBC design and technology development supported full-scale 
development transition of the Joint Service General Purpose Mask 
(JSGPM) program. The JSGPM satisfies all joint service chemical/
biological mask field and combat vehicle applications for the next 
generation soldier and is significantly influencing future civilian 
respiratory protection systems.
    Transformation in logistics requires a reduction in the logistical 
footprint. A fighting force expends large amounts of materiel, from 
food to ammunition to batteries. All of this needs to be brought into 
theater and maintained if the force is to be effective. The S&T 
community continues to invest in smaller, more reliable ammunition and 
armament, more nutritious and long lasting foods, and more efficient 
energy sources. There are several efforts underway to reduce the amount 
of water that needs to be transported. Current efforts include recovery 
of usable water from vehicle exhaust and finding efficient ways of 
drawing water from the atmosphere, even in desert climates.
    See First, Understand First, Finish Decisively! Sensor technology 
and information fusion is critical to situational understanding. Modern 
warfare depends highly on accurate timely transfer of information to 
the warfighter. The highly mobile, lighter force envisioned in the Army 
Transformation will depend on this ability more than ever. Investments 
in self-healing networks, remote and robotic sensors, data fusion 
techniques, and leader development help ensure that up-to-date 
information is always available and decisions can be made quickly and 
accurately. Many of the technologies developed by the Communications 
Electronics Research Development and Engineering Center to support the 
Army's warfighting capabilities will, it is believed, be adapted for 
homeland security needs. Sensors, including infrared, acoustic, and 
radar--used singly or in combination--can provide intrusion detection 
and perimeter security. Multi-spectral x-ray technology can facilitate 
real time inspection of baggage and small crates at security 
checkpoints. Hyper-spectral infrared imaging can detect chemical and 
biological agents, while Armaments Research Development and Engineering 
Center improved non-lethal munitions can increase security perimeters 
by stopping threats at a greater range and incapacitating antagonists 
if required. High value targets can be protected by layered defenses 
incorporating acoustic cannons and hypersonic sound devices, while 
smart audio and video surveillance systems can more effectively control 
crowds and yield intelligence about hostile threats.
    A recent major technical accomplishment is the integration of a 
Hellfire laser-guided missile with an Air Force Predator UAV and its 
improvements/modifications to give the Predator the capability not only 
to identify targets of opportunity on the battlefield but also to 
engage and destroy these targets in real-time. The Aviation and Missile 
Research Development and Engineering Center (AMRDEC) quickly developed 
critical technologies for the Hellfire MOD-K to meet an urgent 
operational need to provide fragmentation lethality against a broad 
range of targets. The primary urgency was related to Global Military 
Operations involving the U.S. The MOD-K is an excellent example of 
AMRDEC transitioning advanced technology to deployment in a very short 
time at minimal cost. The MOD-K effort, including simulation, design, 
fabrication, test, and deployment, provided a joint service capability 
in less than 8 weeks. In addition, the RDEC supported urgent 
requirements for deployed forces, designing, producing, and modifying 
satellite communications (SATCOM) radios in country in support of OEF. 
This included the design and test of Army aviation Blue Force Tracking 
capabilities which supported the modification of 200 Army aviation 
assets in Southwest Asia and the current designing and testing of 
improvements for AH-64A/D instrument flight rules (IFR) capabilities 
which will provide significant operational improvements. AMRDEC's 
Prototype Integration Facility (PIF) is a Government Owned, Government 
Operated (GOGO) facility/concept concentrated on meeting the rapid 
response needs of Army, Department of Defense (DOD), and ultimately the 
warfighter. Customers buy solutions, not technology; therefore, the 
GOGO PIF concept focuses on assembling and integrating the necessary 
Government and Industry expertise to render a true rapid response.
    The Army Research Laboratory (ARL) has been working with DARPA for 
over 5 years on the development of the PacBot robot. We have provided 
two PacBot platforms (Hermes and Professor) and an infrared imager to 
the forces in Afghanistan that was used in the caves and closed 
environment. An improved platform with a fully articulated sensor head 
under complete remote control of the operator is ready for troop 
evaluation and may be available for the deployed troops.
    The U.S. Army Tank Automotive Research Development and Engineering 
Center (TARDEC), in partnership with industry and ARL, is currently 
developing semi-autonomous and follower capability for unmanned ground 
vehicles under its' Crew-integration and Automation Testbed (CAT) and 
Robotic Follower programs. At the request of the FCS LSI, TARDEC 
adapted their program to form the basis of the FCS program's Unmanned 
Combat Demo (UCD). The CAT operates as a surrogate FCS Command and 
Control Vehicle and the Robotic Follower together with ARL's 
Experimental Unmanned Vehicle operates as two surrogate FCS Armed 
Reconnaissance Vehicles (ARV). The goals were to demonstrate one to one 
soldier to ARV robotic control, conduct a remote fire engagement, and 
to generate much needed experimental data in support of the FCS 
Milestone B decision. The UCD field experiments culminated with the 
first ever successful remote firing from a ground robot under semi-
autonomous control. This effort went from first discussion to 
successful field experimentation in less than 18 months and involved 
multiple Army agencies and industry partners. We continue to do field 
experimentation at Ft. Bliss to generate data in support of the FCS 
Milestone B decision.
    The Medical Research and Materiel Command (MRMC) is playing a key 
role in inserting new medical technologies into both future acquisition 
programs such as the Objective Force Warrior, and directly into 
operational forces. Recent technology successes include:
    Battlefield Medical Information System--Telemedicine (BMIS-T), 
which captures longitudinal patient information (predeployment, 
deployed, postdeployment) and epidemiological data. The system provides 
first-responder and forward deployed and home-station physician access 
to critical information, knowledge bases, and medical consultation that 
will greatly improve the quality of medical data acquisition, 
processing, and storage, regardless of the point of care. BMIS-T is 
currently being deployed as part of the U.S. Special Operations Command 
(USSOCOM) Health Surveillance System and is a component of the DOD 
Theater Medical Information Program, as well as current Army medical 
surveillance architecture (BMIS-T/Composite Health Care System II--
Theater).
    Chitosan Dressing (CD) is expected to provide a marked improvement 
in the ability of front-line medics to control severe life-threatening 
external bleeding on the battlefield. Developed under Army contract, 
the Food and Drug Administration (FDA) approved the CD on 4 November 
2002 for temporary control of severely bleeding wounds. Research has 
shown that the CD is also effective in reducing internal bleeding after 
severe liver injury, and work is continuing to allow FDA approval for 
internal use of the dressing. Through a combination of fiscal year 2002 
and fiscal year 2003 funding, a total of 27,000 dressings are being 
procured. Delivery of these dressings is under way, and production will 
continue through the summer of 2003, with the initial dressings 
designated for delivery to the USSOCOM and the remaining dressings to 
be distributed in Army channels.
    Combined Camouflage Face Paint is a U.S. Environmental Protection 
Agency-approved blend of face paint with DEET insect repellent to 
provide a minimum of 8 hours of protection against biting insects. 
Inclusion of insect repellent protection will reduce nuisance factors 
by repelling insects near the face and help reduce diseases, such as 
malaria and dengue fever, transmitted by biting insects. DEET has been 
previously used as a separate product, but caused existing face paint 
formulations to run. Its integration into face paint is intended to 
simultaneously improve ease of use and compliance, optimizing 
protection.
    In keeping with the Army's Executive Agent responsibilities for the 
use of INDs (investgational new drugs) for force health protection, 
USAMRMC has currently deployed two Special Medical Augmentation 
Response Teams to the Middle East to oversee the operational use of IND 
products. The IND products are not yet approved by the FDA for every 
day use. These products must be administered by a physician under an 
approved human use protocol and require consent forms. Regulatory 
requirements warrant maintenance of complete and accurate records by 
the principal investigator(s). IND products being used are a new 
hemostatic dressing for medic use in the control of severe external 
bleeding, and botulinum toxoid vaccine, human botulism immune globulin, 
and botulinum antitoxin to prevent and treat illness caused by use of 
botulinum toxin as a biological warfare agent. These teams will oversee 
the use of the products, and provide training to field medical 
personnel in their use, the collection of informed consent, and 
required record keeping. The team devoted to botulinum toxin prevention 
and treatment is also overseeing compliance with FDA requirements for 
storage and transfer of products to ensure their effectiveness.
    These technologies, as well as many others, will provide 
capabilities which will be introduced into the Objective Force. This 
Force, with the FCS as its centerpiece, will be a leap ahead for the 
Army and its ability to defend the Nation.

                             INFRASTRUCTURE

    The FCS program has had a significant impact in revitalizing Army 
laboratories. Dr. Michael Andrews, the Assistant Secretary of the Army 
for Acquisition, Logistics, and Technology--Research and Technology, 
initiated this effort. Beginning in 1999, Dr. Andrews refocused, 
reshaped, and reinforced Army S&T efforts to speed the development of 
those critical technologies essential to transform the Army into the 
Objective Force. Continued revitalization of the Army laboratories is 
key to the success of this reshaping effort.
    In-house laboratories provide the Army with a critical source of 
objective expertise, corporate memory, niche-area technologies of 
little interest outside the Army, an understanding of the user's 
problems, and innovative technology breakthroughs. The Army laboratory 
facilities are located throughout the world. Currently the Army has 
seven major laboratories located within the United States. This 
represents almost 8 million square feet of laboratory space. We also 
maintain facilities in other parts of the world, such as Africa, to 
study disease where it occurs. These facilities represent our ability 
to develop technologies for tomorrow's weapons and our ability to 
develop defensive technologies for the future.
    The Army laboratories provide Subject Matter Experts in support of 
the Army acquisition community throughout the entire system lifecycle 
from concept exploration to disposal. Army laboratories provide 
engineering support to the Program Executive Officers/Program Managers, 
materiel managers, and other customers. Army laboratories played a 
vital role in the development of the FCS requirement documents and 
request for proposal to industry, and are active participants in the 
source selection process.
    Our Army laboratories have developed an in depth capability to 
conduct research in a variety of specialized areas. Many are world 
class. Most Army laboratories have a very strong modeling and 
simulation capability within their facilities for virtual design, 
development, and testing as part of our efforts to decrease the time 
between laboratory research and fielding. For example, the Tank-
Automotive Research Development and Engineering Center (RDEC) operates 
a 360-degree immersive collaborative virtual environment (CAVE) for 
design, development, and testing of automotive systems. In conjunction 
with the CAVE, the RDEC developed the Power Wall, a single screen 3-D, 
one to one scale analysis tool. Both tools can be linked across 
multiple sites and have generated interest from major contractors 
associated with FCS. The Army Research Laboratory has the Zahl Physical 
Sciences Laboratory. This laboratory contains a 6,400 square foot clean 
room used for chip development and small-scale manufacturing as well as 
facilities for nanotechnology, Infrared, and Wide Bandgap Technology 
research. At the Engineering Research and Development Center (ERDC) in 
Vicksburg, MS, the Army Corps of Engineers operates the Survey and 
Global Positioning System Laboratory. This facility is used to develop 
and test survey techniques and equipment for use in positioning and 
navigation, and, in conjunction with other systems, for obtaining high-
accuracy terrain and navigation channel elevation data. The Army also 
maintains one of its two DOD High Performance Computing Major Shared 
Resource Centers at ERDC. This 55,000 square foot facility includes 
multiple, state-of-the-art High Performance Computing Systems, which 
provide some of the most powerful scientific and engineering computing 
capability in DOD. The U.S. Army Medical Research Institute for 
Chemical Defense is the DOD lead laboratory for development of medical 
countermeasures against chemical warfare agents and for training 
personnel in the medical management of chemical casualties. The 
institute's facilities support chemical casualty care training, 
physiology, drug assessment, pathophysiology, pharmacology, analytical 
chemistry, neurotoxicology, veterinary surgery, chemical safety/surety, 
medical maintenance, information and resource management, logistics 
support, and quality assurance. The Army Medical Research Institute of 
Infectious Diseases maintains containment laboratories that are a 
unique national and international resource for the safe study of high-
hazard disease agents. This lab was instrumental in the recent anthrax 
investigation.

                        PEOPLE AND ORGANIZATIONS

    Army laboratories are staffed with some of our country's most 
talented and dedicated civilian and military scientists and engineers. 
The Engineering and Scientist Career Program is extremely important for 
the Army because it establishes career development programs for its 
many scientists and engineers that maintain the highest levels of 
technical and managerial competency. The career development program 
reflects current and future needs for education, training and 
developmental assignments so that Army engineers and scientists bring 
state-of-the-art skills and knowledge to their jobs. In large part, 
because of the Army's focus on FCS and the Objective Force, and the 
enabling laboratory personnel demonstration authority championed by 
this subcommittee, we show an upward trend in the numbers of engineers 
and scientists. Between 1999 and 2002, AMC hired over 1,100 engineers 
and scientists. The technical expertise of the workforce at ARL has 
shown significant improvement with an increase in the number of 
engineers and scientists holding doctoral degrees increasing from 22 
percent in 1992 to 32 percent in 2002 and individuals with master's 
degrees rising from 34 to 47 percent. However, recruiting top talent in 
specific emerging technology areas remains a challenge. One way we are 
addressing this challenge is by Army laboratories maintaining an active 
recruiting presence on major university campuses to attract the best 
and brightest talent. Another way we are responding is through the 
unique hiring, compensation, and performance management authorities 
Congress has provided the DOD laboratories over the last 8 years. The 
importance and excitement of the work within the Army labs is 
attractive to many college graduates. We are also aggressively pursuing 
opportunities to revitalize the S&T workforce through participation in 
the DOD Laboratory Quality Improvement Program which will shape the new 
National Security Personnel System development. We are working with the 
Office of the Secretary of Defense through the Director, Defense 
Research and Engineering (DDR&E) to include critical flexibilities.
    The Army has a number of initiatives to reach outside our 
laboratories to leverage talent, ideas, and technologies. Typically our 
labs and RDECs attempt to achieve a ratio of 35 percent for in-house 
research to 65 for outsourcing research. These figures vary from lab to 
lab from a low of approximately 8 percent in-house to a maximum of 
approximately 72 percent in-house. The variance in these percentages 
results from specific missions of the organizations. The weapon system 
commodity based organizations typically have higher industry interest 
in solicitations due to quantity or profit potential. Some of our 
organizations deal with very specific low volume solutions that are 
service unique thereby necessitating an in-house capability to address 
Army or DOD unique problem.
    The Army is committed to a significant outreach program toward 
institutions of higher learning and, in particular, to an outreach 
program towards Historically Black Colleges and Universities/Minority 
Institutions (HBCU/MI). These institutions of higher learning form the 
nucleus of the next generation of scientists and engineers for our 
country and for the Army. In fiscal year 2002, the Army sent over $296 
million in funding to colleges and universities. Of the $296 million, 
the Army awarded over $35 million to HBCU/MI in fiscal year 2002.
    The Army is taking extensive advantage of the research capabilities 
associated with our universities. One of the ways we do this is through 
University Affiliated Research Centers (UARC). UARCs provide or 
maintain essential engineering, research, and/or development 
capabilities through DOD contracts awarded under the authority of 10 
U.S.C. 2304(c)(3)(B). Currently, the Army maintains three UARCs. They 
are: the Institute for Advanced Technology at the University of Texas 
at Austin, the Institute for Creative Technology at the University of 
Southern California, and the Institute for Soldier Nanotechnology at 
the Massachusetts Institute of Technology. We are currently in the 
process of soliciting for a fourth UARC to be known as the Institute 
for Collaborative Biotechnology.
    There are several notable examples of partnerships that the Army 
has with both institutions of higher education and HBCU/MIs, one of 
which is the Army High Performance Computing Research Center (AHPCRC) 
located at the University of Minnesota. University researchers use 
state-of-the-art computers to solve real world problems for the Army. 
Specific examples include work in computational solid mechanics to 
model ballistic armor perforation of a layered ceramic target and 
computational aerodynamics dealing with the airflow past advanced 
parachute designs. As part of its contract, the University of Minnesota 
partners with six HBCU/MIs to investigate phenomena of interest to the 
Army. Recently the AHPCRC concluded a computational fluid dynamics 
model of aerosol dispersion in downtown Atlanta. This model 
demonstrated the effective radius of a chemical or biological attack 
based on specific weather conditions and is relevant to Homeland 
Defense planning.
    eCYBERMISSION is a national science competition for seventh and 
eighth grade students initiated by the Army. It is a web-based science, 
math, and technology competition for teams at U.S. based public or 
private schools, Department of Defense schools abroad or U.S. based 
home schools. Teams consist of three or four students in the same grade 
and region with a team advisor. Each team selects a challenge in any 
one of four areas: Sports and recreation, arts and entertainment, 
environment and health & safety. The Army hopes to stimulate interest 
in the sciences and technology through this program. This program 
represents one way in which the U.S. Army can demonstrate it's 
gratitude to the citizens of this Nation for giving their sons and 
daughters to military service in defense of freedom.
    Uniformed Army Scientists and Engineers provide a vital link 
between the work in the laboratories and the operating forces. The 
expertise derived from military training and experience is a key 
success factor contributing to the design, conduct, and interpretation 
of operationally relevant studies of technologies in actual deployment 
or under field conditions.
    The need for uniformed Army scientists and engineers is 
particularly great in the medical area, as the medical R&D laboratories 
provide the personnel necessary to perform significant operational 
support roles, in addition to and separate from their research mission. 
These roles include management and oversight of the use of 
Investigative New Drug products in theaters of operation, operational 
laboratory support for contingencies (e.g., anthrax attack response), 
and performance of specialized in-theater assessments and consultations 
to operational commanders on matters affecting health and performance. 
Medical R&D personnel also augment deployable Combat Health Support by 
providing professional fillers (PROFIS) to Table of Organization and 
Equipment medical units and by serving as members of deployable Special 
Medical Augmentation Response Teams.
    Today, our needs are changing as we face new threats. We must get 
technology out of the lab and into the field faster. It is vital that 
we optimize the benefits of technology by sharing across the old 
commodity oriented stovepipes. We must organize to do so.
    In October 2002, AMC established the Research, Development, and 
Engineering Command (Provisional). It has three major objectives. The 
first is to integrate research, development, and engineering across all 
areas of the Army, the other services, universities and all other 
sources. The second is to get emerging technology to the soldier 
faster. The third is to demonstrate the agility to rapidly take 
advantage of opportunities no matter where they may arise. To achieve 
these objectives requires new and innovative approaches to all aspects 
of the development of technology for the soldier.
    The first organizations assigned to the new command were the Army 
Research Laboratory, the Army Materiel Systems Analysis Activity, the 
International Cooperative Programs Activity, the International Research 
and Development Standardization Groups, and the Field Assistance in 
Science and Technology Activity, the S&T portion of HQ AMC and the S&T 
portion of the former Simulation Training and Instrumentation Command. 
We intend to formally stand up the full organization, including the 
RDECs, October 2003.
    The Command is establishing a formal relationship with the Army 
Training and Doctrine Command (TRADOC) and the Army Test and Evaluation 
Command (ATEC). The relationship with TRADOC will include the full 
integration of Doctrine, Training, Leadership, Organization, and 
Soldier considerations into the technology development and transition 
process. Similarly, with ATEC the relationship will include the 
comprehensive testing considerations into the integration of technology 
and technology programs to facilitate the rapid and effective 
development and transition of technology to the soldier and maximum 
verification with modeling and simulation. No longer will technology be 
developed or acquired without a very close link to these two Commands.
    The RDE Command will look at the capabilities the Army needs from a 
systems of systems perspective. For example we will focus on 
supportability and lethality capabilities instead of commodities such 
as helicopters or missiles, which will enable the scientists and 
engineers to integrate those technologies across multiple disciplines. 
We will use modeling and simulation (M&S) to reach across all the labs 
so that they can operate in a virtual environment from any location.
    The M&S that the RDE Command is developing and integrating will 
feed into the Advanced Collaborative Environment. This virtual, 
distributed environment will tie together M&S, life cycle cost, 
requirements, testing, and training. We are using it now in the Future 
Combat System acquisition process. It will continue to grow and become 
the means by which all of the Army shares concepts and breaks down 
organizational walls. The days of single, independent platforms are 
coming to a close. The future will require each platform to be linked 
to all the others. The only way we can learn to operate that way is to 
first build the modeling and simulation capabilities. We will start at 
the beginning with the simulation and carry that all the way through in 
a way that ensures the training devices and the systems are fielded 
together.
    I see the RDE Command as a key part of the process the Army is 
using to transform itself. We are breaking down our old barriers. 
Transforming the way we acquire and develop technology for our soldiers 
is a step further down that road.

                               CONCLUSION

    We have only touched the surface of some of the facets of Army 
Transformation, but it is apparent that the S&T facets are essential to 
success. The Army has embarked on an ambitious transformation journey. 
We must provide technology solutions essential to current and future 
warfighter needs across the full spectrum of Army operations. A diverse 
S&T portfolio will enable the Army to support evolving and emerging 
capabilities. Innovative initiatives will revitalize our workforce and 
laboratories and ensure our world-class labs continue to be equipped 
with modernized equipment and staffed with a dedicated and highly 
skilled workforce. Effective partnerships and collaborations will speed 
the transition of technology solutions to the soldier. The Army S&T 
community remains committed and focused to support Army Transformation 
and provide the warfighter with ``Technology to Win''. Our Army and a 
team of people from industry, academia, and other nations are committed 
and focused on enabling a faster transformation. At the end of the day, 
our soldiers, our civilians, our contractors, and our allies--our world 
benefits from the power of S&T applied across a remarkable spectrum.

    Senator Roberts. Thank you, General Kern.
    General Lyles.

 STATEMENT OF GEN. LESTER L. LYLES, USAF, COMMANDER, AIR FORCE 
                        MATERIEL COMMAND

    General Lyles. Thank you, Mr. Chairman. Senator Roberts, 
Senator Reed, Senator Kennedy, Senator Dole, Senator Cornyn, I 
appreciate the opportunity to provide testimony on the fiscal 
year 2004 Air Force Science and Technology Programs. As noted, 
I have submitted my prepared testimony for the record, and I 
would like to summarize just a few key points here, then I look 
forward to responding to your questions.
    First, let me say that the United States Air Force is fully 
dedicated to a robust S&T program that enables us to maintain 
our vision of being an integrated Air and Space Force capable 
of rapid and decisive global engagement. By continuing our 
investment in transformational technologies and our commitment 
to reduce cycle time in our acquisition process, the Air Force 
will retain the dominance of air and space in future conflicts 
against both traditional and asymmetrical threats.
    Mr. Chairman, we have all been faced with the reality of 
fiscally constrained budgets and an operationally demanding 
environment, but in spite of this, we have increased our S&T 
funding while maintaining a balanced S&T portfolio.
    The Air Force fiscal year 2004 President's budget request 
for S&T is $2.2 billion, an increase of more than $535 million 
from the fiscal year 2003 President's budget. The most 
significant change in that S&T request is the devolvement of 
$350 million from several OSD-sponsored programs to the United 
States Air Force. This includes high-performance computer 
modernization, the University Research Initiative Program, and 
high-energy laser programs.
    Mr. Chairman, I would like to summarize quickly our three 
strategies and principles for S&T in the United States Air 
Force. First, to pursue integrated technology solutions that 
support our warfighters' highest needs. Second, to pursue 
fundamental enabling technologies that will improve both 
today's Air Force and the Air Force of tomorrow. Last, and 
certainly not least, to attract and nurture our most valuable 
S&T asset, the outstanding scientists and engineers whose 
intellectual capital provide us with the cutting-edge 
capabilities we enjoy today and we will certainly need for 
tomorrow.
    Let me briefly make a comment about each one of them, then 
I will close and look forward to your questions.
    In the era of integrated technology solutions, we are 
focusing our S&T talents to support our warfighters' need. That 
is an imperative for our United States Air Force. One relevant 
example of today, in today's environment, concern about 
terrorist threat, is something called exterior explosive blast-
coating polymer.
    This was developed by the United States Air Force to 
protect buildings and installations from close-proximity 
explosions or from air-dropped weapons or truck bombs. This 
easy-to-apply spray coating provides greater structural 
integrity of exterior walls and prevents dispersion of debris, 
as well as separation of wall elements. This coating is 
currently being used in many different applications, and is 
actually being applied to the outer walls of the Pentagon.
    Also, Mr. Chairman, as you are aware, both in Operation 
Enduring Freedom in Afghanistan, during our war on terrorism, 
and today in our war in Iraq, Air Force Special Tactics Combat 
Controllers have literally changed the very nature of warfare. 
By performing operations deep in enemy territory, they helped 
determine who the adversaries are, where their weapons are 
located, and who the innocent civilians might be so that we can 
precisely direct air power to confront and to kill a threat if 
one warrants it. These Special Tactics Combat Controllers are 
also there to provide instant battle damage assessment.
    We call these deep engagements battlefield air operations 
(BAO), and as a result of integrated efforts between our S&T 
laboratories, our developers, and these special tactics 
warriors, we will soon have, literally within the next few 
days, a new capability we are providing to them to help provide 
integrated solutions to solving their needs on the battlefield.
    This includes digital machine-to-machine capability that 
helps quickly connect the right aircraft with the right 
weapons, the right munitions, precisely to the right target, on 
time, at the right time, and they do this very decisively. This 
automated process was started literally about 2 months ago, led 
by one of our Special Tactics Controllers, working with our 
laboratories, and working with our scientists to give this kind 
of rapid capability and to field it very quickly.
    In the second strategy, enabling technologies to improve 
tomorrow's Air Force, our S&T strategy is to pursue enabling 
technologies that will continuously provide improvements to our 
capabilities. Amongst the many transformational technologies 
that we are rapidly developing is directed energy in various 
forms, including laser and high-powered microwave technology. 
One such transformational directed energy effort is the 
vehicular-mounted active denial system (VMADS). VMADS is being 
developed by Air Force laboratories primarily today for use by 
the United States Marine Corps, but as you will soon see, it 
will have applications in a wide variety of different ways.
    This defensive millimeter wave system is used for perimeter 
defense applications today. It is a directed energy weapon that 
emits a nonlethal, nondamaging beam which heats up the skin of 
a potential enemy when in close proximity to the system. The 
resulting temporary pain causes the person to flee or disperse. 
The pain stops when the person is no longer in the path of that 
particular energy, and Mr. Chairman, I think you, Senator Reed, 
and Senator Cornyn saw a demonstration of that with the little 
finger test device at the demos a couple of weeks ago.
    We are looking to expanding this program very quickly, 
again both for the Marine Corps and for many applications, 
including commercial applications for crime-fighting.
    One other new technology area that I think is really on the 
cutting edge and will actually dramatically change lots of 
things that we do in the future is one mentioned by General 
Kern. It is the future application of nanotechnology. It will 
provide the greatest change in how man operates, since we will 
be operating at the atomic and molecular level to create 
structures, materials, and devices never thought of before. We 
are looking at putting monies into nanotechnology and 
technology programs working closely with the other services and 
other agencies because of the tremendous benefits we will get 
from nanotechnology.
    As an example, an order of magnitude increase in the 
strength of materials, a twofold improvement in material 
thermal properties, a threefold reduction in power consumption, 
and an order of magnitude increase in the energy in munitions 
and propellants. Nanotechnology is going to revolutionize the 
way we do everything in our activities in S&T.
    The last strategy of our three-prong strategy is the one I 
consider to be the most important and the most severe, and that 
is to attract and nurture a world-class S&T workforce. We are 
working diligently in many ways to ensure that we have the 
scientists and engineering workforce to meet our needs for the 
Air Force today and for the future.
    Both Secretary Roche and General Jumper are deeply involved 
with me, with Major General Paul Nielson, sitting behind me, 
the Director of our laboratories, to ensure that we shape the 
workforce, our future sciences and engineering workforce. Air 
Force civilians and military scientists and engineers are 
highly motivated and productive today. We cannot lose that.
    The Air Force is unique in that 20 percent of our 
laboratory scientists and engineers are actually Government 
personnel, active duty military. This gives us, we think, a 
better direct link to the warfighter. We are committed to 
making sure we maintain that excellence and relevance in our 
S&T programs.
    There are a wide variety of initiatives that we have 
undertaken to make sure that stays the case, the Airman 
Education Commissioning Program, the Technical Degree 
Sponsorship Program, our own current Air Force Laboratory Demo 
Project, which has been ongoing since 1997 to today, the future 
National Security Personnel System, and budgets that we are 
applying to ensure we can recruit and retain the scientists and 
engineers we need for the United States Air Force.
    In conclusion, Mr. Chairman, the Air Force is fully 
committed to providing this Nation with the advanced air and 
space technologies required to meet America's national security 
interests. We are an integral part of the DOD S&T team, and we 
look forward to working with Congress to ensure a strong Air 
Force S&T program tailored to achieve our visions and the 
visions needed for the future.
    Mr. Chairman, I will close right there, and I will look 
forward to questions from you or the subcommittee.
    [The prepared statement of General Lyles follows:]

            Prepared Statement by Gen. Lester L. Lyles, USAF

                              INTRODUCTION

    Mr. Chairman, members of the subcommittee, and staff, I very much 
appreciate the opportunity to provide written testimony on the Fiscal 
Year 2004 Air Force S&T program. The United States Air Force is 
transforming to a capabilities-focused Expeditionary Air and Space 
Force. We are doing this through the development of the Concept of 
Operations for each of the seven major tasks the Air Force must be 
capable of accomplishing. Our goal is to make the warfighting effects 
and the capabilities we need to achieve them the drivers for everything 
we do. This is especially true in our S&T program. We have taken the 
effects and capabilities required by the seven Concepts of Operations 
and mapped them to the Long-Term Challenges and Short-Term Objectives 
identified in the congressionally-directed S&T Planning Review 
completed in February 2002. Not surprisingly, we have a high 
correlation between our S&T programs and the capabilities required by 
these Concepts of Operations. This is because the Air Force Research 
Laboratory (AFRL) closely links the technologies reflected in its S&T 
plan to warfighter capability needs.
    The United States Air Force is committed to a robust S&T program 
that enables us to achieve our vision of becoming an integrated air and 
space force capable of rapid and decisive global engagement. By 
continuing our investment in transformational technologies that support 
a reduced cycle-time, spiral development acquisition process, the Air 
Force will retain its dominance of air and space in future conflicts, 
against both traditional and asymmetrical threats.
    Innovation is a vital part of our heritage and is key to ensuring 
the Air Force will meet the challenges of tomorrow. Transforming our 
warfighting capabilities towards this end will involve continued 
innovations in how we think about employing our forces to defend our 
Nation, as well as quantum leaps in our technology. We must be prepared 
to counter regional instabilities, the worldwide availability of 
advanced weapons, and other emerging and less predictable asymmetrical 
threats. We are developing transformational technologies that permit 
flexible forces to operate far from home, on short notice, and for 
extended time periods. However, we must also be able to afford these 
innovations once we develop them in order to re-capitalize the Air 
Force to fulfill our vision. To meet these objectives, we search out 
the most promising and affordable technologies in order to win 
decisively, protect our forces, and minimize collateral damage.

                S&T BUDGET/SENIOR LEADERSHIP INVOLVEMENT

    We have been faced with the reality of a fiscally-constrained, but 
operationally-demanding environment. The high operations tempo the Air 
Force has sustained in support of peacekeeping operations and 
conflicts, such as Afghanistan, has placed a great burden on our people 
and system.
    In spite of these requirements, the Air Force is working to 
increase S&T funding, while maintaining a balanced S&T portfolio. The 
Air Force fiscal year 2004 President's budget (PB) request for S&T is 
$2.2 billion, an increase of more than $535 million from the fiscal 
year 2003 PB. The most significant change in the S&T PB request results 
from the devolvement of $350 million for several Office of the 
Secretary of Defense efforts to the Air Force S&T program. This 
includes the High Performance Computing Modernization program, the 
University Research Initiative program, and the High Energy Laser 
program. Another significant addition to S&T in fiscal year 2004 is 
over $150 million for the National Aerospace Initiative.
    The Air Force understands the concerns of Congress regarding the 
level of support for these devolved programs and is working hard to 
ensure execution of the programs transferred to the Air Force continues 
to support the diverse multiple military objectives inherent in each of 
these programs. Further, the Office of the Secretary of Defense will 
continue to provide policy guidance and oversight for these efforts.
    In a separate action, the Seismic Research Program for detection of 
nuclear explosions has been transferred back to the Air Force from the 
Defense Threat Reduction Agency (DTRA). The Air Force is working to 
reclaim the knowledge and experience it possessed before transfer of 
the program to DTRA in 1997.
    One area in which the Air Force has increased its investment is in 
space communications technology with initiation of the transformational 
communications technology development program. This program will 
identify, develop, and demonstrate the wideband technologies needed to 
build a space-based laser communications network that could provide 
higher data throughput and higher frequencies, thus transforming our 
military satellite communications infrastructure.
    In conjunction with the increase in S&T funding, there has also 
been a significant increase in the involvement of the warfighting 
commands and senior Air Force leadership in the planning, programming, 
and prioritizing of Air Force S&T. For example, we have conducted S&T 
summits where the Secretary of the Air Force, the Air Force Chief of 
Staff, and the Air Force four-stars and other senior leaders review the 
S&T portfolio. The latest S&T summit focused on transformational 
technologies that can be developed to assist in combating terrorism and 
other asymmetrical threats.

                               WORKFORCE

    The Air Force scientist and engineer (S&E) workforce is another 
area where senior Air Force leadership involvement plays a pivotal 
role. Both Secretary Roche and General Jumper are deeply involved in 
shaping our future S&E workforce. Air Force civilian and military S&Es 
are highly motivated and productive. The Air Force is unique in that 20 
percent of its laboratory S&E government workforce is active duty 
military. This gives us a direct link to the warfighter. Some of these 
military S&Es come directly from operational commands, while others 
will serve in operational commands later in their careers.
    The Air Force is committed to shaping its S&E workforce with the 
vision to enhance excellence and relevance of S&T into the 21st century 
and appreciates the support Congress has already provided. This 
challenge requires the Air Force to maintain a dominant edge in 
technology and also requires us to provide clear direction and growth 
for our S&E workforce. However, we, as do others, find it is difficult 
to recruit and retain S&Es. The Air Force has several initiatives, both 
civilian and military, that address recruitment and retention issues.
    AFRL was the first laboratory in the DOD to take advantage of 
legislation allowing us to experiment with alternative personnel 
management systems for our civilian S&Es. The simplified classification 
system, broadband pay levels, and contribution-based compensation that 
form the cornerstone of the Air Force Laboratory Demonstration Project 
have provided AFRL with some key flexibilities needed to compete with 
private industry for critical S&E talent and properly compensate our 
high contributors. We will need to consider these flexibilities as we 
develop the National Security Personnel System (NSPS).
    We have found that our centers have the greatest difficulty in 
recruiting high quality minority member scientific and engineering 
candidates. We have implemented a command-wide recruitment program 
targeting this group of highly sought after candidates. The following 
is a list of national career fairs that we have attended or plan to 
attend this year: Black Engineer of the Year Award Conference; Society 
of Hispanic Professional Engineers Conference; National Society of 
Black Engineers Conference; and Hispanic Engineering National 
Achievement Awards Conference. We provide the resumes that we obtain 
from these conferences to our center civilian personnel offices as a 
ready source of high quality applicants. This targeted recruitment, in 
conjunction with the hiring flexibilities of the Federal Career Intern 
Program, is enabling us to make more timely offers to highly sought 
after S&E graduates. To ease the confusion that applicants for the Air 
Force Material Command (AFMC) positions can experience, we developed a 
public web page, which explains what we have to offer and how to apply 
for specific vacancies. The page links to each center's public web page 
for more detailed center explanations.
    Other civilian initiatives include the recruitment of college 
students with critical S&E skills via recruiting incentives, a robust 
marketing effort, and a co-op central funding program that hires 
college students while still in school. Central funding for recruiting 
bonus and retention allowances for journeyman level S&Es also promises 
to provide much needed assistance with civilian recruitment and 
retention.
    On the military side, we're employing the Airman Education and 
Commissioning Program and the Technical Degree Sponsorship Program to 
recruit additional S&Es into the military workforce. Bonus programs 
such as the Critical Skills Retention Bonus are essential to shrinking 
the current shortfall of military S&Es within the Air Force and the Air 
Force is currently exploring additional bonus programs.
    The Air Force is committed to its S&Es and recently published a 
``Concept of Operations for Scientists and Engineers in the United 
States Air Force.'' We also baselined the requirement for the Air Force 
S&E workforce and, upon analyzing this baseline requirement, found that 
while our military and civilian authorizations were about right, our 
actual demographics were seriously short in some key areas. As such, we 
are shifting our focus to retaining the workforce we have and infusing 
it with the vitality of new S&Es to meet tomorrow's need. During the 
next 7 years, we are investing nearly a third of a billion dollars to 
support the retention and reshaping of our technological workforce. As 
we replenish our S&E workforce, we are providing career guidance and 
mentoring that will enable us to meet our 21st century challenge. 
Initiatives, such as the special hiring legislation authorized by 
Congress in PL 106-398, which provides ``DARPA-like'' hiring authority 
to the military departments, should also produce positive results in 
shaping our S&E workforce. This authority has only recently been 
delegated to the Air Force, but we are optimistic about its potential. 
Again, we express our thanks to Congress for your continued support.

                       MAXIMIZING OUR S&T DOLLARS

    We will continue to leverage technology to achieve new levels of 
combat effectiveness. Our strategy is to pursue integrated technology 
capabilities that support our warfighter's highest priority needs. We 
must also pursue the fundamental enabling technologies that will 
improve tomorrow's Air Force. As technological superiority is 
increasingly a perishable commodity, we work hard to optimize our S&T 
funding, by not only ``inventing the future'' ourselves, but also by 
speeding the introduction of new technologies to our warfighters.
    One way we are doing this is through our Applied Technology 
Councils and the Advanced Technology Demonstrations (ATDs). The 
councils are composed of two- and three-star representatives from AFRL, 
our acquisition product centers, and our major user commands who 
formally prioritize ATD programs. We hold an Applied Technology Council 
meeting with each Major Command twice every year and have commissioned 
34 ATDs that have transition funding in the fiscal year 2003 budget. 
The Applied Technology Council process is extremely important in 
linking the S&T program to both the system developers and the 
operational user. This process facilitates technology transition to 
operational use and secures user commitment for resources to do systems 
design and development and fielding of the technology. Currently about 
50 percent of our Advanced Technology Development (6.3) budget is 
committed to these programs.
    Since deployed technology may remain in use for decades, the Air 
Force S&T program not only focuses on enhancing performance, but also 
on sustaining our fielded warfighter capabilities. Emphasizing 
affordability from the very beginning through training of our 
management, and science and engineering staff, as well as through an 
in-depth review of technology development efforts, increases our 
potential to reduce the costs of technology early in the system 
development process and throughout a product's life cycle.
    We maintain an excellent balance of military, civilian, and 
contractor expertise, which allows us to be very selective about 
investing in high payoff technological opportunities. We constantly 
seek opportunities to integrate Air Force planning and leverage our S&T 
funds by cooperating with other Services, Agencies, the private sector, 
and international partners. For example, we rely on the Army as the 
lead Service for defensive chemical-biological technology development. 
The Air Force also has strong inter-Agency efforts, such as our program 
in aging aircraft, which is focused on detection and management of 
corrosion and fatigue in aging structures. It is closely coordinated 
with the civilian aging aircraft research programs at the National 
Aeronautics and Space Administration (NASA) and the Federal Aviation 
Administration (FAA). Our partnership with the industrial and 
university research base is very strong. In fact, we outsource over 70 
percent of our S&T funding. Finally, the Air Force is involved in 
international cooperative technology development efforts for S&T, such 
as the software defined radio development, insensitive high explosives, 
and aircraft battle damage repair efforts conducted with France, 
Germany, and the United Kingdom. Another example of international 
cooperation is the multi-domain network management program with 
Australia and Canada. This program is developing the concepts and tools 
for creating and managing secure computer networks with our coalition 
partners.

                          WORLD CLASS RESEARCH

    The quality of our program is assessed by the Air Force Scientific 
Advisory Board (SAB) through yearly reviews. The SAB conducts an in-
depth review of half of the S&T program each year, covering the entire 
program over a 2-year period. Twelve technical areas have been 
identified as world class research during the last cycle of reviews--
let me highlight a few of these areas that were identified as world 
class.
    The Directed Energy Directorate's Starfire Optical Range at 
Kirtland Air Force Base, New Mexico, is leading the adaptive optics 
research for use in large ground-based telescopes to image satellites 
and propagate laser beams through the atmosphere. This will enable 
high-quality, ground-based observations of space objects and 
propagation of laser beams through a turbulent atmosphere. Astronomical 
images using this technology can rival those obtained with the Hubble 
Space Telescope.
    Our Propulsion Directorate's Hypersonics Technology (HyTech) work 
at Wright-Patterson Air Force Base, Ohio, is acknowledged by the SAB as 
world class and a cornerstone of the Office of the Secretary of 
Defense's Director of Defense Research and Engineering's (DDR&Es) 
National Aerospace Initiative. Our HyTech program has continued to 
advance the state of the art in scramjet engines and conducted the 
first ever ground test demonstration of a scramjet producing positive 
net thrust back in 2001. In February 2003, HyTech tested a flight 
weight scramjet Ground Demonstration Engine operating at Mach 4.5. 
While the 2001 Performance Test Engine used copper heat-sink hardware 
and weighed 1,500 pounds, the 2003 Ground Demonstration Engine used JP-
7 fuel to cool the scramjet engine walls and weighed less than 150 
pounds. This marked another first for the HyTech program--demonstrating 
the structural durability of a hydrocarbon fueled, actively cooled 
scramjet. Testing at Mach 6.5 will start in March 2003 and should be 
completed in April 2003. Pratt & Whitney developed this particular 
engine in collaboration with Air Force scientists and engineers.
    Another SAB-rated world-class research program is the Warfighter 
Skill Development and Training efforts worked by our Human 
Effectiveness Directorate at Brooks City-Base, TX. Specific research 
areas include Integrated Panoramic Night Vision Goggle (PNVG) and 
Distributed Mission Training. The Integrated PNVG will improve 
situational awareness and terrain avoidance at night through its wider 
field of vision and improved resolution. It will also provide 
protection from laser target designators, laser rangers, and laser 
threats through compatibility with existing laser eye protection 
technologies. Distributed mission training will provide an integrated 
set of training, simulation, and mission rehearsal technologies that 
will improve warfighter capabilities and mission readiness by enhancing 
operator and team performance skills. Technologies will increase 
operational readiness by providing more effective methods and 
approaches to train and assess personnel. These technologies will 
contribute to a more highly trained and flexible cadre of personnel at 
a reduced cost.
    Working closely with operational users, AFRL researchers in the 
Materials Directorate at Wright-Patterson Air Force Base, Ohio, 
continue to develop and transition new filter technologies that provide 
improved eye protection for aircrews from varied levels of laser 
threats. The Laser Eye Protection program is enabling aircrews to 
conduct day and night air operations without visual jamming or personal 
injury.
    Our research in Electro-Optic Warfare at Wright-Patterson Air Force 
Base, Ohio, will allow future laser-based sensor systems to penetrate 
moderate cloud cover, obscurants, and camouflage. This will provide 
improved target detection and identification for our weapons systems. 
``See and Avoid'' sensors will ease restrictions on unmanned air 
vehicle operations in civilian airspace and allow autonomous operation 
in conjunction with manned aircraft. These technologies may also be 
applied as low-cost missile warning sensors to affordably protect 
military and commercial aircraft from surface-to-air missiles. Also, 
experimental research in infrared countermeasures is developing threat 
adaptive techniques for robust defeat of current and future infrared 
weapons and sensors.
    Space weather research at Hanscom Air Force Base, Massachusetts, is 
another SAB-rated world class operation. We have a strong modeling 
capability that specifies and forecasts space weather from the sun to 
the ionosphere. Assessment capability of space environment and its 
effects using compact sensors will be incorporated into a high energy 
particles sensor that is under development.
    At Edwards Air Force Base, California, the Propulsion Directorate 
is working on world class research in polynitrogen propellants. The 
goal is to enable high performance monopropellant rocket propulsion 
systems with revolutionary performance. By improving the specific 
impulse of the propellant, we will have environmentally benign exhaust 
and reduced signatures. This could potentially improve storage, 
manufacturing, and rocket engine size.

                          COMBATING TERRORISM

    While the traditional focus of S&T has been on developing long-term 
capabilities, the Air Force S&T program also contributes to the current 
needs of the Nation and our troops deployed in hostile areas. One 
example of an Air Force project receiving a great deal of attention 
since September 11 is the Exterior Explosive Blast Coating polymer, 
which was developed by the Air Force to protect key buildings and 
installations from close proximity explosions, such as air dropped 
weapons or truck bombs. This easy-to-apply spray coating provides 
greater structural integrity of exterior walls and prevents dispersion 
of debris as well as separation of wall elements. This coating is 
currently being applied to the interior of the outer walls of the 
Pentagon.
    Another transformational effort is the Vehicular Mounted Active 
Denial System (VMADS). The VMADS is being jointly developed with the 
U.S. Marine Corps and is a defensive millimeter wave system used for 
perimeter defense applications. It is a directed energy weapon that 
emits a non-lethal, non-damaging beam, which heats up the skin of a 
potential enemy when in close proximity to the system. The resulting 
temporary pain causes the person to flee.
    In the war on terror, Air Force Special Tactics Combat Controllers 
are changing the very nature of warfare. By performing operations deep 
in enemy territory, they help determine who the terrorists are, where 
their weapons are located, and who the innocent civilians are. Then, 
they precisely control the elements of airpower to defeat the terrorist 
threat, while taking care to spare innocent civilian casualties and 
minimize collateral damage. Then, these same Special Tactics Combat 
Controllers are there to provide instant battle damage assessment. We 
call these deep engagements, ``Battlefield Air Operations (BAO).''
    AFMC is providing needed help for these brave Special Tactics 
Warriors. The Air Force Research Laboratory is accelerating new 
technology to these Special Tactics Warriors in the form of significant 
improvements to their BAO kit of equipment. The Aeronautical Systems 
Center is providing a Special Tactics System Program Office to assist 
in rapid procurement of these new BAO kit items. The Electronic Systems 
Center is helping to ensure these new digital machine-to-machine data 
communications are interoperable with the rest of our Global Grid of 
military command and control communications systems. As a result of 
this AFMC-wide enterprise, our Special Tactics Warriors will soon have 
a digital machine-to-machine capability that helps to quickly connect 
the right aircraft, with the right munitions, guided precisely to the 
right target, at just the right time, to achieve the desired effect. 
This new automated process helps to reduce the time it takes to target 
the terrorist threat, while at the same time reducing human error in 
the targeting process.
    Working collaboratively with the Special Tactics Warriors, this 
AFMC ``BAO Tiger Team'' has also partnered with a national team of 
industry to field significant enhancements of increased capability, 
while reducing the weight and size of the individual BAO kit equipment. 
They are performing these improvements by developing, prototyping, 
testing, building, and fielding these BAO kit improvements in very 
rapid spirals. These new BAO capabilities will help to save American 
lives, and the lives of innocent civilians. BAO provides a 
revolutionary and highly effective way to combat the terrorist threat.
    One of the premier munitions almost ready to transition from the 
munitions lab at Eglin Air Force Base into acquisition is Crash PAD 
(Prompt Agent Defeat). The objective of the Crash PAD program is to 
demonstrate a blast/frag multi-purpose warhead that can be used to 
damage fixed biological and chemical targets while producing an 
environment that will mitigate bio agent collateral damage. The range 
of applicable targets includes soft to moderately hardened. Sled track 
testing occurred in late January and flight test occurred in late 
February. This program has the potential to be a significant resource 
for the warfighter in destroying chemical and biological weapons with 
minimal effects to civilians.

                     TRANSFORMATIONAL TECHNOLOGIES

    There are many other Air Force technology areas that deserve 
special mention. Let me highlight just a few examples. As mentioned 
earlier, there's our transformational communications technology 
development program, whose laser communications technology efforts 
promise to increase data transfer rates at least ten-fold compared to 
current radio frequency communications systems. Additionally, laser 
communications uses a narrow beam, which decreases the likelihood of 
intercept and increases resistance to jamming. While laser 
communications have a high potential to revolutionize satellite 
communications, there are technical challenges to overcome such as 
precision pointing and tracking, weather constraints, and adapting the 
equipment for use in space. We continue to work on the technology 
challenges and are also conducting a study to determine the best 
architecture for implementing laser communications technologies to 
complement and integrate with radio frequency-based systems.
    To increase aircraft survivability and operational efficiencies, 
the Air Force is developing both manned (F/A-22 and Joint Strike 
Fighter) and unmanned flight vehicles that can carry and employ weapons 
from both external and internal weapons bays. To increase the number of 
weapons the flight vehicle can fit into their internal weapons bays, 
part of our investment strategy focuses S&T funding on developing and 
demonstrating smaller precision weapons.
    One of the small munitions currently being flight demonstrated at 
Eglin Air Force Base is the Low Cost Autonomous Attack System (LOCAAS). 
The LOCAAS is a 100-pound class powered munition of which the primary 
target set is moving and relocatable targets. This Advanced Technology 
Demonstration (ATD) program will demonstrate the effectiveness and 
military utility of this type of munition for the Lethal Suppression of 
Enemy Air Defenses (SEAD), Theater Missile Defense (TMD) Attack 
Operations, and Armor/Interdiction mission areas. LOCAAS will integrate 
a laser radar precision terminal seeker with autonomous target 
recognition algorithms, a multi-modal warhead, Global Positioning 
System (GPS)/Inertial Navigation System (INS) mid-course guidance, and 
a miniature turbine engine with a fly-out range of 100 miles. This ATD 
program will complete five flight tests by the end of fiscal year 2003, 
culminating in a planned autonomous flight with active seeker and 
warhead against a real target. The first flight test was successfully 
completed on February 4, 2002, and demonstrated the powered flight 
envelope, GPS waypoint navigation, and simulated attack of a SEAD 
target. The second flight test, successfully completed on November 4, 
2002, was a guided LOCAAS that demonstrated real-time autonomous 
search, and automatic target acquisition algorithms that could detect, 
identify, and simulate attack against a TMD target.
    Plans are also being made in fiscal year 2004 to conduct a 
cooperative program with the Royal Australian Air Force (RAAF) using 
the LOCAAS vehicle. A test program on the RAAF F-111 aircraft in 
Australia is scheduled for the first quarter of the fiscal year. This 
will be an important test for both nations--the U.S. is able to test 
munitions release at supersonic speeds and Australia benefits from the 
test results. These results could enable maturation of the 
computational simulation codes for separation of symmetric and 
asymmetric miniature weapons, providing for a reduction in the risk and 
cost of weapons certification efforts for aircraft with internal 
weapons bays such as the F/A-22, Joint Strike Fighter, and UCAVs.
    To continue the trend of miniaturization of space platforms, the 
Air Force and Defense Advanced Research Projects Agency (DARPA) have 
provided funding to 10 universities to explore the military utility of 
innovative, low-cost nanosatellites. These nanosatellites, weighing 2 
to 10 kilograms, could demonstrate efforts such as differential Global 
Positioning System navigation, miniaturized sensors, and 
micropropulsion technologies. In December 2002, two ``pico satellites'' 
weighing slightly more than two pounds each, were successfully released 
from a specialized spring-loaded launcher assembly mounted on the 
sidewall of the Space Shuttle Endeavor. This was the joint Air Force/
DARPA-developed PICOSAT Inspector experiment to demonstrate a 
significant step forward in the development of an onboard autonomous 
inspection capability.
    The Air Force is also conducting the Experimental Satellite System 
(XSS) series to demonstrate increasing levels of microsatellite 
technology maturity. The XSS-10, the first microsatellite in the series 
launched on schedule during fiscal year 2003. It demonstrated semi-
autonomous operations and visual inspection in close proximity of an 
object in space--in this case a Delta II upper stage. In fiscal year 
2004, we plan to launch XSS-11, which will demonstrate autonomous 
operations and provide experience with command and control in proximity 
operations to another space object.
    One of the most transformational and quickly deployable 
technologies available today is command, control, and communications 
technology, also known as information technology. This technology is at 
the heart of our Moving Target Indicator Exploitation program, which is 
developing web-enabled automated tools to exploit data from current and 
future sensor systems such as the Joint Surface Target Attack Radar 
System, better known as JSTARS. The effort is focused on four 
technology areas: ground moving target tracking; motion pattern 
analysis; behavioral pattern analysis; and sensor resource allocation 
and scheduling, which provide the capability to track moving targets 
and get the information to the operations center. This system is in 
southwest Asia today.

                       BREAKTHROUGH TECHNOLOGIES

    In recent years, we have all come to appreciate the success of 
unmanned vehicles. We hear over and over again the tremendous 
operational advantages that systems such as Predator and Global Hawk 
are bringing to warfighters from all Services. Over the first two 
decades of the 21st century, advances in micro unmanned air vehicles 
will provide significant additional capabilities to our Armed Forces. 
Micro air vehicles utilize advances in microscale aerodynamics, 
electronic miniaturization, munitions, and propulsion to package 
sensory and weapons payloads into highly reliable, on-demand systems. 
These systems will provide unprecedented levels of situational 
awareness in the most severe threat environments. Whether we are 
operating in urban environments, sensing bio-chemical dispersion 
through the atmosphere, or looking over the next hill, our troops will 
have the awareness needed to fight and survive. These systems will 
provide the persistent intelligence, surveillance, and reconnaissance 
in high threat environments needed by our troops on the ground and our 
airmen in the air. When called for, swarms of these vehicles will 
cooperate together to generate both lethal and nonlethal effects.
    In the next 50 years, advancements in nanotechnology will provide 
the greatest change in how man operates since the invention of powered 
flight itself. Nanotechnology is a science and a series of disciplines 
that works at the atomic and molecular level to create structures, 
materials, and devices through improved molecular organization. By 
working with elements at the level of nanometer scale, we have access 
to the building blocks of nature. This will fundamentally change the 
way materials and devices will be produced in the future. The ability 
to synthesize nanoscale building blocks with precisely controlled size 
and composition and to then assemble them into larger structures with 
unique properties and functions will revolutionize segments of the 
materials and device industry. The benefits that nanostructuring can 
bring include lighter, stronger, and programmable materials; reductions 
in life cycle costs through lower failure rates; innovative devices 
based on new principles and architectures; nanosensors and 
nanoprocessors; and use of molecular/cluster manufacturing, which takes 
advantage of assembly at the nanoscale level for a given purpose.
    Another significant breakthrough technology that will change the 
way we develop systems is our work in biotechnology. Biology has 
developed unique materials and processes that may be exploited in non-
biological systems. We are studying the fundamental science necessary 
to incorporate biological components and organisms into Air Force 
systems. For example, in biomemetics, we research the adaptation of 
natural biological sensor in reptiles. The natural infrared sensors in 
reptiles do not need to be cooled. We hope to adapt this biological 
process to Air Force sensor applications that normally require 
cryogenic cooling.

                         TECHNOLOGY TRANSITION

    The majority of Air Force S&T is contracted with industry and 
universities. This promotes relationships between the scientists and 
engineers conducting the research and lays the foundation for 
technology transition. Strong connections between the technology 
supplier and the end user help speed transition of technology to the 
warfighter. In addition, the various transition programs in which the 
Air Force participates further cement this foundation. Air Force 
technology transition efforts include Advanced Technology Demonstration 
projects, Small Business Innovation Research (SBIR) contracts, and 
Cooperative Research and Development Agreements (CRADAs) among others.
    The Applied Technology Councils discussed earlier were initiated in 
fiscal year 1999 to foster top-level user involvement in the transition 
of technology from the laboratory to the system developer to the 
operational user. As noted, these Councils review and approve Air Force 
Advanced Technology Demonstration projects and ensure that the Major 
Commands plan for the transition of successful technology by tying 
approved Advanced Technology Demonstration projects to planned Major 
Command Future Years Defense Program funding.
    Another Air Force technology transition tool is the SBIR program, 
which funds early-stage efforts at small technology companies. These 
programs serve a defense need, but also have the potential for private 
sector and/or military market commercialization. A similar program, the 
Small Business Technology Transfer (STTR) program, funds cooperative 
efforts involving a small business and a research institution (i.e., a 
university), a Federally-funded research and development center, or a 
non-profit research institution. A CRADA is an agreement between a 
government laboratory and a non-Federal party under which the 
laboratory provides personnel, facilities, equipment, or other 
resources (but not funds) with or without reimbursement and the non-
Federal party provides funds, people, services, facilities, equipment, 
or other resources to conduct specific research and development efforts 
that are consistent with the agency's mission.
    These efforts along with many other programs, such as Dual-Use S&T, 
Independent Research and Development, Mentor-Protege, Personnel 
Exchanges, etc., are mutually beneficial to the Air Force and the 
contractors and universities with whom we collaborate. Technology 
transition is a key component of the Air Force S&T program and is vital 
to our pursuit of national security requirements.

                           SECTION 253 STUDY

    Section 253 of the National Defense Authorization Act for Fiscal 
Year 2002, Public Law 107-107, directed the Air Force, in cooperation 
with the National Research Council of the National Academy of Sciences, 
to carry out a study to determine the effect of S&T program changes of 
the past 2 years. The Air Force Science and Technology Board (AFSTB) of 
the National Research Council will prepare a written report for the 
Secretary of the Air Force to forward to Congress by the May 1, 2003, 
deadline. While we do not have any insight into the AFSTB study 
results, we expect this study will reflect the positive impact of 
changes instituted by the Air Force in its S&T planning process.

                               CONCLUSION

    In conclusion, the Air Force is fully committed to providing this 
Nation with the advanced air and space technologies required to meet 
America's national security interests around the world and to ensure we 
remain on the cutting edge of system performance, flexibility, and 
affordability. The technological advantage we enjoy today is a legacy 
of decades of investment in S&T. Likewise, our future warfighting 
capabilities will be substantially determined by today's investment in 
S&T. As we face the new millennium, our challenge is to advance 
technologies for an Expeditionary Aerospace Force as we continue to 
move aggressively into the realm of space activities. The Air Force is 
confident that we can lead the discovery, development, and timely 
transition of affordable, transformational technologies that keep our 
Air Force the best in the world. As an integral part of the Department 
of Defense's S&T team, we look forward to working with Congress to 
ensure a strong Air Force S&T program tailored to achieve our vision of 
an integrated air and space force.
    Mr. Chairman, thank you again for the opportunity to present 
written testimony, and thank you for your continuing support of the Air 
Force S&T program.

    Senator Roberts. General, thank you very much, and thank 
you for your emphasis on stressing the importance of 
nanotechnology, particularly in regard to consequence 
management. I know there are several nanotechnology solutions 
around all of the services that they can utilize. We do just 
happen to have a very fine organization in Kansas called 
Nanoscale Materials, Inc. in Manhattan, Kansas.
    Now, I want everybody to know that I did not write your 
speech, and you are not writing mine, but we may want to work 
on that. At any rate, the Marine Corps is working on specific 
reactive nanoparticles to neutralize any anthrax stimulants, 
and we look forward to that technology, and I could not pass 
that up. You gave me a softball so I decided to respond.
    General Lyles. Thank you, Mr. Chairman.
    Senator Roberts. Senator Reed. I am sorry, Admiral Dyer. We 
do not want to leave the Navy out.

 STATEMENT OF VICE ADM. JOSEPH W. DYER, USN, COMMANDER, NAVAL 
                      AIR SYSTEMS COMMAND

    Admiral Dyer. Sir, thank you very much.
    Mr. Chairman, Senator Reed, distinguished members, it is a 
pleasure to be here with you today.
    Moving technology quickly from the scientist's bench to the 
sailors and marines that fight our wars and support our country 
is a most important undertaking, and I would offer up the 
sensor resolution and the weapons delivery accuracy that you 
are seeing played out real time, right now and over this last 
year or so, as an example of our success.
    I am the Commander of the Naval Air Systems Command, the 
senior flag officer in the Navy materiel community, and I 
represent today the Naval Sea Systems Command, the Navy Office 
of Research, and others. We recognize that a long-term stable 
and sustained investment is necessary to transition S&T to 
research and development (R&D). We are committed to 
accelerating and validating that investment via 
experimentation.
    The thermobaric weapon much in the news over the last few 
years, and capable of taking out inhabitants deep within caves 
or bunkers, is an example of a technology that has been in 
development for over 30 years. Quickly displayed to the 
battlefield, it nevertheless represents work that started 30 
years ago on synthetic organic chemistry, and reflects that 
many times when you step out in R&D you do not know what path 
it is going to lead, but contributing to the body of knowledge, 
and especially to defense knowledge, is important to us.
    The Navy's S&T investment has increased via the fiscal year 
2004 budget submission some $1.45 billion over the Future Years 
Defense Program (FYDP), and includes such things as the Navy 
UCAV, our unmanned combat aerial vehicle, supersonic cruise 
missiles, down through things like the Coast Guard vessel 
tracking system, which helps to protect and monitor our 
harbors.
    We are also gratified by the subcommittee's interest in 
test and evaluation, and the Navy is a strong supporter of the 
Defense Test Resource Management Center, and we are working 
with the Under Secretary Acquisition, Technology, and Logistics 
(AT&L) to establish that office.
    I will shorten my remarks on transformation because you 
have heard a lot about medical, nanotechnology, materiels, and 
autonomous vehicles from my fellow briefers this morning, but 
these are exciting technologies, and it is an exciting time. We 
view S&T within two contexts. One is a time line, and the other 
is a philosophical organization piece.
    Time lines, we look at today in quick technology to the 
work place and to the battlefield. We look at the next Navy, 
looking out 5 to 15 years, and then we look at the Navy after 
next, some 15 to 30 years in the future. Our Sea Power 21 
construct, where we look at Sea Strike, our ability to deliver 
striking power to the enemy; Sea Shield, our ability to protect 
our fleet, our people, and our friends; Sea Basing, faster 
logistics and a smaller footprint, both standing atop a 
foundation of improved efficiencies relating to Sea Enterprise; 
and to Sea Warrior, where we look to take better advantage of 
our human capital and our human assets.
    Our S&T investment is guided by three pillars: rapid 
response, feedback from our operational forces via the 
experiment and now via actual combat; national naval 
responsibilities, where we have unique defense interests such 
as naval engineering and acoustics that are not necessarily 
shared by the other services; and what we call, Grand 
Challenge, those things that while 15 to 30 years out, 
questions that have answers, and solutions if found, represent 
breakthrough technology to serve our future needs.
    The Navy's future Navy capabilities is an important 
program, and one that we believe is serving us very well, where 
we work in partnership among scientists, industry, requirements 
folks, acquisition, and warfighters. Two-thirds of the Navy's 
6.3, or advanced technology funding, is in the FMCs and 40 
percent of our 6.2, or applied research money, is reflected in 
the future Navy's capabilities as well.
    I would share what you have heard I think from all three of 
the other folks this morning, sir, that it is the demographics 
and the shaping of the workforce that we believe is the must-
solve challenge for going into the future. We are able to 
recruit young folks with great talents. We use the excitement 
of our business and a reemerging sense of service. It is the 
necessity to keep those folks as they become journeymen 
scientists and engineers and reach the peak contribution years 
of their careers that is of most concern to us.
    We look forward to taking your questions.
    [The prepared statement of Admiral Dyer follows:]

          Prepared Statement by Vice Adm. Joseph W. Dyer, USN

    Mr. Chairman, distinguished members of the subcommittee, thank you 
for this opportunity to discuss Naval Science and Technology. You and 
the other members of the Senate Armed Services Subcommittee on Emerging 
Threats and Capabilities have been leaders in calling attention, both 
nationally and in the Department of Defense, to the importance of 
moving new technology quickly from the scientist's bench to our sailors 
and marines.
    As Commander, Naval Air Systems Command (NAVAIR), I oversee the 
operation of two Naval Air Warfare Centers. My counterparts at Naval 
Sea Systems Command (NAVSEA), Space & Naval Warfare Systems Command 
(SPAWAR), and the Office of Naval Research (ONR), operate an additional 
six Naval Surface Warfare Centers, three Naval Undersea Warfare 
Centers, three Space and Naval Warfare Systems Centers, one Naval 
Research Laboratory and numerous other field activities. Among us we 
cover the wide range of technologies the Navy and Marine Corps use. We 
report to the Assistant Secretary of the Navy for Research, 
Development, and Acquisition. I think this division of labor has proven 
valuable in allowing the separate Systems Commands to better focus 
their resources on their applicable technologies.
    As the senior Naval officer directly responsible for many of the 
issues being covered today, I have been asked to represent all of the 
Navy Systems Commands and the Office of Naval Research. We collaborate 
closely, and we face similar challenges, particularly with respect to 
attracting and retaining technical talent. I will address some of those 
challenges later in my statement.
    Let me begin with an overview of our scientific and technological 
portfolio. The return on the Nation's investment in naval S&T is 
measured in capabilities. This is particularly important in a time when 
we must not only fight and win a global war, but also transform the 
Navy and Marine Corps. We hear a great deal about al Qaeda and others 
posing an ``asymmetric threat'' to us. But our scientific and 
technological edge gives us a tremendous asymmetric advantage over our 
enemies. We've already seen some of that advantage at work in Operation 
Enduring Freedom, and naval transformation will depend on our ability 
to sustain and exploit our lead in S&T. To do that you need a long-
term, stable, and sustained investment in S&T transitioning to research 
and development, validated through ongoing experimentation, with 
transition to the fleet and force in a continuous cycle of progress.
    It is difficult to exaggerate the importance of sustained 
scientific effort: investment in research is always a long proposition. 
We have seen some very quick delivery of new, advanced capabilities 
already in this war. These can seem like overnight successes. Take the 
thermobaric bombs our forces dropped on al Qaeda and Taliban positions 
last year in Gardez, Afghanistan. That thermobaric fill--developed at 
Naval Surface Warfare Center, Indian Head, and weaponized by the Navy 
in collaboration with the Defense Threat Reduction Agency and the Air 
Force--was more than 30 years in preparation. This particular Naval 
investment in basic, synthetic organic chemistry (for that's what 
produced thermobarics) began in the late 1960s after the disastrous 
accident and fire aboard U.S.S. Forrestal. So basic science answered a 
Naval need, and the necessary work had been done to produce an 
effective, new class of weapons. You might consider it an overnight 
success that depended on 30 years of work.
    With this in mind, I am pleased to report that the Department of 
the Navy's S&T funding has shown real growth from fiscal year 2003 to 
fiscal year 2004 (based on comparison of the President's budget 
requests for those years). This is our positive response to the Defense 
guidance and congressional mandates that have called for more Defense 
S&T funding. During fiscal year 2004 budget development, the Department 
of the Navy's S&T Future Years Defense Plan (Fiscal Year 2004-2009) was 
increased by a net $1.45 billion.
    The significant increases in fiscal year 2004 include programs that 
are both transformational and bear directly on the current war:

        <bullet> Naval Unmanned Combat Air Vehicle +$98 million
        <bullet> National Aerospace Initiative--Supersonic Cruise 
        Missile +$22 million
        <bullet> Strategic Systems Infrastructure +$20 million
        <bullet> Joint Project Office--Special Technology 
        Countermeasures +$14 million
        <bullet> U.S. Coast Guard Vessel Tracking +$10 million

    The Department of the Navy is gratified by consistent congressional 
support of our S&T program. We trust that we are managing that support 
effectively to achieve the objectives of our program.
    We are particularly gratified by congressional interest in testing 
and evaluation--we owe sailors and marines the assurance that the 
systems we put in their hands work as advertised, especially when 
they're delivered under wartime exigencies. Regarding, for example, the 
Defense Test Resource Management Center Congress has recently mandated, 
the Department of the Navy certainly supports the concept. We are 
working with the Under Secretary of Defense for Acquisition, 
Technology, and Logistics to support the establishment of this new 
field activity, and we look forward to supporting its mission.
    Let me return to my earlier theme of transformation in a time of 
war. To keep perspective, recall that transformation occurs over the 
near-term, mid-term, and long-term. Naval S&T is a sustained journey 
from discovery to deployment in which innovation (invention) and 
experimentation (validation) transform the operating forces. Because 
this is a continuous cycle, we find technological advance in ``Today's 
Navy and Marine Corps,'' the ``Next Navy and Marine Corps'' (roughly 
the forces that will emerge over the next 5 to 15 years), and the 
``Navy and Marine Corps After Next''--which we will see in 15 to 30 
years.
    How do we choose where we invest? We are guided by:

        <bullet> Programs for Rapid Response--immediate feedback from 
        the operating forces. We get this through participation in 
        experimentation with those forces, in exercises like Millennium 
        Challenge, through the Naval Research Science Advisors posted 
        to the staffs of each major Navy and Marine Corps Command, and 
        through our Tech Solutions initiative. When an immediate 
        challenge, problem, or opportunity lends itself to scientific 
        resolution, we are able to shift a relatively small but 
        nonetheless crucial investment to a decisive area.
        <bullet> National Naval Responsibilities--fields in which the 
        Department of the Navy is the only significant U.S. sponsor. 
        These include fields like Naval Engineering, Ocean Acoustics, 
        and Underwater Weaponry. If the Department of the Navy didn't 
        invest in them, it's unlikely that anyone would. It's vital to 
        keep such fields healthy, not only for the sake of our own 
        capabilities, but to avoid technological surprise as well.
        <bullet> Naval Science and Technology Grand Challenges--big, 
        difficult, challenges that, if met, could give us decisive 
        capabilities 15 to 30 years in the future. We encourage the 
        Nation's scientific community to achieve breakthroughs in 
        difficult but achievable scientific challenges like Naval 
        Battlespace Awareness, Advanced Electrical Power Sources for 
        the Navy and Marine Corps, Naval Materials by Design, and 
        Multifunctional Electronics for Intelligent Naval Sensors.
        <bullet> Future Naval Capabilities (FNCs)--programs to shape 
        the next Navy and Marine Corps. Developed and managed by 
        integrated product teams with members of the acquisition, 
        requirements, science and technology, resource, and above all 
        warfighter communities, the FNCs fill the gap that all too 
        often opens between S&T on the one hand and acquisition on the 
        other.

    A great deal of our transformational effort is lodged in the FNCs. 
S&T enable Navy transformation by achieving the FNCs' goals. The key to 
successful transformation is the strong business partnership among 
scientists, industry, requirements, acquisition, and warfighters.
    The FNC process delivers maturing technology to acquisition program 
managers for timely incorporation into platforms, weapons, sensors, and 
process improvements. With a total investment of $577.6 million in 
fiscal year 2002 and over $640 million in fiscal year 2003 and $500 
million planned for fiscal year 2004, FNCs support the Secretary of the 
Navy's goals to: (1) increase combat capability, (2) enhance personnel 
performance, (3) introduce advanced technology, and (4) improve 
business practices.
    The Office of Naval Research devotes approximately two-thirds of 
its 6.3 (advanced technology development) funds and about two-fifths of 
its 6.2 (applied research) funds to FNCs. We currently have 12 approved 
FNCs. I'll describe each one briefly, and provide the basics as to 
where it fits into the Department of the Navy's concept of Sea Power 
21:

        <bullet> Autonomous Operations--This program is pursuing a 
        dramatic increase in the performance and affordability of Naval 
        air, surface, ground, and underwater autonomous vehicles--
        unmanned systems able to operate with a minimum of human 
        intervention and oversight. The Autonomous Operations FNC gives 
        us a great potential to operate effectively in what would 
        otherwise be denied areas. It contributes to Sea Shield and Sea 
        Strike. In fiscal year 2004, for example, we will transition 
        the Gladiator Tactical Unmanned Ground Vehicle to the Marine 
        Corps. Gladiator is intended to support dismounted infantry 
        across the spectrum of conflict and throughout the range of 
        military operations. It will enhance tactical commanders' 
        ability to detect, identify, locate, or neutralize a broad 
        range of threats.
        <bullet> Capable Manpower--The focus here on affordable human-
        centered systems that give our sailors and marines the ability 
        to operate effectively under conditions an enemy can barely 
        survive. The primary goal of this program is to get the right 
        person in the right job with the right training at the right 
        time in order to meet the needs of the Navy and Marine Corps. A 
        great deal of progress has been made in this last area. In 
        particular, two products have already transitioned: Models of 
        Navy Compensation and Personnel Behavior (MODCOMP)--a tool for 
        manpower analysts to rapidly develop retention forecasting 
        models through ready-access to relevant data sources, intuitive 
        linkage to highly sophisticated statistical tools, and export 
        capability to populate existing decision support tools, and 
        Comprehensive Officer Force Management Environment (CHROME)--a 
        tool for monitoring actual officer inventory behavior and a 12-
        month loss-forecasting model to predict officer losses for each 
        primary category. Capable Manpower is most directly aligned 
        with Sea Warrior.
        <bullet> Electric Warships and Combat Vehicles--The future of 
        naval warfare is electric. Warships will have revolutionary 
        power plants that permit new hullforms and propulsors, reduce 
        manning, streamline logistics, power advanced sensors, and 
        enable future high energy and speed-of-light weapons. We have 
        already successfully demonstrated the essential elements of a 
        high temperature superconducting motor for the next generation 
        of warship, and a hybrid diesel-electric reconnaissance vehicle 
        for the Marines. This FNC is aligned most closely with Sea 
        Strike, Sea Shield, and Sea Basing.
        <bullet> Fleet/Force Protection--We have very capable ships, 
        aircraft, and ground combat vehicles. It's our business to 
        ensure that they don't fall to the sorts of asymmetric threats 
        our enemies pose. This FNC, aligned with Sea Shield, is working 
        to develop effective organic means of protection: weapons, 
        sensors, countermeasures, stealth and damage control. It has 
        already transitioned Real Time Damage Detection, Assessment, 
        and Response to acquisition. As well, the President's budget 
        for fiscal year 2004 supports the execution of full-scale 
        development of an Integrated Torpedo Defense System for 
        protection of heavy combatants and amphibious forces operating 
        in the challenging littoral environment. This effort is the 
        culmination of support, from Congress, for torpedo defense R&D 
        activity over the past several years, and is focused on the 
        ability to rapidly deliver threat-sensitive capabilities to the 
        Navy's high value forward deployed assets.
        <bullet> Knowledge Superiority and Assurance--Information 
        technology is as crucial to Naval superiority as it is to any 
        other aspect of contemporary life. This program is developing 
        our ability to distribute integrated information in a dynamic 
        network with high connectivity and interoperability. It will 
        ensure knowledge superiority, common situational understanding, 
        and increased speed of command. Knowledge Web technology from 
        this program has been deployed with the U.S.S. Carl Vinson 
        Battle Group, engaging the enemy in Operation Enduring Freedom. 
        This FNC is a key enabler of FORCEnet.
        <bullet> Littoral Antisubmarine Warfare--This program is part 
        of our shift of emphasis to littoral, expeditionary operations. 
        The antisubmarine warfare challenge in coastal waters is a 
        tough one, so we focus scientific effort on enhancing our 
        ability to detect, track, classify, and engage enemy submarines 
        in a near-the-shore environment before they are close enough to 
        harm our forces. A number of products have already entered 
        acquisition from this program: the Environmentally Adaptive A/N 
        SQQ-89 sonar instrumented tow cable fibers and signal 
        processing, for example. Sea Shield will benefit from the 
        products of this FNC.
        <bullet> Littoral Combat and Power Projection--This FNC has two 
        major thrusts: Expeditionary Logistics (an important step 
        toward Sea-Basing) and Littoral Combat (essential to Sea 
        Strike). It focuses on deploying uniquely capable combat and 
        logistics systems necessary to deploy and sustain the Fleet and 
        the Force without building up a large logistical infrastructure 
        ashore. The program has already transitioned a baseline 
        logistics command and control system for expeditionary warfare.
        <bullet> Missile Defense--This program is directed at the 
        threat expeditionary forces face from cruise missiles. In 
        particular, it's working toward the ability to track and 
        destroy overland cruise missiles that threaten both ships at 
        sea and marines ashore. It will also contribute to our general 
        air defense capability through a single integrated air picture, 
        composite combat identification, distributed weapons control, 
        and overland intercept capability. This new capability will 
        greatly mitigate the likeliest and most dangerous air threat to 
        our forces. The Missile Defense FNC is nearing transition in 
        several of its product lines, including, for example, the 
        Reactive Materials Warhead and Affordable Ground-Based Radar. 
        Missile Defense forms an important part of Sea Shield, but this 
        shield is extended to cover forces ashore, as well.
        <bullet> Organic Mine Countermeasures--Mines are a cheap, 
        deniable, and able to infest the battlespace with a menace far 
        out of proportion to their numbers, mines have been and will 
        continue to be deployed against us by terrorists and their 
        state sponsors. We're working to give our forces an organic--
        that is to say, an inherent--ability to detect, characterize, 
        and neutralize mines wherever they may be encountered. Closely 
        aligned with Sea Shield, this FNC has transitioned several 
        important products. One of them, the REMUS autonomous 
        underwater vehicle, is now in the hands of our operating 
        forces. It was pressed into service in the weeks immediately 
        following September 11 to help secure ports on both of our 
        coasts. REMUS emerged from a basic oceanographic research 
        program--another piece of evidence that overnight successes are 
        long in preparation.
        <bullet> Time Critical Strike--Here we are substantially 
        reducing the amount of time it takes to hit critical mobile 
        targets, like theater ballistic missiles, command centers, and 
        weapons of mass destruction. One of this FNC's products, the 
        Affordable Weapon (a loitering cruise-missile-like system that 
        can carry a variety of payloads) is being deployed to the 
        CENTCOM area of responsibility soon. Time Critical Strike is 
        aligned with Sea Strike.
        <bullet> Total Ownership Cost Reduction--This FNC is using 
        advanced design and manufacturing processes to decrease 
        significantly the cost of buying, operating, and maintaining 
        our systems. We are working to reduce total lifecycle costs, 
        and that includes obvious work in design and manufacturing as 
        well as less obvious savings realized from reduced manning, 
        better environmental compliance, and more sophisticated cost-
        estimating tools. Aligned most especially with Sea Enterprise, 
        this FNC has transitioned a number of products to industry. One 
        example includes advanced coating techniques for hot-running 
        turbine engines.
        <bullet> Warfighter Protection--Improved casualty prevention, 
        care, and management are the goals of this FNC. Aligned with 
        Sea Shield and Sea Warrior, this program has already 
        transitioned a life-saving clot-inducing bandage to our forces 
        in Afghanistan.

    Our investment portfolios are not built in isolation. The Defense 
Reliance process integrates the Services' S&T programs while preserving 
the healthy diversity of vision and approach that has given us the 
technical agility we enjoy today. Our relations with the DARPA are 
excellent and productive. Much of the Office of Naval Research's basic 
and applied research investment is designed with a view to handing 
scientific advances over to DARPA for further development and 
exploitation. The Unmanned Combat Air Vehicle-Naval (UCAV-N) program is 
an excellent example of this kind of collaboration.
    I will now address some of our challenges concerning the health of 
the Navy's Laboratories and Warfare Centers. The Naval Research and 
Development Centers, which include the SYSCOM Warfare Centers, the 
Naval Research Laboratory (NRL) and the Medical and Health Research 
Centers, employ world-class technical experts who execute much of the 
Navy's S&T portfolio, developing innovative solutions and 
transformational capabilities for the Navy and Marine Corps. These 
centers, spread throughout the United States, currently employ around 
40,000 civilians, about half of who are scientists and engineers. They 
perform cutting edge work upon which we depend to preserve its military 
superiority. The effectiveness of the warfighting systems employed by 
the Navy and Marine Corps of the future depends as much on investment 
in these dedicated, capable civil servants as it does on the size of 
the S&T budget itself.
    The past decade's frequent downsizings, coupled with the declining 
number of American students--particularly women and minorities pursuing 
mathematics, engineering, and physical science degrees--has left us 
with a dwindling pool of scientists and engineers available to become 
the next generation of researchers. This situation jeopardizes our 
ability to perform essential research in support of, ultimately, 
sailors and marines.
    Recent warnings about the decline of the Navy's S&T workforce come 
from a variety of sources. In the Naval Institute's Proceedings, Dr. 
James E. Colvard, former director of civilian personnel policy for the 
Department of the Navy and chair of the panel that developed the 
report, ``Civilian Workforce 2020, Strategies for Modernizing Human 
Resources Management in the DoN'' notes the Navy has ``put its 
institutional capability in science and engineering at peril.'' Colvard 
also comments, ``The Navy has lowered its level of intellectual 
involvement in research and development and weakened its entire 
infrastructure, which at the end of WWII was the strongest in the 
world.''
    The DoN's ``Civilian Workforce 2020'' study pinpointed workforce 
modernization as the defining issue pushing S&T revitalization. The 
study concluded: ``It is not possible to achieve a functional workforce 
that is prepared to meet the management, technical, and political 
challenges of the future without investing financial resources and 
leadership attention.''
    Recently, a tri-Service laboratory study chartered by the Director, 
Defense Research and Engineering, and carried out under the auspices of 
the Naval Research Advisory Committee produced a report: Science and 
Technology Community in Crisis. In the report, the panel commented that 
all of the laboratories they visited reported that ``maintaining a 
quality scientific and engineering staff is growing more difficult.'' 
The report continued: ``The real issue is not whether the laboratories 
can muddle through under the current system and fill science and 
engineering vacancies with entry-level personnel. It is whether they 
can compete effectively for, and retain, the best and brightest 
technical talent, e.g. the top 10 percent.''
    A total commitment to improving our ability to attract and retain a 
cadre of world-class scientists and engineers will be necessary to meet 
the simultaneous challenges of performing transformational research 
while replenishing the aging talent base. Simple demographics show that 
over the next 10 years we will lose most of our current workforce. 
Although some organizations are holding their own in recruitment, many 
indicators are going negative, and managers report greater difficulty 
in hiring quality scientific personnel. If we cannot invest at an 
appropriate level in promising research scientists and engineers today, 
we believe that the options and opportunities the Naval R&D labs and 
center have provided our fighting forces for more than the past 60 
years or more will begin a decline that will be difficult to reverse.
    The Navy has launched an initiative called ``N-STAR''--Naval 
Science and Technology for Advancing Revitalization. This program is 
addressing the personnel issues associated with: refreshing our 
technical workforce with the small pool of recruits available to fill 
positions vacated by retiring scientist and engineers, and with the 
professional and technical enhancement of the current workforce as they 
move into senior positions at the Naval Research and Development 
Centers. N-STAR is a collaborative effort, concentrating on integrated 
relationships with partners within the university community and other 
Federal agencies interested in the future of the Nation's scientific 
and engineering workforce.
    In fiscal year 1995, Congress provided the Department of Defense 
labs with the opportunity to test a variety of new personnel tools. 
Section 342 of the Fiscal Year 1995 National Defense Authorization Act 
permitted some of our labs and centers to implement a number of 
personnel reforms not previously available. The personnel initiatives 
being tested under this program have broad acceptance and are achieving 
very positive results.
    For several years now, the Department of Defense has been actively 
testing many management flexibilities, i.e. pay banding, pay for 
performance and simplified classification. Acknowledging the success of 
the demonstration projects and alternate personnel systems, the Under 
Secretary of Defense for Personnel and Readiness began a review of the 
personnel management flexibilities already in use within the Federal 
Government. Multi-component, multi-functional work teams and senior 
functional executives completed this yearlong review that identified 
``best practices''--those with the highest rate of success. The Office 
of the Secretary of Defense is considering many of these best practices 
for inclusion in a legislative proposal on human resource management.
    In conclusion, the return on the Nation's investment is clear. 
Naval transformation depends on a long-term, stable, and sustained 
investment in S&T, validated through ongoing experimentation and 
transition to the warfighter in a continuing cycle.
    Mr. Chairman, thank you again for the opportunity to share with the 
subcommittee some of the good things the Navy is doing in the S&T 
world.

    Senator Roberts. It is the chair's intention to have 6-
minute rounds, and as many of those as members would like. In 
the order of recognition, it will be Senator Reed, Senator 
Dole, Senator Kennedy, Senator Cornyn, and then I will bat 
clean-up.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
gentlemen, for your testimony today, and let me start off by 
asking each of you if you agree with--and this is not a trick 
question--the Secretary of Defense that the goal for S&T should 
be 3 percent of the DOD budget.
    Secretary Wynne?
    Secretary Wynne. Sir, I think we need a benchmark. Against 
that benchmark you measure yourself for progress, and 3 percent 
is an appropriate benchmark.
    Senator Reed. General Kern?
    General Kern. Senator, I think the 3 percent is a good goal 
for us all to meet each year. It has its challenges as we try 
to reach those levels, but I think as Secretary Wynne has 
suggested it is a very good benchmark.
    Senator Reed. General Lyles?
    General Lyles. Senator, I also agree. I think it is a great 
benchmark. Personally I hope we can exceed it one day in the 
future, but it is a great benchmark for us to try to achieve 
right now.
    Senator Reed. Admiral Dyer?
    Admiral Dyer. Short answer, yes, but with a comment, if I 
may.
    Senator Reed. Yes, sir.
    Admiral Dyer. We are blessed in the Navy right now with the 
products of S&T that are supporting us in programs like Joint 
Strike Fighter (JSF) and into the E-2 program and to emergence 
in networkcentric warfare, so in a sense our success in S&T in 
previous years is presenting us with opportunities to 
transition and actually procure those technologies today, such 
that there is an ebbing and flowing of S&T and the product of 
it.
    We are challenged with the affordability of doing 
everything all the time, but we are enjoying today the previous 
investment of S&T.
    Senator Reed. Thank you, Admiral Dyer.
    Let me begin, Admiral Dyer, with a follow-up question for 
each of the panel. Projections suggest that the S&T funding 
will go down by 2009 to about 2.4 percent, and the question I 
have, what are the risks that we are going to run if this level 
of funding is projected over the next several years?
    I think you suggested, everyone suggested, we have a 
problem retaining scientists. That is one risk. We might have a 
potential risk that other countries that are developing high-
tech sectors like China or India, just for example, can begin 
to match our efforts and begin to erode our advantages. I do 
not know if you want to comment on those points. There might be 
other risks, too. But Admiral Dyer, and then everyone else.
    Admiral Dyer. We have great discussions in my organization 
across the Navy that says, how much S&T is required. The answer 
is enough, and a benchmark is required, but it is hard to know 
exactly what that is. You draw an important nexus, I think, and 
that is this relationship between S&T funding and people, 
because to keep scientists and engineers, we have to give them 
exciting work to do. They have to be a part of it, and they 
have to feel their effect in the future. That is the thing that 
can hire people away, and we think that it is critically 
important.
    Senator Reed. General Lyles.
    General Lyles. Senator Reed, I agree with Joe Dyer in terms 
of how we define what is enough or what is not enough. 
Certainly we think we need to maintain a robust program, and 
the way I see it, because of the balance that we have to look 
across the board to other investments, we need to put 
priorities on where we allocate the dollars.
    Certainly taking care of the critical S&T workforce is 
number 1, making sure we maintain emphasis on cutting-edge 
technologies like nanotechnology and biotechnology, which have 
tremendous opportunities to leverage significant things in the 
future. We should not let that melt away, but because it is 
going to be very tough for all of us to just get to 3 percent 
right away, what I would like to see, and what we are trying to 
do in the Air Force, is make sure we are doing a better job of 
leveraging the similar activities that go on in the Services, 
other agencies in DOD, or even other agencies outside of DOD.
    I think for instance, nanotechnology is an obvious one. 
Each one of us mentioned that, but I dare say all of our 
nanotechnology programs are harmonized. If we cannot meet the 3 
percent, at the very least we need to make sure where we have 
common goals, common technologies, that we bring those things 
together and leverage the dollars that we have so we do not 
fall back.
    Senator Reed. Thank you.
    General Kern.
    General Kern. I would agree with all of the previous 
comments. There are two areas in particular I think that we are 
at risk of falling behind. Clearly the one is the nanosciences, 
which we see emerging as a very bright potential right now for 
many of the problems that we face in weight reduction, reducing 
our footprint and increasing survivability. The second is in 
the area of quantum computing, which we are beginning to see 
some demonstrations of its applicability, but we clearly have a 
long way to go before it becomes practical.
    The third point I would make is that there are other 
countries, two in particular, that have a billion people each, 
India and China, which have many brilliant people. Their 
investments in those areas and their studying in this country 
will bring many of those ideas outside of the continental 
United States to worldwide access, and so we will be challenged 
to keep up with them both economically and from a security 
standpoint if we allow ourselves to fall behind.
    Senator Reed. Thank you.
    Mr. Secretary.
    Secretary Wynne. There is really a two-part answer that I 
think is necessary here. Part one is that the things that we 
can see out into the outyears, we can cost, and what is 
happening is, the things that we can see in S&T are percentage-
wise less than the things we can see in procurement, operation 
and maintenance (O&M), health costs, things that make up the 
top line.
    One of the unique features about S&T is that you know what 
you know today. You cannot see very clearly beyond 24 months, 
so one of the things that happens to us is, our ideas begin to 
shrink, if you will, relative to the pressing needs and the 
must-pay bills of health care, people, and the procurement 
accounts. But as time nears, what we find that we do is, we 
have postulated, for example, real growth. We have improved our 
accounts over 25 percent the last 2 years, and we can see very 
clearly the benefits of that coming out.
    That does not mean that in 2007 or 2008 when we get there 
the numbers will actually be 2.4. It is what we can see today.
    Senator Reed. Thank you, Mr. Secretary. My time has 
expired.
    Senator Roberts. Senator Dole.
    Senator Dole. First of all, as has been mentioned 
previously, transitioning technology into warfighter capability 
continues to be a real challenge. Some Special Forces programs 
have been able to transition technology from the concept to 
capability at much faster pace, primarily due to Major Force 
Program-11 (MFP-11) funding. I am wondering if, as acquisitions 
chiefs, you have had an opportunity to explore the possibility 
of transition-type funding, nonprogram-specific, that would be 
a way to more rapidly field some of the most promising 
technology.
    General Lyles. Senator Dole, just speaking for the Air 
Force, I think we have looked at ways that we could get the 
benefits of MFP-11, as Special Operations Command (SOCOM) has 
it, without necessarily coming up with a new appropriations 
cycle just the way they have today.
    We are trying to ensure that, as we look at all of our 
technology programs, we work closer with our warfighters, the 
operational users, because in the Air Force, they are the ones 
that actually fund the transition dollars. By setting up some 
established programs and processes that we call the applied 
technology council, we actually have their vote and their say 
and input into the technology programs and their commitment to 
put transition dollars in the budget so we can quickly get a 
mature technology into their hands.
    That is similar to, in some respects, some of the benefits 
of MFP-11, but it allows us to attain that without again going 
through a whole different appropriations process like that, so 
we are trying to get the benefits without necessarily changing 
the way we do things.
    Senator Dole. Would others like to comment on that?
    Secretary Wynne. Senator Dole, I would like to just add 
that we have an ACTD process, each of the Services has an 
advanced technology demonstration process. Each of those, the 
problem is transitioning into the actual fielding and 
warfighting. I think one of the things that SOCOM has done 
pretty well is, they have followed up with funding promising 
technologies in the outyears. But I will tell you also that 
under the advanced concept technology development we have all 
the warfighters show up at what is called a breakfast club, and 
they do quite a bit of feedback into the system. We have, in 
fact, fielded quite a few things that have come through that, 
and are currently fielding, or being requested to field, other 
things.
    It has to do a lot with laying in the logistics and 
training, and the compactness of the SOCOM is something that we 
could all learn.
    Senator Dole. Thank you. Please, go ahead, General.
    General Kern. I was just going to add, Senator, that we do 
work across those boundaries today. We have memorandums of 
agreement and research centers that we share with the Special 
Operations community. We are taking advantage of the work, but 
more importantly the processes, I think, which they have used 
to expedite technology to the field, and that has allowed us to 
copy some of the things that they have done both in a process 
and the technologies themselves, and bring them into the rest 
of the force.
    Senator Dole. Thank you.
    Secretary Wynne, let me ask you about the Medical Free 
Electron Program. I understand this is a merit-based research 
program, currently involves five academic centers, including 
Duke University. It is peer-reviewed, competitively awarded, 
and the application of this research ranges across the board 
from surgical advances to improvements in wound-healing, burn 
technology, burn recovery especially. Last year the funding was 
moved from the DOD to National Institutes of Health (NIH), and 
then Congress moved the funding from NIH back to DOD with a 
reduction in the funding, and that continues this year.
    I know that many programs are able to adapt through 
adjusted levels of effort, but then there are others where it 
is a necessity to cut personnel, and where delays ensue because 
of this uncertainty in terms of the funding. I wonder if you 
could tell us more about your efforts to identify programs with 
tangible potential and what you are doing to stabilize the 
year-to-year funding for these programs, and I just mentioned, 
you referred to the ACTDs.
    In this same vein, a lot of small technology niche 
companies often shy away from DOD projects, I understand, 
because of the uncertainty of the year-to-year funding. How can 
reduced cycle times and a greater use of the ACTDs encourage 
more private industry participation in the DOD approach?
    Secretary Wynne. The application of FAR part 12 has, in 
fact, induced many companies to come on board, even small ones. 
One of the transformational proposals we are making to you is 
to try to extend that to production. One of the things that FAR 
part 12 does is, it allows, if you will, the forgiveness 
against all of the FAR regulations, which are fairly dense and 
are, in fact, an inhibit to a small businessman because he 
immediately needs a lawyer.
    Now, after we get through the development program, we are 
now faced with fronting the first production contract that we 
would award if we want to really move out and field a finding, 
and now we do not have the authority to award under FAR part 
12. We would like to get that. It results in the fact that you 
get a small business, they develop a really good thing, and 
then at the end of the day we confront them with a production 
contract that is three times as thick as the one they signed 
before, and it contains several civil penalties for various 
nefarious crimes, like not reading the document. They tend to 
drop out at that point, and that is really a problem that we 
are faced with.
    I would tell you that your support of the Quick Reaction 
funding is really a big benefit, whether it be through the ACTD 
process, the ATD process, or, in fact, several of the grant 
monies that you give to DARPA. All of this is a tremendous 
benefit to us in stabilizing the funding.
    As opposed to the Medical Free Electron Program, we do feel 
like it was a better fit over in the NIH, frankly, but it may 
have been needed to follow up with a direction to them as to 
how to proceed. I know that many of you all see the benefits of 
using the Department of Defense is that we do, in fact, follow 
through on things, and we appreciate that, but in that 
particular instance I still would tell you that it probably is 
better over in the NIH, because it has a lot more application 
here domestically.
    Senator Dole. Thank you. My time has expired. Thank you, 
Mr. Chairman.
    Senator Roberts. Senator Kennedy.
    Senator Kennedy. Thank you very much. All of us want to 
thank all of our witnesses here and those that are behind them 
as representatives of our fighting men and women abroad. You 
may get tired of hearing of it, but we are deeply grateful to 
you, and we are also enormously grateful to you for the 
technology that has been developed.
    This is a lot of hard work. You have enormous competition 
within the various services for a lot of different kinds of 
issues, but I think if we have the best technology with the 
best-trained and the most highly motivated and skilled service 
men and women, the technology is really as a result of the work 
that has been done by all of you and your predecessors. This is 
an incredibly important issue and an incredibly important 
hearing.
    I will come back, just generally, to the labs generally in 
my second or third question if I have the time. I would like to 
get to the issue of the command and control in intelligence. 
One of the great tragedies that we have seen in the engagement 
in Iraq in these past weeks is the fact that so many 
servicemen, particularly the British, have lost lives because 
of the information or identification, whether it was the 
incidents in the helicopters, or whether it is the Patriot, or 
whether it is friendly fire incidents which we have had 
recently.
    The importance of this kind of command and control in 
intelligence even seems to be much more important today than 
ever before because of the sophistication of these kinds of 
weapons or weapons systems and their complexities. I am 
interested if you could comment about whether we are doing 
enough in this area. I would ask General Lyles whether this has 
enough support or should we be doing more? Are you satisfied 
that we are doing enough?
    General Lyles. Senator Kennedy, I think you hit it right on 
the head. This is increasingly a force multiplier in everything 
that we do in our military applications today. We realize that, 
and we are putting more emphasis on and more resources into 
command and control, intelligence, surveillance and 
reconnaissance, and ensuring that all of the programs that we 
are working on are networkcentric, that they are all linked 
together, that we have an opportunity to achieve what our Chief 
of Staff, General John Jumper likes to refer to, machine-to-
machine movement of data, movement of knowledge to allow us to 
better command and better control our forces.
    Senator Kennedy. I know you could go on. I just want to 
hear both in terms of the Army and the Navy, too, you have your 
own kind of centers of command and control. What is your own 
kind of evaluation of the progress that you are making? How do 
you all work together? How does that sort of integrate 
together? What are the areas that you think need to be 
strengthened, or did you find out that important progress has 
been made recently? What can you tell us just quickly, and then 
I want to come to one last question.
    General Kern. Senator, I will go first and then let Admiral 
Dyer continue.
    One of the improvements we have made in recent years is a 
system today we call blue force tracking, which we fielded to 
the members of the Armed Forces in Southwest Asia right now. If 
you can remember the studies that were done in the last gulf 
war, there are two parts to understanding where people are on 
the battlefield so that you can identify them correctly. One is 
a direct interrogation system and the other is a sense of the 
battlefield, situational awareness, as we have called it.
    The blue force tracking allows us to develop that sense of 
awareness, or a situational understanding of where forces are 
on the battlefield so that you can identify friend from foe by 
their position location and not engage on the friendly forces. 
That has helped, but it is not as pervasive, clearly, as we 
would like it to be because we do not have 100 percent of the 
battlefield today, so it is clearly an area where we could use 
more.
    I would tell you from my own personal experiences, and 
there is no such thing as friendly fire, wherever you get fires 
from it becomes hostile, and we need to continue to put 
investments in both sides of that equation so that you have 
interrogation as well as complete, 100 percent situational 
understanding.
    Senator Kennedy. Admiral Dyer.
    Admiral Dyer. The Department of the Navy, and especially 
the Marine Corps, participate in blue force tracking as well, 
so I absolutely agree with the comments made by the other 
witnesses.
    However, I think it is constructive to think about the 
construct a bit broader. As we in the Naval Service think so 
much and rally around networkcentric warfare, that is a piece 
and part of it.
    General Kern, if I could quote an Army general officer 
friend of mine, I was told the other day that in the Naval 
Service we make networkcentric warfare way too complicated. He 
said that it is really the answer to the Army's two oldest 
questions, which is, where are the bad guys and oh, by the way, 
where are we? [Laughter.]
    General Kern. Communicating that information on a network 
is the solution to this problem. It does require some 
rewickering of priorities, however. For years and years, I 
think, within the Army at least, we have looked at platforms, 
weapons, sensors, and links in that priority. To solve this 
problem and to really leverage networkcentric warfare, you have 
to take that construct and turn it over, and we have to look 
early on in our investment strategies to links, the 
communication between folks on the ground, in the air, on the 
surface, and beneath the surface, and then the capability to 
sense where they are and communicate it.
    Senator Kennedy. I would just say that this is enormously 
important and obvious. We have been on the Armed Services 
Committee long enough to know the lessons we learned from 
Grenada and others just in this very area. I am interested in 
how we are going to continue to make all this progress when you 
also have sort of this base realignment and closure (BRAC) 
holding over your head in terms of what is going to happen in 
terms of the laboratories.
    This will be my final question. Secretary Wynne, your 
memoranda for the Director of Defense Research and Engineering, 
and Deputy Under Secretary (Laboratories and Basic Sciences), 
from October of last year, and you mentioned, ``the conclusion 
that I drew is that labs are out of favor and no longer have a 
constituency within parent organizations, their budgets are 
cut, people are discouraged, overall, utility is in question.'' 
Then you make a suggestion about organizing a commission to 
identify the laboratories, imperative for the defense to retain 
the structure on this.
    I would be interested whether that commission has been set 
up. No one can listen to the reports here and not understand 
the importance and significance over the long-term--
particularly in the areas of education, and you are talking 
about workforce, which is another whole kind of area, if you 
could comment, Secretary Wynne. Was this commission set up?
    We do not want to discourage at a time when we want to keep 
these laboratories performing at top speed, and the need, given 
our new challenges is so significant. What can you tell us 
about whether this commission has been set up and also what the 
impact of these laboratories is going to be in terms of looking 
out after, running through a whole process in terms of the 
whole BRAC process?
    Secretary Wynne. Senator, let me put a little bit of 
perspective. I received a briefing from a group called ENRAC 
who, in fact, postulated many of the same issues that you 
stipulated in my note, and I felt an absolute responsibility to 
alert the remainder of the services if they had not been aware 
that this was the course of at least the feelings from their 
ranks. In fact, I did that, and the response from my three 
coconspirators here as well as the Director of Laboratories and 
the Director of Research and Engineering was remarkable. They 
are putting together a group that has really professed to 
improve the quality of the laboratories. The intent of the memo 
was to spark, if you will, a renewed management intention to 
the laboratories and the situation that the laboratories were 
reflecting. I think the response, like I say, has been 
fantastic in that each of the laboratories will now tell you 
that their connection to the service has grown stronger ever 
since.
    Senator Kennedy. Thank you very much. My time is up.
    Senator Roberts. So you were not being a critic, you were 
being a Dutch uncle and a Jiminy Cricket.
    Secretary Wynne. Yes, sir.
    Senator Roberts. I see. The conclusion that I drew is that 
the labs are out of favor and no longer have a constituency 
with parent organizations. Their budgets are cut, people are 
discouraged, and their overall utility is in question. This, of 
course, then alerted them that there might be a problem.
    Secretary Wynne. I think the response was exactly that, 
sir.
    Senator Roberts. I would guess that would be a response. 
Never mind what they would say, but they have said it to you, 
in other words.
    Secretary Wynne. It was excellent, yes, sir. I heard it 
from several sources. [Laughter.]
    Senator Roberts. You had meaningful dialogue and you got a 
response.
    Secretary Wynne. Yes, sir.
    Senator Roberts. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman, and thanks to each 
of you for appearing today before the subcommittee. There is 
obviously little doubt that strong S&T programs are critical to 
the true transformation of the armed services. I enjoyed coming 
by the demonstration the other day and experiencing the pain, I 
guess, that victims of directed energy weapons can feel, 
although fortunately it was on a small scale.
    But my State plays an important role in research and 
development in this area, and so I have really just three quick 
areas I want to just cover. One involves small business 
innovation research programs. This program is critical to 
supporting much cutting-edge research currently being conducted 
by small businesses throughout the country.
    I understand that while phase 1 and phase 2 funding appear 
to be working relatively well, that there are some problems 
when it comes to phase 3 funding, which I guess requires 
private sector or other than Department of Defense funding. I 
wondered if each of you might take the opportunity, if you have 
something to add on this, to comment about what you are doing 
to improve opportunities for small businesses to receive phase 
3 funding.
    General Kern. We held a conference this past year with all 
of our small businesses specifically looking at Small Business 
Innovative Research (SBIR) programs. We have one small business 
in Massachusetts who has managed to break the code, I guess I 
would say, on phase 3 funding, and has continuously been able 
to implement that. We have asked them to put together some 
lessons learned for all of the other small businesses which we 
are sharing this year and we will continue to hold conferences.
    In addition, we hold an annual conference with small 
businesses in which we invite large business in as well so that 
they can see what work is being done and get promises so that 
the two then can match up capabilities with some of their 
funding opportunities. We have found that that has been a very 
positive influence, because most of the larger corporations are 
coming to look for the good ideas that are being generated in 
the start-ups that we have had in phase 1 and phase 2.
    The last area in many of our conferences that we hold now, 
we have also, in the past, had the small businesses somewhat 
separated, and we find that now, by including them in the 
center of our efforts, that they are getting a lot more 
attention, and in the area of where new technologies are 
emerging today, the business is beginning to flow their way.
    Senator Cornyn. Thank you.
    General Lyles. Senator, we have some similar initiatives to 
what Paul Kern mentioned for the United States Army. I find 
that we put a lot of emphasis on small businesses in general, 
and we work that very hard. To be honest with you, I am not 
quite sure if we work the Small Business Innovative Research 
program in the same manner, and this is one area where I think 
we can put a lot more efforts towards it.
    I came back to this particular command from having 
commanded or directed the Ballistic Missile Defense 
Organization, and there I found that almost everything that we 
are doing in missile defense has some roots to some small 
business-innovated research somewhere downstream, somewhere in 
the past, and I came back to it with the commitment that we are 
going to try to revitalize that effort within the Air Force. I 
cannot tell you that we have succeeded yet, but at last there 
is a model that we can follow from another agency that I think 
can apply to what we are doing in the United States Air Force.
    Admiral Dyer. In the Naval Service, we have been spying on 
the CIA. [Laughter.]
    By that, I mean their approach to venture capital. While we 
would apply it differently and use a different model of 
spinning out technology to the commercial sector, then spinning 
it back in for defense-related efforts we think is a very 
productive one.
    We had a wonderful occasion just a few months ago where we 
took some two dozen venture capitalists from all over the 
country, hand-selected, out aboard a carrier to see us work in 
our environment. We think we have them excited, we are excited 
about filling just this gap, of bringing commercial funding to 
bear to further S&T efforts and to transition them.
    Senator Cornyn. That is very encouraging.
    My second question has to do with the decrease in 6.1 
funding for primary research, and I noticed in looking at the 
various charts reflecting the direction of this research, 
everybody seems to be heading south. Could you explain your 
reasons for cutting back on 6.1 funding, and do you think this 
is going to impact our current transformation efforts, cutting 
back on expenditures for primary research?
    Secretary Wynne.
    Secretary Wynne. Thank you very much, Senator. I would 
first say that this is a cyclic enterprise. Many of the ideas 
that we funded in 6.1 are being realized in 6.2 and 6.3, so it 
kind of looks a little bit like a porpoise or a sign wave in 
the sense of. I think right now we are benefitting from some of 
the research that was done in 6.1, whether it be hybrid fuel 
cells and/or whether it be the nanosciences or some of the 
other stuff.
    My sense is now we are about to increase that again in the 
biologic sciences, which, by the way, has been the largest 
creator of patents over the course of the last 18 months. We 
have actually not funded at the rate at which the patents have 
been developed.
    My take on that, sir, is that I think you will find that in 
a given year it could be a little bit down, but in a given year 
it could be way up.
    Senator Cornyn. If any of you have anything you would like 
to supplement that with, please go ahead.
    General Kern. I would add three things. First, there has 
been a reduction in the cycle time, particularly as we have 
seen in the communications electronics area, so that what had 
been a process of transitioning from 6.1, 6.2, into the 
production, today can go very fast, and cycle times are 
measured in 18 months in many of these S&Ts, so they do not 
necessarily fit the pattern of funding which we have 
established over the past few years.
    Second, we have been a procurement holiday literally for 
the last 12 years. We have not purchased new systems, and so in 
the years ahead, we must take the technology developments and 
cycle them back into product and get them into the hands of our 
soldiers to replace those existing systems that are out there 
today. That is challenging us on the level of funding which we 
are able to maintain and sustain in the basic research area.
    Finally, I think it asks for a little bit more flexibility 
to take advantage of what is emerging. As I mentioned earlier, 
we are starting these university-affiliated research centers, 
and we are looking for the mechanisms there to support the 6.1 
research at the university level, and, at the same time, 
rapidly transition it into development efforts.
    General Lyles. Senator, just one similar comment to 
Secretary Wynne. It does seem to be cyclic. Fiscal year 2004 
and fiscal year 2005 are transition times for us in our 6.1 
program. We are actually increasing, as we look at it in 2005. 
The objective is to try to keep the 6.1 up as much as we can 
because of the obvious benefits.
    Admiral Dyer. The Navy has historically been very 
aggressive in this area. Our funding of the universities 
throughout the Nation reflects it. It is always difficult, and 
takes tremendous discipline in times of affordability, but we 
are dedicated to sustain it.
    Senator Cornyn. Thank you, Admiral.
    Mr. Chairman, my time is up. Thank you.
    Senator Roberts. We thank you, Senator. I have an 
observation in regards to Senator Kennedy's very timely 
question in reference to the command and control in the 
intelligence community and the warfighter in the field. Having 
the privilege of being the chairman of the Intelligence 
Committee, which by the way is not an oxymoron----[Laughter.]
    --let me say that Senator Levin, Senator Rockefeller, 
Senator Warner, and I went on a congressional delegation, a 
forced march, six countries in 5 days, but we spent a great 
deal of time in Doha and in Kuwait, and we were very impressed 
with the way the stovepipes are coming down. As a matter of 
fact, holding numerous hearings in this subcommittee and being 
a member of the Intelligence Committee for 6 years, why, I 
never thought I would see the changes rapidly develop as they 
have. Nothing like an exercise called Iraq to make that happen, 
but in terms of the big picture, that commander in the field, I 
would tell the Senator that Headquarters Doha in real-time 
intelligence is delivering that to the lance corporal or the 
private first class or, for that matter, the lieutenant or the 
staff sergeant. It is very impressive.
    Of course, at the same time we got hit with the mother of 
all sand storms, and a threat that gives terrorism a new name 
in terms of conduct, recognized by everybody with the exception 
of Peter Arnett.
    At any rate, I was impressed with the jointness, but I am 
troubled. In the millennium exercise, it has been well-
publicized in the press, and we asked this question during the 
last hearing. I think I asked the question a year ago where the 
red team defeated the blue team, and as soon as they did, they 
said, okay, stop, take a lock, take a lock, we are going to 
continue the exercise, and he was using--he meaning General van 
Ryper--the same kind of asymmetrical tactics that are being 
used today in Iraq. Every time he won, he won three straight 
times, we stopped the exercise and we started over. I asked the 
question of Larry Myers, what is going on here, and of course 
the answer we got back, it said there is about a 50-50 
proposition. You have to finish the exercise, but these lessons 
are lessons learned.
    Would any of you have any comment on that in terms of the 
exercise and more especially the van Ryper suggestions? I could 
call them complaints, but I will label them suggestions.
    Secretary Wynne. I would say that I know General van Ryper, 
and he is one of the most imaginative combatants that we could 
have picked as the red team commander, and actually a really 
fun guy to be around in that regard, very imaginative.
    One of the things I wanted to advise you is that we are, in 
fact, causing interoperability to be more and more of a watch 
phrase in our forces. We are finding out that is a real plus to 
situational awareness, when they can actually use the same 
symbology, use the same, if you will, signals to advise, be 
they Air Force, Army, or Navy, or the Marines for that matter, 
and getting the coalition forces on that same interoperable 
standard has been a real plus during this engagement, and I 
think there is yet more to come.
    I think part of the situation that you are faced with there 
in Millennium Challenge 2002, and there may be some of my 
colleagues who are more familiar with it than I was, but when I 
went down to get my briefing on it, it is true that they were a 
force with an opening gambit, almost like in a chess game, that 
it was checkmate before they got their pawns released, and I 
think there is no better thing to do than to reboot the system 
and sort of replace the warriors and say, hey, can we play that 
game again.
    I think the lessons learned from the first couple, in fact, 
have been fed forward into the Services, and I think that is 
probably one of the reasons we can be as flexible as we are 
when faced with these--I think the word perfidy was used, but 
very pernicious attacks that have been made upon our troops.
    Senator Roberts. When you look out 20 years in the future, 
this is for all of you gentlemen, what technological challenge 
in future threat concerns you the most? Pick one. What 
challenge? What threat? What are you worried about the most? 
What keeps you up at night?
    General Kern. I will tell you that from my perspective on 
the ground force, I worry about two things, both of which are 
objectives of our S&T. The first is our footprint, and what 
that does in terms of restricting our agility and flexibility 
on the battlefield. So one of our objectives of our future 
combat systems and all of our work is to reduce the burden on 
the field commanders through S&T.
    That gets at some of the earlier discussions of hybrid 
electrics, lighter-weight materials, much better active 
protection systems, and armor protection that will allow us to 
have a series of systems that are less demanding of fuel and 
maintenance on our future battlefields.
    The second area that I worry about are the asymmetric-type 
threats that we are seeing today, to be able to identify 
essentially the terrorist wearing a bomb, and to be able to 
detect them from any other person who might be in the area that 
we see, and so that is a threat which is both here in the 
homeland and on the battlefields, as we are seeing today.
    General Lyles. Mr. Chairman, I share the second concern 
that General Kern mentioned. The asymmetric threat is the one 
that concerns me, and we are trying to put a lot of 
intellectual capital to figure out how can either today's 
technologies, or the technologies we are working on in the 
laboratory, can that help us to counter that particular threat. 
We are still looking at different ways.
    The second area is space.
    Senator Roberts. Give me an example. Give me a specific 
example of what kind of technological superiority, other than 
the thing that burned into my finger in your demonstration--
actually, it did not burn it. It just heated up.
    General Lyles. Well, that is exactly the one that we have 
been talking about recently. If we had this directed energy 
millimeter wave technology that would allow us to repel forces 
without killing them, we can then give an opportunity for our 
forces to sort out who is bad and who is not.
    Senator Roberts. Okay, and that had a range of 750 yards, 
as I recall, or something of that nature.
    General Lyles. Yes, sir.
    Senator Roberts. Okay. I am sorry. We will continue the 
question. My time has expired and I will go right to Senator 
Reed, but first Admiral Dyer.
    Admiral Dyer. Very quickly, 20 years, if you look forward 
20 years, the specialty software is closing our leadership gap, 
so the ability to leapfrog or to transform into the future is 
the one that I would give you, sir.
    As we go to speed-of-light weapons and their associated 
intensity, it is power generation on the large scale, power 
storage, and the ability to attend to electromagnetic 
interference to our own systems, and to be able to operate it 
with stealth, are the technologies that I would give you, sir.
    Secretary Wynne. I would just like to add information 
assurance. We are so becoming focused on C\4\ISR, and we are 
using it to the hilt, and it is great, but it takes a matter of 
trust. The individual soldier, when he hears over his earpiece, 
or looks on his screen, he must trust that that information is 
accurate and complete, and the day it becomes inaccurate or 
incomplete, we have to start over, so information assurance is 
the thing that concerns me the most 20 years away.
    General Lyles. Mr. Chairman, if I could add one other thing 
that I was going to bring up, and that is space, space 
technology and space capabilities. The phrase, we own the 
night, is certainly appropriate today. You could also say that 
for space, we own space. We cannot allow anything to ever 
jeopardize the tremendous advantage we have from our space 
systems, and we have to make sure that they are always 
protected also.
    Senator Roberts. I thank you for that.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    During the first round, several comments were made about 
the National Security Personnel System (NSPS) and also about 
the laboratory workforce demonstration program. These 
demonstration programs I find to be very popular. The Naval 
Undersea Warfare Center at Newport has such a demonstration 
program they find extremely useful in retaining scientists, 
having the flexibility to run a lab, which is much different 
from any other military organizations.
    The fear I think I have heard expressed is that this NSPS 
will be one size fits all and will really leave the labs out in 
terms of the flexibility, the creativity, the uniqueness that 
they have, so Mr. Secretary and then gentlemen, can you comment 
upon these issues?
    Secretary Wynne. Right now I would tell you that when the 
NSPS arrives here in Congress, which we hope is in short order, 
I think you will see that it has tremendous flexibility beyond 
the expected. That having been said, the Office of Personnel 
Management has in their hands the DOD-released best practices, 
where we have assembled the best practice from each of the 
laboratory demos and intend to turn that back to them so that 
they could cherry-pick the one that they felt was most 
applicable to their particular laboratory situation.
    We expect that will be published in the National Register 
and cleared within 30 days, so we are really excited about 
that.
    The accommodation that you have given all of the 
laboratories over the years has been very well used, all the 
way back to, as I mentioned, the China Lake demonstration, but 
yet the laboratories are, in fact, special purpose areas, and 
we intend to see that they do have their continued flexibility, 
sir.
    Senator Reed. Thank you, Mr. Secretary.
    General Kern.
    General Kern. Thank you, Senator. The laboratory demo 
programs have been extremely beneficial to us over the years, 
and we have learned lots of new ways of managing personnel and 
providing the right incentives. That has been a very positive 
incentive that you have given us.
    On the other hand, we ended up with such a proliferation of 
them that it inhibited some migration between laboratories of 
people who were afraid to leave one personnel system to move to 
another, and so that was one of the challenges that we were all 
trying to find what was the best solution amongst all of those 
demo programs.
    I think the solution that is being proposed has some of the 
attributes that we are looking for out of the best practices of 
all of those lab demo programs. I was also surprised to some 
extent to find some of the negative feedback I was getting from 
many of our research centers on the lack of flexibility they 
thought it presented. I, as a result, had a fairly detailed 
discussion with Dr. Chu on where we are going on that, and he 
was listening. So I think many of the concerns are being taken 
in and, as Secretary Wynne has suggested, when the program 
comes forward, they will be addressed in the proposals that 
will be made.
    I also believe that it is something that we will not 
probably solve the first time around. It is going to take some 
iteration to find the right combination, but we all agree that 
we need some new personnel systems both in science and 
engineering as well as across the Department of Defense.
    Senator Reed. Thank you, General.
    General Lyles.
    General Lyles. Senator Reed, we also have been very pleased 
with our lab demo project since 1997. The flexibility it 
provides us and the way it has allowed us to do something I 
think is very significant, to change the culture of our 
scientist and engineering workforce, and to improve overall 
performance to make sure that we are paying people and 
rewarding people as a result of contributions or results, not 
just because they are sitting at the job.
    They have broad band pay levels and simplified 
classification system. Those three attributes are the things we 
passed through to Dr. Chu and to others. We think they are 
being listened to, as the NSPS proposed, but those kinds of 
flexibilities, we think, are paramount to continue that 
success.
    Senator Reed. Thank you. Admiral.
    Admiral Dyer. Senator Reed, I was at China Lake during the 
genesis of that demonstration program. I believed then and I 
continue to believe that the attributes of the marketplace 
reflecting in Government personnel pay for performance, a 
simplified classification system, and perhaps surprisingly most 
of all I would give you speed. If we are to hire and retain a 
creditable technical workforce in the future, we have to be at 
parity with regard to the answers we can give people with 
regard to their hiring, with regard to their pay, and with 
regard to their classification.
    Senator Reed. Thank you very much, Admiral.
    Mr. Secretary, the Total Information Awareness (TIA) 
Program started off with some rather grandiose goals, ``all-
encompassing megadata base,'' which presumptively would be 
manipulated to do interesting things.
    Since that time, there has been some discussion about what 
those goals might be. Secretary Aldridge was before the 
committee, and he talked about there is just some connections 
between airline tickets and other publicly commercial data 
bases. What are the goals right now, from your perspective?
    Secretary Wynne. Right now, sir, it is the creation of 
advanced analysis tools. The models that are being talked of 
are what drive the analysis tools. There are translation 
programs which would assist people when the data base they are 
being permissively searched is in a foreign language, and the 
tools are being developed using synthetic data bases for the 
most part, so that there is no aspect of privacy possibilities.
    We have put lots of policies in place to scale back any 
potential aspirations that were mentioned, but it is our 
intention to provide these tools to people who are, in fact, 
empowered or legally advised that have databases that can 
therefore use them in the absence of DARPA support.
    DARPA is a builder of tools for warfighters, be they 
information warfighters or physical warfighters. We do not, at 
DARPA, fight wars. We provide those tools to warfighters. We 
will not, at DARPA, investigate data bases so much as to 
provide people who have the legal authority to investigate data 
bases.
    It has been used, for example, in the instance of on 
Guantanamo, when they had a whole series of interviews with the 
prisoners. They used that very model, to find out what the 
difference between dirt farmers and potential terrorists were, 
and I think it really helped in the recent release program.
    Senator Reed. Can I just follow up, Mr. Secretary? Mr. 
Aldridge has created an oversight board, and also there is a 
report required by the Wyden amendment. Can you update us on 
the status of these aspects?
    Secretary Wynne. The oversight board has been published. 
Mr. Minow is the chairman of that board. We have candidates who 
are undergoing the standards-of-conduct interviews and the 
financial transaction disclosures that all of us have to go 
through. We hope that does not cause any fallout, but I do not 
think it will. These are pretty dedicated Americans who are 
very concerned with civil liberties. I think that will be good.
    The secondary board is an internal board that consists of 
Secretary Aldridge as the chair and Secretary Feith and 
Secretary Zakheim as cochairs to try to go through and make 
sure that they have the policies of record done.
    Senator Reed. With the permission of the chairman, one 
follow-up question. You pointed out that DARPA builds the 
tools, but who in DOD, and maybe I am just asking you to repeat 
what you have said, is responsible for the deployment of these 
tools and the actual use of them?
    For example, I understand that both Joint Forces Command 
(JFCOM) and Intelligence and Security Command (INSCOM) are 
using something like this, both testing it and using it.
    Secretary Wynne. It is really INSCOM for the Army. There 
is, if you are deployed overseas and you have freedom and 
permission on a foreign data base, but I would have to take for 
the record, sir, the issue about JFCOM.
    [The information referred to follows:]

    A number of agencies and commands of the intelligence, 
counterintelligence, and military operational communities have agreed 
to participate in the TIA experimental network: U.S. Army Intelligence 
and Security Command, National Security Agency, Defense Intelligence 
Agency, Central Intelligence Agency, DOD's Counterintelligence Field 
Activity, U.S. Strategic Command, U.S. Special Operations Command, 
Joint Forces Command, and Joint Warfare--Analysis Center.
    These organizations, working with the TIA program, have established 
a collaborative environment in which the participants can form ad hoc 
groups across the organizations, discover new experts and ideas, and 
begin to work operational problems in the global war on terrorism, such 
as:

        <bullet> Analyzing data from detainees from Afghanistan and 
        finding relationships among entities in that data and with 
        additional relationships from all-source foreign intelligence 
        information.
        <bullet> Assessing various aspects including weapons of mass 
        destruction in the Iraqi situation.
        <bullet> Aggregating very large quantities of information based 
        on patterns into a visual representation of very complex 
        relationships, which enabled rapid discovery of previously 
        unknown relationships of operational significance.

    The organizations participating in the experiments are potential 
transition partners if experiments are successful. Any agency 
contemplating deploying TIA tools for use in particular contexts will 
be required to conduct a pre-deployment legal review of whether the 
contemplated deployment is consistent with all applicable laws, 
regulations, and policies. The DOD General Counsel has directed each 
operational component within DOD that hosts TIA tools or technologies 
to prepare a substantive legal review that examines the relationship 
between that component and TIA and analyzes the legal issues raised by 
the underlying program to which the TIA tools will be applied. The 
General Counsel also has advised that all such relationships should be 
documented in a memorandum of agreement between TIA and the component 
to ensure that the relationship is clearly understood by all parties.

    Senator Reed. I do not want to belabor this, because 
Senator Kennedy needs a round, but I would feel more 
comfortable if I not only knew what DARPA is doing, which is 
essentially building the tool, but what is the overall DOD 
policy about how this tool is going to be used?
    Secretary Wynne. In each case where it is being used, we 
are putting a memorandum of agreement in place between DARPA 
and the using agencies, so we will have several chartered 
agencies, and they will equally agree to use these in a lawful 
sense in protecting the privacy of American citizens wherever 
possible.
    The fact is that I think that policy or the lack of a 
policy led to some misunderstandings and potentially 
disagreements, but the fact is, those policies are now in 
place, and each agency that takes it on, be it INSCOM or JFCOM, 
has to sign an agreement with DARPA as to how to use it written 
by both of the general counsels.
    Senator Reed. Thank you, Mr. Secretary.
    Senator Roberts. Senator Cornyn. We are going back and 
forth.
    Senator Kennedy. Fine. I just found that out.
    Senator Roberts. This is in the tradition of the bipartisan 
nature of the former Chairman of the Health, Education, and 
Labor and Pensions Committee.
    Senator Cornyn. I have just been so inculcated with the 
seniority system, Mr. Chairman, and I just automatically----
    Senator Kennedy. Don't forget it, either. [Laughter.]
    Senator Cornyn. I thought I would be the last, regardless 
of party affiliation.
    Senator Roberts. Just count your blessings and ask your 
questions. [Laughter.]
    Senator Cornyn. Gentlemen, I was just curious about 
electromagnetic pulse (EMP) weapons. I know one of the 
challenges we have in the current conflict in Iraq is to 
degrade the regime's ability to communicate with the people on 
television and radio and otherwise to try to maintain at least 
some hope on the regime's part that Saddam would remain in 
control. I would like for you to respond to what is the 
potential of electromagnetic pulse weapons in modern warfare, 
and what are we doing for our part to make sure that as 
dependent as we are upon computers and electronic devices, that 
we are protected from those threats by our adversaries?
    Secretary Wynne. I will just start quickly that we have 
several hardening programs underway. We invent them, then we 
try to prevent at the same time. I think one of the lessons 
that we are learning is number 1, the effect of such a weapon, 
and how does it actually, as different from maybe what it was 
purported to do in the laboratory effect things. As we find 
things from the laboratory, we are moving towards hardening 
programs.
    Senator Cornyn. Paul.
    General Kern. I would say two aspects. First, we have moved 
very clearly and quickly into the electronic era of information 
processing. So many of those products are commercial off-the-
shelf, and we have done a tremendous amount of testing and 
evaluation of those systems against EMP, and so we have a very 
good understanding of where our vulnerabilities are and where 
we need to do further work on hardening, so without going into 
a lot of details, we do understand that.
    The second piece of it, though, is that we have been 
pleasantly surprised that many of the commercial off-the-shelf 
products demonstrate a great deal of resiliency that we did not 
expect. It is not all bad news and we have found some real 
successes in that area. I would not underestimate that we still 
need to do a great deal of work for the future systems as we 
see more and more of our weapons platforms moving to 
electronics information systems and exposing war vulnerability 
to EMP. We will continue to work the hardening of all of our 
future systems a great deal.
    General Lyles. I will concur with what Paul mentioned. As 
we better understand exactly how the programs that we are 
working on provide effects, how they couple them to 
capabilities in computer systems or even in buildings, it then 
gives us an opportunity to figure out how do we counter that to 
make sure that something like that does not happen to us.
    We are still relatively in our infancy, regardless of what 
you read in the newspaper, with some of these weapons systems, 
almost all of whom are in the special access category, but we 
are still in our infancy, and we are looking on both sides of 
the equation, both how do we use them effectively, but also how 
do we make sure that somebody does not use technology like that 
against us.
    Senator Cornyn. Admiral.
    Admiral Dyer. I would just add that we are somewhat blessed 
in the Naval Service with the challenging electromagnetic 
environment that we face on board the carrier today. With the 
aircraft in close proximity and associated weapons systems of 
the ships we have had to be very focused on shielding for 
years. That will continue to serve us as a form of departure 
and, as Secretary Wynne indicated, we are all looking at the 
ways to improve shielding in future systems.
    Senator Cornyn. Thank you, gentlemen. I yield back the 
remainder of my time, Mr. Chairman.
    Senator Roberts. Senator Kennedy.
    Senator Kennedy. Thank you. Mr. Secretary, I have here the 
table of the 2005 BRAC time line, and the first item on it is 
April 15, 2003, the infrastructure Steering Group recommends 
initial categories for analysis. Then the next one is December 
31, 2003, Secretary of Defense sends initial selection criteria 
to Defense Committees and publishes the same in the Federal 
Register.
    Have you been working now, since it is 2 weeks away, and 
have these other representatives of the labs been working on 
the initial categories for the analysis?
    Secretary Wynne. Sir, we have barely started. A report, in 
fact, is due at 5:00 this afternoon.
    Senator Kennedy. You have about an hour and 15 minutes.
    Secretary Wynne. I recognize that. My boss does, too. 
Unfortunately, but we have barely begun the how-are-we-going-
to-do-the-process. Our criteria is fairly broad, but does start 
with no military value, and I think frankly it is going to 
got----
    Senator Kennedy. Well, we could assume, if I could move on, 
that this will probably slip a bit, the April 15? Will the 
other members of the panel have an opportunity? Will they be 
asked to have an input in this?
    General Lyles. Senator Kennedy, the answer is yes. As a 
matter of fact, I have identified one of my key scientists, 
mature scientists with a lot of experience to be part of this 
to ensure the right infrastructure equities are being accounted 
for in this process.
    General Kern. I would add yes for the Army as well.
    Senator Kennedy. You will be involved in the process, good, 
and I assume the Navy.
    Admiral Dyer. Yes, sir.
    Senator Kennedy. This has been an enormously valuable 
hearing, Mr. Chairman. If I could ask Admiral Dyer, I was 
interested in how do the marines work with you in terms of 
their priorities. The one particular priority that I have been 
interested in over a long period of time is the countermine 
warfare at sea priority. This has been something in which, 
quite frankly, the marines have been interested and the Navy 
has not, and former Secretary Cohen and I have worked with the 
Navy on the program.
    I was just wondering, on the kinds of issues that they 
might have, how does that work with you. I guess we will not 
hear from the Marine Corps today, but we will be interested at 
least to hear from you how you work with them in order to get 
their kind of input in terms of their priorities.
    Admiral Dyer. Yes sir, Senator Kennedy. Perhaps the best 
answer to that question is right behind me. The Chief of Naval 
Research is Admiral Cohen, and right beside him is the Deputy 
Chief of Naval Research, who is a marine one-star, so we are 
joined at the hip at the very top of organizing S&T and 
research and development in our Naval Service.
    I would add that to look in my own area of naval aviation, 
it is very much naval. The Naval Air Systems Command attends to 
those systems for both Navy and Marine Corps aviation, and it 
is well-coordinated, no better example playing out in real time 
than the integration of Marine Corps aviation aboard carrier 
and the progress that we have made in the last couple of years, 
so I think it is a good news story, sir. I think you would be 
proud of it.
    Senator Kennedy. I will submit some later questions just 
with regard to the mine research, which I have been 
particularly interested in.
    On the issue of researchers, foreign researchers, and the 
dependency that we have on the foreign researchers, are you 
working, Secretary Wynne, with immigration? With all of the 
problems, the challenges that we are having now and the 
restrictions in terms of permitting visas for a number of the 
countries which had provided us with researchers. Are you 
beginning to work with them on this, and are you satisfied that 
you are getting the grants to the visas, for the ones that are 
necessary now to work on these programs?
    Secretary Wynne. Sir, I have not personally been involved 
in that aspect.
    Senator Kennedy. It has not been brought to your attention 
as a problem yet?
    Secretary Wynne. No, sir.
    Senator Kennedy. Well, that is helpful, because I am on 
that Immigration Committee, and the numbers have gone down 
dramatically. A follow-on question, how are we going to react 
to these foreign students who are coming in terms of the 
security issues which now are an increasing kind of concern? 
How is that going to be the protocol, how is that going to be 
working through? I would be glad to have you get back to me on 
it, because this is rather technical.
    Secretary Wynne. I do know that it is affecting university 
research, because the professors there were somewhat dependent 
on that labor.
    Senator Kennedy. All right. I will submit those.
    Finally, on the whole area of getting scientists and 
research, there have been a number of comments about the 
workforce, and this is something that I happen to be enormously 
interested in. I just mention one minor point and use up my 
last minute here.
    We in Massachusetts are the first State now that is going 
to have an engineering course Kindergarten (K) through grade 
12. It is principally sponsored now out of the Museum of 
Science in Boston. They have worked it out with the State, and 
they are going to include that in their curriculum now in terms 
of reaching the very goals in terms of proficiency, even under 
the No Child Left Behind Act. They are working on some 
enormously interesting research, and have had some very 
important success in terms of both minorities and with regards 
to young girls and women in this area.
    This has been an area which has been, for far too long, 
limited for a variety of different reasons, but this is 
something that they are working on. So we welcome any of the 
kinds of programs that you are working on, and I will write to 
all of you on it, that you are being successful, because we 
want to try and, in other areas of public policy, give those 
encouragement. We need to do that in a great number of areas of 
public policy, and we would certainly benefit from what you 
have found to be helpful and successful in reaching your goals.
    I thank you, Mr. Chairman.
    Senator Roberts. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Secretary 
Wynne, last year Congress enacted legislation creating a 
Defense Test Resource Management Center in order to help 
coordinate, plan, rationalize the use, the joint use of test 
facilities and evaluation facilities, to be headed by a three-
star general officer. Can you tell us when we can expect that 
nomination to come before the Senate?
    Secretary Wynne. Sir, we are on track to construct such a 
directorate. The problem is that the solicitation of a three-
star general, which is a flag officer, which is the 
stipulation, is somewhat difficult these days, with the 
Services all engaged in an active engagement. We are hoping, as 
everyone else is, for a relatively quick end and intend to 
resubmit that nomination to the Joint Chiefs when we feel like 
there could be a little bit more fertile ground for the three-
star nomination.
    We recognize that the committee might be kind to give us 
relief and perhaps substitute a Senior Executive Service member 
or something along those lines. We have not yet given up on the 
initial direction.
    Senator Reed. If there were some relief, then that civilian 
would be of equal rank to an 010, or 09, rather, a three-star?
    Secretary Wynne. Sir, I would have to go look at what we 
have available in that regard, and sometimes the capabilities 
far outnumber the rank, but I do not know what we have 
available, sir.
    Senator Reed. But your intention is to still try to find a 
military officer?
    Secretary Wynne. Yes, sir, right now it is.
    Senator Reed. Thank you.
    Admiral Dyer, if I could ask one final question. I noted 
that the Navy's S&T budget request includes a number of 
programs transferred to it by the Office of the Secretary of 
Defense (OSD), others that pass through to JFCOM, and I 
understand without those programs, the DOD-interested program 
and the JFCOM programs, that the S&T request this year is down 
by $50 million from last year's request, down nearly 25 
percent, or $400 million from last year's appropriated levels. 
What specific areas of investment do you have to cut back 
because the money that the Navy actually has, the Navy-
initiated programs has been decreased?
    Admiral Dyer. Sir, to get the detail of what was cut back I 
would like to take that for the record.
    Senator Reed. Absolutely fair. Absolutely fair.
    [The information referred to follows:]

    While Basic Research (6.1) has benefited from the development of a 
portion of the University Research Initiative program to Navy, there 
remain difficult choices in Applied Research (6.2) and Advanced 
Technology Development (6.3) funding to maintain the best possible 
portfolio in the face of the significantly constrained budgetary 
environment.
    In the face of the significantly constrained budgetary environment, 
we made difficult choices in Applied Research (6.2) and Advanced 
Technology Development (6.3) funding to maintain a viable portfolio to 
fund transformational S&T at a rate we can afford.
    We cut the FNCs designed to deliver new capabilities to the 
warfighter in order to focus only on the highest priority projects 
within the 6.2 and 6.3 portfolios.
    The following shows some of the primary FNCs' products that were 
reduced or not pursued in the fiscal year 2004 President's budget 
request:

        - Low Observable Integrated Deckhouse
        - Advanced Estimate of Sensor Performance
        - Mission Responsive Ordnance
        - Limits of Passive Sonar
        - Underwater Surveillance Data Link Network

    Senator Reed. Just let me add for the record, too, that I 
have a very keen interest in the unmanned underwater vehicles, 
and those are issues which I hope are top priority and not on 
that list of things that had to be forgone.
    Thank you, Admiral, gentlemen. Thank you, Mr. Chairman.
    Senator Roberts. I just have a couple of wrap-up questions 
here. I remember 2 years ago, I asked Secretary Aldridge about 
whether the hiring authorities authorized by Congress would be 
implemented by the Department. He assured me that they would, 2 
years have gone by and we really have not seen too much 
progress. The thought occurred to me if the NSPS has not 
submitted to Congress, or if it does not pass, will the 
authorities that were previously authorized then be implemented 
by the Department? For example, I am talking about the direct 
hire by lab directors.
    That would be to you, Secretary Wynne.
    Secretary Wynne. We have submitted that as a best practice, 
and it would be in the Federal Register. Which means it would 
have the force of policy, which would implement the laws as it 
was passed. I think we were looking to the NSPS, if it is here 
and if you take kindly to it and pass it as well, would 
actually supplement the best practices until it was rejoined in 
the Federal Register, because each law has to be formulated in 
implementing instructions and then released in the Federal 
Register.
    Senator Roberts. Oh, it would be commensurate, not an 
either/or thing.
    Secretary Wynne. Yes, sir.
    Senator Roberts. Right. I want to follow up on Senator 
Reed's question in regards to our adversaries and even our 
allies who are investing in a specific technology which could 
provide them a technological advantage in the future. I would 
like to know what mechanism do you currently utilize to make an 
informed investment decision to identify the cooperative 
research opportunities and track, and this is the real nub of 
the question, and track foreign research efforts in emerging 
technologies so it is not only what we think we need, but what 
others are doing, and what we need to do to make sure that they 
do not gain an unfair advantage. What mechanism do we use, 
other than damned good intelligence?
    Admiral Dyer. Well, in the Navy's case, sir, we have field 
representation in Europe, emerging in Russia, and in areas in 
the Pacific that represent the eyes and ears of the technical 
community to ensure that we do not suffer technological 
surprise.
    Senator Roberts. General Lyles.
    General Lyles. We have a similar situation, Mr. Chairman. 
We have a European Office of Aerospace Research and Development 
and a Japanese Office of Aerospace Research and Development 
both to look at their specific theaters and continents and work 
with both our friends and potentially understand what the 
adversaries are doing in research and development so that we 
can track them very closely.
    Senator Roberts. Good.
    General Kern.
    General Kern. We have similar offices located in Europe and 
in Japan which were, many of them, co-located with the other 
services. In addition, we have foreign science internships 
where we work in the universities with some of our scientists 
to learn what they are doing. The third area that we are 
working right now is to expand what had been our historical 
locations into Eastern Europe, into the new nations of NATO, 
and to look at some of the other areas, and we use those other 
bases to move out from that.
    I have organized all of that in the Army under our Research 
and Development Engineering Command, which had been spread out 
in the past under a number of different organizations, so that 
we can better coordinate it. I have even gone so far as to 
coordinate with the Foreign Service, the U.S. Navy, and I met 
with Admiral Cohen----[Laughter.]
    --and we discussed how we could better coordinate our 
efforts together, as well as with Les Lyles.
    Senator Roberts. What about a searchable data base, sort of 
a central repository, and it could be classified or 
unclassified? Would that be helpful, to know what it had?
    Secretary Wynne. Sir, we are doing two things. We do 
maintain the military critical technology list as far as 
outbound technology, and then we are, in fact, reinserting the 
intel community into the R&D planning and S&T planning so that 
we get first hand access to whatever data screening devices 
they might have relative to foreign science journals and such.
    Senator Roberts. One final question. It would be helpful to 
request an unfunded priority list from you all from the 
Services for S&T. This would allow us to put more good 
Government into good zip codes, if you get the drift, so if you 
would do that for the committee staff, that would be most 
appropriate.
    I thank you all for coming. Thank you for your time and 
patience, and more especially, thank you for what you are doing 
for this country.
    Secretary Wynne. Thank you, Mr. Chairman.
    General Lyles. Thank you, Mr. Chairman.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Pat Roberts

                     BANDWIDTH FOR UNMANNED SYSTEMS

    1. Senator Roberts. General Kern, General Lyles, and Admiral Dyer, 
as was apparent at the technology demonstration, many of today's 
innovative technologies are unmanned systems. These systems will be 
responsible for sending tremendous amounts of information around the 
battlefield and to the warfighter. What efforts do you have underway to 
enable the bandwidth necessary for these unmanned systems to be truly 
effective?
    General Kern. Bandwidth is a concern for all of our systems to 
include the emerging unmanned systems. We are making positive strides 
to address bandwidth concerns but still have more work to do. The 
emergence of the software radio, specifically the Joint Tactical Radio 
System (JTRS) provides the capability to implement in software the 
communications waveforms that will better address these bandwidth 
concerns. We have come a long way from the primarily voice and fax 
networks that were the standards only a decade or so ago. DOD is 
developing KA band terminal for high bandwidth communication to future 
DOD wideband SATCOM systems (i.e., Wideband Gapfiller System). This 
enables UAVs to access significant bandwidth, beyond line of sight to 
control ground systems.
    We do have some efforts currently underway and are in the process 
of putting others in place to address unmanned networking. The S&T 
community is addressing the bandwidth issue for all systems with the 
following three-prong attack to address the bandwidth issue. 
Specifically those areas are:

    1) Focus on improving the communication systems themselves to 
increase their throughput capacity.
    2) Develop (e.g., Multi-function On-The-Move Secure Adaptive 
Integrated Communications (MOSAIC)) bandwidth management mechanism that 
will allow the network to function more efficiently.
    3) Engineering the applications/systems to more efficiently utilize 
the network.

    The combination of these three thrust areas will lead to a system 
of system network that will optimize bandwidth usage and assure that 
critical information gets to its destination in the appropriate time.
    Communication System Improvements: S&T efforts in this area are 
focused on transitioning technologies and supporting programs for PM 
Tactical Radio Communications Systems (TRCS) (JTRS), Warfighter 
Information Network--Tactical (WIN-T) and FCSs. Present programs 
include: more efficient, low profile and directional antennas; co-site 
and interference mitigation capabilities; new frequency radios (for 
example: Ka, Laser, and Ultra-wideband); frequency agile radios and 
more efficient waveforms such as Turbo coding. In the past, the 
flexibility of even our best tactical communications systems was 
greatly limited by their inherent hardware constraints, which in turn 
were limited by their original anticipated missions, their 
``stovepipe'' approaches, and their rapidly obsolete technologies and 
designs. Consequently, deployed systems were not only years or decades 
old, but they were often unable to fully satisfy the continually 
changing needs of our military, regardless of the cost. The JTRS 
program will soon provide the critically needed flexibility to upgrade 
many of our tactical communications systems to the latest available 
technologies and waveforms, in addition to greatly improving 
interoperability, performance, capacity, and economy of production. It 
will also incorporate imbedded GPS location, automatic ``gateway'' 
functions between networks, and the new robust and flexible Wideband 
Networking Waveform (WNW). Due to the unique requirements associated 
with unmanned systems and the over-allocation of the JTRS wideband 
waveform the Army is pursuing the development of an additional JTRS 
compliant waveform under the Soldier-Level Integrated Communications 
Environment (SLICE) program. In addition the Army will leverage the 
emerging Transformational Communications Satellite (TCS) effort that 
will significantly enhance our ability to use satellite communications 
on the tactical battlefield with high data rate communications.
    Bandwidth Management mechanisms: Primarily this area refers to the 
protocols that will seamlessly bind the sub-networks such as Satellite, 
JTRS, and WIN-T into a coherent overall network. These protocols 
include an overall Quality of Service (QoS) set of protocols that will 
assure the network Reserves sufficient bandwidth to support the 
individual task (such as voice calls or video) and the ability to 
prioritize them such that the higher priority tasks go through the 
network in a timely quality manner. Also included are protocols that 
allow the warfighter to join and leave sub-networks in an efficient 
timely manner, and ones that provide the ability to select the best 
route/network to utilize when more than one sub-network is accessible 
(note: FCS envisions a multi-tier network: satellite, airborne, 
terrestrial, and wired). Presently commercial protocols don't support a 
dynamic multi-hop, multi-tiered, wireless network or the seamless 
interface between the different networks (for example JTRS, WIN-T, and 
Satellite) that are required for FCS. S&T programs are addressing these 
requirements as well as providing the commander's management tools to 
change and optimize the network to the tempo of the battle such as 
shifting priority from Video in the planning stage to Data in the 
execution phase to support call for fire.
    Application/System Bandwidth design: This area is focused on how to 
design each application/system to more efficiently utilize the network 
and what can be done to reduce the load placed on the network. Areas to 
be considered include: frequency of updates; data compression; on-board 
processing; header information that identifies priority and traffic 
type such as video, voice, and data so the bandwidth management 
mechanisms can act upon them; packet size to match the packet size of 
the network; and various others. With regards to unmanned system 
several design approaches can have a tremendous impact on the bandwidth 
required. It should be noted that the bandwidth requirement associated 
with unmanned systems can be broken down into two major categories, the 
bandwidth necessary to control the system and the bandwidth required to 
transmit what is received from the unmanned system (sensor data). 
Control bandwidth is greatly affected by the amount of autonomous 
operation the unmanned system can achieve. Very limited bandwidth is 
needed for sensor (Unmanned Ground Sensor) fields and mines, UAVs 
require some control but their operations are getting more autonomous 
while unattended ground vehicles (UGVs) still have some challenges and 
require the most bandwidth. The sensor bandwidth can be greatly 
affected by the amount of on-board-processing (ability to locally 
interpret the information) and the frequency with which you send 
updates.
    General Lyles. The challenge to our S&T program is to provide 
needed additional bandwidth, while reducing the load on the available 
radio frequency, or RF spectrum. The S&T program addresses this 
challenge in three ways: better use of existing RF spectrum, making 
advances in data compression techniques, and using our networks of RF 
links more effectively.
    First, the existing RF spectrum can support more users by putting 
systems in the field that use more efficient RF waveforms. New advances 
in modulation and coding technology can transmit up to gigabit transfer 
rates in a limited amount of spectrum. Recent breakthroughs in the 
removal of interference will also allow more users to operate 
successfully in a limited frequency band. We are developing 
technologies to make better use of lower frequency bands that have been 
underutilized. Software-defined radios, such as the Joint Tactical 
Radio System, could let us implement these and future technologies. 
Improvements in antenna technology can support more users by covering 
broader ranges of frequencies and could support the reuse of 
frequencies by better controlling the direction of transmitted and 
received signals.
    The second area, data compression, will allow more data to be 
passed within the same bandwidth. We are developing superior data 
compression techniques by examining both commercial and military unique 
procedures.
    Finally, demands on frequency allocations can be reduced by smarter 
networking technology. Technology solutions in this area include the 
development of new techniques that are designed specifically for 
wireless links. We are developing new compression techniques to pack 
greater amounts of image and video date into fewer and fewer bits. 
Laboratory programs are developing prototypes that use multiple RF 
links at a time and can route information intelligently to reduce the 
need for bandwidth in congested portions of the RF spectrum.
    The combination of these three approaches could reduce the demand 
on the bandwidth for unmanned systems.
    Admiral Dyer. The Navy S&T is looking at several approaches to 
increase information throughput. Increasing bandwidth is only one way 
to increase throughput. We have many programs aimed at this. We are 
looking at advanced protocols which would enable us to pack more 
information in the same bandwidth or to transmit information in a more 
efficient manner. Some of these have already transitioned to the Navy 
and non-Navy communities.
    We are examining technologies to develop apertures that support 
high frequency communications which enable denser information packing. 
We are supporting intelligent compression techniques which enable us to 
transmit less bits of data, but the same amount of information. Again 
some of these techniques are already transitioning. We are supporting 
multi-function, multi-beam apertures so that effectively one has more 
communication capacity from a given aperture. Also, we are supporting 
Autonomous Decision Aides and Target Cueing technologies that will 
allow the UAV mission systems to filter the information, onboard the 
UAV, prior to transmission. Finally we are supporting high density 
memory technology. This would enable one to carry more information 
since much of the information in images and video are not changing. 
Thus one only needs bandwidth to transmit changes to information, not 
the full information.

          NUCLEAR DETECTION CAPABILITIES FOR FORCE PROTECTION

    2. Senator Roberts. General Kern, General Lyles, and Admiral Dyer, 
what nuclear and radiological detection capabilities do the Services 
currently employ for force protection and what areas require 
improvement to meet force protection needs?
    General Kern. The Services currently employ the following nuclear/
radiological detection capabilities for force protection. The AN/PDR-75 
Radiac Set provides the capability to monitor and record the exposure 
of individual personnel to gamma and neutron radiation. The AN/PDR-77 
detects and measures alpha and x-ray radiation. The AN/UDR-13 
``Pocket'' Radiac Set is a compact hand-held or pocket-carried tactical 
device capable of measuring prompt gamma/neutron dose from a nuclear 
event plus gamma dose and dose-rate from nuclear fallout. The AN/VDR-2 
which is used to perform ground radiological surveys in vehicles or in 
the dismounted mode by individual soldiers as a hand-held instrument.
    Future needs/improvements focus on automated, low cost dosimeter 
capabilities to enhance individual warfighter survivability. A Joint 
Standoff Radioactivity (RADIAC) System and an Advanced Airborne RADIAC 
System remain on the Joint Future Operational Capabilities (JFOC) list 
as required radiological Early Warning capabilities. Standoff 
radiological detectors provide the commander with a capability to 
identify the content of a detected radiological hazard by specific type 
(source of radioactive hazard) before it impacts operational forces. 
Also required is Radiological Confirmation and Validation. This 
capability provides a rapid, valid, and reliable in-theater 
confirmatory laboratory analysis of a suspected radiological hazard 
presence in environmental samples and clinical specimens. This 
capability enables commanders with a mobile, versatile, and tailorable 
ability that can address all radiological threat hazards. Finally, 
while point detection for radiation exists, the age of several fielded 
dosimeters (AN/PDR-75 & AN/PDR-77) averages 20 years. Radiological 
detectors provide the commander with the ability to detect and identify 
the presence of radiological hazards in the immediate area of 
operations, on personnel within the area of operations, and provide 
information necessary to conduct immediate planning in support of 
timely medical and restoration decision-making activities.
    General Lyles. Currently, all Air Force installations (including 
Active, Guard, and Reserve) are required to maintain a major accident 
response capability that includes ADM-300 radiological detection kits 
and Staplex Air Samplers. In addition to this home-station response 
capability, many bases also maintain a deployable detection capability 
(ADM-300). The Air Force also maintains three Response Task Forces that 
serve as DOD's primary response elements for command and control at the 
scene of a nuclear weapon/material accident. Each of these teams 
possesses organic radiological detection equipment (ADM-300). Finally, 
the Air Force Radiological Assessment Team has a suite of advanced 
equipment that permits detailed assessment of any radiological 
incident. Any or all of these assets could be used, as needed, to 
support force protection issues at fixed CONUS and OCONUS Air Force 
installations as well as at deployed locations.
    All of our current systems are point detectors; they must be within 
meters of the radiological hazard to detect it. They are not linked to 
an automated monitoring system to facilitate remote operations. This 
limits their utility for early warning. Additionally, there are not 
standoff radiological detection systems currently available.
    Admiral Dyer. Navy has radiation detection devices available for 
force protection both at sea and ashore for the detection of low (and 
higher) levels of radiation associated with various nuclear and 
radiological events. Current capabilities are considered to be adequate 
in support of operational forces and installations.

                          DEFENSE LABORATORIES

    3. Senator Roberts. General Kern, General Lyles, and Admiral Dyer, 
could you describe the coordination process your organization 
participated in during the formation of the National Security Personnel 
System (NSPS)?
    General Kern. Army personnel from Headquarters, Department of the 
Army, and the Army Materiel Command participated in a series of OSD 
sponsored work groups to study best personnel practices from 
demonstration projects operating within DOD and across the Federal 
service in four key areas of human resources management. Each of these 
groups made recommendations to the members of the OSD Civilian 
Personnel Policy Council on what they considered to be ``best 
practices''. The Army Assistant G1 (Civilian Personnel Policy) served 
as the Department of Army representative on the Council. He 
participated in the development of the initial legislative language and 
reviewed and approved subsequent drafts. The Army and I strongly 
support the NSPS because it will unify into one simplified DOD system 
the multiple personnel systems under which we currently operate.
    General Lyles. Air Force Materiel Command was represented by the 
Air Force Research Laboratory Project Office and Headquarters Air 
Force, Directorate of Personnel Policy, on the Department of Defense 
``Best Practices Task Force.'' However, neither the Command nor 
Headquarters Air Force was formally asked to comment on the enabling 
legislation for the NSPS.
    Admiral Dyer. The Navy laboratories and warfare/systems centers 
that are designated as S&T Reinvention Demonstration Project 
Laboratories were consulted by the staff of the Office of the Director, 
Defense Research and Engineering (DDR&E) through the Personnel Sub-
panel of the Laboratory Quality Enhancement Panel (LQEP) regarding a 
DOD Best Practices Personnel Demonstration Project, which may form the 
basis for the NSPS. More specifically, the LQEP Personnel Sub-panel was 
invited to send one representative to each of the four DOD best 
practices working groups. There was a LQEP representative on the 
Performance Management, Classification, and Staffing Working Groups. 
Through this process, the reinvention lab participants were able to 
provide feedback on some of the proposals of the Performance Management 
and Classification Working Groups. In addition, the staff of DDR&E 
requested the S&T Reinvention Demonstration Project Laboratories to 
provide information on the various personnel innovations, delegations, 
and flexibilities they needed to assist the laboratories in meeting 
their mission. This information was made available to the Senior 
Steering Group member from DDR&E representing the S&T Reinvention 
Demonstration Project Laboratories in the development of the best 
practices proposal.

                              DEVOLVEMENT

    4. Senator Roberts. Secretary Wynne, this year your office devolved 
(transferred) several programs to the Services. Many of these programs 
reside in the Office of the Secretary of Defense (OSD) because of the 
inherent jointness of the program. What was the objective of moving 
these programs?
    Secretary Wynne. I expect no diminution of the jointness of these 
programs, and there are already many joint programs in the Service and 
Defense Agency budgets. We transferred budgetary responsibility, not 
oversight responsibility, by shifting the funding for the programs from 
OSD to the Services. The Services were already executing the programs 
and performing the day-to-day operations in any case, and certainly 
have the necessary expertise to manage programs efficiently and 
effectively.
    OSD is a headquarters organization whose primary responsibilities 
and organizational structure are inconsistent with executing a number 
of programs. I also saw no reason to retain an extra layer of 
management for program execution within a headquarters organization. 
With this in mind, we shifted our emphasis into new ``business areas'' 
more attuned to those of Under Secretary Aldridge, and Secretary 
Rumsfeld's transformation agenda. We divested the organization of 
functions and workload. We returned to oversight and policy development 
responsibilities, and divested line management responsibilities to the 
Military Departments.
    The OSD will continue program oversight responsibilities by 
establishing a set of output-oriented metrics to ensure the Military 
Departments meet the ``core/joint service'' objectives of the programs. 
In addition, the OSD will review execution plans and metrics prior to 
the start of each fiscal year, and at mid-year to determine future 
allocations. Programs also have senior review groups that will remain 
in place to provide monitoring from the OSD.

    5. Senator Roberts. Secretary Wynne, for those programs that fund 
work in multiple Services, how does OSD intend to keep these joint in 
nature if they are devolved to a particular Service?
    Secretary Wynne. Senior review groups with members from the OSD 
will remain in place to ensure particular military departments meet the 
``core/joint service'' objectives and metrics of the programs. The 
senior review groups will review execution plans and metrics prior to 
the start of each fiscal year, and at mid-year to make recommendations 
concerning future funding allocations.
    The Physical Security Equipment, Unexploded Ordnance Detection and 
Clearance, and High Performance Computing Modernization programs are 
good examples.
    Physical Security Equipment. Monitoring will continue to be 
provided by the Physical Security Equipment Action Group. The action 
group is composed of staff from the OSD and the military departments 
responsible for research, development, test, and evaluation to develop 
solutions for military department operational requirements. 
Representatives from other Federal agencies also attend meeting.
    Unexploded Ordnance Detection and Clearance. An Executive 
Committee, Joint Board of Directors, and Joint Unexploded Ordnance 
Coordination Office will continue to complement each other to ensure a 
joint perspective for this mission area.
    High Performance Computing Modernization. The High Performance 
Computing Advisory Panel will continue the oversight function. The High 
Performance Computing Advisory Panel members include the S&T and test 
and evaluation communities from the Military Departments and Defense 
Agencies.

                           FUNDING FOR DARPA

    6. Senator Roberts. General Kern, General Lyles, and Admiral Dyer, 
the Defense Advanced Research Projects Agency (DARPA) has a critical 
mission of performing high-risk, high-payoff research and its budget 
has been increasing over the past several years. Currently DARPA's 
budget is about 28 percent of the defense S&T budget. How are you 
coordinating with DARPA and leveraging their resources?
    General Kern. DARPA is an essential partner in transforming the 
Army. As such, the Army is coordinating with DARPA on many levels to 
ensure success. At the Department of the Army-level, memorandum of 
agreements are negotiated with the DARPA to leverage capabilities of 
both organizations and to combine resources. Prominent examples of this 
cooperation are the FCS and Unmanned Combat Armed Rotorcraft programs. 
Typical management arrangements are where DARPA has the program 
management lead until the Milestone B and the Army has program 
management lead after Milestone B--these programs transition directly 
into Army Acquisition Programs.
    At the Army Materiel Command's (AMC) Research, Development, and 
Engineering Center-level, for programs that do not transition directly 
into an Army Acquisition Program, DARPA program managers coordinate 
with AMC's Science and Technology Objective Managers. An example of 
this is the A-160 Hummingbird program.
    In addition to the three above, examples of other DARPA programs 
that the Army leverages are Organic Air Vehicle, Unmanned Ground Combat 
Vehicle, NetFires, Self-Healing Minefield, Airborne Communications 
Node, Small Unit Operations: Situational Awareness System, Lithium Ion 
Batteries, High Rotorcraft Radar, and Tactical Sensors--Unattended 
Ground Sensors.
    The Army plans to continue partnering with DARPA on its path to 
Transformation.
    General Lyles. The Air Force and the DARPA enjoy an excellent 
symbiotic relationship. In fact, last year, the Air Force Research 
Laboratory (AFRL) received approximately $450 million in customer 
funding from DARPA and expects about the same amount in fiscal year 
2003. This funding is connected with over 300 different efforts and 
AFRL's Information Directorate acts as DARPA's largest agent executing 
over 200 of these efforts. More importantly, the Air Force ensures that 
the research we do with DARPA is leveraged to support Air Force 
technology requirements. Examples of programs leveraging DARPA funding 
include:

        <bullet> Control of Agent-Based Systems--$7.4 million
        <bullet> Intrusion Tolerant Networks--$8.7 million
        <bullet> DARPA Markup Language (DAML)--$9.9 million
        <bullet> Bio-Computation--$10.0 million
        <bullet> Basic Research--$20.2 million

    Admiral Dyer. Our investment portfolios are not built in isolation. 
The Defense Reliance process integrates the Services' S&T programs 
while preserving the healthy diversity of vision and approach that has 
given us the technical agility we enjoy today. Our relations with the 
DARPA are excellent and productive. Much of the Office of Naval 
Research's basic and applied research investment is designed with a 
view to handing scientific advances over to DARPA for further 
development and exploitation. The Unmanned Combat Air Vehicle program 
is an excellent example of this kind of collaboration. We are working 
closely with DARPA on wide band gap semiconductors to support the 
radar, communications, and electronic warfare systems of the future, 
including the advanced multifunction radio frequency concept.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                   MARINE MAMMAL ENVIRONMENTAL ISSUES

    7. Senator Reed. Secretary Wynne and Admiral Dyer, I know that the 
Navy has been facing a difficult issue in trying to balance operational 
and training requirements for active sonar tracking of submarines with 
concerns over the effects of these technologies on marine mammals. Are 
there any technologies being developed in the Navy or DARPA S&T 
programs that may be able to replace active sonars as we search for 
enemy submarines?
    Secretary Wynne. DARPA has a development effort entitled Robust 
Passive Sonar (RPS) that is in its fourth year of a 5-year program. The 
goal of the RPS program is to significantly increase the performance of 
tactical towed sonar systems operating in littoral environments. This 
will be accomplished by canceling out the primary cause of 
interference, surface shipping noise and extending target detection and 
capability. The RPS program accomplishes surface shipping noise 
cancellation by innovative processing techniques coupled with multi-
dimensional receive arrays and other external information. In addition, 
the program will extend target detection and tracking: (1) while the 
receive array is maneuvering by compensating for the acoustic array 
shape; and (2) in the forward direction by suppressing noise from the 
receiver tow platform. Net system performance gains against surface 
shipping noise are expected to be 10 decibels or greater, thereby 
providing an increased ability to detect quieter targets such as 
submarines. It is expected that this system will affect future array 
and acoustic sensor field designs. By extending the range of scenarios 
for which passive acoustic techniques are effective, RPS may reduce the 
range of scenarios for which active sonar is applied. The program plans 
to take the prototype RPS system to sea as part of a U.S. Navy exercise 
in fiscal year 2004. The exercise will be used to evaluate the 
technical performance and operational utility of the RPS processing 
system.
    Admiral Dyer. There is no ``silver bullet'' for Anti-Submarine 
Warfare (ASW). Effective ASW requires a mix of technologies, including 
active acoustics. One reason is that the marine environment very 
strongly affects any given technology. A particular technology may work 
well in one place at one time of the year and not in the same place 
another time of the year or in a different place the same time of the 
year. Another reason is that the way submarines operate affects any 
given technology. Fortunately, the mix of possible technologies 
complements each other to some degree. For example, acoustic 
technologies work well many places in the winter while non-acoustic 
technologies work well many of the same places in the summer. Active 
acoustic technology often works well against submarines operating 
deeply submerged while non-acoustic technology often works well against 
submarines operating near the surface. The Navy has not yet developed a 
full complement of technologies to effectively implement ASW in all 
places through out the year and under all operating conditions. Active 
acoustics is and will remain a necessary part of that complement.

    8. Senator Reed. Secretary Wynne and Admiral Dyer, how much are we 
investing in these efforts?
    Secretary Wynne. In fiscal year 2000 through 2004, DARPA is 
investing $64 million for the RPS program.
    Admiral Dyer. The Office of Naval Research (ONR) is investigating 
more effective active sonar technology that the Navy hopes will reduce 
adverse effects on marine life through reduced source levels, 
alterations in signal characteristics, and focusing of emitted sonar 
beams. ONR research into the interactions of marine life and sonar 
sounds will help guide our search for reduced environmental impact from 
active sonar, while preserving and enhancing the effectiveness of this 
vital fleet protection asset. ONR is also exploring the development of 
non-acoustic capabilities, including magnetic and optical sensors, to 
complement existing active and passive sonar capabilities, with the 
goal of reducing reliance on active acoustics as a means of anti-
submarine force protection. Annual investments in these two scientific 
program areas [sonar effects on marine mammals and new technologies 
(magnetic and optical sensors) to replace active sonar] are 
approximately $3 million and $10.5 million, respectively. Taken 
together, these programs should enable the U.S. Navy to keep up with 
the challenges posed by advancing foreign submarine technology while 
simultaneously reducing the potential risks to marine life from the 
active sonars.

    9. Senator Reed. Secretary Wynne and Admiral Dyer, what are the 
technical barriers to the eventual deployment of these systems?
    Secretary Wynne. The innovative processing techniques employed by 
the RPS program are computationally intensive. When these techniques 
are coupled with the use of multi-dimension receive arrays, the 
computational requirements exceed the sonar processing capability 
currently installed on submarines and surveillance vessels. During the 
life of this program, computer industry advances in processor speed and 
the increased availability of field-programmable gate arrays as 
commercial off-the-shelf hardware improve the likelihood that a real-
time RPS system will be successfully deployed. Additionally, the RPS 
processing techniques are dependent on knowledge of the environmental 
characteristics of the area of interest. Currently, we can only make 
direct measurements in the immediate vicinity of our own platforms, and 
estimate the environment in the vicinity of the target. Consequently, 
the RPS system relies on historical data bases to fill in those 
measurements which are not made directly. More complete environmental 
data bases will result in better RPS system performance and will 
facilitate widespread system deployment.
    Admiral Dyer. The current environmental technical challenge for 
active tracking of submarines centers on the interaction of sound from 
submarine tracking (ASW) sonars with marine life, particularly marine 
mammals (whales, dolphins, and seals). While no harmful reactions have 
been observed in connection with the Navy's SURTASS Low Frequency 
Active Sonar, there is some evidence that existing mid-frequency (2.5-
10kHz) ASW sonars such as the AN/SQS-53C and AN/SQS-56 have the 
potential to cause beaked whales to beach and subsequently die as a 
result of the beaching. Minor physiological injuries found in the 
stranded whales have not been life threatening. The connection of these 
injuries to the sonar sound and the beaching behavior of the whales is 
not fully understood at this time.
    The Navy has begun an investigative program on this topic. 
Investment totals over $10 million annually, with approximately $1-$2 
million specifically focused on beaked whales and the effects of ASW 
sonars on them. These programs have generated a compilation of beaked 
whale occurrence data worldwide, in an attempt to provide information 
about potential sites where sonar use may pose a greater than usual 
risk of interaction with beaked whales. The Navy is also investigating 
a number of technical solutions for improved detection of beaked whales 
and other marine animals in the vicinity of sonar operations, including 
radar, drone aircraft, and special whale detection sonars. These 
emerging capabilities should enable the Navy to operate both existing 
mid-frequency sonars and new low frequency sonars in a manner that is 
environmentally safe while also preserving the tactical effectiveness 
of the systems.

        STRATEGIC ENVIRONMENTAL RESEARCH AND DEVELOPMENT PROGRAM

    10. Senator Reed. Secretary Wynne, I understand that the Department 
reduced the fiscal year 2004 budget for the Strategic Environmental 
Research and Development Program by $13.0 million, or more than 20 
percent, below the fiscal year 2003 requested level to fund other 
research and development priorities. This reduction means that the 
program has no money for new starts for significant new environmental 
research initiatives, including alternatives for ammonium perchlorate 
in DOD missile propulsion applications, advanced approaches to 
unexploded ordnance detection and discrimination, and marine mammal 
behavioral ecology and predictive modeling. What steps are you prepared 
to take to demonstrate the Department's commitment to these vital 
environmental research and development programs and to ensure that 
these cuts are not repeated in future years?
    Secretary Wynne. The Strategic Environmental Research and 
Development Program (SERDP) was reduced in fiscal year 2004. Budgetary 
constraints and competing priorities led to this one time reduction in 
the program. The Department continues to be strongly committed to the 
SERDP program. This technology program is critical to meeting our 
environmental obligations, preserving access to DOD ranges, and 
lowering the environmental costs across the Department. The Department 
is aware of the potentially large financial liability associated with 
unexploded ordnance and the continued use of ammonium perchlorate in 
weapons systems, as well as the fact that SERDP represents between 75 
percent and 100 percent of the funding for research and development 
addressing these issues. Similarly, the Department is acutely aware of 
the potential impact of the presence of marine mammals in the vicinity 
of forces involved in at-sea operations. As stated in the President's 
budget, the Department is committed to SERDP in the future.

                      TOTAL INFORMATION AWARENESS

    11. Senator Reed. Secretary Wynne, please clarify for the record 
the organizations that are currently operating or testing technologies 
associated with the Total Information Awareness (TIA) program. What are 
future plans for operation or testing of these technologies?
    Secretary Wynne. A number of organizations in the counterterrorism 
community have shown great interest in working with the TIA program to 
test and evaluate technologies. The organizations already participating 
or planning to participate in the near future in TIA's spiral 
development and experiments include:

------------------------------------------------------------------------
          Currently Participating              Planning to Participate
------------------------------------------------------------------------
U.S. Army Intelligence and Security         National Security Agency
 Command (INSCOM).                           (NSA)
Defense Intelligence Agency Joint           U.S. Strategic Command
 Intelligence Task Force--Counter-           (STRATCOM)
 Terrorism (DIA JITF-CT).
Central Intelligence Agency (CIA).........  Special Operations Command
                                             (SOCOM)
DOD's Counter-Intelligence Field Activity
 (CIFA).
Joint Forces Command (JFCOM)..............
Joint Warfare Analysis Center (JWAC)......
------------------------------------------------------------------------

    DARPA is providing these agencies and commands with a system/
network infrastructure and concepts; software analytical tools; 
software installation; training; software performance evaluation; and 
integration and evaluation of user comments on modifications and 
additions to the software. The operational agencies and commands are 
providing facilities and personnel to conduct these experiments, 
scheduled to occur on a continuous basis at 3 to 4 month intervals over 
the duration of the TIA program, which concludes in 2007. They are 
using data currently available to them in accordance with existing 
laws, regulations, and policies applicable to each agency and command. 
DARPA is not providing any real data or providing any technical or 
other means to collect real data.

    12. Senator Reed. Secretary Wynne, what organizations will be 
involved?
    Secretary Wynne. Organizations already participating or planning to 
participate in the near future in TIA's spiral development and 
experiments include:

        <bullet> U.S. Army Intelligence and Security Command (INSCOM)
        <bullet> National Security Agency (NSA)
        <bullet> Defense Intelligence Agency Joint Intelligence Task 
        Force--Counter-Terrorism (DIA JITF-CT)
        <bullet> Central Intelligence Agency (CIA)
        <bullet> DOD's Counter-Intelligence Field Activity (CIFA)
        <bullet> U.S. Strategic Command (STRATCOM)
        <bullet> Special Operations Command (SOCOM)
        <bullet> Joint Forces Command (JFCOM)
        <bullet> Joint Warfare Analysis Center (JWAC)

    13. Senator Reed. Secretary Wynne, who is responsible for 
monitoring the use of these technologies during their development and 
testing by contractors?
    Secretary Wynne. These technologies are being developed and tested 
along two distinct paths. One path involves the development of 
analytical tools using synthetic unclassified data to ensure full 
compliance with privacy or data source policies. These activities take 
place in a pure research setting. Subject to the higher level 
monitoring described below, these efforts are monitored by DARPA 
program managers. The other development path is at the network level, 
within the framework of a series of experiments to test and evaluate 
components and their integration using real world data as permitted by 
existing laws and policies. These activities take place in the 
operational agencies and commands that are providing facilities and 
personnel to conduct these experiments. The user agency is responsible 
for monitoring the use of TIA technology in this setting; DARPA only 
provides the analytical tools and training to support user agency 
testing and experimentation. The agency is responsible for providing 
data that the agency determines may be used for this purpose.
    Both development paths are subject to higher level monitoring in 
the form of two bodies created by the OSD, one internal to OSD and one 
external. The internal oversight board, chaired by the Under Secretary 
of Defense for Acquisition, Technology and Logistics will monitor how 
terrorist-tracking tools are transitioned for real-world use. It also 
will establish policies and procedures for internal DOD use of TIA-
developed tools. The external board has been established as a Federal 
advisory committee to advise the Secretary of Defense on the policy and 
legal issues that are raised by the TIA program. Newton Minow, Director 
of the Annenberg Washington Program and the Annenberg Professor of 
Communications Law and Policy at Northwestern University, is chairman 
of the external board.

    14. Senator Reed. Secretary Wynne, what investments are being made 
towards the development of privacy protection technologies?
    Secretary Wynne. DARPA is spending $3.9 million in the current 
fiscal year to develop privacy protection technologies. There is $4.0 
million and $5.9 million budgeted in fiscal years 2004 and 2005 
respectively.

                CHEMICAL AND BIOLOGICAL DEFENSE PROGRAM

    15. Senator Reed. Secretary Wynne, the Department has a joint 
Chemical and Biological Defense Program that is intended to provide our 
military forces with needed capabilities to defend and protect against 
chemical and biological weapons and agents, including the development 
and production of vaccines. Since the September 11 terrorist attacks 
and the anthrax attacks of October 2001, other Federal agencies have 
taken a keen interest in many of these same (or similar) technologies, 
capabilities, and vaccines. This could lead to lower emphasis or 
resources for the defense requirements and programs and significant 
duplication of effort by the other agencies. What is the Department 
doing to ensure that its needs for chemical and biological defense are 
being met while coordinating its programs and efforts with those of the 
Department of Homeland Security (DHS) and the NIH to avoid duplication 
or wasted resources?
    Secretary Wynne. The DOD continues to place a high emphasis on 
research, development, and acquisition of chemical and biological 
defense products. The Fiscal Year 2003 Supplemental Defense 
appropriation allocated additional funding to acquire chemical 
biological defense equipment. The Deputy Assistant to the Secretary of 
Defense (Chemical and Biological Defense) is working closely with the 
Joint Staff to address urgent operational requirements and ensure that 
the needs of the warfighter are addressed. The fiscal year 2004 
President's budget outlines a significant program to provide chemical/
biological (C/B) protection for 200 DOD installations, beginning with 
15 in fiscal year 2004. This follows a pilot project initiated in 
fiscal year 2003 to provide C/B protection at nine installations in 
fiscal year 2003 and represents the Department's commitment to ensure 
that DOD installations are adequately protected from C/B threats.
    The DHS will also sponsor research and development for countering 
chemical and biological weapons of mass destruction. The DOD's 
Chemical/Biological Defense Program (CBDP) has already begun the 
process of coordination with DHS by including a representative from DHS 
in the DOD CBDP's annual Technology Area Review and Assessment for the 
CBDP Science and Technology programs. As the programs within the 
Department of Homeland Security develop, the Assistant Secretary of 
Defense (Homeland Defense), in conjunction with the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs) will work to expand that level of cooperation. DOD has been 
working with DHS on the BioWatch Program, a DHS effort to provide 
biological monitoring systems in America's cities, and to date has 
provided detectors for 10 U.S. cities.
    In the case of vaccines, there was little interest in biodefense 
vaccine efforts outside the DOD prior to the anthrax attacks of fall 
2001, but this has changed. Both the National Institutes of Health 
(NIH) and the Department of Health and Human Services (DHHS) now have 
active programs to address national needs for biological defense 
vaccines. The DOD is currently working with both the NIH and DHHS on 
vaccine or therapeutic efforts of joint interest. These include a next 
generation anthrax vaccine, a next generation smallpox vaccine, a 
tularemia vaccine, and botulinum antitoxin. In addition, the DOD is 
reexamining its vaccine efforts to identify which programs can be 
worked jointly in cooperation with the DHHS/NIH and which are DOD 
unique or which may not be part of the national program. It is possible 
that there may be some realignment of resources within the overall DOD 
CBDP as a result of this analysis. Wherever possible, the DOD will seek 
to prevent duplication of effort but still assure unique DOD vaccine 
and therapeutic needs are met.

                  COUNTERPROLIFERATION SUPPORT PROGRAM

    16. Senator Reed. Secretary Wynne, the Department participates in 
an interagency Counterproliferation Program Review Committee (CPRC) to 
determine the areas where counterproliferation capabilities most need 
to be improved. But there is not an overarching program within the 
Department to lead and support the efforts to research, develop, and 
field needed counterproliferation capabilities, and this appears to be 
a weakness in our counterproliferation efforts. Prior to 1998 the 
Department had a Counterproliferation Support Program (CPSP) that was 
very effective in leveraging relatively small sums of funding to 
develop and produce needed capabilities. Would you investigate whether 
reinstating the CPSP within OSD would improve the effectiveness of the 
Department's counterproliferation research and development programs and 
tell the committee of your views on this idea?
    Secretary Wynne. I have recently reviewed the past activities of 
the Counterproliferation Support Program and have asked the Assistant 
to the Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs to provide me with a recommendation as to whether 
reinstating such a program within OSD would improve our abilities to 
lead, support, and coordinate research and develop efforts, and to 
expedite the fielding of needed counterproliferation capabilities to 
the warfighters.

                FUTURE COMBAT SYSTEMS INDEPENDENT REVIEW

    17. Senator Reed. Secretary Wynne and General Kern, I understand 
that Secretary Rumsfeld has requested that retired Air Force General 
Larry Welch chair a review and assessment panel on the Army's Objective 
Force and the FCS initiatives, and provide that assessment to the Under 
Secretary of the Army. What is the status of that review?
    Secretary Wynne. General Welch will complete the review in early 
May and will brief the Under Secretary of the Army in mid-May on his 
findings and recommendations.
    General Kern. The study panel chaired by retired Air Force General 
Larry Welch is ongoing. Senior Army leaders met with the panel 10-15 
April 2003 to address topics related to FCS and Objective Force. The 
panel met with Army leaders again on 22 April 2003 to provide 
preliminary findings. A follow up session will be held before the 
report is provided to the Secretary of Defense in early May. Although 
the panel seems to have gone well, it is too early to say what the 
findings are and its impact to technology or other program decisions.

    18. Senator Reed. Secretary Wynne and General Kern, how will the 
outcome of this review affect the upcoming Milestone B decision on FCS 
technologies?
    Secretary Wynne. One of the Terms of Reference of the Independent 
Review required a review of the existing assessment of the critical 
technologies in FCS Increment #1 and a determination of the adequacy of 
these assessments to guide the program.
    The Department will seriously consider the results of this 
determination in the reviews leading to the Milestone B decision.
    General Kern. A Technology Readiness assessment was completed for 
the FCS Milestone B decision. Two members of the review and assessment 
panel chaired by retired Air Force General Larry Welch were on the FCS 
Technology Readiness Assessment (TRA) Independent Review Team (IRT). 
The FCS TRA IRT concluded the Technology Readiness Levels (TRLs) 
supported entry into System Development and Demonstration (SDD).

                       LABORATORY INFRASTRUCTURE

    19. Senator Reed. General Kern, General Lyles, and Admiral Dyer, 
the OSD-sponsored Naval Research Advisory Committee noted that DOD's 
lab infrastructure is in serious decline. This is partially due to 
underfunding of labs and test centers in Military Construction (MILCON) 
accounts. How are you planning to ensure that the lab facilities in DOD 
remain world class in terms of their equipment and infrastructure?
    General Kern. In order to maintain our world-class facilities, we 
continually pursue opportunities to obtain the capital investments 
required to provide our researchers with the scientific and 
experimental infrastructure vital to the development and transition of 
the technologies required for Army Transformation. An example of our 
commitment is the significant laboratory MILCON put in place at 
Aberdeen Proving Ground (the Rodman Materials Research Laboratory) and 
Adelphi, MD (the Zahl Physical Science Laboratory) as a result of the 
last BRAC and the ongoing MILCON major facility upgrades at the Soldier 
and Biological Chemical Command (SBCCOM) and the Armaments Research, 
Development, and Engineering Center. We also compete for Major 
Construction, Army (MCA) projects. As a result of this competition, we 
were recently notified of an approval of $4.1 million for a Food 
Engineering Lab expansion at the Natick Soldier Center. Additionally, 
the laboratories use special programs like Pollution Prevention in 
Facilities (P\2\IF) program when the upgrade involves an environmental 
issue.
    Through our close association with the U.S. Army Training and 
Doctrine Command (TRADOC), we are identifying future core competencies 
needed in our laboratories. We have identified a future vision where 
products are modeled, designed, manufactured, and tested in virtual 
environments that are physics based, secure, and networked. To further 
enhance our capabilities, we have identified external partnerships to 
support core competencies along the lines of our University Affiliated 
Research Centers (UARCs) with MIT, USC, and UT-Austin with an 
additional chemical/biological UARC planned at a yet to be determined 
university. We have formal partnership agreements and CRADAs that share 
both Federal and State government, industry, and academic facilities 
and core competencies in a networked environment. We are collaborating 
with customers to support investments in RDE infrastructure as an 
enterprise initiative focused on future customer requirements aligned 
to core competencies. We have developed a long-term vision and 
dedicated full time support to the MILCON process. We are participating 
in OSD initiatives such as Business Initiative Council (BIC) that 
enable legislation and rule changes that foster an environment where 
world-class lab and test facilities can be achieved at least possible 
taxpayer cost. In addition, we invest annually in laboratory equipment 
purchases from the Technical Director's central overhead funds and we 
compete for traditional and non-traditional sources of funds for 
upgrades.
    General Lyles. The AFRL Infrastructure Planning process was 
established to identify those key facilities that should be world 
class. We have identified niche research areas that are essential for 
the warfighter but are not available in either universities or within 
defense industries. The Air Force has been able to maintain world-class 
research facilities in those identified high-priority research areas. 
Examples include the Sandia Optical Range, Dynamic Inferred Missile 
Evaluation facilities, Maui Space Surveillance System, and high power 
microwave effects facilities. In addition to maintaining world-class 
research facilities, there must also be world-class scientists and 
engineers to conduct the research. The Air Force has been successful in 
recruiting world-class scientists and engineers in those research areas 
that are of the highest priority to enable future warfighting 
capabilities.
    Admiral Dyer. As the Naval Research Advisory Committee panel noted 
in its report, ``Science and Technology Community in Crisis,'' some 
headway has been made on this issue over the past decade thanks to 
congressional action. Section 2892 of the Fiscal Year 1996 National 
Defense Authorization Act raised the dollar limits for both Major 
MILCON and Unspecified Minor MILCON projects at the DOD laboratories 
and centers for fiscal years 1996 through 1998. This authority was 
extended through fiscal year 2003 by Section 2871 of the fiscal year 
1999 National Defense Authorization Act, and we are hopeful that a 
further 5-year extension will be approved.
    Our plan is to continue to use current authorities to ensure 
appropriate funding for equipment and infrastructure. Nevertheless, 
this is a difficult issue given DOD/DON priorities and fiscal 
constraints. Laboratory facilities generally cost significantly more 
per square foot to construct than more typical military structures. In 
addition, laboratory facilities often do not compete well for MILCON 
funds against other critical needs, such as piers, runways, and 
barracks. Finally, as has been noted numerous times in the past, MILCON 
funding levels have not been adequate to maintain much of the DOD 
infrastructure at an appropriate materiel condition. As needed, DON 
will consider and pursue other alternative solutions such as 
authorizing the construction and modification of laboratory facilities 
through some funding mechanism other than MILCON. Ultimately, new 
legislation may be requested. 

                      FUTURE COMBAT SYSTEMS VALUE

    20. Senator Reed. General Kern, in your testimony you highlight the 
development of FCSs to give the Army a lighter, more lethal, and 
networked force. Can you give me a few examples of how FCSs 
technologies might change the way our ground forces are operating in 
Iraq today?
    General Kern. There are several ways in which our ground forces 
would be operating differently in Iraq today using the FCS 
technologies: 1) The FCS family of systems and the Unit of Action (UA) 
organization would have enhanced the interoperability and connectivity 
to joint capabilities, significantly improving an already impressive 
choreographed joint operation; 2) The FCS family of systems would have 
required less fuel and less refueling, as well a significantly reduced 
logistical footprint; 3) The UGVs and UAVs in the FCS family of systems 
would have provided a greatly increased capability for brigades, 
battalions, and small units (company and below) to see first, in 
adverse weather conditions increasing situational awareness and 
situational understanding; and 4) The FCS network would have improved 
the ability of leaders throughout the joint environment at all UA 
echelons to integrate and synchronize combat power, both organic and 
supporting.

    21. Senator Reed. General Kern, would we see significant 
enhancements of combat results?
    General Kern. Although it is difficult to significantly improve on 
the combat results of our forces in Iraq, I believe that our increased 
connectivity, mobility, and surveillance capabilities would result in 
fewer coalition casualties, faster and more effective penetration into 
Iraqi positions, and significantly less cost associated with the entire 
operational effort.

      seismic research program to support nuclear test monitoring
    22. Senator Reed. General Lyles, your prepared statement notes that 
``the Seismic Research Program for detection of nuclear explosions has 
been transferred back to the Air Force from the Defense Threat 
Reduction Agency.'' The Air Force managed this research program before 
1997 and now has it again. This important program supports a national-
level nuclear test monitoring requirement, and it deserves adequate 
resources and attention. Congress has repeatedly concluded that the 
Department had not provided adequate funding for this research program 
in the last 6 years, and added funds. Do you agree on the importance of 
this research program, and can you assure this subcommittee that the 
Air Force, through the Air Force Research Laboratory, will do its best 
to support this important mission adequately?
    General Lyles. Yes, the Seismic Research Program is very important 
to the Air Force and we will do our best to adequately support this 
important mission within available resources. In this era of rogue 
nations, terrorism, and homeland defense, the importance of this 
national mission has grown, as has the supporting research program 
needed to advance the monitoring capability to meet the expanding 
requirements arising from today's and tomorrow's threats.

    23. Senator Reed. General Lyles, if additional resources were 
available for this research program, would it improve our ability to 
meet the national requirement for monitoring foreign nuclear tests and, 
if so, can you quantify an additional level of support?
    General Lyles. Yes, additional funds could contribute to additional 
Seismic Research Program capabilities. However, current program funding 
of approximately $6.5 million per year is sufficient to meet minimum 
seismic research monitoring needs. If additional funding became 
available, it could be used to accelerate the enhancement of nuclear 
monitoring analysis capabilities and to expand in geographical areas of 
interest around the world.
    Like many areas in the Air Force, we could wisely invest additional 
funds in the Seismic Research Program, however, funding for this 
program must be considered within the context of the entire Air Force 
portfolio. The Air Force is currently reviewing the level of funding 
for seismic research in support of more stringent regional monitoring 
requirements.

    24. Senator Reed. General Lyles, will you keep the subcommittee 
informed on your progress in managing and resourcing this research 
program, and in its effectiveness in supporting the national monitoring 
requirement?
    General Lyles. Yes, we will be happy to keep the subcommittee 
informed of our efforts in this area. In the past, Congress has 
directed the Secretary of Defense to submit a report on its management 
of and resources for nuclear explosion monitoring; the Air Force 
provided inputs to the most recent report submitted in March 2003 and 
will continue to do so as required in the future.

                  BEST PRACTICES DEMONSTRATION SYSTEM

    25. Senator Reed. Admiral Dyer, Secretary Wynne mentioned the 
development of a ``Best Practices'' approach to modifying the existing 
lab demonstration programs. I understand the description of this system 
has been published in the Federal Register. How will the implementation 
of this system as proposed change the ongoing demonstration at the 
Naval Warfare Center in Newport?
    Admiral Dyer. Final publication of the ``Best Practices'' (BP) 
demonstration will supersede the existing Federal Register postings 
that authorized prior DOD demonstration programs. The notice in the 
Federal Register says that although the amendment may be implemented as 
early as the date of the final notice, implementation strategies will 
be developed over time as appropriate. At this time, it is unclear what 
the implementation schedule will be. In addition, although the Naval 
Undersea Warfare Center (NUWC) has not completed a full assessment of 
the changes, it is felt that if they are required to transition to the 
new BP system, the current Newport demonstration project will be 
affected.
    The current Demonstration at NUWC Newport is authorized as part of 
the Science and Technology Reinvention Laboratory Personnel 
Demonstration Project at the Naval Sea Systems Command Warfare Centers 
as published in the Federal Register on December 3, 1997. A key feature 
of the NAVSEA Warfare Center Demonstration project is that it provides 
maximum opportunity for local ``tailoring'' to meet the variety of 
requirements characteristic of the NAVSEA organization. NUWC Newport 
used this flexibility to establish a local system that satisfied many 
of the concerns of the union, which represents the majority of the 
workforce (Federal Union of Scientists and Engineers, NAGE R1-144). It 
is unlikely that the 1,700 employees represented by the union would 
have been enrolled in the demonstration without that flexibility. Based 
on our initial review, the BP demonstration does not appear to provide 
for local flexibility.
    One feature of the BP demonstration project which provides some 
concern is the inclusion of the annual comparability increase in the BP 
pay-for-performance system. The current NAVSEA demonstrations do not 
include the annual comparability pay increase in pay-for-performance, 
and it is doubtful that the union would agree to participate in the BP 
demonstration with that modification. If the union were to elect to 
convert back to the General Schedule (GS) system rather than adopt the 
BP demonstration, NUWC Newport would lose at least 80 percent of its 
demonstration employees, leaving only managers and supervisors in the 
BP demonstration.

    26. Senator Reed. Admiral Dyer, will changes to the system require 
the approval of the local management and unions?
    Admiral Dyer. At NUWC Newport, participating organizations must 
fulfill any collective bargaining obligations and enter into an 
agreement before converting existing represented employees into the BP 
demonstration. The union could choose to ``opt-out'' of the 
demonstration and go back to the GS system if we cannot reach agreement 
on the BP demonstration. We are not aware that local management 
approval is required to transition to the BP demonstration, however 
changes to the currently implemented Demo system would require 
agreement by the unions.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy

                          MINE COUNTERMEASURES

    27. Senator Kennedy. Admiral Dyer, how is the Navy coordinating 
with the Marine Corps to develop mine countermeasures?
    Admiral Dyer. The Navy and Marine Corps Mine Countermeasures (MCM) 
Requirements Offices (Expeditionary Warfare Division (OPNAV N75) and 
Marine Corps Combat Development Command (FWD)) and Headquarters, Marine 
Corps, are in daily contact for defining and resourcing MCM 
requirements. The result of this well-established working relationship 
is to provide the Navy/Marine Corps team with a requisite capability to 
defeat mines and obstacles in the littorals. Flag/General Officers, 
senior field grade officers, and representatives from those MCM 
Requirements Offices as well as applicable Service Acquisition Offices 
are members of numerous MCM-specific boards and chartered working 
groups.
    An example of the close interaction between the Services is the 
inclusion of Navy and Marine Corps MCM representatives in the Mission 
Area Analysis (MAA) for Amphibious Operations in a Mined Environment. 
The mission of this MAA is to define operational capabilities required 
to perform amphibious MCM in the 2015 time frame; participation 
includes both Services at the 0-6 Oversight Board and Integrated 
Process Team (IPT) levels.
    The recent approval of the Marine Corps Mine Countermeasures 
Working Group Charter by the Assistant Commandant of the Marine Corps 
is another example of the close coordination between the Services. A 
primary task of this particular working group is to examine the Marine 
Corps' interface with the Navy, particularly with respect to assuring 
the effective transition of MCM responsibilities and leveraging Navy 
MCM systems with Marine Corps ground MCM applicability. Accordingly, 
the Expeditionary Warfare Division (OPNAV N75) is a permanent member of 
this Marine Corps working group.
    Through the continuous dialog and coordination, this mutually 
supporting association has significantly increased visibility of the 
overall littoral MCM requirement. Through coordinated efforts such as 
these and many others, the Navy/Marine Corps team will assuredly 
provide the capability required by naval amphibious forces to readily 
project essential combat power ashore.

    28. Senator Kennedy. Admiral Dyer, what programs is the Office of 
Naval Research pursuing to provide mine countermeasures to the 
operators?
    Admiral Dyer. Mine warfare S&T develops and transitions 
technologies that address critical gaps in the ability of naval forces 
to conduct successful operations in anti-access (mined) environments. 
The focus of these efforts is on: (1) enabling and developing the 
fielding of first generation organic MCM systems; (2) stand-off mine 
countermeasures from very shallow water through the beach to support 
Ship To Objective Maneuver (STOM); and (3) the development of 
cooperating, unmanned MCM systems (UUVs, USVs, UAVs).
    The goal of S&T efforts is to reduce tactical timelines and 
eliminate the need for manned operations in minefields. The development 
of unmanned MCM systems emphasizes networked, cooperating systems which 
can be scaled, are easily deployed, and can be tailored to counter 
specific threats and within distinctive local environments.
    The planned acquisition of a chartered High Speed Vessel (HSV) for 
MCM experimentation provides a significant opportunity to examine and 
accelerate development of unmanned systems for mine countermeasures. 
S&T investments are developing containerized mission packages 
(inexpensive AUVs for minehunting, USV minesweeping) for demonstration 
on HSV-X2. This builds on the rapid advance of AUV technologies and 
capabilities demonstrated on HSV-2 SWIFT during Fleet Battle 
Experiment-Juliet and during Operation Iraqi Freedom. The ONR is 
working with CNO, PEO LMW, COMINEWARCOM and NWDC on an experimentation 
schedule. ONR intends to have the first AUV mission package ready when 
HSV-2 SWIFT becomes operational.
    Additional AUV mission packages and the USV mine sweeping mission 
package will follow. Lessons learned from experimentation would be 
applied to the littoral combat ship and reduce risk to the definition 
of MCM mission package composition. Additionally, these AUV mission 
packages provide a contingency capability for operating forces and 
provide a readily deployable underwater search and survey capability 
that could be used for homeland defense.
    Additionally, S&T investments provide technologies for stand-off 
mine countermeasures from very shallow water through the beach to 
support Ship To Objective Maneuver (STOM). Examples of S&T products are 
described below:
    Very Shallow Water MCM: S&T investments in the development of a 
small, diver portable AUV system (REMUS) have transitioned to USSOCOM 
(Initial Operational Capability (IOC) fiscal year 2003). Additionally, 
two units have been acquired by the Naval Special Clearance Team ONE 
for use in current operations. This provides an initial stand-off 
capability for divers working in very shallow water and has been 
demonstrated in FBE-Hotel, Kernal Blitz 2001, FBE-Juliet, and Operation 
Iraqi Freedom to greatly reduce tactical timelines.
    Littoral Remote Sensing: S&T investments have focused on the 
development of algorithms to exploit NTM for environmental products 
(e.g. near shore bathymetry in denied areas), detection of mine like 
objects and beach defenses. Algorithms for bathymetry have transitioned 
to the Warfighter Support Center (WSC) at NAVO and will first be 
exercised as an operational system in fiscal year 2003.
    Assault Breaching: S&T investments in assault breaching are focused 
on the development of mine and obstacle defeat warheads that can be 
employed from existing precision-guided munitions. In the near term, 
S&T efforts are directed at characterizing the lethality and 
effectiveness of existing precision-guided bombs (JDAM) for assault 
breaching. Fielding of near term capability is expected by 2006.
    Computer Aided Detection/Classification: S&T investments in 
computer aided detection/classification (CAD/CAC) are transitioning to 
both the AQS-20 and Remote Minehunting System (RMS) program. The 
approach taken uses at least three different classification algorithms 
which are fused to greatly reduce the number of false alarms.
    Synthetic Aperture Sonar: This technology was recently demonstrated 
to produce very high resolution imagery at long ranges (approx. 400 
meters) and has transitioned to the Long Term Mine Reconnaissance 
System (LMRS). This will greatly improve the ability of LMRS to manage 
clutter by providing it with near identification acoustic imagery.
    Rapid Airborne Mine Clearance System (RAMICS). S&T transitioned 
this technology in fiscal year 2001 after a successful RAMICS ATD 
demonstration of a full up system from a Cobra gunship.
    Mine Sweeping/Jamming: Minesweeping is perhaps the most significant 
challenge posed by porting airborne MCM capabilities from dedicated MH-
53s to the organic MH-60 airframe. S&T investments in minesweeping are 
directed at the development and demonstration of magnetic/acoustic mine 
sweeping from unmanned surface vehicles. Additionally, S&T efforts have 
demonstrated technical feasibility of using own ship degaussing coils 
for mine jamming during a fiscal year 2002 NATO exercise. Current S&T 
efforts are directed at applying these techniques to steel hull 
combatants.
    Mine Identification: Laser line scan technology and streak tube 
imaging LIDAR technology have transitioned from S&T to the AQS-14 and 
AQS-20 programs, respectively. This technology provides fleet systems 
with the capability to rapidly identify mine like contacts. S&T 
investments continue to support these acquisition programs through the 
development of computer-aided identification and the development of 
mine identification tactical decision aids.
    Airborne Laser Mine Detection: Streak tube imaging LIDAR technology 
has transitioned from S&T to the Airborne Laser Mine Detection System 
(ALMDS) acquisition program. S&T investments focus on the development 
of compact, high rep rate lasers and the development of a 3D camera. 
The latter technology is a P3I to ALMDS. These investments enable the 
development of a UAV based LIDAR mine detection system.
    Mine warfare near-term S&T investments are focused on enabling an 
organic mine countermeasures capability, will provide mission packages 
for experimentation on HSV-X2, and provide technologies for stand-off 
mine countermeasures from very shallow water through the beach to 
support STOM. Longer term S&T investments focus on the development of 
networked, cooperating, autonomous systems which can be scaled, are 
easily deployed, and can be tailored to counter specific threats and 
within distinctive local environments. Fleet involvement is a critical 
part of the mine warfare S&T program.

    29. Senator Kennedy. General Kern, what programs is the Army 
research lab pursuing to provide mine countermeasures to the soldiers 
in the field?
    General Kern. Senator Kennedy, the Army's leadership has focused 
current and future countermine science and technology investments to 
address the most pressing needs of Army transformation. We are pursuing 
programs to solve critical capability shortfalls for our dismounted and 
mounted forces.
    For our dismounted warfighter, we have initiated a program 
investigating multiple sensor technologies mounted on robotic platforms 
to provide safer standoff distances when detection of individual anti-
tank and anti-personnel mines is necessary. Such capabilities are 
critical when operating in close terrain, when stealthy operations are 
planned, and when other specialized equipment is not available. 
Lightweight, high performance technology from this dismounted 
warfighter initiative will augment current capabilities afforded by the 
recent procurement and limited fielding of 210 new Handheld Standoff 
Mine Detection Systems (HSTAMIDS) being produced by Cyterra, Inc. of 
Waltham, MA. Full rate production is scheduled for fiscal year 2004. 
HSTAMIDS is a state-of-the-art mine detector that combines ground 
penetrating radar with sophisticated metal detection and advanced 
signal processing to reliably detect low metal content as well as high 
metal content anti-tank and anti-personnel lines.
    Remote detection of minefields is essential for mission planning 
and execution. The timely knowledge of minefield locations is critical 
to the commander's decision to breach, avoid, or bypass the mine 
obstacle. Knowing minefield locations generally supports rapid rates of 
advance which is a key transformation imperative and is necessary to 
preclude blundering into mined areas unknowingly and suffering 
avoidable losses. In the near term, a minefield detection system based 
on electro-optic and infrared sensor technology is planned for use with 
tactical level unmanned aerial vehicles. In the longer term, we are 
investing in airborne ground penetrating radar and hyperspectral 
infrared sensor technologies to provide more rapid and broader search 
capabilities operating at higher, more survivable altitudes on larger 
unmanned or manned aircraft. To further increase the rates of advance 
along routes and provide usable capability for the transformation, we 
are exploiting advances in unmanned ground and small air vehicles as 
well as technical breakthroughs in mine detection sensors. We have 
initiated a program to digitally link a small UAV with an UGV. Both the 
UAV and UGV have integrated on-board mine detection sensors. The small 
UAV with on-board mine detection sensor proceeds first along a route 
and nominates regions of interest where anti-tank mines are likely 
buried. The UGV based system will follow and thoroughly analyze each 
region. By reducing the search area of the UGV based mine detection 
sensor system, this concept increases mine detection rates of advance 
to approximately 13 kilometers per hour and provides a significant 
increase in speed when compared to the UGV performing alone. The mine 
detection sensor on the small UAV uses lightweight, uncooled infrared 
operating at discrete frequencies in the long wave region that, when 
combined with minimal signal processing, can identify recent mining 
activity in roads. The mine detection sensor for the UGV is a close-in, 
ultra-wideband ground penetrating radar that reliably detects plastic 
and metallic cased anti-tank mines without excessive false alarms. 
Recent technical breakthroughs have produced this new ground 
penetrating radar that for the first time has the potential to provide 
the warfighter with a high confidence tool for tactical on-road mine 
detection. In addition to these technologies and concepts of operation 
to detect traditional mines buried in a roadway, we are aggressively 
pursuing a program to protect vehicles against the effects of side 
attack mines and improvised explosive devices that are not deployed in 
the roadway.
    For a longer-term solution, we have begun to research forward 
looking mine detection technologies that can be integrated directly 
with the manned vehicles envisioned for the transformation. Forward 
looking technologies have the potential to replace the linked UAV and 
UGV concept described above with a less complex solution for on-route 
mine detection. Initial analyses and component experiments indicate 
that multi-sensor approaches will be required to ``see'' far enough 
ahead of the vehicle to permit stopping or swerving to avoid 
encountering the suspect area and to meet other performance goals. 
Forward looking, ground penetrating, synthetic aperture radar, advanced 
infrared, and acoustic technologies are currently under investigation.
    Finally, we will be starting a new research initiative during 
fiscal year 2004 directed toward mine detection sensor technologies 
with potential of detecting buried mines that are deployed along 
unimproved avenues of approach, i.e., cross country. While the sensor 
technology is the critical component to any mine or minefield detection 
system, state-of-the-art sensors alone are not sufficient to enable the 
Army transformation. Imbedded within each of the mine or minefield 
detection systems outlined previously is sophisticated signal 
processing and target detection algorithms that automate the detection 
process and permit the warfighter to concentrate on other tasks. 
University researchers and small businesses from across the country 
have contributed their intellectual capital to take advantage of the 
mine detection sensor breakthroughs with new mathematical routines and 
data analysis processes.
    While a majority of the countermine investment has focused on mine 
and minefield detection, the Army is keenly aware of the need to 
enhance our neutralization and breaching capabilities. To meet the 
needs of the transformation, we have shifted focus in the S&T arena 
from breaching lanes through minefields to point neutralization of 
individual mines. A key benefit of this shift in focus is reduced 
logistical demand. We are moving from the paradigm of large, heavy 
explosive or mechanical breaching systems to smaller, more compact 
individual mine neutralization capabilities. S&T initiatives are 
underway in point neutralization to exploit mine detection advances 
that produces fewer false targets and provides smaller location error 
associated with individual mine locations. The Army has initiated S&T 
investments in close-in techniques to kill individual mines. We are 
currently monitoring U.S. Navy investments in techniques to neutralize 
minefields using remotely delivered, precision-guided weapons.
    The progress in countermine science and technology is and has been 
closely monitored by all affected parties within the U.S. Army. We have 
more than doubled the 6.2 investments starting in fiscal year 2004 with 
funding levels of approximately $18 million through the Future Year 
Defense Program (FYDP). The Training and Doctrine Command has 
established a countermine General Officer Steering Committee that meets 
semi-annually. I personally review countermine material status 
quarterly. Every effort is being made to address this difficult and 
technically challenging area.

    30. Senator Kennedy. General Kern, what types of programs are you 
pursuing to uncover mines and unexploded ordnance?
    General Kern. While the Army's leadership has focused a substantial 
percentage of its countermine science and technology resources to 
addressing its transformation needs, we do recognize that mine 
clearance is an important requirement. Mine clearance is defined as the 
removal of mines or unexploded ordnance from an area of operation post 
combat. In fiscal year 2000, we proposed a new Joint Area Clearance 
(JAC) Advanced Concept Technology Demonstration (ACTD) to the Office of 
the Secretary of Defense to evaluate the military utility of equipment 
developed by the Department of State's Humanitarian Demining Research 
and Development Program. Approved the following fiscal year, we are 
currently executing the third year of this 4 year Joint Forces Command 
(JFCOM) sponsored program jointly with the U.S. Air Force and U.S. 
Marine Corps.
    The JAC ACTD is focused on two mine clearance missions. The first 
mission is administrative clearance of small areas for military needs 
such as establishment of logistics bases or field hospitals. The second 
mission is maintaining clear logistics routes once the fighting force 
has moved forward. For both missions, we are keenly interested in 
removing all mines and unexploded ordnance and preventing remining of 
cleared areas.
    For area clearance, we are evaluating the military utility of four 
different systems. The four systems are a floating mine blade, a mine 
clearing cultivator, a mine sifter, and a full width mine flail. All of 
these systems are large, requiring a D-7 class bulldozer as the prime 
mover, and generally modify the top layer of soil to remove the mines 
or unexploded ordnance. The first three systems have been assessed and 
used by the international humanitarian demining community. 
Additionally, the floating mine blade was used to proof the cleared 
U.S. minefields at Guantanamo Bay, Cuba.
    For route clearance, we are evaluating full width mine rollers to 
rapidly traverse and clear a route. A prototype full width roller 
system has been designed for the M113 and is currently under 
evaluation. A version of this roller system is in the design phase for 
the U.S. Marine Corps Lightweight Armored Vehicle (LAV) 25.

                              VISA DELAYS

    31. Senator Kennedy. Secretary Wynne, General Kern, General Lyles, 
and Admiral Dyer, the State Department's Visa Mantas program requires 
that foreign scientists and students participating in sensitive 
research undergo careful screening before they are admitted to the U.S. 
The areas covered by this program are numerous, including nuclear 
technology, rocket systems technology, chemical, biotechnology, and 
biomedical engineering, remote sensing, imaging and reconnaissance, and 
laser and directed energy systems technology. Last year universities, 
defense labs, and research institutions employing these foreign 
scientists experienced extensive delays--of 8-10 months--in obtaining 
the security clearances and visas needed before the scientists could 
travel the U.S. These delays adversely impacted the universities and 
defense labs, which had to put critical programs on hold. I understand 
that universities remain concerned that similar delays could ensue 
again this year. Are we seeing the delays this year that we saw last 
year?
    Secretary Wynne. The delays are getting shorter. In 2000, I 
understand that about 1,000 visa cases were reviewed by the State 
Department and other agencies under the Mantis program. In 2002 the 
number was closer to 14,000. That increase, along with other new visa 
clearance requirements instituted after the terrorist attacks of 
September 11, 2001, overwhelmed the resources of the agencies reviewing 
the cases. The result was the long delays observed last year. Since 
then, the agencies have decreased the time required for processing a 
majority of cases through better use of automation and additional 
staff. Now, at anyone time, there are approximately 1,000 Mantis cases 
in the review process. The delays are not nearly as long as they were 
last year.
    General Kern. The Directors of the Army Laboratories (LABs) and 
Research Development and Engineering Centers (RDECs) were surveyed in 
April 2003 with regard to the visa delay question. All Directors except 
the Director of the Aviation and Missile RDEC (AMRDEC) reported they 
were not experiencing visa delay problems that had impact on either 
sensitive or non-sensitive research programs. The Director AMRDEC 
identified one instance that required 4-6 months to complete. The 
Director did not consider this processing time excessive. AMRDEC 
Director also reported that the center had started a process to query 
their contractors on this issue and report back to the Army Materiel 
Command (AMC) in 2 weeks. Approximately half of AMRDEC work is 
accomplished under contract.
    General Lyles. The Air Force S&T program has not been affected by 
visa and security delays in any measurable way with respect to foreign 
scientists or students. Increased national security has sometimes 
resulted in increased processing times for visas and security 
clearances, but we anticipate long lead-times and plan accordingly. 
Many times, we are aware of upcoming visits in advance and can begin 
the required scheduling and paperwork prior to the actual visits. As 
for security clearances, delays are fairly common even for U.S. 
citizens.
    While the Air Force is primarily involved with foreign scientists 
in conjunction with the Air Force Research Laboratory, there are also 
many foreign students working on Air Force funded research programs 
within the university community. The baseline document that the Air 
Force uses to provide policy and direction for foreign scientists and 
students in funded research programs is the National Security Decision 
Directive (NSDD)-189, entitled ``National Policy on the Transfer of 
Scientific, Technical, and Engineering Information.''
    This directive establishes national policy for controlling the flow 
of science, technology, and engineering information produced in 
conjunction with Federally-funded fundamental research at colleges, 
universities, and laboratories. Basically, the NSDD-189 policy, to the 
maximum extent possible, is that the products of fundamental research 
remain unrestricted. If it is determined prior to conducting the 
research that there will likely be national security issues involved, 
the mechanism to control information will be by classification. 
Fundamentally, no restrictions may be placed upon the conduct or 
reporting of Federally-funded fundamental research that has not 
received national security classification, except as provided in 
applicable U.S. statutes. To ensure this guidance is implemented 
consistently across the laboratory, the Air Force relies on the 
Scientific and Technical Information Program and on its classification 
program managers to determine if Federally-funded work is sensitive and 
should be appropriately controlled by national security guidelines.
    Admiral Dyer. We have not experienced systemic problems with 
obtaining visas for the placement of foreign scientists in our Navy 
facilities.

    32. Senator Kennedy. Secretary Wynne, General Kern, General Lyles, 
and Admiral Dyer, how are you addressing these delays?
    Secretary Wynne. We are cooperating with the Department of State so 
that officials can more quickly identify sensitive courses of study and 
identify problematic applicants. An example of our cooperation is our 
consistent participation in deliberations concerning the proposed 
Interagency Panel on Advanced Science and Security (IPASS).
    General Kern. The April 2003 survey of Army LABs and RDECs revealed 
that they were not experiencing any visa delay problems. The AMRDEC 
reported they used management attention to facilitate the one 
identified situation. The Deputy Director of the Weapon Sciences 
Directorate facilitated the clearance process with the Aviation and 
Missile Command's (AMCOM) Intelligence and Security Directorate to 
ensure that all applicable policies and procedures were followed.
    General Lyles. The Air Force recognizes that increased national 
security sometimes results in increased processing times for visas and 
security clearances. In fact, in the case of security clearances, 
delays are fairly common even for U.S. citizens. The Air Force 
addresses these possible delays by planning accordingly for anticipated 
long lead-times. When notified of upcoming visits, we begin the 
required scheduling and paperwork prior to the actual visits.
    Admiral Dyer. We have not experienced systemic problems with 
obtaining visas for the placement of foreign scientists in our Navy 
facilities.

    33. Senator Kennedy. Secretary Wynne, General Kern, General Lyles, 
and Admiral Dyer, are these delays causing any disruptions in programs?
    Secretary Wynne. I am not aware of disruptions to our research 
programs. Given the need for a different kind of homeland security that 
was thrust upon us in 2001, a small number of transient disruptions 
would be acceptable.
    General Kern. The Directors of Army LABs and RDECs reported, in the 
April 2003 survey, that no programs have experienced any known 
disruptions due to delays in the processing of security clearances or 
visas for foreign scientists or engineers.
    General Lyles. The Air Force S&T program has not seen an adverse 
impact of security delays in any measurable way with respect to foreign 
scientists and students.
    Admiral Dyer. There was one isolated event that involved a Russian 
Gromov delegation (Russian Research Institute), which resulted in a 6-
month delay. This was an unclassified visit to the Patuxent River Naval 
Air Station to continue an ongoing NAVAIR/Gromov flight research 
institute technical exchange.

                         NATICK SOLDIER CENTER

    34. Senator Kennedy. General Kern, I understand that the Army has 
established a nanotechnology research institute at MIT to develop new 
technologies for the soldier. How does that new institute work with the 
Natick Soldier Center, the Army's premier center for the development of 
soldier technologies?
    General Kern. The Natick Soldier Center (NSC) works with the 
Institute for Soldier Nanotechnologies (ISN) in several ways. First, 
the Director, NSC, is a member of the Executive Steering Board of the 
ISN and, as such, is involved in determining the overall direction of 
the ISN and in assessing its performance for the soldier. In addition, 
the NSC Director also stays in regular communication with Professor 
E.L. (Ned) Thomas, Director of the ISN.
    There are also a number of subject matter experts from NSC who are 
assigned to participate in reviewing the ISN program as part of the 
Army's Capability Area Review Teams (CART) technical oversight process. 
The objective here is to make sure that the Army's technical community 
is represented, and that the accumulated knowledge residing in that 
community is used as input to decisions made on the ISN program.
    To maintain regular communication as the work is performed, 
technical staff members from the NSC and the ISN meet as needed 
informally to exchange information on Army research directions, soldier 
needs, and ISN research. Recently, scientists at the NSC and the ISN 
co-organized a highly successful meeting of the Fiber Society, 
including a well-attended session on electrospinning and nanofibers. In 
addition, the Army is instituting an annual technical review of the ISN 
program at which NSC personnel will be present.
    To ensure that we remain focused on the Institute's primary purpose 
of developing nanotechnology to meet needs of the individual soldier, 
we have also assigned a military member of the NSC staff to work at the 
ISN. This individual is an 0-5 (Lieutenant Colonel) on active duty, a 
graduate of both West Point and MIT, and a career infantryman. His role 
is to assure that the lines of communication between the NSC, the Army 
Research Laboratory (ARL), and the ISN are open and clear, and his 
focus is on assuring that ISN science is directed toward the needs of 
the future soldier.
    In addition, MIT faculty members who participate in the ISN are 
already initiating collaborations with Natick subject matter experts in 
various areas. To date these have not been under the umbrella of the 
ISN. This is the first year of the ISN effort and its facility will not 
open until late May. We are getting to know each other better in 
anticipation of additional collaboration in the future.

    35. Senator Kennedy. General Kern, what role will Natick play in 
ensuring that the new nanotechnologies are quickly turned into real 
warfighting capabilities?
    General Kern. The role of NSC in ensuring that new nanotechnologies 
can be turned into real warfighting capabilities is multi-fold. In 
addition to working with the ISN to transition its technology, NSC has 
an active in-house research program augmented by external contracts and 
collaborations with individuals in academia, industry, and other 
Government laboratories.
    The focus of the ISN is on basic research in nanotechnology that 
can lead to revolutionary advances and very significant payoff to the 
Army. Because this is basic research, it is likely that most of these 
payoffs, even if they are major, will be realized in the longer-term. 
Nevertheless, some of these may be ready for transition to the field 
sooner. Natick will be carefully following progress at the ISN in order 
to identify technology that is rapidly maturing. As they are 
identified, we may need to provide the NSC with additional resources to 
help mature the technology so that it can transition from the ISN and 
its partners to our Program Managers for further development and 
fielding. The spiral development approach, in which technology is 
inserted as it becomes available, is expected to facilitate this 
process.
    The NSC has maintained an active program in the area of 
nanotechnology for the soldier involving several thrusts. For example, 
NSC scientists have been active in research on flexible photovoltaic 
materials involving the use of nanoscale materials and processing for 
generating power from sunlight, with the potential to supply much of 
the power requirements of the warfighter. Technology that has been 
jointly developed with the University of Massachusetts at Lowell has 
now been licensed to Konarka, a venture-capital funded firm that is 
working to producing flexible solar cells in a roll-to-roll process. If 
successful, these may provide an early implementation of nanotechnology 
for the warrior.
    The NSC has been working on combining the technology of 
electrospinning, in which nonwoven mats of fibers having diameters of 
approximately 100 nm can be produced using a variety of polymers, with 
nanoparticles, and other materials having the potential to 
decontaminate chemical or biological agents. This work could lead to 
clothing having a layer that is both an agent barrier and is self-
decontaminating, thereby providing enhanced protection for tomorrow's 
warfighter  against these threats. Physical Sciences, Inc. has worked 
with NSC on developing nanofiber protective liners for future chemical 
protective clothing systems.
    Working in-house and with industrial firms such as Triton Systems, 
NSC has also been examining the potential of nanocomposites that employ 
natural clay materials in conjunction with polymers for various 
applications. One example is in packaging for DOD combat rations, where 
polymer films made from these materials offer the potential to protect 
foods over longer periods, thereby increasing shelf life and reducing 
spoilage.
    NSC has also been working with scientists from Boston College to 
examine the interaction of electromagnetic radiation with ordered 
arrays of carbon nanotubes. These materials share many things in common 
with photonic band gap materials and offer promise as filters, 
waveguides, and other components for optical modulation and switching 
in soldier-borne equipment. NSC, Boston College, and UMass-Boston are 
also working together to combine the carbon nanotube arrays with dyes 
for agile laser eye protection and vision devices.
    NSC has also been working with the Army Research Laboratory in 
directly supporting my initiative to meet with academia and industry to 
identify ``low-hanging fruit'' in nanotechnology that could be 
harvested and moved forward into Army applications sooner rather than 
later.
    Finally, while there is significant potential for nanotechnology to 
enhance the soldier's real warfighting capabilities, there are many 
existing demands on the Army budget. One challenge is to meet the needs 
we have already identified as necessary for transforming the Army even 
as we accelerate progress in nanotechnology and ready it for insertion. 
To speed the transition of nanotechnology and realize its benefits, we 
may need to provide NSC with the resources to accelerate technology 
development so it can be moved forward into Army systems more rapidly.

                              BRAC PROCESS

    36. Senator Kennedy. General Kern, General Lyles, and Admiral Dyer, 
in your roles as heads of the Services' systems commands, you play an 
important role in protecting and promoting the tech-base and ensuring 
military transformation. As we face the 2005 BRAC round, what role will 
you play in developing the criteria and conducting the analysis?
    General Kern. The Army Materiel Command will be thoroughly involved 
with both the Army and Joint Cross Service Groups in a collaborative 
effort to develop recommendations for consideration that enhance Army 
and DOD Transformation and the capability of our labs and research, 
development, and engineering centers to deliver technology to the 
soldier.
    General Lyles. Both Congress and DOD recognize military value must 
be the primary consideration in reducing or restructuring U.S. military 
bases. All military installations will be reviewed equally, and all 
recommendations will be based on approved, published selection 
criteria, infrastructure inventory, and a future force structure plan. 
The criteria to be used by all Services are being developed by the 
OSD's Infrastructure Executive Group and Infrastructure Steering Group. 
I have input to both of these groups through the Secretary of the Air 
Force and Air Force Chief of Staff. These two groups will also conduct 
the analysis of the data collected by the appropriate cross-service 
working groups. I will ensure that the data collected within my command 
is true and accurate as required by the internal control plan.
    Admiral Dyer. I am not directly involved in development of the 
selection criteria or conducting the analysis, however my understanding 
is the Department of Defense, with all of its components, will work as 
a team to develop the BRAC 2005 selection criteria. Military value will 
be the primary consideration. Through this process DOD will not only 
eliminate excess physical capacity; the operation, sustainment, and 
recapitalization of which diverts scarce physical resources from 
defense capability, but also hopes to reconfigure current 
infrastructure into one in which operational capacity maximizes both 
warfighting capability and efficiency.

    37. Senator Kennedy. General Kern, General Lyles, and Admiral Dyer, 
do you know if the Services will recommend the same criteria as in the 
1995 BRAC round?
    General Kern. The Secretary of Defense has not yet proposed the 
criteria he will use in making closure and realignment recommendations 
for the 2005 BRAC round, but will do so not later than December 31, 
2003, as required by the BRAC Statute. Therefore, I cannot provide a 
definitive response to your question. However, my understanding is 
that, unlike prior BRAC rounds, for the 2005 BRAC round Congress has 
specified a number of issues that, at a minimum, the 2005 criteria must 
address. For that reason I don't anticipate that the 2005 criteria will 
be identical to those utilized by the Department in 1995. I expect the 
Department and Services to work together to develop the BRAC 2005 
selection criteria over the summer and fall of 2003, and the Army 
Materiel Command will participate in that effort.
    General Lyles. Both Congress and DOD recognize military value must 
be the primary consideration in reducing or restructuring U.S. military 
bases. The criteria, which will be used by all Services, are being 
developed by the OSD's Infrastructure Executive Group and 
Infrastructure Steering Group. A draft of the criteria will be provided 
for a 30-day comment period not later than 31 December 2003. Final 
section criteria will be published by 16 February 2004.
    Admiral Dyer. My understanding is the Department along with the 
Services will ensure that the proposed selection criteria meet all of 
the requirements of the enabling legislation, retain the best of what 
has worked in the past, and incorporate changes that might be needed to 
accommodate changing military missions in the future. DOD intends to 
meet all legislatively mandated deadlines regarding selection criteria, 
e.g., publishing the proposed selection criteria in the Federal 
Register not later than 31 December 2003.

    38. Senator Kennedy. General Kern, General Lyles, and Admiral Dyer, 
if you are not involved in the development of the criteria or the 
analysis, how will you ensure that the senior leadership of your 
Services know the importance of the systems commands, the defense labs, 
and product centers in the 2005 BRAC round?
    General Kern. I believe that the senior leadership of the Army is 
well aware of the importance of the systems commands in both the near 
term readiness of the service and delivery of technology to the 
soldier, and in Army Transformation. The Army Materiel Command will be 
thoroughly involved in BRAC 2005 with both the Army and Joint Cross 
Service Groups in a collaborative effort to develop recommendations for 
consideration that enhance Army and DOD Transformation.
    General Lyles. Through the BRAC process, we will ensure that the 
United States continues to field the best prepared and be equipped 
military in the world. I have continual contact with the Air Force 
headquarters members of the OSD Infrastructure Executive Group and 
Infrastructure Steering Group. I have nominated several of most 
knowledgeable senior leaders as members and functional experts to the 
technical, industrial, and supply and storage joint cross-service 
working groups.
    Admiral Dyer. In my normal course of business, I ensure that the 
senior leadership is well aware of and recognizes the importance of the 
systems commands, the defense labs, and product centers. As mentioned 
before, the Department of Defense, with all of its components, will 
work as one team on BRAC 2005. Each Service will provide experienced 
people to all levels of the cross-service BRAC working groups. The law 
requires that the published selection criteria, ensures that military 
value is the primary consideration. I anticipate that both current and 
future aspects of those functions and missions will be identified and 
considered as a part of the installation military value assessments 
during the BRAC 2005 process.

    39. Senator Kennedy. Secretary Wynne, what role will you play in 
developing criteria and conducting the analysis for the 2005 BRAC 
round?
    Secretary Wynne. Secretary Rumsfeld released a memo on November 15, 
2002 which summarized the procedures the Department will use for the 
2005 BRAC. He established two senior groups. The Infrastructure 
Executive Council (IEC) will make policy and oversee the entire 
process. The IEC is chaired by the Deputy Secretary; the Under 
Secretary of Defense (Acquisition, Technology and Logistics) 
(USD(AT&L)) is a member.
    The subordinate Infrastructure Steering Group (ISG) will be chaired 
by USD(AT&L). The ISG will oversee joint cross-service analysis of 
common business functions and ensure integration of the process with 
the military departments and defense agencies. USD(AT&L) will issue the 
policies and direction to conduct BRAC 2005 analysis. Towards those 
ends I will carry out the policies and follow the directions issued by 
the USD(AT&L).
    The ISG established six joint cross-service groups (JCSG) to 
conduct the analysis of common business oriented support functions: 
Industrial, Supply and Storage, Technical, Education and Training, 
Administration, and Medical. I chair the Industrial JCSG that will be 
responsible for developing closure and realignment recommendations 
regarding the Department's industrial functions. The Industrial JCSG 
has as its members senior Service and Joint Staff experts in the 
Industrial field. 

                   COMMISSION TO REVIEW LAB FUNCTIONS

    40. Senator Kennedy. Secretary Wynne, last October you signed a 
memo recommending the establishment of a commission to review 
laboratory functions. You stated that your conclusion is that ``. . . 
labs are out of favor and no longer have a constituency within parent 
organizations. Their budgets are cut, people are discouraged, and their 
overall utility is in question.'' Do you agree with this statement?
    Secretary Wynne. My opinions since that 29 October memo have been 
altered significantly. Updates from the Services, and from the Deputy 
Director, Defense Research and Engineering, who also serves as the 
Deputy Under Secretary of Defense for Laboratories and Basic Sciences, 
have been most encouraging. My suggestion to organize a commission is 
no longer valid. I have learned that the defense labs are, in fact, not 
out of favor. I am pleased to report that they have been successfully 
working toward a stronger constituency within their parent 
organizations. As Senator Roberts implied, the memo was intended as a 
wake-up call. Its intent was to spur action. As I stated in my 
testimony, their response in working to improve the laboratories' 
connection to the Services has been fantastic.

    41. Senator Kennedy. Secretary Wynne, how are you working to 
improve that constituency within parent organizations?
    Secretary Wynne. DOD laboratories have a solid constituency within 
parent organizations that is being strengthened through numerous DOD 
initiatives.
    In the Army, a new two-star command was created to centralize S&T 
development and enhance research and development oversight and 
direction.
    In the Air Force, the Chief Staff of the Air Force (CSAF) and the 
Secretary of the Air Force (SECAF) have taken personal action. Within 
the past 3 years, the Air Force held three four-star S&T summits, 
hosted by the CSAF and SECAF, which reviewed the quality and relevancy 
of the Air Force S&T program. The AFRL earned positive feedback, from 
the highest levels of the Air Force.
    The Assistant Secretary of the Navy reorganized his staff in the 
fall of 2002. As part of that reorganization he established and 
recently filled a new Senior Executive Service level position to 
coordinate with the Office of Naval Research, the Warfare Centers, and 
Program Managers to facilitate moving highly sophisticated and complex 
technological systems into the fleet.
    At the DOD level, we have increased the budget request for S&T by 
nearly 25 percent in just 2 years. In addition, we have increased the 
investment in demonstrations, primarily through the ACTDs, by almost 50 
percent over the last 2 years.
    Personally, I am supporting the Deputy Under Secretary of Defense 
for Laboratories and Basic Sciences (DUSD(LABS)), who is working very 
closely with the labs through the Laboratory Quality Enhancement 
Program (LQEP) to develop compendia of exemplary practices that the 
labs themselves can use as tools for further enhancement of laboratory 
quality.

    42. Senator Kennedy. General Kern, General Lyles, and Admiral Dyer, 
as sponsors of the parent organizations, could you address the current 
utility of the labs?
    General Kern. The U.S. Army depends heavily on its labs to provide 
the needed stimulus for the next generation of Army weapon systems. In 
areas where there is little or no outside interest for investing in 
research and development, such as munitions, missiles, certain areas of 
medicine, and certain areas of building construction, among others, a 
very dedicated Army investment is required. To take more complete 
advantage of the Army's investment in R&D, the Army Materiel Command 
has reorganized is lab functions into a new command.
    The U.S. Army Research, Development, and Engineering Command 
(RDECOM), within the AMC, represents a major shift in the organization 
of Army labs within the AMC. There are three main objectives for the 
RDECOM:

 1. Integrate Research, Development, and Engineering across all areas 
        of the Army
 2. Get the products of technology to the soldier faster
 3. Demonstrate the agility to take advantage of opportunities no 
        matter where they may arise.

    Achieving these objectives will require new and innovative 
approaches to all aspects of development of technology for the soldier. 
The Commander of the RDE is empowered to test and experiment with new 
processes to achieve these objectives. The creation of the RDE Command 
will help the Army further enhance it's ability to sustain peace and 
wage war when directed.
    There are several examples of how the Army labs have been involved 
in projects that have resulted in our ability to fulfill our mission. 
The food our soldiers, sailors, airmen, and marines eat, the Meals 
Ready to Eat (MRE), are a product of the NSC, an Army lab. In 
conjunction with the food industry, we have developed and fielded an 
entire menu of food stuffs that represent dramatic improvements over 
just 20 years ago. During Operation Iraqi Freedom, a number of Abrams 
tanks were disabled as a result of being shot in the engine grill doors 
by rocket-propelled grenades. As a result of these incidents, the Army 
Research laboratory undertook a project to quickly develop a defeat 
mechanism. The results were welded grills that bolt on over the 
existing Abrams grill doors. These welded grills are crew installable 
with initial sets already in theater. The fact that the Army ``owns the 
night'' is a direct result of the R&D done by the Army Night Vision and 
Electronic Sensors Directorate at Ft. Belvoir. Here, Army scientists 
and engineers continue to develop and improve the Army's ability to see 
and operate in darkness. Many of these items have commercial 
applications as well, such as the MRE and night vision goggles that 
have found there way into the market place.
    The Army labs are a vital part of our ability to sustain the peace 
and wage war. They represent a very talented and diverse portfolio of 
scientists and engineers that help the nation maintain its preeminent 
position throughout the world.
    General Lyles. The AFRL provides the foundation for the Air Force 
S&T program, which contains the technology development essential for 
the Air Force vision of an Expeditionary Air and Space Force. Our S&T 
programs focus of providing cutting edge performance, flexible, and 
affordable technologies to the warfighter. Years of continued 
technology investments have resulted in unequivocal returns as 
evidenced by our superior military capabilities, as recently 
demonstrated in Operation Iraqi Freedom. These technologies, many of 
which are currently being deployed around the world, enable our troops 
to be more lethal, more informed, and more aware. The S&T program 
relies not only upon the wise foresight of our leaders, but upon their 
faith as well. AFRL is where tangible and unimaginable ideas transform 
into superior technological innovations. It takes imagination, 
innovation, and persistence to foresee today what defenses to prepare 
for the possibilities of tomorrow. Air Force S&T is the key to 
addressing tomorrow's emerging threats--both traditional and 
asymmetrical.
    Admiral Dyer. Navy centers and laboratories are best able to 
translate between technological opportunities and the warfighters' 
needs, integrate technologies across life cycles and generations of 
equipment, respond rapidly to DOD needs, provide special facilities, 
and offer the necessary technical support to the services to make them 
smart buyers and users of technology. For example, Navy centers and 
laboratories:

        <bullet> Infuse the art of the possible into military planning.
        <bullet> Act as principal agents in maintaining the technology 
        base.
        <bullet> Avoid technological surprise and ensure technological 
        innovation.
        <bullet> Support the acquisition process.
        <bullet> Provide special-purpose facilities not practical for 
        the private sector.
        <bullet> Respond rapidly in time of urgent need or national 
        crisis.
        <bullet> Be a constructive adviser for Department directions 
        and programs based on technical expertise.
        <bullet> Support the user in the application of emerging 
        technology and introduction of new systems.
        <bullet> Translate user needs into technology requirements for 
        industry.
        <bullet> Serve as a S&T training ground for civilian and 
        military acquisition personnel. 

    43. Senator Kennedy. Secretary Wynne, what can we do to ensure that 
the labs and product centers remain a vibrant incubator for 
transformational technologies?
    Secretary Wynne. As you are aware, our laboratories and product 
centers are world-class institutions. Besides an increase in our S&T 
budget, we also plan higher investment in technology demonstration 
efforts. These actions provide the resources required to sustain our 
technological advantage and accelerate transition of critical 
technologies to our warfighters.
    Additionally, we must begin now to incorporate long term strategies 
and guide investments that reshape the scientists and engineers (S&E) 
supply chain, assuring a quality pipeline of personnel resources. Also 
through LQEP, the DUSD(LABS) is working to ensure that the defense 
laboratories, in a collective sense, are appropriately aligned for the 
long term with respect to the major S&T-based transformation 
initiatives identified within DDR&E and within the Services.

    44. Senator Kennedy. Secretary Wynne, has the commission provided 
any recommendations?
    Secretary Wynne. No. My suggestion to organize a commission is no 
longer valid. (see supporting Answer to Question #40)
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman

                             LAB WORKFORCE

    45. Senator Lieberman. Secretary Wynne, in recent years, the 
Department of Defense has been given numerous authorities by Congress 
for personnel demonstration projects to encourage employment and 
retention of top scientific talent, such as Section 342 of the National 
Defense Authorization Act for Fiscal Year 1995, Section 246 of the 
National Defense Authorization Act for Fiscal Year 1999 and Section 245 
of the National Defense Authorization Act for Fiscal Year 2000. A 
preliminary study by GAO has found that very few of the requests by the 
labs for personnel demonstration projects and flexible hiring authority 
have been implemented by the Department. How many requests have been 
made to the Department for personnel demonstration projects and 
flexible hiring authority under the sections listed above, and how many 
of these requests have been implemented by the Department?
    Secretary Wynne.

------------------------------------------------------------------------
                   Authority                      Requests   Implemented
------------------------------------------------------------------------
Section 342....................................          11        8 \1\
Section 246....................................          10        0 \2\
Section 245....................................           7       0 \2\
------------------------------------------------------------------------
\1\ Of the three new proposed projects not implemented, one was
  withdrawn by the sponsor and the other two were deferred pending the
  outcome of the Best Practices Initiative.
\2\ These requests could not be approved because sections 245 and 246
  did not provide the Secretary of Defense with any additional civilian
  personnel authorities. Nonetheless, in June 2001, DOD waived certain
  hiring policies, procedures, and regulations for the laboratories and
  centers participating in the section 245 and 246 pilot programs, in
  order to remove any existing DOD policies that impeded the exercise of
  expedited hiring authority. Further, the Secretaries of the Military
  Departments were requested to identify and waive those policies,
  procedures, practices, and regulations within the Departments not
  specifically required by law that restrict or otherwise impede the
  ability of those laboratories and centers to exercise expedited hiring
  authority for personnel within their organizations.


    46. Senator Lieberman. Secretary Wynne, how does the Department 
intend to use the provision for personnel demonstration projects and 
flexible hiring authority, and why have so few of the laboratory 
requests been implemented thus far?
    Secretary Wynne. Section 342 of the National Defense Authorization 
Act for fiscal year 1995, as amended, has been widely used. Eight 
personnel demonstration projects were created under this authority, 
which resulted in many positive personnel related benefits for the 
participating laboratories and centers. Examples of such innovations 
include:

        <bullet> Relaxed rules for details and temporary hires and 
        promotion
        <bullet> Increased new hire probationary period to 3 years
        <bullet> Used performance focused reductions-in-force
        <bullet> Implemented pay banding
        <bullet> Implemented pay-for-performance system

    The Department recently proposed legislation for expanding these 
and other flexibilities to all Defense laboratories.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    47. Senator Lieberman. Secretary Wynne, it is my understanding that 
Congress will be reviewing a National Security Personnel System (NSPS). 
Before this system is implemented, there is the concern for the present 
difficulties in attracting and retaining top scientific and engineering 
talent in the DOD labs. What steps is the Department currently taking 
to assure that top scientific and engineering talent are retained, 
before the NSPS is implemented?
    Secretary Wynne. Working within the framework of merit principles 
and veterans' preference, DOD has developed two innovative hiring 
flexibilities that, when combined, will greatly expand the hiring 
authorities of laboratory commanders. The first flexibility, on-the-
spot hiring, effectively gives laboratory commanders direct-appointment 
authority for shortage categories. The second flexibility, scholastic 
achievement appointment authority, will provide direct-appointment 
authority to laboratory commanders for college graduates. Candidates 
must meet an overall grade point average (GPA) of 3.0 or better on a 
4.0 scale (or the equivalent on a different scale); or either: (1) a 
3.5 or better cumulative GPA on a 4.0 scale (or the equivalent on a 
different scale) in the field of study qualifying for the occupation or 
(2) a ranking in the upper 10 percent of a student's class of the major 
college or subdivision attended. We believe that these features, used 
in combination, will provide laboratory commanders with greater hiring 
flexibility. These hiring flexibilities are included in the Best 
Practices Personnel Demonstration Project and will be available to the 
laboratory commanders as soon as this demonstration project clears the 
final Federal Register process.
    In addition to enhancing the science and engineering (S&E) human 
resource system, we are implementing key programs that will help 
attract top talent. These programs are focused on transforming the 
defense laboratory system; improving the overall basic research 
programs; and reshaping the S&E supply chain.

    48. Senator Lieberman. Secretary Wynne, how will the implementation 
of the NSPS affect the hiring and retention of top scientific and 
engineering workforce?
    Secretary Wynne. The NSPS proposed by the administration includes a 
provision that would allow DOD to hire professionals, including 
scientists and engineers, and to prescribe the appropriate compensation 
program. It is based on the authority currently available to DARPA and 
the military departments. This proposal provides for increased salaries 
and bonuses. Professionals hired under this authority may be paid at 
least 120 percent of the minimum rate of basic pay for GS-15, up to the 
rate of basic pay for Executive Schedule (EX) level IV, with basic pay 
and locality pay not to exceed EX-III (currently, $142,500 annually). 
In addition, these employees would be eligible each year for additional 
payments of up to $50,000 of one-half of their rate of basic pay, 
whichever is less.
    We anticipate that it will greatly assist in recruiting and 
retaining key scientists and engineers. The NSPS, as proposed by the 
administration, would also enable increased flexibility in hiring and 
pay for performance.

                           BROADBAND/SPECTRUM

    49. Senator Lieberman. General Kern, General Lyles, and Admiral 
Dyer, as the Armed Services transform to a ``network-centric'' force, 
access to high-speed data communications will be vital to the military. 
Crucial technologies will need to be developed and subsequently 
deployed into the field to resolve the problem of high-speed 
communication to the warfighter in remote locations, to bridge the 
``last-mile to the soldier'' gap using wireless communications. What 
areas of research and development are currently underway in the 
Department to overcome the problems of the ``last-mile'' 
communications?
    General Kern. The Army fully understands the need to provide high-
speed connectivity to bridge the ``last mile to the soldier.'' To 
address this we are working several different technology areas: mobile 
networking, waveforms, airborne communication, and antenna 
technologies. Allow me to expand on each of these areas.
    Mobile Networking: Our challenge is to provide an assured, wireless 
network that works in diverse, complex terrain. With wireless 
technologies, we can allow the warfighter steady, uninterrupted 
wireless on the move communications. Currently it takes hours to set up 
and initialize a large wireless network. Our MOSAIC program is 
developing solutions for a mobile communications infrastructure through 
the development of Ad-hoc networking protocols (software) that will 
allow the network to self-configure and self-heal within a matter of 
minutes. In addition Internet Protocol (IP) QoS that will dynamically 
allocate bandwidth based on precedence, priority, and/or reservation in 
this mobile ad-hoc environment is being pursued. QoS is a key component 
to making wireless networks work for the military. Even as we are 
adding wideband networking waveforms we must be able to dynamically set 
priorities to allow the critical traffic to get through the network. 
This will happen at the expense of low priority traffic but will ensure 
that the network supports the critical battlefield information.
    Waveform: Current mobile radio communications networking technology 
uses narrowband waveforms. Narrowband waveforms limit the amount of 
data we can transfer in a timely manner. We are working on developing 
wideband waveforms in two specific areas which will provide the 
capability of high data rate connectivity between a large number of 
ground and air, mounted and dismounted, and manned and unmanned mobile 
assets. First, the JTRS is one of the core technologies that will 
change communications in the tactical environment. It will provide 
increased capacity and, more importantly, network services that will 
tie all our forces together into an inter-network allowing 
communications from and between all Service deployed elements, to 
include people, platforms, and command centers. Key to this development 
is the Wideband Networking Waveform (WNW) being developed under the 
JTRS program for which the Army is the lead service. Second, we are 
working on the Soldier-Level Integrated Communications Environment 
(SLICE) project, for example, focuses on maturing the DARPA Small Unit 
of Operation (SUO) Situational Awareness (SAS) waveform and making it 
compliant with the JTRS software communication architecture. It will 
leverage the many technology ``pieces'' from several Government and 
Industry R&D efforts and combine them into one advanced highly power 
efficient wideband waveform geared towards the soldier for the use of 
transferring large amounts of data in a timely manner. Power efficiency 
is the key to allow for battery operation.
    Airborne Communication: We have found that in order to support high 
speed wireless data in dispersed environments in all terrain it is 
essential that airborne communications nodes as well as satellite 
communications be part of that architecture. We demonstrated this need 
at the Communications-Electronics Command Research, Development and 
Engineering Center's Command, Control, Communications, Computers, 
Intelligence, Surveillance and Reconnaissance (C\4\ISR) testbed. In a 
relatively flat terrain with some terrain features, along with foliage, 
we showed that an airborne relay is critical for battlefield 
connectivity. To address this we have partnered with DARPA and the Air 
Force on the Adaptive Joint C\4\ISR Node Advanced Concept Technology 
Demonstration (AJCN ACTD). This program is addressing multi-mission 
airborne technologies both for communications as well as Signals 
Intelligence (SIGINT) and Information Operations.
    Antenna Technologies: We are conducting research in many areas of 
antenna technologies with emphasis on high efficiency and practicality 
(affordability, reduced visual signature, safety, etc.). Our mission is 
to develop antennas that can sustain robust, high data rate 
communications, offer greater agility for on-the-move operations, have 
low profiles for reduced platform visual signatures, can be integrated 
within soldiers' clothing for improved mobility and survivability, and 
are functional with the JTRS multi-band radio. Our Advanced Antenna 
program, for example, is developing various antenna technologies for 
applications including ground vehicle reconfigurable band switching 
antennas, multi-band on-the-move vehicular antennas, soldier/body borne 
antennas, low profile ground/rotary wing aviation antennas, and phased 
array antennas. In addition, DOD Teleports provide last mile extension 
of terrestrial DOD IF, voice, and video services via satellite 
communication to deployed tactical warfighters. At any of six global 
Teleport locations, the users can access high speed communications 
networks via UHF, L-band, C, X, KU, and KA frequencies. Mobile SATCOM 
terminals are required and become the ``hub'', in theater, for soldier 
radio access to global DOD networks.
    General Lyles. The ``last mile'' of the Global Information Grid 
(GIG) is critical because it can operate under some of the most severe 
and adversarial conditions that exist. Information assurance, security, 
electronic protection, and covertness are of paramount concern when new 
systems are developed or applied in this portion of the GIG. At the 
same time, there is a need to leverage low-cost, yet highly capable 
commercial off-the-shelf (COTS) technology--not only because of its 
lower acquisition cost, but because it is interoperable with the rest 
of the developing GIG, which is also largely COTS-based. Thus, our main 
technology development mission is to find ways which commercial 
technology can be leveraged without erasing cost benefits.
    Admiral Dyer. The Department of the Navy is pursuing the 
development of numerous technologies to bridge the last mile of the 
soldier gap using wireless communications. These efforts include basic 
research and development programs funded by the ONR, programs funded to 
industry, and a set of experiments and/or planned experiments to 
validate the effectiveness of these efforts and highlight shortcomings 
to allow continued development. One example includes the Joint Task 
Force Wide Area Relay NETwork (JTF WARNET) program that is currently 
deploying an Operational Prototype in WESTPAC. This system includes a 
network radio that is being used as a surrogate for the JTRS Wideband 
Networking Waveform (WNW). The 41 radios will be used between Services, 
as well as within Services, to augment existing Single Channel Ground 
and Airborne Radio System (SINCGARS) and Enhanced Position Location and 
Reporting System (EPLRS) radios. The experiment will validate the 
effectiveness of the proposed WNW. JTF WARNET is an Advanced Concept 
Technology Demonstration (ACTD) program. Transition targets are the 
U.S. Army and the JTRS Program Office.
    In addition, a number of ONR S&T efforts are addressing this issue:
    1. Highly Mobile Tactical Communications: This project will 
integrate the existing Iridium satellite communication system as an 
Iridium Tactical Communication Overlay (ITCO) to the current Marine 
Corps tactical communication architecture (SINCGARS/EPLRS radios) in 
order to provide over-the-horizon (OTH) communications. This will 
enable a Marine Corps Expeditionary Maneuvering Warfare (EMW) 
capability using current, available, secure communications technology 
at reasonable cost without imposing the constraint of fixed sites with 
directional antennas that impede mobile forces.
    2. Dragon Warrior Communications Relay: This project is developing 
an unmanned airborne communications relay capability for the Dragon 
Warrior small vertical takeoff and landing (VTOL) UAV that will provide 
a high data rate network radio relay for expeditionary warfare wireless 
networks. The Communication Relay uses the existing commercial AN/VRC-
99(A) network radio, which serves as the near-term stand-in for the 
JTRS Wideband Networking Waveform. The DW Communication Relay will give 
deployed marines an enhanced capability to transmit and receive data, 
voice, and video throughout the battlespace network. Integration and 
testing of the communication payload and platform are scheduled for 4Q 
fiscal year 2003.
    3. Submarine SATCOM Medium Access Protocol: This effort is 
conducting modeling and simulation to address the Medium Access Control 
(MAC) problem for submarine satellite communications in order to allow 
multiple submarines in a single Area of Operation to efficiently share 
a single satellite communications channel. With limited bandwidth 
available to submarines, and with increasing traffic requirements, it 
is critical that submarines make the most efficient use of their 
bandwidth.
    4. Tactical Phased Array Networking: This project is developing a 
network control system (protocols) for a mobile, ad-hoc, wireless 
tactical network that employs agile-beam directional antennas, such as 
phased arrays. The use of highly-directional antennas requires 
coordination across the network of when and where to point each 
antenna. This technology could be used for either mobile user 
battlefield communications at high data rates or an airborne UAV 
network that would provide the internet in the sky and OTH capability 
to reach the last-mile users and provide high capacity via directional 
antennas.
    5. Mobility Management for Heterogeneous Networks: This project is 
developing dynamic routing protocols for mobile users and includes the 
design and implementation of an enhanced 802.11 subnet in which the 
access points are entirely mobile and interconnected using multi-hop, 
wireless routes. Modeling and simulation of this protocol has been done 
and a 10-node field demonstration using WLAN 802.11 radios was also 
completed. The technology being developed could be used to provide 
highly mobile, automated, wireless communication for: (a) Marine Corps 
Expeditionary Maneuvering Warfare; and (b) Navy, Marine Corps, and 
Allied Coalition littoral operations.
    6. Asymmetric Secure Network Access for Vulnerable Assets: This 
project is developing an asymmetric secure link to provide network 
access to vulnerable assets (last-mile user) such as reconnaissance 
teams, special operations users, submarines and sensors. This 
bidirectional link will have low data rate and long range on the uplink 
(from the vulnerable asset to the airborne network node) and high data 
rate and long range on the downlink (from the airborne node to the 
vulnerable asset). This technology will be most useful to the Marine 
Corps in terms of disadvantaged user access and providing LPI/D links 
for deep reconnaissance missions.

    50. Senator Lieberman. General Kern, General Lyles, and Admiral 
Dyer, how does the Department plan on leveraging off of civilian 
technologies to maximize cost-efficient wireless communications 
systems?
    General Kern. The Army will continue to leverage commercial 
technologies to the maximum extent possible across the board and this 
is especially true in the area of communications, including wireless 
communications. The commercial marketplace has made significant 
investments in communications technologies and it is a key part of the 
Army's strategy to leverage these investments. It is also important to 
point out that often these technologies need some adaptation before 
they can be applied to the tactical battlefield environment, which 
involves more than ruggedization. The basic philosophy we employ in 
regards to communications technologies is an approach we refer to as 
adopt, adapt, develop. Our goal is to adopt commercial technologies as 
is, whenever we can, that is use as is. More often the case exists that 
we will adapt these technologies to work in the tactical environment. 
Finally we develop technologies on our own when commercial technologies 
do not meet our needs.
    There are key differences between the commercial and military 
tactical environment. The largest of these is the use of a fixed 
infrastructure. Commercial wireless technologies rely on a fixed 
infrastructure whether it be cell towers for phone connectivity or 
wired backbone for wireless Personal Data Assistants (PDAs), Wireless 
Local Area Networks (WLANs), etc. Commercial systems provide end user 
mobility. The warfighter on the battlefield requires complete network 
mobility. In other words, there is no fixed ground infrastructure, 
everything is mobile. Even with that difference we have had significant 
advances in adapting these technologies and leveraging these 
technologies.
    For example, to achieve this totally mobile network that is 
dynamic, ad-hoc, self-forming, self-healing while providing QoS 
features to ensure critical information gets through the network we are 
using commercial standards from the Internet Protocol (IP) and build 
upon them to address our needs. We have a S&T program called MOSAIC 
that is maturing these technologies and is resulting in a commercially 
interoperable solution that both meets our needs and is cost effective. 
We have partnered with both military and non-military industry on many 
of these programs where industry is also making an investment (or cost 
share) on these efforts. Finally in order to make this S&T investment 
worthwhile we are transitioning these technologies to the JTRS and 
Warfighter Information Network--Tactical (WIN-T) programs and working 
standards bodies with the goal to make such features mainstream in 
commercial products.
    There are many other examples of leveraging commercial technologies 
from Personal Communications Systems, the use of commercial WLAN, to 
antenna technologies that are becoming integral to our Network Centric 
concept for the future. 
    General Lyles. Civilian technology provides the Air Force with the 
opportunity to acquire advanced technology at affordable prices. 
Civilian wireless communication systems or technologies are evaluated 
for adoption, where possible, and adaptation or modification to meet 
specific requirements when necessary. Development of new items is done 
only as a last resort. For instance, we are already leveraging the 
commercial market for wireless local area network technology and 
supplementing this with military-unique features that the civilian 
marketplace has not yet demanded and, therefore, have not been 
provided. This has resulted in the availability of robust information 
techniques such as Type-1 security. In the area of tactical radio, 
software-defined radio technology will facilitate the inclusion of 
commercial products that meet government needs. Leveraging commercial 
technology and adding a military edge can be more effective than simply 
paying for the use of proposed civilian assets. The Air Force is 
assisting commercial developers in understanding the growing need for 
military-like robustness in the wireless area. The Air Force is also 
supporting advances in the commercial community through programs such 
as Small Business Innovation Research and Dual-Use Science and 
Technology.
    Admiral Dyer. The Navy and DOD have placed a significant emphasis 
on leveraging commercial technology where applicable. All of the DOD IP 
networking is based on the open standards developed and approved by the 
consensus of the Internet Engineering Task Force (IETF). Navy 
representatives participate in the IETF as working members with 
industry and academia to develop future standards that meet both 
commercial and military needs. In the area of Multicast Dissemination, 
Navy engineers recognized a shortcoming in the existing IETF Requests 
for Comments (RFCs) and worked as the leaders to develop a new RFC that 
has been placed before the IETF as a recognized extension to the 
standards. In those areas where military needs may be significantly 
different than the private sectors, focused research and development is 
being, or has been, performed to augment the commercial standards to 
meet those unique needs. In addition the ONR S&T program is addressing 
the issue through the following projects:
    1. Highly Mobile Tactical Communications: This project will 
integrate the existing Iridium satellite communication system as an 
Iridium Tactical Communication Overlay (ITCO) to the current Marine 
Corps tactical communication architecture (SINCGARS/EPLRS radios) in 
order to provide OTH communications. This will enable a Marine Corps 
Expeditionary Maneuvering Warfare (EMW) capability using current, 
available, secure communications technology at reasonable cost without 
imposing the constraint of fixed sites with directional antennas that 
impede mobile forces.
    2. Dragon Warrior Communications Relay: This project is developing 
an unmanned airborne communications relay capability for the Dragon 
Warrior VTOL UAV that will provide a high data rate network radio relay 
for expeditionary warfare wireless networks. The Communication Relay 
uses the existing commercial AN/VRC-99(A) network radio, which serves 
as the near-term stand-in for the JTRS Wideband Networking Waveform. 
The DW Communication Relay will give deployed marines an enhanced 
capability to transmit and receive data, voice, and video throughout 
the battlespace network. Integration and testing of the communication 
payload and platform are scheduled for 4Q fiscal year 2003.
    3. Bandwidth Efficient Advanced Modulation Line-of-Sight Technology 
(BLT): This project is developing a UHF Line Of Sight (LOS) waveform 
that provides both bandwidth efficiency (100 Kbps in a 25 KHz channel) 
and power efficiency. Industry is developing a joint iterative 
demodulation and decoding scheme for achieving this 4:1 bandwidth 
efficiency over a LOS channel. In addition, they will develop an 
equalizer to mitigate LOS multipath and the latencies associated with 
joint iterative demodulation and decoding. This project leverages off 
the past commercial industry work on turbo coding. The impact of this 
technology development will be to serve as a combat system multiplier 
for the warfighter by increasing data rates (within an existing 25 KHz 
channel bandwidth) four-fold over current LOS technology. The targeted 
product line for transition is the AN/ARC-210 radio and the waveform 
will also be considered for the JTRS radio program.
    4. Multicast Dissemination Protocol: This project developed a 
Multicast Dissemination Protocol (MDP), which provides an IP compliant 
reliable group data dissemination capability. Previous network 
technologies for group communications were unreliable and the design of 
MDP provided reliable group delivery for a broad set of applications 
and scenarios. Significant research gains were made in the areas of 
protocol scalability, robustness, and information theoretic repairing 
mechanisms. This technology was fed into the IETF, the primary Internet 
standards body, for civilian use and widespread application. MDP is 
being used, integrated, and leveraged into numerous Navy, DOD, and 
industry organizations including: U.S. Navy Information Screening and 
Delivery System (ISDS) to provide efficient and reliable dissemination 
to the submarine community; U.S. Army's first digitized brigade is 
equipped with MDP which includes the 4th Infantry Division; joint 
coalition network experiments are using MDP-based applications for 
improved situational awareness data dissemination, e-mail, and other 
data traffic; U.S. Postal Service (USPS) has adopted MDP for daily 
large scale network operations (thousands of sites) with resulting 
large performance gains in satellite data dissemination; NASA is using 
MDP in experiments for improved spaceborne network communications; and 
the IETF is transitioning related MDP work into a new specification for 
NACK-oriented reliable multicast (NORM).
    5. 802.11 WLAN Technology: This low-cost, short range, commercial 
radio technology has been adopted in several projects in order to test 
and demonstrate adaptive routing and beam scheduling protocols in 
mobile environments. This technology could be used for either mobile 
user battlefield communications at high data rates or an airborne UAV 
network that would provide an internet in the sky and OTH 
communications capability. These commercial WLAN radios typically cost 
about 1-2 percent of what one would have to pay for a militarized 
radio, which has substantially more communications range capability. 
Hence, many projects have leveraged this civilian WLAN technology to 
test cost-effective wireless communication and networking capabilities.

    51. Senator Lieberman. General Kern, General Lyles, and Admiral 
Dyer, as the military forces are under increasing pressure to share 
spectrum with industry and government, how is the Department developing 
technologies that can tolerate interference?
    General Kern. The DOD has undertaken quite a few programs that 
address the need to increase the communication reliability by reducing 
interference and developing new spectrum efficient technologies. The 
Army is also investing in this area as well as leveraging DARPA and the 
other Services.
    In the Army we have a S&T Objective for Advanced Antennas with one 
of the focuses being on antenna co-site interference. This program is 
developing multi-band, re-configurable and band switched antenna 
technologies that will substantially reduce susceptibility to co-site 
interference (e.g., indiscriminately receiving and coupling unwanted 
interference energy from a nearby transmitter into the radio receiver) 
by increasing the antenna's ability to reject non-desired, out-of -band 
interference signals. These technologies will also provide greater 
antenna gain and efficiency resulting in more robust communication 
links and extended ranges. These technologies will not only increase 
the reliability of the communication but will also increase spectrum 
efficiency by providing broadband transmission.
    The Army is leveraging the DARPA Next Generation (XG) program 
investment in spectrum efficient technology. Under this program DARPA 
is developing a protocol where radios can transmit suitable frequency 
(over a wide frequency range) by sensing the local environment and on a 
non-interfering basis share the spectrum much more efficiently. This 
technology will not only use spectrum more efficiently, but will also 
be able to tolerate higher level noise threshold, thus increasing the 
communication efficiency by a factor of 10 to 20 times. This 
revolutionary concept challenges the spectrum scarcity in the 
communication world; instead it avails the opportunity of utilizing the 
unused spectrum on a real time and space basis.
    The Army will also leverage the DARPA Future Combat Systems--
Communications (FCS-C) program. This effort uses directional antennas 
and networking programs to allow frequency reuse to include power 
management such that you only use the amount of power to close the 
link. This utilizes the available spectrum more efficiently and with 
the directionality, less interference. The Army is now building a 
program to mature this DARPA effort to transition these technologies to 
the field.
    General Lyles. The increase in pressure to share spectrum may mean 
the military owns less and we realize that new emphasis must be given 
to treating the Electromagnetic Spectrum as a precious limited 
resource. Although Air Force requirements for spectrum access must 
continue to be carefully planned and retained, new advances in 
modulation and coding technology enable us to transmit more digital 
information in the limited amount of spectrum. We continue to research 
and field better methods of interference excision. Recent breakthroughs 
will allow more users to operate successfully in a limited frequency 
band. We are also developing techniques for better use of the lower-
frequency (tactical) bands that have been underutilized until now. 
Software-defined radios, such as the JTRS will let us implement these 
and future techniques much more easily.
    We continue to research, develop, demonstrate, and field advanced 
technologies. Improvements in antenna technology can support more users 
by covering broader ranges of frequencies and can support the reuse of 
frequencies by better controlling the direction of transmitted and 
received signals. Other specific areas that will mitigate potential 
interference excision techniques, higher-order modulation, advanced 
coding methods, enhanced networking, new or modified network (mobile ad 
hoc) protocols, QoS techniques, diversity (in time, frequency, space, 
polarization, and coding), improved radio frequency and receiver 
components, and signaling agility .
    Admiral Dyer. The increasing pressure to share spectrum, coupled 
with an increased need for bandwidth by the military, is forcing the 
development of techniques that can tolerate or mitigate interference. 
These programs will allow the Department of Defense to more effectively 
utilize the available spectrum through the use of a wide variety of 
techniques, such as adaptive routing, directional or narrow beam 
antennas, better filtering, and improved spectrum spreading and 
correlation techniques. ONR funded S&T programs to attack interference 
mitigation and to more efficiently use the spectrum that is available 
include the following:
    1. Adaptive Routing: Interference in networks can be mitigated by 
having multiple communication paths to get to an end user. The Mobility 
Management for Heterogeneous Networks project is developing dynamic 
routing protocols for mobile users that are interconnected using multi-
hop, wireless routes. Such an approach provides for very robust 
operation and tends to mitigate interference via multiple paths for 
transmission.
    2. Narrow Beam Antennas: The use of highly directional antennas 
provides for interference reduction or elimination in some cases 
because of the narrow antenna beamwidth. ONR research in this area 
includes extensive development of phased array antennas as well as 
methods of forming networks using directional antennas across the 
spectrum from UHF (100s of MHz) to Q-band (on the order of 40 GHz). 
However, the use of highly directional antennas introduces another 
problem for networks and particularly for mobile networks in that one 
must keep track of the positions of all the platforms and the 
directions of all of the antennas. Thus the Tactical Phased Array 
Networking project is developing the network protocols to allow such a 
mobile, ad-hoc, wireless tactical network to operate with agile-beam 
directional antennas. The use of highly-directional antennas requires 
coordination across the network of when and where to point each 
antenna. This technology could be used for either mobile user 
battlefield communications at high data rates or an airborne UAV 
network that would provide the internet in the sky and OTH capability 
to reach the last-mile users and provide high capacity via directional 
antennas.
    3. Optical Domain Tunable Microwave Filtering For Multifunction 
Antennas: This effort is investigating and developing novel photonic 
link based microwave filtering techniques suitable for mitigating 
detrimental electrical isolation and co-site interference effects 
associated with broadband multifunction antenna apertures. Optical 
domain microwave filtering potentially offers larger operating 
bandwidth and more practical filter reconfiguration capabilities than 
presently available using conventional electronic filtering approaches. 
In this project, photonic links with embedded broadband tunable 
microwave filters for adaptively improving out-of-band signal rejection 
will be demonstrated.
    4. Multi-function Digital Receiver Demonstration for JTRS-Compliant 
Communication System: This effort will demonstrate that superconducting 
digital electronics can strongly reduce the problem of co-site 
interference among co-located RF systems. It will also define a 
development path toward fully software reconfigurable, multi-
simultaneous signal hardware that offers much better utilization of 
bandwidth than is possible today. The proposed approach involves using 
the highly inherent sample speed and superior accuracy and sensitivity 
of superconducting analog to digital converters to produce 
programmable, digital matched filters (cross-correlators) operating on 
raw RF signals. Up to an additional 40 dB of signal correlation gain is 
expected prior to decoding of the signal. The receiver front end to be 
constructed will focus on communications signals in the UHF band (225-
400 MHz), but its design concept is generic to all RF signals.
    5. Studies of Spread Spectrum Communication Systems with Very High 
Interference Immunity: This 6.1 research effort investigates multiple 
access interference (MAI) suppression techniques for direct sequence 
(DS) code division multiple access (CDMA) systems for ship-to-ship and 
ship-to-shore links using satellite communications. Signal processing 
techniques such as multi-user detection and interference cancellation 
will be applied to suppress the MAI. Multiple access interference 
suppression techniques will be designed to combat the near-far 
interference problem associated with DS CDMA.
    6. Communications and Sensor Networks: Interference Mitigation and 
Cross-Layer Design: This 6.1 research project will develop and analyze 
interference mitigation techniques for multi-user communication 
systems. Techniques such as channel estimation, channel decoding, 
equalization and synchronization will be investigated in order to 
provide an iterative, interference mitigation technique. It is 
anticipated that the techniques developed will have applicability to 
both military and commercial wireless communication systems. The effort 
will also examine methods for generating side information about the 
interference environment in order to assist the more conventional 
methods of combined narrow band interference suppression and multi-user 
detection.
    7. Maximal Exploitation of Space-Time Dimensions for Communication 
in Highly Dynamic Scenarios: This 6.1 research project addresses 
maximal exploitation of space-time dimensions for communication in 
highly dynamic scenarios. The emphasis is on reliable and seamless 
wireless connectivity in a variety of environments exhibiting harsh 
characteristics such as multipath fading, interference and rapid 
temporal variations. Space-time processing will be useful with antenna 
arrays to maximize the capacity of the wireless channel.
    8. Nonlinear Adaptive Equalizer Applied to UHF Submarine 
Communications for Minimizing Effects of Multipath Interference: This 
planned 6.2 new start in fiscal year 2004 will develop a nonlinear 
adaptive equalizer for improved UHF communications. Currently, 
submarine UHF communications are degraded by multipath distortion and 
other interference. One of the least invasive methods to improve UHF 
communications would be the adoption of a software filter that could 
significantly reduce the bit error rate and thus improve the data 
throughput. To date, the use of an equalizer for improved UHF submarine 
communications has not been explored. This research would develop a 
nonlinear adaptive equalizer to improve data rates by reducing the 
effects of multi-path interference. The equalizer will be adaptive to 
compensate for the non-stationary communications channel, and will be 
nonlinear for improved filtering performance through dynamic filter 
weight behavior.
    9. JTRS Maritime Spectrum Awareness and Spectrum Adaptive Waveform: 
This planned 6.2 new start in fiscal year 2004 will focus on Spectrum 
Awareness (SA) and spectrum adaptive technology for Navy communication 
platforms, including the JTRS Maritime radio systems. Two major 
elements of this development include: Spectrum Adaptive Waveforms, 
including Discontiguous Direct Sequence Spread Spectrum (DSSS) Waveform 
for Maritime JTRS, and a Maritime Spectrum Awareness and Interference 
Decomposition on future Software Defined Radios tuned to frequency 
bands currently above the JTRS frequency band. The resulting spectrum 
awareness when combined with tunable filtering technology should enable 
interference mitigation.
    10. Bandwidth Efficient Advanced Modulation LOS Technology (BLT): 
This project is developing a UHF LOS waveform that provides both 
bandwidth efficiency (100 Kbps in a 25 KHz channel) and power 
efficiency. Industry is developing a joint iterative demodulation and 
decoding scheme for achieving this 4:1 bandwidth efficiency over a LOS 
channel. In addition, they will develop an equalizer to mitigate LOS 
multipath and the latencies associated with joint iterative 
demodulation and decoding. This project leverages off the past 
commercial industry work on turbo coding. The impact of this technology 
development will be to serve as a combat system multiplier for the 
warfighter by increasing data rates (within an existing 25 KHz channel 
bandwidth) four-fold over current LOS technology. The targeted product 
line for transition is the AN/ARC-210 radio and the waveform will also 
be considered for the JTRS radio program.
    11. Tactical Phased Array Networking: This project is developing a 
network control system (protocols) for a mobile, ad-hoc, wireless 
tactical network that employs agile-beam directional antennas, such as 
phased arrays. The use of highly-directional antennas requires 
coordination across the network of when and where to point each 
antenna. This technology could be used for either mobile user 
battlefield communications at high data rates or an airborne UAV 
network that would provide the internet in the sky and OTH capability 
to reach the last-mile users and provide high capacity via directional 
antennas.

                       SEMICONDUCTOR CAPABILITIES

    52. Senator Lieberman. Secretary Wynne, there is currently a 
serious concern about the loss to the U.S. economy of the high-end 
semiconductor chip-manufacturing sector to East Asian countries, the 
likely subsequent loss of the semiconductor research and design 
sectors, and the grave national security implications that this would 
entail. What does the Department plan to do to ensure the retention of 
domestic semiconductor chip manufacturing capabilities, as well as 
research and design capability?
    Secretary Wynne. The Department recognizes this as a critical 
problem. We are continuing to assess the impact of this trend on 
important Defense systems. As capabilities move offshore, the U.S. can 
lose access to the most advanced technologies (i.e., commercial and 
foreign host security needs will be met first), reliability for 
delivery and performance is arbitrarily compromised, and the 
vulnerability for malicious engineering is greatly increased. We have 
already identified the most critical Defense elements that are being 
threatened by the migration of foundries to offshore locales and have 
moved to mitigate the impact. For information assurance and 
intelligence missions, the Department (including elements of OSD, 
ASD(C\3\I), and AT&L) is working with the National Security Agency and 
U.S. semiconductor firms to explore arrangements that would maintain 
trusted domestic capabilities in a manner mutually beneficial to all 
parties. We believe the Department will be able to address adequately 
its most pressing microelectronics needs through such arrangements. 
However, should economic conditions continue to force moves offshore, 
the Department will be faced with a more severe problem in the future. 
Note that we are currently addressing only those critical programs for 
which requirements have been identified. More broadly, the Department 
and the entire USG must continue to deepen its partnership with the 
industry in investing in the next generation of U.S. microelectronic 
components (i.e., photonic, superconductors, etc.) as the U.S. industry 
cannot fulfill this task on their own.

    53. Senator Lieberman. Secretary Wynne, does the Department feel 
that it may be possible to address some of these issues by exploring 
such avenues as increasing funds for research and development, 
supporting cooperative government-industry research programs, adjusting 
U.S. trade policies, or developing joint production agreements and 
other innovative partnership arrangements with the semiconductor 
industry?
    Secretary Wynne. The ensuring answer is ``all of the above''. Trade 
policy needs to be explored with the objective of level playing field, 
world-wide. Simply increasing the cost of DOD parts is not a long term 
solution for ensuring a robust capability in the U.S. In areas where 
there is weak commercial S&T investment, Federal research funding 
should be increased. Other innovative arrangements with semiconductor 
firms should be explored on a functional basis. The arrangements 
between DOD (to include DARPA), NSA, and commercial semiconductor 
vendors for the most critical integrated circuits is one such example 
of a transformational and innovative arrangement where all parties come 
away with increased capabilities while simultaneously lowering costs. 
Nonetheless, a comprehensive, longer-term solution involving economic, 
technological, and political components may be needed.

    54. Senator Lieberman. Secretary Wynne, does the Department have 
plans to maintain the critical semiconductor equipment industry (i.e. 
lithography, photomasks) in the U.S., either through a government-
industry consortium or through more direct intervention?
    Secretary Wynne. The design and fabrication of semiconductor 
equipment is highly specialized and requires a very expensive and 
lengthy product development cycle. Given the offshore relocation of 
semiconductor foundries, domestic equipment manufacturers have become 
less willing to make the U.S. based investment required to fabricate 
new tools. The purchase of foreign process tools could, indeed, 
threaten domestic chip foundries, trusted or otherwise. The fact that 
foreign suppliers would be in a position to impose export restrictions 
and at least temporarily make the few U.S. based fabrication lines 
technically substandard is a very real threat. Addressing this threat 
would come at some considerable expense. Basically, we would need to 
develop U.S. process tools as an ``insurance policy''. If we instead 
focus on developing economic mechanisms that would keep the 
semiconductor industry on-shore, the equipment manufacturers would 
likely maintain both their presence and leadership role. Consequently, 
if we can solve the offshore migration issue, we also solve the 
semiconductor equipment issue. However, DOD's needs are out of 
synchronization with the commercial sources. To address the problem, 
DOD is also looking at alternative and transformational strategies and 
technologies. Such approaches include exploring advanced techniques 
such as ``maskless lithography'' to allow the production of the most 
advanced microelectronic features in a small scale production situation 
to address critical needs. In this area, the needs of the DOD and the 
commercial semiconductor industry may become divergent.

                          DARPA STRATEGIC PLAN

    55. Senator Lieberman. Secretary Wynne, DARPA recently released 
their strategic plan in February 2003, and although it is an excellent 
description of DARPA's major focus areas, including what the agency has 
done for the Department in the past and what the current programs are, 
it does not appear to be a proper strategic plan. A strategic plan 
would have elements such as a list of goal statements, a series of 
objectives that support each of the goal statements, and a series of 
strategies and tactics required to achieve each objective. Finally, a 
comprehensive plan must be developed to describe how and when the 
strategies and tactics would achieve the objectives, and thus the 
overall goals. Does DARPA intend to develop a true strategic plan in 
accordance with the items listed above?
    Secretary Wynne. DARPA has an excellent strategy to promote radical 
innovation for our national security; its strategic plan clearly states 
that strategy. The plan describes DARPA's role and mission, how it 
operates, its major strategic thrusts, and how they have been shaped by 
our national security environment, and other research DARPA supports 
because of its proven value to the DOD. What is more, the plan is 
concise and readable--just what is needed to communicate DARPA's 
strategy. In addition to the strategic plan, DARPA makes an enormous 
amount of detailed information on its program plans available through 
its web site, the ``DARPA Fact File,'' and, most importantly, the 400+ 
pages of its budget request. (The Fact File will be updated and 
restructured this spring to correspond to the elements of the strategic 
plan.) DARPA's strategy is well aligned with DOD's transformation and 
well managed, and detailed information on DARPA's programs is widely 
available, so I think the current strategic plan is very appropriate.

    56. Senator Lieberman. Secretary Wynne, as a good strategic plan 
would also be a ``rolling plan'' (i.e. one that is often reviewed and 
changed as individual strategies and tactics succeed and fail), does 
the Department intend to periodically review DARPA's strategic plan so 
as to assess the level of accomplishment in terms of the goals, 
objectives, and strategies?
    Secretary Wynne. You're quite right that strategy needs to be 
reviewed and adjusted periodically in light of new developments. That's 
what makes it strategy. DARPA's strategy is reviewed every year as part 
of the budget formulation process, and, given the interest in 
transformation, DARPA receives a great deal of attention. In reality, 
with all the high profile things DARPA is involved in, its strategy 
gets attention more often than that. I believe that the eight strategic 
thrusts DARPA has at the moment are well chosen and are proceeding 
apace.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                        JOINT SIMULATION SYSTEM

    57. Senator Bill Nelson. Secretary Wynne and General Kern, the 
budget request for fiscal year 2004 cancels the Joint Simulation System 
(JSIMS) program in fiscal year 2004 and through the FYDP. My 
understanding is that the Under Secretary of Defense for Personnel and 
Readiness has protested the decision as ``premature.'' I also 
understand that Admiral Giambastiani, Commander Joint Forces Command, 
shares my concerns over the elimination of this program. In previous 
years, JSIMS was described as the flagship modeling and simulation 
program for the Department, and highlighted as a shining example of 
joint technology development that addressed a critical warfighter need. 
What analysis (program management, operational requirements, etc.) 
informs and justifies this cancellation decision?
    Secretary Wynne and General Kern. The Department added significant 
resources on three occasions to provide full funding for the JSIMS 
program and keep it on schedule. In August 1999, $7.9 million was 
reprogrammed to ensure an Initial Operational Capability (IOC) of April 
2001. In August 2000, an additional $265.5 million was allocated for 
fiscal year 2002-2007 to support an IOC of March 2002. Several months 
later, during the budget review, a further $7.4 million increase was 
approved for fiscal year 2001-2002, to address shortfalls identified 
late in the process by the program office.
    Several changes also were made to the management structure in an 
attempt to improve program performance and keep development on track. 
In December 1999, the program was given an Acquisition Category-1D 
(ACAT-1D) designation to increase management oversight. In January 
2000, the Army was directed to appoint a full-time program manager. At 
the same time, the program office was instructed to produce a cost 
estimate, split JSIMS development into blocks, and develop appropriate 
acquisition documents. Although some of these measures were adopted, 
problems persisted. By December 2002, the official IOC date had slid to 
March 2005.
    In addition to standard ACAT-1D oversight, there were at least four 
other reviews to assist program management, two of which were led by 
former Directors of Defense Research and Engineering. In December 1999, 
the Senior Review Board directed the program office to reconfigure its 
development plan around the Department's High-Level Architecture 
standard. Then, in 2001, an independent panel led by Dr. Anita Jones 
concluded that JSIMS needed to establish sound performance-prediction 
capabilities and improve its integration with its major partners, like 
the Army's Warfighter Simulation program. That same year, an audit 
conducted by the Army Material Command concluded that current 
engineering practices would not resolve performance issues within cost 
and schedule constraints. Finally, in December 2002, another 
independent review team, this time headed by Dr. Dolores Etter, 
recommended looking externally for commercial technologies and 
strategies that support scalability in order to facilitate spiral 
development for future JSIMS blocks. Dr. Etter's team also recommended 
an independent outside assessment of the JSIMS architecture. All of 
these reviews, in addition to numerous ACAT-1D assessments, highlighted 
serious concerns about the technical and performance standards for 
JSIMS. The decision to conduct an analysis of alternatives (AoA) before 
proceeding with further development is consistent with the results of 
these reviews.

    58. Senator Bill Nelson. Secretary Wynne, General Kern, General 
Lyles, and Admiral Dyer, Congress appropriated significant resources 
for JSIMS and its related Service programs in fiscal year 2003. How 
will that funding be used now that the JSIMS program has been 
terminated in the fiscal year 2004 request and FYDP?
    Secretary Wynne and General Kern. All fiscal year 2003 funds 
remained with the program to ensure delivery of Block I software in 
accordance with program office estimates. The JSIMS Software Support 
Facility was funded at $14 million in fiscal year 2004, using monies 
originally planned for the JSIMS Program Office. The remaining $168.6 
million in fiscal year 2004 funding proposed in the fiscal year 2003 
President's budget was allocated to other priorities.
    General Lyles. Consistent with OSD direction, all remaining Air 
Force fiscal year 2003 research and development funds supporting the 
JSIMS program will be expended in the direct support of completing the 
JSIMS Block 1 System Verification and Validation Test currently in 
progress by the JSIMS Alliance under HQ Joint Forces Command authority.
    Admiral Dyer. For the Navy, the resources allocated for JSIMS will 
be spent on existing model and simulation (M&S) programs in order to 
ensure they continue meeting Navy's training requirements. These 
systems include, but are not limited to, the Virtual At-Sea Training/
Deployable Prototype Integrated Maritime Portable Acoustic Scoring and 
Simulator (VAST-DP IMPASS), the Battle Force Tactical Trainer (BFTT), 
the Enhanced Naval Wargaming System (ENWGS), the Battle Group Inport 
Exercises (BGIE), the JSAF (Joint Semi-Automated Forces), and the Fleet 
Aviation Simulator Training (FAST) Plan.

    59. Senator Bill Nelson. Secretary Wynne, the termination of the 
JSIMS program unhinges a valuable `center of gravity' in modeling and 
simulation research, development, and acquisition based upon the 
synergy of a tightly organized and interdependent network of industry, 
academia, and military services and agencies that has existed and 
excelled over a number of years. How will DOD ensure that this network 
is sustained, energized, and leveraged in fiscal year 2003 and fiscal 
year 2004 while alternatives to JSIMS and its related programs are 
evaluated for the outyears?
    Secretary Wynne. The intent is to take delivery of Block I software 
at the Joint Warfighting Center, where a software support facility will 
be established to maintain JSIMS products. This action, in conjunction 
with moving the hardware and cataloging documentation, will preserve 
our software investment for future use, should a decision be made to 
resume the program. JSIMS is only one of many modeling and simulation 
programs being conducted in Orlando, Florida. While many engineers will 
no longer work directly on JSIMS, their expertise will transfer readily 
to these other programs, thereby keeping their modeling and simulation 
skills current. Should the analysis of alternatives recommend a 
continuation of the program, we would seek to reassemble the best of 
the team and restart the program, using the Block I software maintained 
at the Software Support Facility.

    60. Senator Bill Nelson. General Kern, General Lyles, and Admiral 
Dyer, given the termination of the JSIMS program, please highlight your 
current investments in modeling and simulation and how they support 
your Service missions.
    General Kern. The Army continues to work with Office of the 
Secretary of Defense and Joint Forces Command to support joint 
training. A new joint simulation is not funded in the fiscal year 2004 
budget. An AoA has been initiated and is scheduled for completion in 
fiscal year 2004 which will identify the most cost-effective approach 
for meeting joint and service training requirements. Until the AoA is 
complete, we cannot say whether a new program ultimately might be 
needed.
    The President's budget for fiscal year 2004 has funding to continue 
limited development of constructive simulation in support of the Army 
Title 10 training mission.
    General Lyles. With the termination of Air Force funding associated 
with the JSIMS program, the Air Force Modeling and Simulation Support 
Program will require funding adjustments to maintain and improve legacy 
systems currently used for service and joint readiness training, 
wargaming, and experimentation. We are working with the Air Staff to 
reallocate funds to critical efforts, and where necessary, increase 
outyear funding to compensate for the JSIMS program decision. Our 
investment strategy seeks to incorporate critical models and 
simulations into the C\4\ISR systems architecture, in a fully 
integrated battlespace environment. Within this architecture, modeling 
and simulation will directly support Air Force and Joint commanders 
conducting distributed mission operations worldwide and provide the 
inherent capability to conduct distributed mission training and 
rehearsal from home base, minimizing the stress of family separation 
and disruption. This strategy remains consistent with current and 
previous work in the JSIMS program and we will continue to work with 
OSD and other services/agencies to achieve cost-effective solutions to 
meet these critical operational requirements.
    Admiral Dyer. The Navy currently uses the following M&S programs:

        <bullet> Virtual At-Sea Training/Deployable Prototype 
        Integrated Maritime Portable Acoustic Sensor and Simulator 
        (VAST-DP/IMPASS) is a portable, deployable buoy array for Naval 
        gunfire training.
        <bullet> Battle Force Tactical Trainer (BFTT) is a shipboard 
        combat system capability providing realistic team training in 
        all warfare areas. BFTT stimulates shipboard sensors via 
        onboard trainers to provide simulation of non-shipboard forces 
        such as friendly, neutral, and enemy aircraft and submarines. 
        BFTT also links systems on board ships located in different 
        homeports for coordinated training using distributed 
        interactive simulation protocols.
        <bullet> Battle Group Inport Exercise (BGIE) is a graduated 
        proficiency exercise series conducted throughout the 
        interdeployment training cycle maximizing use of shore-based 
        trainers and ship imbedded M&S systems built on a BFTT 
        architecture. BGIE provides tactical training at the Battle 
        Group/Amphibious Ready Group Staff level from a single warfare 
        area to more complex multi-warfare exercises.
        <bullet> Enhanced Naval Wargaming System (ENWGS) is a computer 
        gaming engine to support real-time tactical training to Battle 
        Group staffs. ENWGS is a computer-based model that provides 
        man-in-the-loop interaction and graphic depiction of friendly, 
        neutral and enemy forces.
        <bullet> Joint Semi Automated Forces (JSAF) is a computer 
        simulation system that generates entity level platforms such as 
        infantrymen, tanks, ships, airplanes, munitions, buildings, and 
        sensors, that interact at the individual level in a robust 
        synthetic natural environment. The individual entities are task 
        organized into appropriate units for a given mission and can be 
        controlled as units or single entities. The environment is a 
        representation of real world terrain, oceans, and weather 
        conditions that affect the behaviors and capabilities of the 
        synthetic force.
        <bullet> Fleet Aviation Simulator Training (FAST) plan is a 
        program currently under development intended to replace aging 
        aviation simulators with high fidelity versions to support 
        training at a variety of aviation concentration areas. High 
        fidelity aviation simulators have the potential to enhance a 
        range of skill sets necessary to successfully employ an 
        aircraft in combat. Individual simulators can be used to assist 
        in developing and maintaining air-to-air and air-to-ground 
        engagement skills, and several integrated simulators can 
        develop team skills.

                   JOINT NATIONAL TRAINING CAPABILITY

    61. Senator Bill Nelson. Secretary Wynne, what is the current state 
of analysis and planning leading to creation of a Joint National 
Training Capability (JNTC)?
    Secretary Wynne. The Department is making significant progress in 
creating the JNTC. The JNTC program has an approved budget. JFCOM is 
setting up the JNTC Joint Management Office, which is now staffing its 
implementation plan to define JNTC certification and accreditation. 
Fiscal year 2003 activities include establishing and testing technical 
support requirements, determining opposing force capabilities, 
developing and testing data collection methods, and establishing and 
testing the exercise-control architecture. JFCOM is also leading the 
planning for JNTC events in fiscal year 2004 and beyond with resources 
programmed in the President's fiscal year 2004 budget now before 
Congress.

    62. Senator Bill Nelson. Secretary Wynne, how does cancellation of 
the JSIMS and related Service simulation programs contribute to the 
challenge or facilitate the creation of a JNTC?
    Secretary Wynne. As the Secretary has said to this committee, the 
Department has not cancelled the program as implied in the question. 
Current systems and the JNTC, when it is available, will meet the 
Department's immediate training needs. JSIMS and JNTC are independent 
of each other, although JSIMS could be used by JNTC if it met JNTC 
requirements. Without JSIMS, JNTC will use legacy systems, complemented 
if necessary by new systems, to meet its objectives. The overarching 
challenge is to create a solution with a high-level architecture that 
provides for the rapid implementation of live, virtual, and 
constructive components so that trainees are immersed in a seamless, 
combat-like environment without realizing that some aspects are virtual 
or constructive.

            ARMY INSTITUTE FOR COLLABORATIVE BIOTECHNOLOGIES

    63. Senator Bill Nelson. General Kern, I am concerned that the 
Army's effort to establish an Institute of Collaborative 
Biotechnologies has been undermined by the appearance of an unfair and 
closed competition designed and executed to advantage pre-selected 
universities. This concern has been raised to Congress by some 
universities and other members of the academic community. What actions 
are you taking to reestablish the confidence of the many biotechnology 
research universities across the nation that this will be a free, fair, 
and open competition?
    General Kern. The Army has identified a critical need for this R&D 
effort and only a university has the diversity of basic research 
capabilities and programs that can provide the breakthrough 
technologies that will satisfy the Army's requirements. A number of 
research universities have strong programs in biotechnology applicable 
to Army systems that could host this University Affiliated Research 
Center (UARC). Research universities by their nature are 
multidisciplinary and capable of providing the range of research 
required. Therefore, the Army has proposed a limited competition 
amongst these research universities from which a single research 
university will be selected to host the UARC. The host university will 
enlist the support of other research universities through subcontract 
to complement the host and to ensure all aspects of the Army's 
biotechnology program can be addressed.
    The authority that will be used in the establishment of the UARC is 
10 USC 2304(c)(3)(B) as implemented by Federal Acquisition Regulation 
6.302-3(ii). This is an authority that is used for this type of 
competitive process. Since the Army decided to hold a competition, it 
publicized notices of proposed contract actions through the Government-
wide point of entry for such public notices, the Federal Acquisition 
Computer Network.
    The ICB had three such postings on January 3, 2003, the 
announcement of the Army's intent and the anticipation of informational 
meetings one on the east coast and one on the west coast. On January 
31, 2003, the Army again announced the intent to create an Institute 
for Collaborative Biotechnologies, announced the dates and locations 
for the informational meetings, and identified to the public the web 
site for registration of the informational meetings. On February 21, 
2003, the Army announced to the public the Final Broad Agency 
Announcement (BAA). This announcement stated to the public that the 
final BAA takes precedence over previously posted draft BAAs and 
contains the most current and accurate information regarding the 
Government's requirements and stated the proposal due date of 4:00 pm 
local time, on April 7, 2003.
    The Army is using a competition limited to Research Universities 
for this UARC award as a means to identify a single university that 
could host the UARC.

    64. Senator Bill Nelson. General Kern, why not design a system that 
continually taps into the many universities doing this research rather 
than limit the Army to just one, two, or three universities?
    General Kern. The intent of the ICB is to develop and maintain a 
critical mass of researchers and to provide them with the necessary 
resources to conduct research in a highly focused area of biotechnology 
(sensors, electronics, and information processing). The ICB will form 
long term collaborative relationships with Army laboratory scientists 
and engineers and industrial partners to continuously transition the 
ICB research products to application as rapidly as possible.
    The plan is for other universities to collaborate with the ICB. 
Section 3.2.3, UARC Research Management of the Broad Agency 
Announcement states ``It is likely that no single university has the 
internal expertise to adequately fulfill the Army's expectations for 
the ICB in its entirety. An individual university offeror, serving as 
the lead university, will enlist through subcontract the complementary 
research expertise of other universities, and that lead university will 
be designated as the UARC host for the Institute. The lead university 
will provide a fully networked mechanism whereby 40 percent of the Army 
ICB funded amount will be available for subcontracting purposes.

    65. Senator Bill Nelson. General Kern, please provide examples of 
collaboration between your existing UARC and outside universities, 
including the amount of research funds that have been made available to 
those outside universities through the UARCs.
    General Kern. The Army Materiel Command currently supports three 
UARCs, the Institute for Advanced Technology (IAT) at the University of 
Texas-Austin, the Institute for Creative Technologies at the University 
of Southern California (USC), and the Institute for Soldier 
Nanotechnologies (ISN) at the MIT. The contract to establish the ISN 
was awarded last year. ISN has begun its outreach efforts and has 
attracted additional industry partners, but to date no outside 
universities have established collaborative relationships with that 
UARC.
    The following universities collaborate with IAT-Texas Tech 
University ($489,250), Cameron University ($10,000), four different 
University of Texas at Austin departments and centers, University of 
Texas-Southwest Medical Center at Dallas, University of Texas-Medical 
Branch at Galveston, and the University of Texas at San Antonio. The 
total funding provided to the University of Texas system-wide (not 
including IAT) was $2,508,000. The combined total amount provided to 
universities collaborating with IAT over the past 5 years is $3.0 
million.
    The following universities collaborate with ICT-University of 
Michigan ($179,000), University of Pennsylvania ($73,000), University 
of California-Los Angeles (collaboration only), MIT (under discussion, 
no funding to date). The total funding provided to other University of 
Southern California departments (not including ICT) was $9.6 million. 
The combined total amount provided to universities collaborating with 
ICT is $9.9 million.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                           WATERVLIET ARSENAL

    66. Senator Clinton. General Kern, I understand that you recently 
visited Watervliet Arsenal and Benet Laboratories in New York. Since 
1813, Watervliet Arsenal has played a vital role in arming our military 
and supporting our Nation and is our Nation's only manufacturing 
facility for large caliber cannon in volume. Benet Labs performs 
scientific and engineering activities that range from basic research 
through design for production, and engineering support for the 
production of its design items. The co-location of the Arsenal and 
Benet Labs allows for complete lifecycle management from idea through 
research and engineering, into prototyping and testing, and finally, 
into full-scale production. The labs are located in several buildings 
on the Watervliet property. No other arsenal in the United States can 
boast of this type of resource.
    As I have said before, I believe that maintaining Watervliet's 
manufacturing ability is critical for our Nation's national security. 
Last month, I visited Watervliet Arsenal and Benet Labs and was greatly 
impressed by the leadership and the workforce that I met.
    I was also greatly impressed by the vision of the future that I saw 
at the Watervliet Arsenal and Benet Labs which could greatly benefit 
the U.S. Army and the Nation. Research institutions and the private 
sector in the capital region of New York State are engaged in 
innovative research regarding cutting-edge technologies including 
nanotechnology. By partnering with these institutions, Benet Labs could 
become a designer of a wide variety of products built around the 
critical skills embedded in the region. Watervliet Arsenal would then 
be a flexible manufacturer of these innovative new products to the 
Army's and the Nation's benefit. What is your vision for the future of 
Watervliet Arsenal?
    General Kern. The Army recognizes and appreciates the significance 
of Watervliet Arsenal's role in supporting the warfighter and its 
historic role as the Nation's provider of large caliber systems. 
Watervliet is included in our Ground Systems Industrial Enterprise 
initiative, a major step in the transformation of the Army's industrial 
base.
    We will continue to enhance partnerships with the private sector as 
well as aggressively institutionalize lean manufacturing processes and 
other initiatives to improve efficiencies in the arsenal's core 
capabilities to meet current and future requirements.

                    AIR FORCE RESEARCH LABORATORIES

    67. Senator Clinton. General Lyles, the Information Directorate of 
the AFRL develops systems, concepts, and technologies to enhance the 
Air Force's capability to successfully meet the challenges of the 
information age. I was disappointed that your testimony did not include 
a discussion of your vision for the AFRL in Rome, New York. Can you 
give a description of the role that Rome Labs will play in the AFRL's 
future?
    General Lyles. The laboratory facilities and personnel at Rome, New 
York, have been prime contributors to the Air Force's Command, Control, 
Communications, Computing, and Intelligence (C\4\I) technology 
development for many years. The Rome Research Site is a recognized 
leader in the development and fielding of information technology and 
executes almost $100 million of core Air Force S&T funding and an 
additional $500 million of customer funding annually. The Air Force has 
focused this funding to ensure it has produced increased capability for 
our Nation's warfighter's as shown by the C\4\I technology used in 
Kosovo, Operation Desert Storm, Afghanistan, and Operation Iraqi 
Freedom. The importance of C\4\I cannot be underestimated--the enemy's 
C\4\I is our first target during any conflict. In this high technology 
military world where information technology is increasingly being 
recognized as the force multiplier that it is, the Rome Research Site 
plays a crucial role in the future of the Air Force.

                         LABS WORKFORCE ISSUES

    68. Senator Clinton. General Lyles, how will the best practices 
system described by Secretary Wynne and the NSPS being proposed by DOD 
affect the ongoing lab workforce demonstration programs at Rome Labs?
    General Lyles. The Air Force is still assessing the effect of the 
proposed NSPS and the related best practices demonstration project at 
the Rome Research Site. For the Air Force to move forward in the coming 
century, we need the ability to use all the flexibilities proposed in 
the best practices demonstration project, not only for the laboratory 
workforce, but across all Air Force functions.

    69. Senator Clinton. General Lyles, will they improve the labs' 
ability to accomplish its mission?
    General Lyles. The Air Force is still assessing the effect of the 
proposed NSPS and the related best practices demonstration project on 
ongoing personnel demonstration projects. It is too early to tell if 
changes implemented will improve the Air Force Research Laboratory's 
ability to accomplish its mission.

    70. Senator Clinton. General Lyles, will they reduce or modify any 
of the personnel authorities currently delegated to the lab director?
    General Lyles. The Air Force is still assessing the effect of the 
proposed NSPS and the related best practices demonstration project on 
ongoing personnel demonstration projects. It is too early to tell if 
changes implemented will reduce or modify any of the personnel 
authorities currently delegated to the laboratory director.

    71. Senator Clinton. General Lyles, will the modifications of this 
system save the Air Force money?
    General Lyles. The Air Force is still assessing the effect of the 
proposed NSPS and the related best practices demonstration project on 
ongoing personnel demonstration projects. It is too early to tell if 
changes implemented will save the Air Force money.

               SMALL BUSINESS INNOVATIVE RESEARCH PROGRAM

    72. Senator Clinton. Secretary Wynne, recently the Small Business 
Innovative Research (SBIR) program had great difficulty handling 
electronic submissions to a recent Broad Agency Announcement. In the 
fiscal year 2004 budget request, how much money is being invested in 
new technologies and procedures to ensure that these problems do not 
reoccur?
    Secretary Wynne. DOD is taking two complimentary steps to avoid 
future problems. First, additional computing processing power is being 
applied to address the additional volume of electronic traffic. It is 
anticipated that this additional hardware will cost no more than 
$100,000 in fiscal year 2004. Second, DOD is considering adjusting its 
procedures for the entire DOD SBIR solicitation process and is 
exploring several options to increase the efficiency of its existing 
framework. It is anticipated that new procedures will be in place 
beginning in fiscal year 2005.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                        HYBRID ENGINE TECHNOLOGY

    73. Senator Levin. Secretary Wynne and General Kern, the 
subcommittee has strongly supported efforts by DOD to develop hybrid 
engine vehicle technologies and fuel cells to reduce fuel costs and 
support defense missions. What advantages do you see hybrid vehicles 
having for the military?
    Secretary Wynne. Hybrid electric propulsion for future vehicles has 
the potential to reduce fuel consumption of ground vehicles--this will 
vary depending on the weight class, specific application, and driving 
cycle. Providing diesel fuel to operate our fleet of tactical and 
combat vehicles comprises the largest portion of the logistics burden, 
especially for the Army. Even if the reduction in fuel consumption 
proves to be more modest than current indications, we should be able to 
reduce significantly the costs associated with the logistics and 
sustainment tail associated with fuel on the battlefield. However, this 
is an emerging technology and we still have much to learn before 
implementing it and making a long-term commitment--especially in terms 
of reliability, maintenance, and lifecycle costs. In addition, we must 
continue to work toward making the component technologies smaller, 
lighter, and more affordable, if we are to realize the full potential 
of hybrid electric power systems as an on-board source of power for 
mobile radars, electric weapons, missiles, communications, computers 
and complex survivability systems.
    General Kern. The main advantage of hybrid electric vehicles is the 
reduction of the logistical footprint. This is accomplished by using 
the onboard power generation rather than towing external power 
generators, increasing fuel economy, silent watch, stealth mode, 
improved acceleration, modular design and creating a more reliable 
propulsion system. For combat vehicles the propulsion system can be 
packaged to maximize the useable under armor volume, and the propulsion 
system can be tailored to the individual variant.

    74. Senator Levin. Secretary Wynne and General Kern, what are your 
plans for the development, procurement, and deployment of these hybrid 
vehicles?
    Secretary Wynne. For the non-tactical fleet, Public Law 107-107, 
section 318, establishes a requirement concerning the acquisition of 
hybrid light duty trucks for the Department starting in fiscal year 
2005. We are updating our motor vehicle directive and regulation to 
address this requirement. However, the limited availability of 
commercial hybrid vehicles will inhibit the Department's acquisition of 
Original Equipment Manufacturer hybrid vehicles in the near term. 
Currently, Toyota and Honda have only commercial hybrid sedans. Ford 
expects to offer the hybrid Escape Sports Utility Vehicle to fleets 
this fall. Other manufacturers have also indicated they will offer 
hybrids at some point in the future.
    The General Services Administration (GSA) is a key player in the 
Department's ability to acquire hybrid vehicles as we lease/purchase 
the majority of our non-tactical vehicles through GSA. We have 
discussed our needs with the GSA Fleet Acquisition Division and they 
plan to offer hybrid light duty trucks next year. We also requested GSA 
to provide hybrids through their lease programs to help mitigate the 
higher unit cost for these vehicles. As the appropriate vehicles become 
available through the GSA purchase and lease programs, they will be 
acquired for DOD.
    General Kern. The Army has been working with the our Defense 
vehicle suppliers as well as the U.S. automotive industry and component 
manufacturers to mature the technology needed within the Army for more 
fuel efficient and cleaner power trains.
    The Japanese auto industry's hybrid propulsion technology is 
sufficiently matured to be offered to the general public for light 
passenger use. The U.S. auto industry will have matured its hybrid 
technology sufficiently this year to be able to offer it up for light 
passenger cars in 2004. Hundreds of thousands of these light passenger 
vehicles will be on the roads within the next few years. The fuel 
economy gains have been substantial in the currently available 
vehicles.
    The Army currently has several R&D programs to hybridize several 
types of our military vehicles. These vehicles are currently being 
evaluated by our testing community and by our soldiers in the field. 
Our emerging test results are promising, but an operational assessment 
needs to occur before the Army commits to any specific technology and/
or solution. Passenger cars don't have to operate in the severe 
climatic and environmental extremes as do our troop's vehicles. The 
emerging technologies for use in the military will have to be hardened 
significantly to survive our deployments.
    We are confident the Army will be able to move into a procurement 
phase for vehicles that will incorporate much of this technology. Our 
current HMMWV program is projected to incorporate hybrid electric 
technology into some of its production platforms in 2006.

                POST-U.S.S. COLE TECHNOLOGY DEVELOPMENT

    75. Senator Levin. Admiral Dyer, since the attack on the U.S.S. 
Cole, what technologies has the Navy developed or is the Navy trying to 
develop in order to prevent this type of tragedy from being repeated?
    Admiral Dyer. The Office of Naval Research has developed several 
technologies to help provide force protection to U.S. ships including:

        - Flare launcher on a 50-caliber machine gun mount to send 
        warning shots at small boats.
        - Running Gear Entanglement System to provide a 100m perimeter 
        around a ship at anchor.
        - Rapidly developed empirically validated models demonstrate 
        new solutions for ship survivability. Model shows that use of 
        stainless steel for hull material helps to reduce blast 
        penetration.
        - 360-degree periscope and related software.
        - Microwave powered warning system which deters intruders by 
        heating their skin.
        - Nuclear Quadrapole Resonance System for the detection of bulk 
        explosives (RDX, PETN) in packages, mail pouches, or on 
        personnel (manual scanning).

    In addition, NAVSEA has initiated a program called Integrated Radar 
Optical Surveillance and Sighting System (IROS\3\) to address 
asymmetric surface threats. IROS\3\ will integrate sensor information 
and communications for ship forces to maintain 24 hour situational 
awareness at pier side, at anchorage, and in restricted waterways. 
IROS\3\ will also provide semi-automated engagement of small close-in 
surface threats.

    76. Senator Levin. Admiral Dyer, what technology advances are being 
made to allow us to detect conventional explosives (like the ones used 
in this attack) at standoff ranges? For example, what technologies are 
being developed to detect conventional explosives in vehicles (boats 
and trucks) at standoff ranges?
    Admiral Dyer. This is a challenging problem for which no good 
technical solution has yet been identified. ONR hosted a conference on 
standoff detection of conventional explosives that concluded that no 
stand-off (defined as >1Km) off-the-shelf detection technologies could 
be exploited within the next 18 months.
    Planning for technology investment in this area is underway. ONR is 
collaborating with Air Force, Army, Navy Explosive Ordnance Disposal 
and NAVSEA Indian Head experts (both government and contractor) to 
identify and exploit emerging technologies that may potentially be 
stand-off quality detectors. Additional proposals are being continually 
received and reviewed for merit. Much work is underway in detectors 
suitable for shorter range, including joint Navy/DARPA work in the 
nuclear quadrupole resonance technology especially in combination with 
other standard techniques.

    [Whereupon, at 3:51 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                        WEDNESDAY, APRIL 9, 2003

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

                    U.S. SPECIAL OPERATIONS COMMAND

    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room SR-222, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Roberts, Kennedy, and 
Reed.
    Majority staff members present: Charles W. Alsup, 
professional staff member; and Carolyn M. Hanna, professional 
staff member.
    Minority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; and Arun A. Seraphin, professional staff member.
    Staff assistants present: Leah C. Brewer and Nicholas W. 
West.
    Committee members' assistants present: James Beauchamp, 
assistant to Senator Roberts; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Henry J. Steenstra and Christine O. Hill, 
assistants to Senator Dole; Mieke Y. Eoyang, assistant to 
Senator Kennedy; Elizabeth King, assistant to Senator Reed; 
William K. Sutey, assistant to Senator Bill Nelson; Todd 
Rosenblum, assistant to Senator Bayh; and Andrew Shapiro, 
assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. The subcommittee meets today to receive 
testimony on the posture and readiness of the U.S. Special 
Operations Command (USSOCOM) in review of the fiscal year 2004 
defense authorization request and future years defense program. 
I welcome our witness, Lieutenant General Doug Brown, who is 
the Deputy Commander of USSOCOM. I see that you have two very 
distinguished gentlemen accompanying you. Please introduce them 
to the subcommittee if you will.
    General Brown. Okay, sir. To my left is Harry Schulte, the 
Command's Acquisition Executive and the man responsible for all 
Special Operations research, development, acquisition, and 
procurement; and to my right is Command Master Chief Rick 
Rogers, a Navy Sea, Air, and Land (SEAL) and the senior 
enlisted adviser to the commander.
    Senator Roberts. We certainly want to welcome you, 
gentlemen, and thank you for what you do for our country.
    I do want to take a moment to recognize the extraordinary 
bravery and professionalism that we have witnessed by the 
United States and our Coalition Forces. They are conducting 
this campaign with precision and remarkable discipline. 
Regrettably, there have been casualties. Our thoughts and 
prayers go out to the families and loved ones of those killed, 
missing, and of those who we know are captive. We share their 
pain and we will not forget. As always, our forces are 
committed to leaving no one behind.
    War is never a pleasant thing. That is why it should be the 
last resort.
    Our Special Operations Forces (SOF), active and Reserve 
component, have also sacrificed. It was four Rangers who were 
killed in Iraq when a plain-looking civilian car with a 
pregnant female passenger pulled up to their checkpoint 
guarding a dam and exploded. Our Army Special Forces, Navy 
SEALs, and Air Force special operators led the initial efforts 
in Afghanistan, and they have lost over 20 fallen comrades. Ten 
of our special operators died tragically in the Philippines 
supporting our ally in their effort to free themselves from the 
terror of the al Qaeda-linked Abu Sayyaf Group. Countless 
others do essential things to defend our Nation that are seldom 
well known or recognized.
    We are fortunate as a Nation to have these remarkable 
special operators. We are deeply saddened by these losses.
    We have all been thankful for the success of our armed 
forces in Iraq, Afghanistan, and around the world in this 
global war against terrorism. While much will be debated for 
sure in the months and years ahead about the relative value of 
air power, sea power, and ground operations in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF), one thing 
is clear. The quiet warriors of Special Operations air, sea, 
and ground were trained, ready, and have performed 
magnificently. General Brown, you and your colleagues deserve a 
lot of credit for this high level of readiness.
    Fifteen years ago, Members of Congress recognized that our 
capabilities in the area of unconventional warfare, low-
intensity conflict, and special operations were not where they 
should be and convinced our colleagues to create a new Special 
Operations Command as part of a larger Department of Defense 
organization. The increasingly successful and sophisticated 
joint operations our armed forces are able to conduct, 
including the seamless inclusion of special operations, is a 
tribute to the joint warfighting concepts that were envisioned 
by the architects of the Goldwater-Nichols Act of 1986.
    The world has been amazed at pictures and stories of the 
special operators directing the 21st century weapons with 
devastating precision, leading and advising the forces of 
freedom, and silhouettes of parachutes descending on distant 
airfields. This is the face of special operations. This is our 
first line of defense that has been quietly fighting terrorism 
around the world for years. These are the forces on which we 
will increasingly depend to confront the emerging unexpected 
and unconventional threats of the future.
    Speaking for myself, I have been amazed at the pace our 
Special Operations Forces have maintained. While operations in 
Iraq and Afghanistan have been most visible, SOCOM has also 
continued to perform very critical missions all around the 
world, including in Colombia, the Philippines, and the Balkans, 
and military training missions elsewhere. Commando Solo, a 
flying broadcast studio manned by the Pennsylvania Air National 
Guard, has been beaming messages of freedom all over the world. 
Elements of the 20th Special Forces Group have been an integral 
part of operations in several active areas of operation. The 
same is true for Reserve components of our air and naval SOF 
components.
    Most of our civil affairs capabilities, much of our 
psychological operations (PSYOP) are in the Reserve components. 
They are all doing extraordinary essential things, but often at 
great personal sacrifice. General Brown, your thoughts on the 
effect of these very demanding operations on the total SOF 
would be appreciated.
    The nature of warfare may be fundamentally changing. 
Actually, it is fundamentally changing. Asymmetric, 
unconventional warfare seems to be coming the norm. If that is 
the case, our conventional forces have to be transformed to 
confront these increasingly conventional threats. What then is 
the face of future unconventional warfare? What skills and 
capabilities will our future Special Operations Forces need? 
How do we ensure our Special Operations Forces remain special, 
focused on the most unconventional emerging threats?
    The decision by the Secretary of Defense to give USSOCOM an 
expanded role as a supported combatant command, in addition to 
your traditional role as a supporting command to other 
combatant commanders with your special capabilities, is a 
decision I support. We must be able to respond to these global 
emerging threats in a timely and a unified manner.
    I do want to make sure, however, that we work closely 
together to ensure USSOCOM evolves in a manner that preserves 
your real agility, your uniqueness, invests in the right 
capabilities, and keeps you on the tip of the spear. We look 
forward to working with you, General Brown and USSOCOM, to 
ensure that our Special Operations Forces continue to be the 
very best in the world.
    I thank you again for being here today and for what you and 
your command do every day in defending our National security 
and our friends at home and abroad.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Let me welcome General Brown and Master Chief Rogers and 
Mr. Schulte here and echo the chairman's comments with respect 
to not only the extraordinary success of our special operators, 
but also the fact that in the course of these battles we have 
lost special operators, and we send out condolences to their 
families and we join everyone in expression of our great 
respect for what they do and what their comrades continue to 
do.
    I was speaking with General Brown just before the hearing 
and one of my colleagues, General Del Dailey, is deeply 
involved in special operations in the theater of war today. He 
is an extraordinary soldier and representative of all the 
special operators I have had the pleasure to know in my career 
and my professional life.
    We understand also that as the battle is concluded the 
special operators will be key in the next phase, which is the 
stabilization operation, which offers different challenges, 
maybe even more daunting challenges. I think that is something 
that we should be very much aware of. As we understand, today 
in Afghanistan special operators remain some of the key 
elements of our policy, just as they will remain in Iraq after 
cessation of the conventional hostilities has taken place.
    As we go forward, too, I think we also want to recognize 
and understand the needs for the Special Operations Command to 
revitalize and restore its equipment, its personnel, to bring 
back its soldiers and sailors and airmen, retrain them, re-
equip them. That is going to be a significant cost and I think 
we would like to begin at this hearing to understand the 
dimensions of that cost as we go forward and whether those 
costs have been recognized in your budget going forward, 
General Brown.
    We are all here today to say to you: Well done; an 
extraordinary act of courage and professional skill on behalf 
of the Nation and the world. I thank you for that.
    Mr. Chairman, I have a more formal statement which I would 
like to include in the record.
    [The prepared statement of Senator Reed follows:]

                Prepared Statement by Senator Jack Reed

    I join Senator Roberts in welcoming our witness, General Doug 
Brown, Commander of the Special Operations Command, as well as Command 
Master Chief Richard Rogers, and Harry Schulte, SOCOM's Acquisition 
Executive.
    I would like to highlight some recent SOF accomplishments just in 
the war on Iraq: securing Iraq's SCUD sites to prevent the launching of 
missile against Israel; securing airfields, and a dam on the Euphrates 
River; searching for weapons of mass destruction; seizing Saddam's 
palaces--and seizing our imaginations--by rescuing Private First Class 
Jessica Lynch from Iraqi captivity.
    Meanwhile, special operators are heavily engaged in the global war 
on terrorism. Army Special Forces are training the nucleus of a new 
Afghan military, and civil affairs units are working on projects in 
Afghanistan and the Philippines. Special Operations Forces including 
Navy SEALs and Air Force aviators, are on assignment in places like 
Colombia, Yemen, and Central Asia. For all their successes Special 
Operations Forces have also paid a price. Since September 11, 2001, 42 
special operators have been killed in action or in support of Operation 
Enduring Freedom, and 150 have been wounded.
    General Brown let me also express the condolences of this committee 
for the losses that your men and their families have suffered, and 
please accept our thanks for their continued outstanding work.
    This committee has a long tradition of interest in special 
operations. In 1986, the Nunn-Cohen amendment to the Goldwater-Nichols 
Defense Reorganization Act established the Special Operations Command 
and, within the Department of Defense, the position of Assistant 
Secretary of Defense for Special Operations and Low Intensity Conflict. 
Unfortunately, the position of Assistant Secretary for Special 
Operations and Low Intensity Conflict has remained vacant for 2 years. 
I join those members, including the Chairman, who have urged Secretary 
Rumsfeld to fill this critical position. I hope, General Brown, that 
you take our concerns back to the Department.
    The purpose of today's hearing is to examine special operations 
missions, operational requirements, and the command's 2004 fiscal year 
budget request.
    Unlike conventional military forces, who are charged with 
countering a wide range of military threats, Special Operations Forces 
are organized, trained and equipped for narrowly focused military 
operations. We have seen how Special Operations Forces have utilized 
their special capabilities, and how their successes have spawned new 
missions all over the world. Indeed, the Special Operations Command, 
has been directed by Secretary Rumsfeld to take the lead in planning 
and prosecuting the global war on terrorism as a fully-supported 
command.
    Today's hearing will focus on SOCOM's roadmap for the future. I 
look forward to learning more about how SOCOM will organize to conduct 
the priority missions of combating terrorism and preventing 
proliferation, as well as critical traditional missions including 
training foreign militaries.
    In addition, I hope to learn about ongoing and new research 
programs to support the special operator. With small, but significant 
investments in research and development in the past SOCOM is now able 
to provide its operators with more precise weapons, better night vision 
gear, and lighter and more capable radio and communications equipment. 
Indeed, in some cases the services have later procured this same 
equipment. I note that the budget request for research and development 
is $440.4 million, as compared to the $1.97 billion procurement 
request, and am interested in hearing from the command regarding the 
rationale for the level of funding for research and development for 
2004 and beyond.
    Finally, I also hope that we will hear about the SOF requirements 
for the next fiscal year and beyond, should operations in Iraq and 
elsewhere continue at the current level for your forces. My 
understanding is that the cost of replenishing stocks for 1 year is at 
least $300 million; I'd be interested to hear more about what you might 
need in future supplementals.
    Thank you, Mr. Chairman.

    Senator Roberts. Without objection, and thank you, Jack, 
for a very fine statement.
    General Brown.

 STATEMENT OF LT. GEN. BRYAN D. BROWN, USA, DEPUTY COMMANDER, 
   U.S. SPECIAL OPERATIONS COMMAND; ACCOMPANIED BY HARRY E. 
     SCHULTE, ACQUISITION EXECUTIVE AND SENIOR PROCUREMENT 
EXECUTIVE, U.S. SPECIAL OPERATIONS COMMAND; AND COMMAND MASTER 
CHIEF RICHARD M. ROGERS, USN, U.S. SPECIAL OPERATIONS COMMAND, 
                    SENIOR ENLISTED ADVISOR

    General Brown. Thank you, sir. Mr. Chairman, Senator Reed: 
It is a privilege to come before you this morning to speak 
about the United States Special Operations Command, or SOCOM, 
and the men and women that make up our command. I have a few 
points I would like to highlight at this time, but with your 
permission I would ask to enter my longer prepared statement 
into the record.
    Senator Roberts. Without objection.
    General Brown. Sir, you have already met Mr. Schulte and 
Command Master Chief Rick Rogers to my left and my right here, 
and with the subcommittee's permission I would like to invite 
these gentlemen to contribute in the forthcoming discussion as 
applicable.
    Senator Roberts. Certainly.
    General Brown. Mr. Chairman, your United States military is 
on the offensive against terrorism around the globe. The 
Special Operations Forces are the tip of the spear. Last year 
over 7,000 special operators were deployed to more than 150 
countries, providing regional commanders with a force 
unsurpassed in both agility and lethality. Today, in what is 
undoubtedly the most robust use of Special Operations Forces in 
the history of our military, we have significantly more than 
that number deployed in support of operations in Iraq.
    The recent successes achieved by our men and women during 
Operation Enduring Freedom and now during Operation Iraqi 
Freedom have given the world a much clearer insight into the 
skills and the dedication of American Special Operations 
Forces. Through your support, we continue to get even better.
    The United States Special Operations Command will now 
transform from being primarily a force provider to geographic 
commands to become a warfighting command with the additional 
mission of planning and execution of combat operations against 
terrorist organizations. I would stress, Mr. Chairman, that 
this expanded role as a supported commander is not meant to 
replace or otherwise marginalize the special operations 
organizations assigned to the regional combatant commanders. In 
fact, it is designed to dramatically increase the efficiencies 
of our operations by ensuring that we are totally synchronized 
and focused on the global war on terror wherever it breeds.
    With this additional added responsibility, comes additional 
resource requirements that will allow us to be better 
positioned around the world, have more responsive forces, 
ensure collaboration with our regional combatant commanders and 
the intelligence agencies, increase the needed planners at the 
theater Special Operations Commands (SOC) and at our own 
headquarters in Tampa, alleviate some of the high demand, low 
density issues, and overall give us more agility and 
flexibility around the world.
    At the Special Operations Command, we have built a Special 
Operations Joint Inter-Agency Collaboration Center to ensure 
there is no seam between our intelligence agencies and our 
planning and execution efforts. We have built a world-class 
Joint Operations Center. While in a temporary facility, it 
provides the needed connectivity to our forces currently around 
the world.
    Mr. Chairman, I am happy to report that the Department of 
Defense has worked very hard to ensure Special Operations 
Forces at every level have what they need to get the job done. 
While we have focused on the war on terror, we have not lost 
any momentum in our extremely important ability to rapidly 
design, build, acquire, and field the best equipment possible 
for our operators on the ground, in the air, and at sea.
    Congress empowered the command to develop and acquire 
special operations-peculiar equipment, material, and services. 
We have implemented streamlined and cost-effective processes to 
provide our SOF soldiers, sailors, and airmen with the 
technology and equipment they need to execute their myriad of 
warfighting and peacetime missions.
    Our fundamental philosophy within the command is to 
expedite an 80 percent solution to our troops while working 
with the warfighters and industry to address the remaining 20 
percent of the requirement. We leverage the Services, other 
agencies, and their development programs to look for technology 
to apply to our special operations needs. At the end of the 
day, the warfighter has the tools necessary to fight the most 
committed enemy across the spectrum of conflict.
    The President's new budget will increase the command's 
annual funding approximately $1.5 billion to a total of $6.7 
billion in fiscal year 2004. This additional funding will allow 
us to increase procurement and research, development, test, and 
evaluation (RDT&E) in the programs vital for the success of our 
force. These include CV-22, the MH-47G, the AC-130U gunships, 
and a myriad of command, control, communications, computers, 
and intelligence (C\4\I) initiatives and operator equipment.
    Mr. Chairman, the current state of SOF capabilities is 
strong, but to meet the evolving capabilities of potential 
adversaries we must invest now to ensure reliable support for 
the defense strategy. Our people are certainly our most 
important asset. We will not forget that. But maintaining and 
improving materiel capabilities remains one of the command's 
most difficult challenges. Special Operations Forces must keep 
its equipment up-to-date while keeping the costs for sustaining 
its warfighting systems under control.
    We depend on leading edge technologies to provide critical 
advantage and to support participation in the growing number of 
technologically complex missions and operations. On the 
horizon, we see promising technology maturing that will help to 
keep our forces on the cutting edge. SOCOM is working closely 
with industry, the national labs, with academia, to insert 
these technology thrust areas for the future. These thrust 
areas address the gaps we see in technology and offer the 
command the greatest opportunity for technological payback.
    They will include signature reduction, high bandwidth 
reachback communications, underwater communications, unmanned 
systems, battery and fuel cells, remote sensing, advanced 
training systems, bioengineering, and directed energy weapons. 
Additionally, the command will be able to meet its critical 
force structure requirements that will support the increased 
effort to defeat terrorism around the globe.
    The Department's recognition and support for our manpower 
requirements will result in an end strength increase of almost 
4,000 people over the next 5 years. I believe it is worthy of 
mentioning that SOCOM has also worked closely with the 
Department of Defense to find funding for the much-needed 
state-of-the-art warfighting center to be located at our 
headquarters in Tampa, Florida, a facility that will afford us 
the highest level of efficiency and integration as we plan the 
war on terrorism.
    Finally, Mr. Chairman, I would like to mention the special 
operators who have made the ultimate sacrifice since September 
11th, 2001. Daily the press reports just a small sample of the 
amazing missions being done in OEF and OIF. Our people are 
engaged on the battlefield nightly performing the full spectrum 
of missions that mark special operations. They are working at a 
level of intensity, sophistication, and commitment never before 
seen in the history of special operations and, quite frankly, 
they are amazing.
    These men and women, several who have been wounded, and all 
the special operators who put their lives on the line around 
the world are some of America's truest heroes. I would 
therefore like to close by acknowledging the great support that 
you and the other committee members have given our soldiers, 
sailors, airmen, marines, and our civilians, and thank you for 
the opportunity to be here today. I look forward to addressing 
your questions.
    [The prepared statement of General Brown follows:]

           Prepared Statement by Lt. Gen. Bryan D. Brown, USA

    Mr. Chairman and distinguished members of the subcommittee, it is 
an honor and privilege to report to you on the state of the United 
States Special Operations Command (USSOCOM) and Special Operations 
Forces (SOF). I am pleased to report that SOF remain the most capable 
and ready force in the world today.
    We have seen great change in our Nation as America takes action 
against terrorism. USSOCOM has been a key player in that response. I 
will report to you on how we are facing two critical challenges and 
provide an overview of our fiscal year 2004 budget request. The two 
challenges addressed are fighting terrorism on a global scale and 
transformation.
    Let me first address the war against terrorism on a global scale. 
USSOCOM has been at the forefront of this fight since initiation of 
combat operations following the September 11 attacks. Given the 
character of this war and the stakes involved, SOF is on the offensive. 
The aspect of today's international terrorist is far different than in 
the past, as terrorists now have global reach, infrastructure, and 
significant resources. The attacks on our Nation on September 11, 2001, 
clearly demonstrated that determined terrorists will go to any lengths 
to inflict catastrophic losses on Americans, regardless whether they 
are civilians or military personnel. Of greater importance is the fact 
that these terrorists have chemical, biological, nuclear, and high-
yield explosive weapons and the desire to kill as many Americans as 
possible and undermine our Nation's interests and influence around the 
world.
    SOF play a vital role in combating and defeating global terrorism, 
by disrupting terrorist organizations and bringing their members and 
supporters to justice . . . or by taking justice directly to them. The 
mission of USSOCOM is expanding to planning direct combat missions 
against terrorist organizations around the world and executing those 
missions as the supported command, while maintaining the role of force 
provider and supporter to the geographic combatant commanders. To meet 
this challenge, USSOCOM must establish command and control 
infrastructures which complement the geographic combatant commanders 
and invest in programs and systems improving SOF's speed, agility, 
precision, lethality, stealth, survivability, and sustainability. 
USSOCOM must also be forward-deployed for rapid response. The 
requirement to plan, synchronize, and execute operations on a global 
scale necessitate a globally capable SOF ready for full spectrum 
integrated operations.
    Full spectrum integrated SOF are the refinements that must occur to 
tailor SOF capabilities for the war on terrorism. These SOF 
capabilities will ensure greater operational agility, flexibility and 
mobility, sufficient global command and control, focused intelligence, 
signature reduction, and a collaborative planning environment that 
facilitates simultaneous multi-echelon planning. Additionally, SOF 
capabilities must continue to address other national and military 
strategies, including homeland defense and forward deterrence, swiftly 
defeating the efforts of adversaries and decisively winning lesser 
contingencies.
    All personnel of USSOCOM--active duty, Reserve component, and 
civilians, are engaged in this multi-front global war on terrorism 
(GWOT). The battlefield successes in this campaign have proven again 
and again the foresight of Congress in the creation of USSOCOM. Our 
organizational flexibility and streamlined acquisition and resourcing 
authorities continue to allow unequaled response to the needs of our 
operators. The capability of conducting joint operations is enhanced by 
synchronizing SOF, which include Army Special Operations Aviation, 
Special Forces, Rangers, Civil Affairs, and Psychological Operations 
forces; Air Force Special Operations Aviators and Special Tactics 
Squadrons; and Navy Sea, Air, and Land (SEAL), SEAL Delivery Vehicle 
Teams, and Special Boat Teams.
    The continuing action in Afghanistan is a great example of how 
joint warfighting has evolved from the Goldwater-Nichols legislation as 
a powerful and precise tool to support our Nation's vital interests. 
Daily Civil Affairs teams and other SOF continue to play an active role 
in Afghanistan to ensure we win the peace. Our activities in Operation 
Enduring Freedom have given the world a much clearer insight into the 
skills, dedication, and power across the spectrum of America's SOF, 
specifically as part of a larger joint and interagency team--each 
bringing their specific skills and capabilities to the team. The 
ability to win across the spectrum of military operations requires 
seamless joint teamwork and USSOCOM is privileged to team with the 
Services to create the best warfighting capability the world has seen.
    Our other opportunity is transformation. The hallmark of SOF is 
that they are always open to change and ``out of the box'' thinking. 
Transformation embodies our SOF core values . . . integrity, courage, 
competence, and creativity. The success of change and transformation is 
the ability to maintain the goodness of the past, while taking 
calculated risks that promise competitive advantages on the battlefield 
for our future forces. We must change to ensure that we have maximized 
the ability of the human to think and problem solve, while taking 
advantage of the rapid pace of technology. Transformation is not about 
equipment, it is about a holistic approach producing sweeping advances 
for the individual, to the organization structure, to the appropriate 
application of technology to build the right capability at the right 
time to defeat any threat ensuring the safety of our Nation now and 
into the future. Transformation of SOF is a journey, not a destination 
and there is no mark on the wall that will indicate we are finished 
transforming.
    While SOF activities remain constant, the context of how and the 
manner in which they are executed has changed significantly. 
Traditionally, SOF were employed as a force multiplier to wage war 
against other nation states. Traditional warfare focused on the 
destruction of large massed armies, navies and air forces. Supporting 
intelligence communities developed capabilities to locate and track 
these large enemy combat elements. In traditional conflicts, the main 
effort was expended on the physical destruction of the enemy's military 
capability during large battles. USSOCOM is transforming intelligence 
and interagency capabilities not to locate and destroy large enemy 
combat elements, but to locate and track individual terrorists across 
the globe and conduct small surgical operations with minimal risk to 
the employed force.
    In addition to the war on terrorism, our forces are still committed 
to the geographic combatant commander's theater security cooperation 
plans. These include the European Command (EUCOM)-led campaign in 
Bosnia and Kosovo, the Pacific Command's (PACOM) support to combating 
terrorism in the Philippines and exercises with our allies in the 
Republic of Korea, Southern Command's (SOUTHCOM) narco-terrorism 
programs, providing crucial SOF for Central Command's (CENTCOM) combat 
operations including Operation Enduring Freedom, as well as cooperative 
efforts with Joint Forces Command (JFCOM) and the newly established 
Northern Command (NORTHCOM).

                                STRATEGY

    Our broad, yet unique, mission areas and capabilities allow us to 
make a number of important contributions to the National Security 
Strategy, especially in the war on terrorism. Although SOF cannot 
address every crisis, we provide policymakers an expanded set of 
options for rapidly resolving strategic crises with relatively limited 
resources, fanfare, and risk. Our ubiquitous presence as ``Global 
Scouts'' serves to assure our allies and friends of the United States' 
resolve. SOF's selective and integrated participation in support of 
Theater Security Cooperation Plans (TSCP) to include: Joint Combined 
Exchange Training (JCET), Humanitarian Demining (HD), Humanitarian 
Assistance (HA), Narco-Terrorism (NT), and Foreign Internal Defense 
(FID) programs which provide tangible benefits in support of war on 
terrorism objectives and geographic combatant command strategies while 
building rapport with our friends and allies.
    The global presence of SOF and our unique capabilities dissuade 
potential adversaries by disrupting their planning, while providing the 
President and Secretary of Defense a wider array of options for dealing 
with potential adversaries. Forces organized, trained, and equipped to 
execute the SOF principal missions of combating terrorism and 
counterproliferation of weapons of mass destruction also provide 
critical deterrence against adversaries that might contemplate 
producing or employing these weapons against the homeland or our 
friends and allies. SOF can deter threats and counter coercion through 
the deployment and employment of forces specially tailored to counter 
adversaries' capabilities through direct and surrogate means.
    By operating ``in the seam'' between peace and war, SOF can address 
transnational and asymmetric threats through direct military means or 
concerted action with conventional military forces or other government 
agencies. SOF help shape the pre-conflict environment, setting the 
conditions so they are favorable to U.S. objectives and provide a 
strategic economy of force in areas of the world left uncovered by the 
commitment of conventional forces to other priorities.

                        EXPANDED ROLE OF USSOCOM

    While our Nation is at war, we realize this war is unlike any other 
ever fought. It is a war without formal declaration, concrete 
resolution, nation state boundaries, and against adversaries willing 
and able to strike directly against our homeland or our citizens 
abroad. It is a potentially interminable war in which our adversaries 
are likely to use weapons designed to cause catastrophic injury to our 
citizens and our way of life.
    The nexus of the Department of Defense's counterterrorism global 
war on terrorism effort is at USSOCOM. Our strategy encompasses the 
entire spectrum of special operations missions, capabilities and 
methods; then incorporates conventional capabilities, as necessary, for 
mission success. USSOCOM's nine legislated activities remain relevant 
in determining our missions and activities in the fight against 
terrorism. Our overarching strategy is focused initially on disrupting, 
defeating, and destroying al Qaida. The main effort is directed against 
the al Qaida operational center of gravity, their senior leadership. To 
accomplish this strategy, USSOCOM is employing SOF simultaneously 
worldwide through focused deployments to priority regions in order to 
prepare the battlespace, both physically and psychologically, and set 
the conditions for global war on terrorism operations. As the situation 
develops and terrorist targets are located, operations are conducted to 
further identify and acquire the target, followed by combat operations. 
The overall intent is to seize and maintain the initiative through 
constant pressure against known or suspected terrorist organizations 
and infrastructure.
    As USSOCOM's role expands, this will generate changes in our 
manpower, organizational structure, facilities, equipment, and special 
programs relating to the expanded responsibilities. As we assess the 
specific changes needed to meet these expanded operational 
requirements, we will continue to collaborate with the other combatant 
commands and interagency partners that have key information operations 
(IO) supporting responsibilities in order to accomplish our changing 
mission in a responsible, coordinated manner.

                         COMMAND RELATIONSHIPS

    Our headquarters organization and activities are changing 
dramatically to fight the war on terrorism. As the lead supported 
commander for planning the Department's global war against terrorist 
organizations, USSOCOM will plan and selectively execute combat 
missions against terrorists and terrorist organizations around the 
world. In order to most effectively enhance our ability to respond as 
both a supported and supporting command, we are formulating the 
integration of our intelligence, operations and planning, and analysis 
divisions into a single facility. The effect will be a synergy of 
talent into a single entity which will significantly enhance and focus 
our unique warfighting capabilities.
    Our planning efforts will focus on the development of recommended 
courses of action to the Secretary of Defense and the Chairman, Joint 
Chiefs of Staff. Our focus is campaign planning, prioritization of 
targets and missions, development and tasking intelligence collection 
planning, and employment of SOF and conventional forces. As the 
supported command for planning and possibly execution, we conduct 
planning and determine forces, tactics, methods, procedures, and 
communications for employment. We are also developing the processes and 
organizations required to collaboratively draft, coordinate, and 
globally synchronize plans and operations. These forces could include 
any of our Special Operations Forces or part of the Theater Special 
Operations Command (TSOC), but may also include conventional forces, as 
necessary.
    During the execution phase, USSOCOM will conduct detailed planning 
and execute the approved courses of action using the TSOC or a Joint 
Task Force or Joint Special Operations Task Force as our operational 
and tactical coordinator. This is a significant and transformational 
change in strategic military command and control and will require a 
major adaptation of USSOCOM headquarters and the geographic combatant 
commanders' TSOCs.
    The geographic combatant commander's area of responsibility in 
which the operation is to be executed supports our request for forces 
by providing operational control of the forward deployed forces 
necessary to execute the approved courses of action, in accordance with 
the Department's deployment order. USSOCOM will be prepared to conduct 
follow-on operations based upon exploitable intelligence and 
operational opportunity.
    We have formed a collaborative planning environment through the 
geographic combatant commands' staff and interagency liaisons. The 
collaborative planning identifies interagency requirements, issues 
planning guidance as appropriate, reviews, validates, and submits plans 
with recommended delegation of command relationships for execution for 
Departmental approval. This command relationship recommendation may not 
always recommend USSOCOM as the supported command, but may in fact, 
recommend the geographic combatant commander as the supported command 
and USSOCOM will remain in its traditional role as supporting command. 
In that instance, during planning, the geographic combatant commands' 
staff (designated as the supported command for execution) determines 
the forces, tactics, methods, procedures, and communications for 
employment. During execution, the geographic combatant command's staff 
executes the approved courses of action, collaborates with USSOCOM, and 
provides post-operation assessments. The geographic combatant command 
will be prepared to conduct follow-on operations based upon exploitable 
actionable intelligence and operational opportunity.
    USSOCOM's traditional role of a ``supporting'' command; responsible 
for providing trained and equipped SOF to the geographic combatant 
commanders is thus a ``supported command for planning'' and, when 
necessary, ``supported command for execution'' within the geographic 
combatant commands' areas of responsibility. Under these 
circumstances--supporting or supported for execution--a flexible 
command relationship structure that exploits the command and control 
capabilities already present in the geographic combatant commanders' 
staff. This will enable us to prosecute missions supporting the war on 
terrorism will allow USSOCOM to focus our energies toward the execution 
of only the most critical counterterrorist operations as the supported 
commander for execution.

           TRANSITION AND SHARING OF SOF EMPLOYMENT TASKINGS

    SOF are traditionally small, highly trained, specifically 
organized, and uniquely equipped to perform missions conventional 
forces are not trained, organized, or equipped to perform. To better 
focus our efforts in the war on terrorism, the Department and USSOCOM 
are conducting reviews of the SOF principal missions and collateral 
activities in order to identify the mission employment taskings 
currently performed by SOF that could be transitioned or shared with 
our conventional force partners or other governmental agencies. Our 
measuring stick is those missions, tasks, and activities as they 
pertain to access, intelligence development, and operational 
preparation to prosecute combat operations in the war on terrorism. SOF 
routinely consider leveraging conventional forces and interagency 
partners to perform certain missions. However, if a mission task does 
not align directly or indirectly with the war on terrorism, or provide 
access to a significant area or objective, SOF have the ability to 
transition or load-share these tasks with conventional forces. Examples 
of this load-sharing are the Georgia Train and Equip missions and 
personal security detail for Afghanistan's President Karzai, which were 
transitioned to conventional forces or other government agencies--
seamlessly. Future SOF deployments should identify at the time of 
deployment a conventional force to be prepared to assume the mission 
taskings as they are identified and when the unique capabilities of SOF 
are no longer required, both operational and support. The transition of 
SOF employment taskings to a conventional force, while prioritizing and 
focusing all SOF deployments, in coordination with geographic combatant 
commanders, is essential to our continued success in planning and 
executing the war on terrorism.

                     STRATEGIC CHALLENGES AND RISK

    We know that current terrorist networks are linked with non-state 
actors with very different local strategies but mutually self-
supporting goals. These nodes operate across international boundaries, 
spanning and circumventing current geographic constructs. The imprecise 
nature of terrorist goals and the ambiguous international environment 
have nullified traditional responses. This dangerous mix catapults the 
need for an extremely sophisticated joint, interagency, combined and 
coalition strategy to unparalleled levels, which currently challenge 
our Nation to unprecedented levels.
    Global access is vital to the preservation of U.S. national 
security and SOF must have the ability to access and operate anywhere 
in the world, in any mission environment, from benign to hostile. SOF 
maintain access and an understanding of local issues through geographic 
orientation, cultural acuity, and continued forward presence and 
security cooperation. Although theater security cooperation events 
provide SOF access to most parts of the world, SOF must retain the 
ability to operate where U.S. forces may be unwelcomed or opposed 
through unconventional warfare methods. Potential adversaries are 
acquiring weapons and developing asymmetric capabilities to deny United 
States forces access to critical theaters of operations in a crisis. As 
first responders--global scouts, pathfinders, and door openers--SOF set 
the stage for follow on forces.
    The risks facing USSOCOM include Operational Risk during 
preparation of the battlespace encompassing Force Management Risk, and 
Future Challenges Risk. Operational Risk is the ability of a force to 
achieve military objectives in a near-term conflict or other 
contingency. Force Management Risk is the ability to recruit, train, 
retain, and equip sufficient numbers of quality personnel and sustain 
the readiness of the force while accomplishing its many operational 
tasks. Lastly, Future Challenges Risk, refers to the ability to invest 
in new capabilities and develop new operational concepts needed to 
dissuade or defeat mid- to long-term military challenges.
    Like the Services, SOF have reduced operational risk by 
reallocating resources from its modernization and recapitalization 
accounts to fund current readiness. Nevertheless, SOF will require 
significant enhancements in capability, capacity and speed of response 
enhancements to meet all priorities. SOF may have to accept operational 
risk in some areas in order to build new operational capabilities. Some 
key issues associated with operational risk include: sizing the force 
to conduct effective operations, optimizing basing to support strategic 
objectives, and improving SOF strike and mobility capabilities.
    In many respects force management risk is the most critical problem 
facing SOF. The special operations community must retain its 
experienced and seasoned personnel to gain the significant return on 
investments made in the areas of assessment, selection, training, and 
education. For example, today's Green Beret is the only operational 
specialty that requires a foreign language for qualification--a 
critical skill that must be retained as we posture for future 
operations. Some key issues associated with force management risk 
include: retention of mid- and senior-grade personnel and growing the 
force to meet current as well as emerging operational requirements.
    Dealing with future challenges will require force transformation--
where these challenges can be overcome by using fundamentally different 
organizations, tactics, techniques and procedures than those used by 
today's forces. Some key issues associated with Future Challenge Risk 
include improving trans-regional information capabilities to support 
global operations; building a linguistically, culturally and ethnically 
diverse force; improving capabilities to operate for extended periods 
in anti-access environments; providing force protection in adverse 
environments; improving ground-directed fire support; and improving 
capabilities to operate in urban environments.

                   TRANSFORMATION AND REORGANIZATION

    SOF must continue to operate effectively in joint, combined, and 
interagency environments while also fusing capabilities that reflect 
U.S. political, military, economic, intellectual, technical, and 
cultural strengths into a comprehensive approach to future challenges. 
USSOCOM, therefore, embraces the process of transformation in a 
disciplined manner that allows the command to move towards its goal of 
full-spectrum, integrated SOF. Our use of full-spectrum, integrated SOF 
will allow us to tap into diverse areas, such as commercial information 
technologies, utilization of space, biomedicine, environmental science, 
organizational design and commercial research and development. All 
aspects of SOF--the organization, force structure, platforms, 
equipment, doctrine, tactics, techniques, procedures, and missions--
must continuously transform to meet the needs of the Nation and seize 
the opportunities manifested by change.
    As we develop the tools to conduct our expanded mission in the 
fight against terrorism, we must transform our headquarters into one 
that includes the traditional train, organize, and equip mission with 
the capability to plan and execute the warfight against terrorism. Our 
component commands face this same challenge. Some areas already being 
addressed include the growth in our warfighting staff to build an 
organization oriented on the expanded mission of an operational 
headquarters without degrading the necessary work of our resourcing and 
acquisition headquarters. We have also developed a 24-hour joint 
operations center with the connectivity to work with the geographic 
combatant commanders and the TSOCs and a Campaign Support Group from a 
myriad of commands and interagency partners. In the near future we will 
see these activities consolidated into a ``state of the art'' 
warfighting center.
    The 21st century SOF warrior--selectively recruited and assessed, 
mature, superbly trained and led--will remain the key to success in 
special operations. These warriors must be capable of conducting 
strategic operations in all tactical environments--combining a warrior 
ethos with language proficiency, cultural awareness, political 
sensitivity, and the ability to maximize information age technology. We 
must also have the intellectual agility to conceptualize creative, yet 
useful, solutions to ambiguous problems, and provide a coherent set of 
choices to the combatant commands or Joint Force Commander.
    People will always remain the most important component of SOF 
capability. However, future SOF will use technological advances more 
effectively. Technology improvements will allow commanders to track and 
communicate discretely with SOF in the field. Improvements in unmanned 
vehicle technologies will provide better precision fire, force 
protection, personnel recovery, and logistics support. SOF must develop 
new competencies and enhance existing ones in support of critical 
national requirements, including the ability to locate, tag, and track 
mobile targets and support trans-regional information operations.
    USSOCOM is focused on providing the most accurate and complete 
intelligence support to our tactical commanders and deployed forces. We 
do this by leveraging national, theater, and Service intelligence 
resources with our SOF-peculiar systems and intelligence professionals. 
USSOCOM's commitment to transformation is demonstrated by the Special 
Operations Joint Interagency Collaboration Center (SOJICC) in the 
Special Operations Joint Intelligence Center. Established in 2001 to 
assure consistent and cohesive collaboration with national efforts, our 
SOJICC is a dynamic interagency, collaborative, network-centric 
environment that uses advanced computing capabilities and nodal 
analysis to rapidly process, fuse, and visualize all-source 
intelligence to support decisionmaking. USSOCOM is committed to 
discovering other ways to exploit and build upon our country's 
intelligence, surveillance, and reconnaissance advantages and to 
utilize the latest technologies to provide enhanced intelligence 
support to our deployed SOF in our expanded strategic role.
    USSOCOM continues to transform our PSYOP force structure and 
capabilities to improve our support to geographic combatant commander's 
influence initiatives, and ongoing military operations. Lessons learned 
from multiple contingency operations, including Operation Enduring 
Freedom, identified a requirement to increase our PSYOP force structure 
to meet the demands of the geographic combatant commanders. The 
Department of the Army agreed to crosswalk the necessary manpower in 
order to activate two additional active duty and four Reserve 
Geographic PSYOP Companies. To modernize our PSYOP force we are 
proposing an Advanced Concept Technology Demonstration (ACTD) that will 
explore emerging technologies to increase the dissemination range of 
our PSYOP products into denied areas and develop state of the art PSYOP 
analytical planning tools. We are also modernizing our PSYOP EC-130E 
Commando Solo television and radio broadcast aircraft by cross-decking 
the EC-130E into the newer EC-130J model.
    We have also developed a new construct in joint warfighting with 
the fusion of a Marine Corps USSOCOM Detachment into one of our Naval 
Special Warfare Squadrons. Naval Special Warfare Command (NSWC) 
continues to pioneer U.S. Navy warfighting capabilities to support 
special operations in the war on terrorism. NSWC is the lead agent on 
the establishment of the SOF module on the Littoral Combat Ship (LCS) 
and evaluating SOF modifications for U.S. Navy rotary wing programs. In 
addition, NSWC's transformation efforts include unprecedented 
experimentation in the new SSGN conversion effort. Our Naval Special 
Warfare component is also collaborating with the Department of the Navy 
to pursue technologies and concepts in unmanned undersea and air 
reconnaissance vehicles and sensors for persistent intelligence, 
surveillance, and reconnaissance (ISR), and courses of action required 
for enhancing asymmetric operations to find, fix, and finish non-state 
threats such as the global war on terrorism.
    USSOCOM and the Marines have signed an agreement to establish the 
initial Marine Corps force contribution to SOF, which will jointly 
train and deploy with naval special warfare in the spring of 2004.
    Finally, and most important, the improvement of SOF training, 
education, and experience contributes to the development of SOF's 
capability. Doctrine, organization, and materiel factors have additive 
value to the force; leadership and personnel factors, however, 
exponentially multiply investments in doctrine, organization, and 
materiel. As training, education, and experience influence the quality 
and effectiveness of leadership, these variables have the greatest 
long-term effect on SOF capabilities. In order to maintain strategic 
flexibility and maximize the likelihood of operational success, SOF 
will increase their commitment to ``train for certainty, educate for 
uncertainty.''
    USSOCOM's expanded mission and organizational changes constitute a 
new vector that will require a continual effort to refine our 
Transformation Roadmap based on this new azimuth. USSOCOM will be a 
hybrid of the geographic combatant commanders and a specified command 
for Special Operations support. More than ever, our transformation is 
truly a process, not a destination.

                         BUDGET AND ACQUISITION

    One of the strengths of the command, thanks to the wisdom of 
Congress, was the establishment of a separate Major Force Program 
(MFP), MFP-11, for SOF along with the requisite acquisition and 
research, development, test and evaluation (RDT&E) authority. It is a 
powerful tool that allows us to quickly meet the soldier, sailor, or 
airman's equipment needs. This is accomplished by a world class 
acquisition center at Tampa, made up of folks who live by some very 
specific and exacting acquisition principles. Our fundamental 
acquisition strategy is to rapidly field the 80 percent solution while 
working with the warfighters and industry to continue to address the 
last 20 percent.
    Our expanded role in the war on terrorism has resulted in expanded 
resources as the Department recognized the challenges confronting SOF 
and the Nation. Our fiscal year 2004 budget request is $6,735 million, 
1.8 percent of the Department of Defense budget. A summary and some 
highlights of SOF's fiscal year 2004 request is provided below.
Military Personnel
    Today, the relative health of the special operations community 
remains strong. The long-term stabilization of our health depends upon 
continued efforts to ensure our people experience a quality of life 
commensurate with their hard work and their dedication to duty. 
Increased pay and allowances and special pays are crucial to the 
continued health of our community. It is imperative that we continue to 
improve military pay and allowances and fund the Reserve component 
military pay for additional schools as well as training days necessary 
for Reserve component SOF Military Personnel (MILPERS) requirements. 
Congressional support is a powerful signal to our deserving men and 
women and will have a tremendous impact on our future health and 
readiness.
    The total SOF end strength for fiscal year 2004 will grow to 49,848 
manpower resources with about one-third of our military manpower in 
Reserve component units. Thanks to the Department's recognition of a 
need for more SOF, and the Services' cross-walking end strength to SOF, 
we will see an end strength increase of 3,869 over the next 5 years.
    This end strength growth primarily supports the manning 
requirements to wage the global war on terrorism. The increases are 
focused on fixed and rotary-wing aviation, SEAL teams, Civil Affairs 
(CA), PSYOP, TSOCs, and support to USSOCOM as the supported combatant 
commander in the war on terrorism. While USSOCOM budgets for SOF 
personnel, the Services execute the funds. For fiscal year 2004 our 
MILPAY request totals $2,210.8 million.
Operation and Maintenance (O&M)
    Operation and Maintenance (O&M) is the heart of maintaining SOF 
operational readiness. O&M includes the day-to-day costs of SOF unit 
mission activities, such as civilian pay, travel, airlift, special 
operations-peculiar equipment, equipment maintenance, minor 
construction, fuel, consumable supplies, spares and repair parts for 
weapons and equipment, as well as the headquarters functions of USSOCOM 
and its Service components. Our fiscal year 2004 O&M request is 
$1,994.1 million. An additional $12 million supports SOF from MFP-3 
(command, control, communications, and intelligence [C\4\I]) O&M funds.
    Operating forces include the necessary resources for SOF tactical 
units and organizations, including costs directly associated with unit 
training, deployments, and participation in contingency operations. 
Resources support civilian and military manpower, SOF peculiar and 
support equipment, fielding of SOF equipment, routine operating 
expenses, and necessary facilities.
Procurement
    Along with the authority to budget and program for SOF activities, 
USSOCOM also has the authority to develop and acquire Special 
Operations peculiar equipment to prepare SOF to carry out their 
assigned missions. This provides the warfighter with the tools 
necessary to fight not only the most committed industrial age power, 
but also the means to fight entities that would and could wield 
influence through terror by any means. USSOCOM's fiscal year 2004 
procurement request is $1,978.3 million, an increase of over $1 billion 
over the amount appropriated in fiscal year 2003. Speaking of fiscal 
year 2003, we would like to thank Congress for the procurement 
increases received--over $137 million--including the transfer of funds 
from the Defense Emergency Response Fund.
    The current state of SOF capabilities is strong, but to meet the 
evolving capabilities of potential adversaries, we must invest now to 
ensure reliable support for the Defense Strategy. USSOCOM's aim in 
pursuing technological transformation is to guarantee our forces remain 
relevant to any fight, and ensure we minimize risk to our Nation's 
vital interests.
    To enhance our force projection capabilities, we must continue to 
invest in programs to improve strategic mobility, force protection, 
research and development, and information dominance.
    Our Air Force Special Operations rotary-wing capabilities must 
remain safe, sustainable and relevant. We are working to ensure the 
airworthiness and defensive system capabilities of our MH-53 
helicopters to allow them to fly in the threat environments they face 
on the battlefield.
    The heart of our future rotary wing capability as we transform Air 
Force special operations to the CV-22 is the rotary-wing upgrades and 
sustainment funding provided for critical improvements to our Army 
special operations aircraft. These aircraft must be capable of 
operating at extended ranges under adverse weather conditions to 
infiltrate, reinforce, and extract SOF. The fiscal year 2004 budget 
provides ongoing survivability, reliability, maintainability, and 
operational upgrades as well as procurement and sustainment costs for 
fielded rotary wing aircraft and subsystems to include forward-basing 
of MH-47 helicopters. In fiscal year 2004, the Department made a 
concerted effort to mitigate our most pressing problems associated with 
SOF low density/high demand rotary wing assets. In particular, the MH-
47 inventory was increased by 16 aircraft in fiscal year 2004 by 
diverting CH-47D aircraft from the Army's service life extension 
program (SLEP) production line to the SOF MH-47G production line to 
help alleviate USSOCOM's critical vertical lift shortfall due to battle 
damages. We are grateful to the Army for their support. The MH-60 fleet 
begins a major program in fiscal year 2004 to extend its useful life, 
which will significantly upgrade our MH-60 fleet. Improvements to both 
fleets will enhance SOF's ability to conduct both medium and long range 
penetration into denied or sensitive areas. These programs will keep 
our Army rotary wing relevant well past 2020.
    The command is committed to the CV-22 aircraft and its unique 
capabilities. We will continue to assure the CV-22 is safe, reliable, 
and maintainable for SOF. The long-range, high speed, vertical lift CV-
22 fills a long-standing SOF mission requirement not met by any other 
existing fixed or rotary wing platform. The Navy is the lead Service 
for the joint V-22 program and is responsible for managing and funding 
the development of the baseline V-22, Osprey. The Air Force will 
procure and provide the fielding of 50 CV-22 aircraft and purchase 
service common support equipment for USSOCOM. Initial Operational Test 
and Evaluation will be conducted as soon as practical, after 
Developmental Test is complete. The support we have received from the 
Department for an additional test aircraft will significantly reduce 
the technical and schedule risk for this ``flagship'' program. USSOCOM 
will continue to fund the procurement of SOF peculiar systems for the 
CV-22 such as the terrain following/terrain avoidance radar, and 
electronic and infrared warfare suites.
    The fiscal year 2004 AC-130U Gunship program continues modification 
of four additional C-130Hs into the gunship inventory. C-130 
modification programs provide for numerous survivability and capability 
modifications to our C-130 fleet. The Department accelerated the MC-
130H Combat Talon II aerial refueling modifications to fiscal year 2004 
because this capability is crucial to the war on terrorism. In 
addition, the Air Force is providing USSOCOM 10 additional C-130Hs to 
convert to MC-130Hs. This increased capability will make up for 
attrition losses, enable SOF to forward-station additional rapid 
mobility assets, and allow us to assure our allies through increased 
forward presence. In fiscal year 2004, we will continue programs 
including the Directed Infrared Counter Measure (DIRCM) Laser and 
several modifications to our Commando Solo fleet.
    The Advanced SEAL Delivery System (ASDS) is a specially designed 
combatant submarine that will provide clandestine undersea mobility for 
SOF personnel and their mission support equipment. The ASDS is capable 
of operating in a wide range of threat environments and environmental 
extremes, providing increased range, payload, communications, loiter 
capability and protection of SOF personnel from the elements during 
transit. The ASDS provides a quantum leap in our undersea mobility 
capability. ASDS boat #1's Initial Operational Capability is planned 
for third-quarter, fiscal year 2003. In fiscal year 2004, program 
activities for the ASDS will continue to focus on procurement of long 
lead material items to support ASDS boat #2 fabrications and the 
development of technology improvements in the areas of sensors, cameras 
and communications. The ASDS is the only capability of its kind in the 
world.
    In addition to the ASDS, USSOCOM remains committed to the Navy's 
SSGN program, converting four Ohio Class Ballistic Missile Submarines 
into dual role Strike/SOF platforms that will provide SOF with 
unprecedented worldwide access for both the ASDS and the SEAL Delivery 
Vehicle. The transformational changes incorporated into the SSGN will 
allow SOF to deploy a larger and more flexible force package than has 
ever been possible. Additionally, the command, control and 
communications capabilities designed into these platforms will permit 
SOF to operate independent from, or in conjunction with, any land or 
sea-based Joint Task Force.
Research, Development, Test and Evaluation (RDT&E)
    We must continue to invest in making our SOF more capable in all 
environments. Our Research and Development (R&D) activities focus on 
exploiting technologies to improve SOF Command, Control, 
Communications, Computers, and Intelligence (C\4\I), mobility, weapons, 
and survivability. Our R&D program, while modest, is producing great 
capability enhancement products. USSOCOM's fiscal year 2004 RDT&E 
request is $440.4 million, as compared to $512.5 million in fiscal year 
2003.
    Two examples of capability enhancement products are our National 
Systems Support to SOF and our Advanced Tactical Laser (ATL) Advanced 
Concept Technology Demonstration programs.
    The National Systems Support to SOF project is successfully 
integrating national intelligence systems capabilities into the SOF 
structure. For example, the project is rapidly transitioning Blue Force 
Tracking equipment from development to operational use by SOF deployed 
in Operation Enduring Freedom. These systems enable command and control 
elements, as well as combat search and rescue elements, to identify and 
track friendly forces. They also significantly increase our capability 
to execute surgical strike missions in the proximity of friendly forces 
by providing an effective means to distinguish between friendly and 
enemy forces.
    The Advanced Tactical Laser (ATL) ACTD evaluates the military 
utility of a tactical directed energy weapon on the battlefield to 
provide support to the warfighter. A directed energy weapon has 
inherent performance capabilities that can support extremely precise 
and selectable strikes, effects and lethality, and multi-axis 
engagements. These capabilities have the potential to greatly enhance 
the effectiveness of our SOF operators. The ATL ACTD will develop and 
employ a modular, high-energy laser weapon system on a C-130 platform, 
capable of conducting ultra-precision strike engagements to enhance 
mission accomplishment. In fiscal year 2004 program activities will 
focus on design completion of an objective ATL system, procurement of 
long lead material items, and begin the Military Utility Assessment 
(MUA) using ATL simulations and component hardware testing in 
conjunction with military exercises.
    We are working on an array of improvements across our mission 
areas, including: improved body armor and chemical protection, advances 
in gunship armaments, developing and leveraging Information Operations 
(IO) tools. USSOCOM's primary success has always been ensuring we 
select the right people and train them for innovation: we equip the 
warrior, not man the equipment. We clearly recognize that the modern 
battlefield is comprised of land, air, sea, space and the virtual 
domains. IO has the potential to help SOF operators remain undetectable 
in hostile area--a critical element in most SOF missions. We intend to 
actively pursue IO capabilities and develop standing authority to 
employ these capabilities when needed. This will improve SOF 
effectiveness and access to previously denied environments, and 
dissuade potential competitors from engaging even if they perceive 
quantitative advantage.
    Some of our most successful development programs have or will make 
a real difference in the fight against terrorism. The Multi-Band Intra-
Team Radio (MBITR) provides a small, lightweight, software 
reprogrammable handheld radio capable of providing both secure and 
clear voice and data communications over 100 selectable channels. 
Thanks to support from the Department and Congress, USSOCOM has been 
able to accelerate fielding of these radios to our forces.
    Another program worthy of mention is the hemostatic bandage. The 
development and rapid fielding of the hemostatic dressing embodies the 
first of our SOF truths--that humans are more important than hardware. 
The family of hemostatic dressings, which include the fibrin and 
chitosen dressings, were not due for fielding until 2007, but with the 
heroic actions and ultimate sacrifices of SOF in Afghanistan, USSOCOM 
focused on accelerated fielding of these dressings. Thanks to the 
combined efforts of the Department, the Services, and other combatant 
commands, this revolutionary medical technology was catapulted from the 
research laboratory to the field 5 years ahead of schedule. These 
dressings stop the bleeding almost effectively as surgical closure of a 
wound. We aim to put this technology into the hands of every soldier, 
hoping to end preventable hemorrhage on the battlefield.
Military Construction
    USSOCOM's military construction efforts ensure our highly 
specialized SOF personnel and equipment are provided a modern array of 
SOF training, maintenance, operational, and command and control 
facilities to successfully execute SOF missions. USSOCOM relies on the 
Services to provide community support facilities and programs 
construction only for facilities directly contributing to SOF training, 
readiness and operational capabilities. USSOCOM's fiscal year 2004 
MILCON request is $99.4 million for 12 projects.

                               CONCLUSION

    Now and in the future, SOF continue to improve their ability to 
execute the war on terrorism, while remaining ready to deal equally 
with demands of both our warfighting and peacetime roles. SOF will be 
deliberate in its transformation to ensure continued support to 
critical national requirements.
    But let us never forget those who have paid the last full measure. 
We want to acknowledge the 36 men and women killed in direct support of 
our Nation's response to terrorists since October 2001 and others lost 
or wounded in combat operations to ensure their skills were honed and 
ready for the next fight. We face adversaries who would destroy our way 
of life. In response, SOF will not rest until we have achieved victory 
in the war on terrorism.
    Thank you for the opportunity to provide the state of SOF and for 
your continued support of our soldiers, sailors, airmen, marines, and 
civilians; the men and women of the United States Special Operations 
Command.

    Senator Roberts. Thank you, General Brown. Do either one of 
our special guests have any opening statements?
    Mr. Schulte. No, sir.
    Chief Rogers. No, sir.
    Senator Roberts. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General Brown, for your statement. Well done. In 
your testimony you state: ``SOCOM must establish command and 
control infrastructures that complement the geographic 
combatant commanders.'' With your new role and your mandate to 
operate anywhere in the world, I think this is one of the key 
issues that you have to face organizationally. Can you give us 
an idea of what you are doing and what steps you are taking to 
make it less hypothetical? For example, coordinating with 
SOUTHCOM with respect to Colombia, coordinating with Pacific 
Command (PACOM) with respect to the Philippines?
    General Brown. Yes, sir. What we are doing is, as we take 
on this new role as the supported commander, we are ensuring 
that we have the connectivity with all of the regional 
combatant commanders and Theater Special Operations Commands, 
we call the TSOCs. Those are Special Operations Forces that are 
a component of all of the regional combatant commanders.
    We believe that they will be key in assisting us as we go 
on with the war on terror to help us identify targets, deploy 
folks, and command and control the battlefield. With that in 
mind, we have added additional people to the TSOCs, about 84 in 
some and about 74 in others based on the requirement, so that 
they can help us do this command and control when we are in the 
supported commander role.
    Additionally, we have stood up the Joint Operations Center 
down at Tampa, Florida, that gives us connectivity to all these 
people and a Collaboration Center so that we cannot just be 
sharing information, but actually collaborating as we go 
through our planning process. We have built a campaign support 
group that actually has members of all of the regional 
combatant commanders and the inter-agencies located right with 
us at Tampa, Florida, in a temporary facility that we will 
eventually put in a world-class warfighting center.
    So part of the vision is that we have tremendous 
connectivity out through our theater SOCs and right there from 
Tampa, Florida, for our planning.
    Senator Reed. Let me follow up if I could, General. Are 
there budgetary issues involved in this coordination? I mean, 
before you came on board with this mission the commanders in 
chief (CINC) had essentially this mission in their individual 
geographic zone with budget authority that were planning to do 
this mission. They were the ones who were going to operate. Now 
you come in and say, no, no, it is our responsibility.
    Can you elaborate just briefly on whether there are budget 
issues here?
    General Brown. Well, the first thing I would say is that we 
work in very close coordination and cooperation with the 
regional combatant commanders. I think one of the great things 
about this entire plan, that it is not an either/or. We are all 
in this thing together and we will coordinate very closely with 
the regional combatant commanders on a day-to-day basis as we 
take on these type of missions.
    We plussed up those SOCs so that we could help not only the 
regional combatant commanders as we placed this additional 
burden on them, but additionally to help us make sure that we 
are informed with everything that is going on in their theater, 
and the regional combatant commanders have been extremely 
supportive of this plan.
    In addition to the plus-up of personnel for resources that 
I already spoke about, and the building of our facilities down 
at Tampa, Florida, that will help us do this, we also have 
asked for additional force structure so that we can forward-
position to increase our ability to be agile and flexible as we 
get these type missions and to reduce our reaction time. That 
is part of the plus-up, the $1.7 billion in 2004, that we have.
    A lot of that money will go to help us forward-position, 
increase our connectivity, increase our national mission 
posture, and to plus-up our TSOCs. We will actually have 
forward-based capability where we can react much more quickly.
    Senator Reed. One of the other consequences of your new 
mission is a refocusing of roles, giving up some traditional 
roles that the Special Operations community perform, like 
liaisons to other countries and training. Certainly we have 
seen that in Colombia for example, the Philippines, and 
elsewhere. Can you comment about how this is going? Not only 
are you gaining some more flexibility, but you lose something 
in terms of exposure to foreign militaries, language, training, 
and those aspects which come with the training mission for one.
    General Brown. That is a great point, Senator. That is one 
of the things that we want to make sure that we maintain the 
value of, our interaction with all of these foreign services 
that we work with and train with on a regular basis, because 
that is one of the keys to our cultural awareness, for our 
ability to be out around the world working.
    We are already turning over some of the missions that we 
started to conventional forces, missions that they could pick 
up. I think the best example is the Georgia Train and Equip 
Program (GTEP), where we went in, got it started, set it up, 
and then brought a Marine Corps company in behind us. They 
spent a couple of weeks to make sure that they understood the 
same program of instruction (POI) so that we did not start all 
over again, and then they just continued on, and that Special 
Operations company was then allowed to redeploy to prepare for 
other missions.
    We are also looking at other tasks, such as personal 
security detachments, and we are studying this very hard. For 
every potential area that we could turn over to a conventional 
force, we intend to do that.
    Senator Reed. To get back to the point that I raised in my 
opening comments, I understand that for your operations at the 
2003 level of tempo of operations (OPTEMPO) the cost of 
replenishing your stocks is on the order of about $300 million. 
That is on top of operations, maintenance costs for current 
operations. The long and the short of it, can you give us an 
idea of the impact that you see going forward on the operations 
in Iraq, Afghanistan, the Philippines, and the potential 
situation in North Korea, in terms of additional moneys you 
might need?
    General Brown. It would be very difficult for me to give 
out a figure to say this is exactly the amount we need. We know 
that after this, Operation Iraqi Freedom, is done and we have 
redeployed, we will have to refurbish a lot of our helicopters 
and our C-130s. Just about every C-130 that we own right now is 
deployed except for keeping the schoolhouse open. Our MH-47E 
are all we have left in the States keeping the schoolhouse 
open, all those. So they are going to need refurbishment and we 
have some plans to do that.
    Our forces are going to have to come back and we are going 
to have to pay for the attrition of all of our equipment that 
we have lost or has worn out or been damaged over there. We 
will have to ensure, and we have been working very hard to 
ensure, that our schools are operating again at a maximum 
capacity so that we can continue to ensure we have the force in 
the field that we need.
    We will have to restock all of the shelves in our SOSAs, 
what we call our Special Operations Support Activity, that 
maintains our stock of parts for us. There is a myriad of 
things we are going to have to do.
    For me to put on a specific price tag on it, it would be 
very difficult.
    Senator Reed. It sounds like it is a significant number. It 
is not a rounding error we are talking about here.
    General Brown. No, I think it is a significant number, 
Senator.
    Senator Reed. Is that anywhere in the budget that we are 
seeing before us, General, that number?
    General Brown. We have some plans. We have money for the 
MH-60 service life extension program (SLEP) that we will do in 
concert with the big Army. We have money for the MH-47 SLEP 
program that will convert them to the G models from the current 
E models. Those aircraft will just naturally go through that 
line and be refurbished and come out the other end. So some of 
those costs have already been paid.
    Then additionally, of course, we are looking forward to the 
potential of a supplemental, which for us is about--the 2003 
supplemental I am talking about--$1.7 billion, about $531 
million that we have already, and that leaves us about $1.2 
billion. From that we will pay deployment costs, flying hour 
costs, but some of that will be to continue to field equipment 
in small numbers that we need to continue fighting the global 
war on terrorism.
    So it is very difficult to see without knowing exactly 
where the end date is and when we will be able to come home and 
when we will be able to start rotating our forces around to 
know exactly what this bill will be.
    Senator Reed. I think we all understand there will be a 
bill, and I think you would be pleased the sooner you knew, 
because then you could start planning.
    The chairman has been very kind. I can stop now, Mr. 
Chairman.
    Senator Roberts. Oh, no, please proceed. Just, General, 
understand: We are authorizers. We promise everything. It is 
the appropriators that are tough.
    Senator Reed. You have talked about the new mission of the 
special operators and we have seen the great skill and 
progress. One area of Special Operations, civil affairs and 
psychological operations, going forward the civil affairs 
function is going to move from the back rank to the front rank. 
Psychological operations are ongoing today and will continue.
    In the new orientation, do we have sufficient resources 
committed to these two areas, civil affairs and psychological 
operations? Do we have enough forces? Most of these forces I 
believe are in the Reserves. Can we continue to count upon the 
Reserves to again and again be taken from communities and 
called up and then sent back and then taken again? Can you 
comment?
    General Brown. First of all, let me talk real quick about 
our Reserve Forces. I think in Special Operations Command we do 
a tremendous job of training and working with our Reserve 
component. As you have already mentioned, Senator, most of our 
civil affairs forces are in the Reserves. We only have one 
active civil affairs battalion and that is at Fort Bragg, North 
Carolina, the 96th Civil Affairs. That active component will 
grow. Of the 2,500 or so spaces that we will get here in the 
2004 time line, that active component will grow about 184 
people. That will help them with some of their tasks.
    Additionally, we will grow four more civil affairs 
battalions in the Reserve component, because of the amount of 
demands that we place on these civil affairs folks.
    We work with our civil affairs folks on a regular basis. 
They have been deployed to Kosovo, they have been deployed to 
Bosnia. We routinely use them around the world. They have done 
tremendous work for us in OEF, and of course, as you mentioned, 
during the final phases of OIF they will be extremely important 
to get out in those areas and design and figure out what the 
infrastructure is going to have to be to help put Iraq back 
together again and make sure that all those services are there.
    Civil affairs forces in our Reserve component are extremely 
important to us and that is why we are going to grow four 
battalions. I think we are also growing 9 CAT-As, which are the 
four-man teams that go out, and about 184 in the active 
component.
    Senator Reed. Thank you, General.
    A final question----
    General Brown. Sir, could I interrupt you?
    Senator Reed. I am sorry. Excuse me.
    General Brown. I failed to mention our great PSYOP forces 
and I did not want to leave them out. You are correct, about a 
third of our PSYOP forces are in the active component, but we 
are also going to grow in our PSYOP forces so that we can 
continue the great work that they are doing. We will actually 
grow two active component companies in our psychological 
operations, four companies additionally in the Reserve 
component, and then we are standing up a joint PSYOP support 
element of about 70 folks that will be located at Tampa, 
Florida.
    So both of those issues, we are getting involved with 
making sure that they have the force structure that they need.
    Senator Reed. Do these PSYOP companies have a geographic 
orientation or are they generic?
    General Brown. Some of them, but they are all different 
kinds. The truth is that some of them will be oriented on 
specific areas and some of them will be what we call general 
purpose battalions, and those have two different kinds of 
missions as we stand them up.
    Senator Reed. Thank you, General.
    A final question, the Advanced SEAL Delivery System (ASDS). 
It has been in development since 1994. It is 6 years behind the 
original schedule. Costs have more than tripled. Last year we 
authorized the General Accounting Office (GAO) report. One of 
the recommendations the GAO made was to have the DOD Cost 
Analysis Improvement Group (CAIG) conduct an independent 
estimate and this recommendation was apparently rejected by the 
Department of Defense, indicating that they had not yet 
determined the level of CAIG involvement necessary.
    When can we expect DOD to make at least a determination of 
whether the CAIG will be involved and when they will be 
involved? A more general question: When can we expect the cost 
to stabilize, the schedule to firm up, and the system to be 
coming on line?
    I believe there is one vehicle now, a prototype in Hawaii?
    General Brown. Yes, sir. I will say something about ASDS 
and then I would ask Mr. Schulte to get involved with this 
answer.
    Senator Reed. Thank you.
    General Brown. Our ASDS, you are right, sir, we have one. 
It is a prototype. It is out in Hawaii right now. It has made 
115 dives and it has spent over 1,000 hours under water at this 
time. It took part in Millennium Challenge 2002 and actually 
ran a sample scenario during Millennium Challenge, which it 
performed very well.
    Senator Roberts. Now, were they on the blue team or the red 
team?
    General Brown. They were on the blue team in that.
    Its operational evaluation (OPEVAL) starts next month and 
we hope to have it IOC'd (initial operational capability) this 
summer. So for the details on the budget pieces of it, I would 
ask Mr. Schulte to weigh in.
    Mr. Schulte. Senator, you are exactly right, we have been 
at this a long time on ASDS. But we have hung in there and what 
we have ended up with in Boat No. 1 is actually a pretty 
formidable weapon system, we think. As General Brown said, it 
is going to its OPEVAL--actually it starts late this month and 
it goes into May. So we will have a robust test and we are very 
hopeful that this is going to do well.
    It was taken through a vehicle integrated systems test 
several months ago, which is a little bit like an OPEVAL, a 
dress rehearsal for an OPEVAL, and it did very well. So we are 
very hopeful on that.
    As far as the CAIG involvement in the program, as a result 
of the GAO report Mr. Aldridge did make the decision to move 
the program up to an ACAT-1 (acquisition category). He is going 
to make it an ACAT-1C. The milestone decision authority will 
remain with Mr. Young in the Navy. I do not think it has been 
determined yet whether the DOD CAIG will do an estimate or not.
    The program office has done an independent estimate and the 
Navy Cost Analysis Group has done another analysis. They were a 
little bit different. They have reconciled those differences 
now. So basically we have what we think is a pretty solid 
program estimate for what these boats are going to cost for 
Boat No. 2 through No. 6.
    Whether Mr. Young will determine that he wants the DOD CAIG 
to do yet another estimate, whether it may be required is still 
unknown. We will be coming up for a full rate production 
decision probably this fall. So OPEVAL will be over in May, 
take a couple of months to get the final report, there will be 
a milestone decision taken to Mr. Young probably in September 
or October, something like that, and he will have to decide 
after the OPEVAL report, whether we need yet another 
independent cost estimate or not.
    If he decides he does, from what I am told, it will take 
the CAIG about 6 months to do one. So if we do a DOD CAIG 
estimate, it might delay the milestone decision back later in 
the year or early next year. I think that is where the 
discussion is: Do we want to delay the procurement of the long 
lead material in 2004 until January or something like that in 
order to get a CAIG estimate? Really, that is Mr. Young's 
decision.
    Senator Reed. Thank you very much.
    A final point. Command Master Chief, have you had a chance 
to ride in the delivery vehicle yet? Or within the SEAL 
community, what is the word, not from the cost perspective but 
from the warfighter perspective?
    Chief Rogers. You are talking about the ASDS, correct, sir?
    Senator Reed. Yes.
    Chief Rogers. I have had a chance to talk to the SEALs who 
have been involved in the testing. The last time we went to 
Hawaii I had a chance to talk to the group that did a couple of 
exercises out of it, and they had very positive things to say 
about it. It is accomplishing what we intended it to do, which 
is it is putting the operator in a dry, relatively 
comfortable--notice I say ``relatively''--if you have seen one 
of these, you know that the inside of this thing is not what 
you call spacious. But it is adequate for getting our folks 
inside and keeping them dry and comfortable to where they get 
to where they are actually going to do their insertion and then 
continue on with the rest of the mission.
    So it has been positive so far, sir.
    Senator Reed. Right. Well, if they were of normal size like 
myself it would be comfortable, it would be spacious. 
[Laughter.]
    Thank you, Mr. Chairman.
    Senator Roberts. Well, do not sell yourself short. 
[Laughter.]
    Senator Reed. Thank you, Mr. Chairman.
    Thank you. Be brief, do not be short. [Laughter.]
    Senator Roberts. General, unlike operations in Afghanistan, 
most of the media focus in Iraq has been on conventional 
forces, a lot of talk, a lot of talking head generals, experts, 
gurus, and media. I would like for you to give the subcommittee 
a short overview of the scope and level of participation of 
your forces, U.S. and coalition, in the current military 
operations in Iraq. As a matter of fact, most of the questions 
that I got from the press were, are you there, and obviously 
what are you doing. Obviously you cannot say that, or you say 
no comment.
    While I think you were in the glare of the center ring and 
the spotlight in Afghanistan, I am not too sure that was the 
case with regards to Iraq. But yet I think your contributions 
were just as important, if not more so.
    Would you care just to give a very brief overview of how 
you see that?
    General Brown. Sir, I think you are exactly right. We have 
been--our forces have been--extremely important in Operation 
Iraqi Freedom. We have stood up a Combined Joint Special 
Operations Task Force and put all of the SOF, or I should say 
most of the SOF, under this Combined Special Operations Joint 
Task Force.
    Quite frankly, the press has already reported about the 
SEALs hitting the gas and oil platforms down off Al Faw Island 
and also the switching stations and there have been some 
reports. Especially the rescue of Jessica Lynch got a lot of 
press. Special Operations Forces are over there, and we have 
pretty well done all of the things that you would expect 
Special Operations Forces to do and all of our core missions. 
Without thinking through it in detail, we have probably done 
all of those, and we are decisively engaged all over the 
battlefield in Iraq.
    Senator Roberts. General Jim Jones, now the Supreme Allied 
Commander, Europe (SACEUR), then the Commandant of the Marine 
Corps, indicated to the subcommittee and to all interested that 
he had signed agreements with SOCOM that would greatly expand 
the cooperation and the interaction between the Marines and the 
Special Operations Forces. A year later, what is the status of 
this cooperation, and how do you envision this relationship 
evolving, knowing that you are talking to a former marine? 
There are no ex-marines. Will there be a Marine component of 
SOCOM?
    General Brown. Sir, I think whether there is going to be a 
Marine component of SOCOM is yet to be seen. This October we 
will start with an 85-man detachment that will report to our 
Naval Special Warfare Command and become part of our maritime 
component. They will train from October to April. They will 
sail in April. About this time next year we will start having 
some real good definition on how these two forces have worked 
together.
    But that is only a proof of concept and, quite frankly, 
that is only part of the success stories I think we are having 
in getting these forces together. Now, all the Marine 
Expeditionary Units, Special Operations Capable (MEUSOC), when 
they come into country, link up with our theater Special 
Operations Command headquarters and they exchange liaison 
officers (LNO) to make sure each know one another and what the 
capabilities of each one has.
    We have now got a Marine Corps Brigadier General Chief of 
Staff. General Denny Hejlik has been assigned down at Special 
Operations Command and sits in the office right next to mine, 
and he is very much engaged in everything that is going on, and 
specifically helping with this Marine Corps initiative.
    As you mentioned, General Jones and General Holland signed 
a memorandum of understanding. I have signed a memorandum of 
agreement with General Bedard of the Marine Corps to get this 
proof of concept going with the force recon platoon--or 
company--sailing with our guys.
    I think the key to this thing is how to maximize the 
capability of both forces and ensure that we know where we can 
best go on the battlefield together and how to make sure that 
we are getting the essence out of the skills of each one.
    I would go back to the story of Jessica Lynch. I think that 
is a great story. That was planned in conjunction between 
Marines and Special Operating Forces. The Marines provided the 
security cordon while the SEALs went in and did the actual 
room-clearing operation and rescued Private Lynch. So that was 
a great example of how we can get together and maximize the 
effects of both of those great forces.
    Additionally, we just had the material development folks 
down for the Marine Corps. They looked at all of our programs. 
We have seen all of their programs. I will soon go on a Special 
Operations Capable Exercise, certification exercise, with one 
of the MEUSOCs. General Hejlik and I will go look at how that 
best works and where we might fit into that.
    We share all of our technology with them. One of the great 
success stories in Operation Enduring Freedom was a small 
radio--I think we have brought it up and showed it to the 
subcommittee before--called the multiband inter-team radio, a 
very small, handheld, inter-team radio that was a tremendous 
success story for the Special Forces A teams on the ground. I 
think what most people do not know, is that the first load of 
those went to the United States Marine Corps even though they 
were developed in Special Operations Command jointly with the 
Marines.
    So we have a lot of interaction with the Marines and we are 
continuing to find areas that we can work together.
    Senator Roberts. You answered about three questions there, 
which is right on the money.
    I mentioned in my opening comments, and Senator Reed also 
commented about this, about a significant portion of SOCOM 
resides in the Reserve components. If there is one thing I am 
concerned about, when we were--``we'' meaning Senator Levin, 
Senator Warner, Senator Rockefeller, myself--the first time the 
Intelligence Committee and the Armed Services Committee went on 
a joint congressional delegation (CODEL) to the war zone.
    I was talking to a lot of reservists who had been in the 
Balkans, Kosovo, Bosnia, and now Iraq, and I do not know how 
they do it. They do it at great personal sacrifice. We were 
able to pass some legislation that should be of help to them in 
terms of the monetary situation.
    But this high OPTEMPO, I know it affects your Reserve 
components. Do you have any suggestions in terms of adjustments 
on the active-Reserve component mix of SOCOM to relieve this 
problem?
    General Brown. Sir, we are doing a little bit of that. The 
additional people that we are putting in the 96th Civil 
Affairs, the additional PSYOP active duty companies, will 
relieve some of those problems. I think that is about the 
extent of any change in the Active and Reserve Forces.
    But I will tell you that we are looking at that. We see the 
problem. We are having to very closely manage our Reserve 
components and their commitment. It is a great personal 
sacrifice to them and it is a lot of understanding employers 
that are very generous to let these people constantly come to 
work for us.
    We are looking at that very carefully to see if there is 
some change in the mix that we need. Those that we have 
immediately in front of us where we know we can change the mix 
a little bit, we are doing that in the civil affairs (CA) and 
PSYOP.
    While I am on the Reserve component, sir, I would like to 
mention our great 19th and 20th Special Forces Group out of the 
Army National Guard. I failed to mention earlier in the PSYOP 
portion our folks from the 193rd Commando Solo at Harrisburg, 
Pennsylvania. Commando Solo which is doing such a phenomenal 
job for us and continues to in all of the things we get 
involved in.
    The 19th and 20th Special Forces Group are two Special 
Forces, SF, groups that have taken part in OEF and some of 
their teams are in OIF. The 20th Group commander, Colonel Greg 
Champion, was our Joint Special Operations Task Force commander 
of all SOF in Afghanistan for the last 6 months. We have taken 
a Reserve component headquarters and put them over there 
controlling all of the active and Reserve SOF. Sir, they have 
performed tremendously.
    So I go back to what I said in the original question, I 
think that Special Operations Command uses its Reserve 
components probably at a rate much higher than other folks do.
    Senator Roberts. The MH-47 Chinook, that is a real work 
horse for you in Afghanistan. They suffered significant losses, 
eight, as staff has informed me here, and you hoped to obtain 
funding to replace these eight in the 2003 supplemental. It was 
not included in that request. They are not going to be replaced 
until fiscal year 2005 or 2006 if we do not do something.
    What is your recommendation on how best to minimize this 
operational impact?
    General Brown. Sir, the CH or MH-47 Echo (47E) has been, as 
you said, our work horse on the battlefield, with its Special 
Operations-unique equipment, terrain-following terrain 
avoidance (TF-TA). It can work at those altitudes that a lot of 
aircraft cannot get to, and it continues to be the only 
aircraft on the battlefield that can internally load a high 
mobility multi-purpose wheeled vehicle (HMMWV), and that is a 
key part to why we need the 47 Echoes.
    The basic vehicle for a Special Forces team is a HMMWV. The 
only helicopter that can load it internally and then fly the 
legs using its aerial refueling capability and, especially in 
marginal weather, using its TF-TA, the 47E has really come to 
the forefront during Afghanistan as a critical piece of 
equipment for our infils and exfils, and today they are 
employed all over Iraq and Afghanistan.
    We did lose two of them. We lost one in the Philippines, we 
lost one in Operation Anaconda, totally lost. Then we had 11 of 
them that were badly damaged in either landings in brownout 
conditions or to enemy fire, which we had several of them shot 
up.
    We have in Program Decision Memorandum (PDM-1) a 
replacement for 16 aircraft. Our initial plan back even before 
all this started was to grow a new Chinook battalion to meet 
our requirements. That is 24 aircraft. We have the first 16, 
and what we are trying to do is find funding and work with the 
Army and the Department to get the other 8.
    Senator Roberts. Senator Reed asked you about the combatant 
commands, so I think we will pass on that subject. I think you 
got into that, and also the budget considerations. The SOCOM 
budget request increased significantly this year, $4.5 to $6 
billion, but most of this increase is for the helicopters and 
other aviation systems, and the spending on research and 
development (R&D) actually goes down. I know we should be 
replacing lost equipment one for one perhaps.
    But on this subcommittee, if you look at the title of it, 
``Emerging Threats and Capabilities,'' we should be developing 
new capabilities. Are you satisfied you are investing 
sufficient resources to develop these future capabilities? 
Should we be investing more in R&D and science and technology 
(S&T) to develop the capabilities we need for future unexpected 
threats?
    General Brown. Sir, I would ask Mr. Schulte, our 
Acquisition Executive, to talk a little bit about R&D funding 
and where we are going with that area.
    Senator Roberts. I mean, if there is any outfit that cannot 
stand still it is your outfit.
    General Brown. Yes, sir, I think you are exactly right.
    Mr. Schulte. Sir, you are right that about a billion 
dollars of the increase in our budget for fiscal year 2004 is 
in procurement. That is basically to get these extra 
helicopters that General Brown talked about, to start the SLEP 
program for the MH-60, to finish the plus-4 buy for the four 
new gunships. There was one gunship, a new gunship, put into 
2003 and there are three gunships in 2004. There is an 
acceleration of the air refueling mod for the Talon 2 aircraft. 
There is some money in there to get the CV-22 production 
started and there is a new simulator for the Chinook.
    So all of that is over about a billion dollars, those are 
the kinds of things where the procurement is now. In the R&D, 
the actual change in the R&D was up a little bit. The request 
from the President's budget in 2003 was $420 million. Congress 
was most generous last year and plussed us up a net of $92 
million, which is how we got up to $512 million.
    What we have asked for this year is $440 million. So 
compared to our request last year, we have actually gone from 
$420 million to $440 million in R&D. We actually got $512 
million last year because Congress had some plus-ups. I think 
that level of R&D is adequate for what we are trying to do 
right now. It is more important for us to get the additional 
helicopters and modify the aircraft that we have right now to 
get the capability into the hands of the warfighter as soon as 
possible. That is where the priorities of the command are right 
now, sir.
    Senator Roberts. That makes sense.
    Senator Kennedy, I have just two more questions, but in the 
interest of your time would you like to proceed?
    Senator Kennedy. Thank you, Mr. Chairman.
    I want to welcome our witnesses here. I just left Chief 
Finnegan, who is the Police Chief in Hyannis, Massachusetts. 
His son is a Special Forces operator in Nasiriyah now. So we 
are all, I think, very much aware of what you are doing, your 
leadership, and all of those that you lead, and we commend you.
    I would like to ask about the issue that we have seen on 
the television and even this morning taking place in these 
major cities and what your own reaction is. That is the growth 
of the sort of the lawlessness that is taking place. I am 
primarily interested in the stories that we saw this morning. 
One from Thomas Freedman of the New York Times, who has been 
pretty objective and supported the administration, talks about 
the fact of Umm Qasr, 20 days into the war, is without running 
water, security, and adequate food supplies. He went in with a 
Kuwaiti relief team, taking pity on the Iraqis, ``tossed food 
from a bus window as we left; townsfolk scrambled after the 
food like pigeons jostling for bread crumbs. It is a scene of 
humiliation, not a liberation,'' and it goes on.
    Then in The Washington Post this morning they have 
``Fighting in Baghdad, Other Areas, Stalls.''
    Senator Roberts. Are you sure that is not classified? It is 
from the Post. [Laughter.]
    Senator Kennedy. I will just read one line: ``No one is 
more impatient than the relief workers who are poised to 
deliver electric generators, water, jobs to Iraq. They say the 
Iraqis will benefit after hostilities end. The frustration 
level is going up. We feel like a bunch of pigeons perched on 
the boundaries. One U.S. relief staffer said: `We are ready to 
do stuff, but we need a secure environment in which to do it.' 
''
    My question has two parts: What is your assessment of the 
secure environment, how far are we away from it in these areas 
where the humanitarian need is the greatest? Also, what is the 
policy with regards to the, whether it is Baghdad or Nasiriyah 
or these other communities, in terms of the growth of 
lawlessness where we have some presence?
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Brown. Senator, it is hard for me to tell exactly 
what the situation is over there in all of these cities. This 
war is being fought by CENTCOM. We are providing the forces to 
it and we are certainly involved with what is going on over 
there. But for me to know the exact environment that is taking 
place in all these towns, I would just tell you that I get 
briefings and I see it, but the exact state and when we are 
actually going to have a secure environment, that would be 
difficult for me to say. I think that CENTCOM and General 
Franks would probably come a lot closer to that.
    I can tell you that we have deployed our civil affairs 
folks and that is what they do for a living, to get out there 
and assess those kinds----
    Senator Kennedy. Could you elaborate on that? How has that 
worked? That is a key element? What is the dimension? When have 
they been going in? Can you tell us where and what success they 
have been having?
    General Brown. Sir, right from the beginning we will put 
civil affairs teams in any conflict. We will put civil affairs 
teams with the combatant commander's forces when they go in. He 
will have planners. They will stand up a civil-military 
operations center to coordinate these kind of activities that 
you are talking about at his headquarters.
    Then our civil affairs teams will go in with the combatant 
troops when they go in. The civil affairs teams will do 
analysis of each one of these cities and they will look for 
those infrastructure pieces and they will look for the food and 
running water and electricity. They will then design plans to 
solve any problems that they have, that they will take back to 
the regional combatant, General Franks in this case, his 
headquarters, and they will try and implement those plans.
    So that is how the system works with our civil affairs 
guys.
    Senator Kennedy. What are the funds available in the budget 
supplemental for civil affairs?
    General Brown. I do not have that figure right off the top 
of my head. I did talk about a little earlier, sir, that we are 
growing our civil affairs force. You know it is predominantly a 
Reserve component force in Special Operations Command. We only 
have one active battalion. We will grow that battalion, the 
Active Force portion of it, by about 190 people to give us a 
little more flexibility in the active component.
    At the same time, we will grow four additional civil 
affairs battalions. We use our civil affairs. They are all very 
well trained. We have deployed them to Afghanistan in numbers. 
We have deployed them to Kosovo. We have deployed them to 
Bosnia. So we are intending to grow our civil affairs force and 
that is part of our plus-up.
    Senator Kennedy. Maybe you could provide what they have 
requested on that. You would probably indicate that that was 
enough to do it, but I would be interested in what is in the 
budget in the supplemental, what they are planning to do in 
terms of the budget as well.
    General Brown. I would be glad to, Senator.
    [The information referred to follows:]

    The importance of Civil Affairs is evidenced by the ongoing actions 
in Afghanistan and as the United States transitions towards the process 
of rebuilding Iraq. Civil Affairs units are made up mostly of Reserve 
soldiers with occupations varying from city managers and judges to 
school administrators and public works engineers. In their civilian 
jobs, the soldiers hone the skills they need in their military 
specialty. Civil Affairs tactical teams accompany Special Forces and 
conventional forces to provide humanitarian assistance to the local 
population by providing food and medical care for refugees in a war 
zone and rebuild schools and hospitals when the fighting is over. The 
fiscal year 2003 supplemental request for USSOCOM includes $22.6 
million for costs associated with the deployment of Civil Affairs 
forces and $12.2 million to procure the necessary equipment to carry 
out their assigned missions. Not included in the USSOCOM portion of the 
supplemental are funds that are required by the Department and Services 
to provide the common support equipment, logistics support and special 
pays, etc. required by Civil Affairs units.

    Senator Kennedy. Thank you, Mr. Chairman.
    Senator Roberts. Yes, sir.
    Mr. Schulte.
    Mr. Schulte. Sir.
    Senator Roberts. The capabilities developed by SOCOM 
sometimes have migrated to the other services. I am astounded 
that the new radio went to the Marines first. That works at 
cross-purposes with the Corps. Did they actually accept them?
    Mr. Schulte. Yes, sir. The reason it went to them first is 
they put a little money up front to help us develop it. So we 
were co-developers of this radio and when the first production 
units came out they took theirs first.
    Senator Roberts. Can you give us some other examples where 
you have provided some significant benefit to other military 
services as a result of your R&D?
    Mr. Schulte. There has been a number of places where, for 
instance in soldier kinds of equipment, the new helmet that we 
developed, the Modular Integrated Communications Helmet 
(MICH)----
    Senator Roberts. Yes, but you cannot sit on it and you 
cannot cook in it, so it is not worth a damn. [Laughter.]
    Mr. Schulte. No, but it actually does stop bullets, which, 
they kind of like that part. [Laughter.]
    Senator Roberts. Right, okay.
    Mr. Schulte. So they do like that.
    We have done some uniform kinds of things, some night 
vision goggles kinds of things. In fact, the Special Operations 
Peculiar Modification kit which we put all the different--when 
we missionize an M-4 carbine with night scopes and other things 
like that, a lot of those kind of night vision devices and 
scopes and things like that eventually the Army will pick up. 
Probably several years after we first introduce it into the 
SOF, they will pick those kind of things up, too.
    So there has been a number of things where we have been 
able to move out. Sometimes what happens in our development is 
we will work a very special item for a classified unit, it will 
be adopted in that classified unit, and eventually the non-
classified units will get a chance to see that and say: I think 
this has application in the kinds of missions that we do also. 
That would migrate then into our Special Forces groups and even 
the Rangers, and then the Army will look at some of these 
things and once in a while adopt some of them as best practice 
and go ahead and buy it for the Army forces.
    So we have had some luck migrating things that way. Of 
course, when the Army buys it and it becomes Army standard, 
then they provide it back to us at that point, which is good 
for them and is good for us.
    General Brown. I realize you did not ask me, but I will get 
in here real quick, just some of the ones I jotted down here. 
Night vision equipment, especially for the ground soldier, SOF 
has been the leading guys in all of that. You will notice as 
you see everybody in Iraq in the press reports, they are all 
wearing that little night vision goggle thing on their helmet. 
All of that started or got really moving down at Special 
Operations Command.
    The M-4 carbine that everybody is carrying. Our ballistic 
body armor; we spent a lot of time working the best body armor 
possible. Those are migrating over to the Services. Our MICH 
which Harry mentioned, everybody you see out there has a MICH 
that was built by our folks down in the Special Operations 
Acquisition and Logistics (SDAL) center.
    I would tell you a tremendous part of our R&D that is moved 
over to the Services is in the helicopter world: 1,553 data 
buses, flat panel screens, forward-looking infrared sensors, 
forward-looking infrared balls on aircraft, we are the first 
ones to do that really in the Services and now you see that on 
a lot of other Services' aircraft. Fuel tanks on the inside, 
fast rope bars, miniguns, weapons systems. So we have a very 
robust plan for migrating stuff over to the Services.
    Senator Roberts. Your mission focus, when the Secretary 
changed that there was discussion that SOCOM would divest 
itself of certain missions that could be done by conventional 
forces. Did you recommend any missions that you would divest? 
The second part of that: What decisions have been made with 
regard to moving any missions away from SOCOM to other Services 
or other agencies?
    General Brown. Right now, sir, that is an ongoing Joint 
Chiefs of Staff (JCS) study that is a very large study that is 
reporting out probably in the next 30 to 45 days, to take a 
look at all of that. The Department is looking at that.
    We immediately took a very hard look at tasks and started 
seeing which one of those--we were going to be training the 
Afghan National Army. We will now train battalion 8 and 
battalion 9 of the Afghan National Army and then someone else 
will come in and take that over for us. The GTEP I already 
mentioned; some personal security detachments that we do around 
the world, we are giving those over to other forces.
    So we are looking at every opportunity. I would not call 
those mission sets as much as I would call those specific tasks 
that will just unencumber our forces to bring them back and let 
them take other tasks.
    Senator Roberts. You are doing a good job over in 
Afghanistan. Senator Warner, Senator Levin, Senator 
Rockefeller, and I were there, watched that training, met the 
first company, ``enjoyed'' some real Afghan food for lunch. So 
you are doing a good job.
    I want to just touch on one other thing and then I am 
through with the questions. Senator Kennedy, do you see a need 
for a closed session?
    Senator Kennedy. No, no.
    Senator Roberts. Jack?
    Senator Reed. No, I do not, sir.
    Senator Roberts. I think we are going to bid you, not fond 
farewell, but a job well done.
    Are your forces being given the right authority and 
flexibility and support to go after al Qaeda in Afghanistan or, 
for that matter, go after anybody? I am talking primarily about 
the southeastern border and General McNeil, and whether there 
remains within the civilian DOD leadership any culture of risk 
aversion when it comes to employing your forces.
    General Brown. Sir, I see no culture of risk aversion when 
we take on al Qaeda. I think that we are given pretty much all 
the authority that we need and would like to have in going 
after these guys.
    Senator Roberts. That concludes the questions I have. 
Senator Reed?
    Senator Reed. One question, General Brown. I understand 
that you have a number one unfunded priority for military 
construction for your new operations center in Tampa and this 
is about a $27 million project. Is this money in the 
supplemental?
    General Brown. Sir, I am happy to report that the 
Department has found a way to fund our operations center and 
that will be built at Tampa. It will integrate all of these 
little organizations that I spoke about earlier: our Inter-
Agency Collaboration Center; our CSG, which is our Campaign 
Support Group; our Joint Operations Center that right now we 
have built in trailers and other places. The Department has 
said that they will help us build that, and so we are thrilled 
about that and we are about to get on with it.
    Senator Reed. We can presume you will revise your unfunded 
list?
    General Brown. Yes, sir, we will.
    Senator Reed. Great.
    Thank you, sir.
    Senator Roberts. Senator Kennedy.
    Senator Kennedy. I just want to again commend you. Did you 
talk a little bit about the situation of the Special Forces in 
Afghanistan, the kinds of increased threats that they are 
under? Did you talk about that?
    Senator Roberts. General Brown was asked a rather generic 
question in regards to all the media attention on his force in 
Afghanistan and yet the media attention on conventional forces 
in Iraq and could he give a review of the Special Operating 
Forces in Iraq, and he has done that.
    Senator Kennedy. In Afghanistan, has he talked about that?
    Senator Roberts. Not so much Afghanistan as in the Iraq 
situation, because of the difference in the media focus. They 
were on the front page in regards to Afghanistan and then of 
course the operations in Iraq were equally important, if not 
more so. So I asked him to summarize that and he did.
    Senator Kennedy. Just finally, General, could you go into 
the numbers that they have. To the extent that you can give us 
an idea without getting into the classifications, what you 
expect the numbers are going to continue to be there in 
Afghanistan? What could we expect?
    General Brown. Sir, I think for the near term it will be 
about what it is right now. I prefer not to say the exact troop 
level.
    Senator Kennedy. Okay, all right.
    General Brown. I think the forces, type of forces, and the 
amount will probably stay about where they are right now. As 
far as threats go, we did look down the road and see if in fact 
we were to go into Iraq that it might raise the threat level 
over in Afghanistan against our forces that are pretty much out 
there operating in small units by themselves. So we thought a 
little bit ahead of that and got the guys prepared for those 
kind of potentialities.
    Senator Kennedy. Your threat assessment in terms of the 
Special Forces in Afghanistan for the next 6 months is what?
    General Brown. Sir, I think right now we take force 
protection very seriously, so all of our guys that are over 
there are pretty much in the areas that they have been working 
and have built up pretty good force protection postures, have 
built relationships with the local Afghans, and are doing a 
pretty good job.
    While we are out hunting folks down and on patrol, there 
will still be firefights. It will be a very dangerous time over 
there. We had some people ambushed last week coming back from a 
patrol and lost a couple special operators last week in 
Afghanistan that were ambushed. So it is still a very dangerous 
area.
    As far as our posture, I think that we have a pretty good 
force protection posture over there and I think every person 
over there understands how dangerous the environment is right 
now.
    Senator Kennedy. Thank you, Mr. Chairman.
    Senator Roberts. Let me just say, Senator, on the Warner 
CODEL, which we dubbed the forced march, we found a great deal 
of progress in Pakistan with our intelligence community and the 
Pakistanis without our military.
    Then with General McNeil and the snake-eaters--that is what 
I call you--but there are 550 less of the al Qaeda than there 
were a year ago. I think that figure is probably higher today. 
A very dangerous situation, but they actually thwarted in my 
view the spring offensive of the al Qaeda. Rest assured, force 
protection is absolutely primary.
    If you take in Afghanistan and Iraq, killed in action in 
regards to this particular force were 22 wounded in action, 103 
died of wounds, 1 non-hostile, 47 injured, and 19 captured. It 
is in their memory, those who paid the ultimate sacrifice, that 
we recommit to what you are all about in terms of our national 
security, and we thank you for coming.
    General Brown. Thank you very much, sir, and thanks for the 
continued support up here. We appreciate it.
    Senator Roberts. We are adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Elizabeth Dole

                   SPECIAL OPERATIONS FORCES SUPPORT

    1. Senator Dole. General Brown, since September 11, much has been 
asked of Special Operations Forces' personnel. There have been repeated 
and lengthy deployments to Afghanistan and other fronts in the war on 
terrorism. Now we are in the midst of a very substantial deployment of 
Special Forces in Iraq. While the successes have been many, I am very 
concerned about how long the Special Forces personnel and their 
families can sustain this pace. What plans are there for the continuing 
presence of Special Forces units in post-Saddam Iraq and in 
Afghanistan?
    General Brown. [Deleted.] SOF will continue to support Central 
Command as required and will maintain a continuous presence which can 
be sustained for the long term. This presence would be a little more 
than our pre-September 11 levels, which we have maintained since 1991.

    2. Senator Dole. General Brown, what concerns do you have about the 
continuing readiness of the people who have been through repeated and 
lengthy deployments, and the morale of those forces and their families?
    General Brown. One of the SOF truths is that people are our most 
important assets. We place great emphasis on and resources toward these 
highly motivated professionals because they cannot be built or rebuilt 
overnight. SOF stay motivated by doing the work they are trained to do. 
They are doing that work and for the most part report high 
satisfaction. In coordination with the Services, we closely and 
continuously monitor the impact of operations tempo to ensure we adjust 
as we see tempo-related problems at the onset (training, maintenance, 
quality of life, retention, etc.). Top-down emphasis and family 
assistance programs have and will continue to have an overall positive 
effect on the services and programs offered to families before, during, 
and after deployments.

    3. Senator Dole. General Brown, how are the families holding up 
under this strain?
    General Brown. SOF families are a tight-knit, close community that 
offer family support programs of the highest caliber. Due to the nature 
of SOF operating tempo, these family support structures are thriving 
and responsive. Just as the SOF warrior is satisfied when ``doing his 
job,'' the families are wholly supportive of the units and missions.
    Our family members are accustomed to deployments. They understand 
from the beginning that the military member will be frequently 
deployed. Because of this understanding, they become strong and 
independent.
    Programs offered through our Family Support Centers and Chaplain's 
offices have been very successful in helping our military members and 
their families adjust before, during, and after deployments. 

    4. Senator Dole. General Brown, do you have in place both good 
support networks and ready availability of counseling services?
    General Brown. Special Operations Forces' Service component 
commands benefit from programs offered by their Services and home-base 
installations. Training and outreach programs are available and 
chaplains and counseling programs are in place. Additionally, the 
Department of Defense sponsored Lifeworks system has been implemented 
at Fort Bragg to assist families with a myriad of issues.
    The Family Readiness Office at Fort Bragg has established a toll 
free phone number that is available to SOF families 24 hours per day, 7 
days per week (24/7). This office is staffed with people who are 
trained to provide information and referrals to anyone requesting help.
    All three Services provide excellent Family Support Programs and 
websites that supply information to assist our families. The remainder 
of the United States Special Operations Command has recently been added 
to the Department of Defense ``Lifeworks'' contract. This program will 
also provide assistance through a website and a toll free phone number 
24/7.
    Our chaplains are very supportive and provide many counseling 
programs to our service members and their families. A new program 
titled ``Building Strong and Ready Families'' has begun at Fort Bragg, 
North Carolina, with a goal of reaching families before there are 
problems.
    All returning military members and their families are offered 
counseling and leave to enable a readjustment period. 

    5. Senator Dole. General Brown, does Special Operations Command or 
your component Service units need additional resources to help the 
Service members and their families deal with the stress and burdens of 
these constant deployments?
    General Brown. There are no Major Force Program-11 (MFP-11) funding 
requirements for family support issues. Those are Service 
responsibilities.

    6. Senator Dole. General Brown, is the issue of family readiness a 
matter you oversee from SOCOM or do you leave it up to each Service 
component command?
    General Brown. The Services and home-base installations provide 
family support programs for their respective service members. The 
leadership of SOCOM also monitors and provides guidance and support as 
needed. More importantly, we ensure training and outreach for family 
members prior to, during, and after the deployment is provided. Our SOF 
leaders ensure contact between families and rear detachment commanders 
is ongoing and ensures all returnees are treated equally.

                         SOCOM BUDGET INCREASE

    7. Senator Dole. General Brown, as part of the budget increase for 
fiscal year 2004, I understand that SOCOM will have an increase of over 
2,500 spaces and that over the next 5 years there is a planned increase 
of over 4,000 spaces. Where will these additional personnel be 
assigned?
    General Brown. The budget increase for fiscal year 2004 did indeed 
add a significant amount of spaces to the U.S. Special Operations 
Command. The placement of these additional personnel is identified 
below:

                                                  [Fiscal Year]
----------------------------------------------------------------------------------------------------------------
                                                                           Adds
                Location                 -----------------------------------------------------------------------
                                             2004        2005        2006        2007        2008        2009
----------------------------------------------------------------------------------------------------------------
Bahrain.................................           3           3           3           3           3           3
Birmingham, AL..........................          12          12          12          12          12          12
Camp Smith, HI..........................          79          79          79          79          79          79
Coronado, CA............................          17          17          17          17         153         153
Ft. Benning, GA.........................          14          14          14          14          14          14
Ft. Bragg, NC...........................         439       1,369       1,369       1,369       1,369       1,369
Ft. Campbell, KY........................         845         845         845         845         845         845
Ft. Carson, CO..........................          12          12          12          12          12          12
Ft. Lewis, WA...........................          25          25          25          25          25          25
Hunter AAF, GA..........................          13          13          13          13          13          13
Hurlburt Field, FL......................          27          37          56         349         533         579
Little Creek, VA........................          10          10         146         146         146         146
MacDill AFB, FL.........................         265         293         320         320         320         320
Nagshead, VA............................         198         198         198         198         198         198
Salt Lake City, UT......................          12          12          12          12          12          12
Stuttgart, GE...........................          79          89          89          89          89          89
                                         -----------------------------------------------------------------------
  Grand total...........................       2,050       3,028       3,210       3,503       3,823      3,869
----------------------------------------------------------------------------------------------------------------


    8. Senator Dole. General Brown, what resources will you need to 
support these increases?
    General Brown. The Department has already resourced our personnel 
shortfalls during the Fiscal Year Defense Program build.

    9. Senator Dole. General Brown, does your budget include what you 
need for this purpose?
    General Brown. Yes, it has been included in our submission to 
Congress.

    [Whereupon, at 11:11 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
